<html>
<title> - THE ADMINISTRATION'S MISSILE DEFENSE PROGRAM AND THE ABM TREATY</title>
<body><pre>[Senate Hearing 107-110]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-110

     THE ADMINISTRATION'S MISSILE DEFENSE PROGRAM AND THE ABM TREATY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 24, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
74-505                     WASHINGTON : 2001

                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia, prepared 
  statement......................................................    36
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     5
    Interim Russian-American Nuclear Security Advisory Council 
      [RANSAC] Report............................................    47
    Summary of FY 2002 Budget Requests--Selected Defense Nuclear 
      Nonproliferation Programs..................................    49
    Director Operational Test and Evaluation Report in Support of 
      National Missile Defense Deployment Readiness Review--10 
      August 2000................................................    66
    Responses of Hon. John R. Bolton to additional questions for 
      the record.................................................   167
Bolton, Hon. John R., Under Secretary of State for Arms Control 
  and International Security, Department of State, Washington, DC    11
    Prepared statement...........................................    14
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    69
Enzi, Hon. Michael B., U.S. Senator from Wyoming, prepared 
  statement......................................................    71
    Response of Hon. John R. Bolton to an additional question for 
      the record.................................................   168
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    70
Feith, Hon. Douglas J., Under Secretary of Defense for Policy, 
  Department of Defense, Washington, DC..........................    16
    Prepared statement...........................................    17
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................    10
Kadish, Lt. Gen. Ronald T., Director, Ballistic Missile Defense 
  Organization, Department of Defense, Washington, DC............    23
Quotes Supportive of U.S. Missile Defense Plans, submitted by 
  Senator Chuck Hagel............................................    39

                           Afternoon Session

Cornwall, Dr. John M., professor of physics, University of 
  California Los Angeles and professor of Science and Policy 
  Analysis, RAND Corporation Graduate School, Los Angeles, CA....    72
    Prepared statement...........................................    76
Cutler, Hon. Lloyd N., senior counsel, Wilmer, Cutler & 
  Pickering, Washington, DC......................................    92
    Prepared statement...........................................    94
Perry, Hon. William J., Berberian professor and senior fellow, 
  Institute for International Studies, Stanford University, 
  Stanford, CA...................................................    85
    Prepared statement...........................................    88
Rhinelander, Hon. John B., senior counsel, Shaw Pittman, 
  Washington, DC.................................................   134
    Prepared statement...........................................   139
Smith, Hon. David J., President, Global Horizons, Inc., 
  Washington, DC.................................................   111
    Prepared statement...........................................   116
Schneider, Hon. William, Jr., chairman, Defense Science Board, 
  adjunct fellow, Hudson Institute, Washington, DC...............   164
Turner, Dr. Robert F., associate director, Center for National 
  Security, University of Virginia School of Law, 
  Charlottesville, VA............................................   143
    Prepared statement...........................................   148
Woolsey, Hon. R. James, partner, Shea & Gardner, Washington, DC..   104
    Prepared statement...........................................   108

                                 (iii)

  

 
    THE ADMINISTRATION'S MISSILE DEFENSE PROGRAM AND THE ABM TREATY

                              ----------                              


                         TUESDAY, JULY 24, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Boxer, 
Torricelli, Bill Nelson, Helms, Gordon Smith, Hagel, Chafee, 
and Allen.
    The Chairman. The committee will come to order. Mr. 
Chairman, I have a slightly longer than usual opening 
statement, but before I begin I just want you to know, as I 
told you in the elevator, gentlemen, they say that imitation is 
the sincerest form of flattery, and for years the chairman, 
Senator Helms, has been referred to by the liberal press as Dr. 
No.
    I want you to know, Mr. Chairman, today in the lead 
editorial of the Wall Street Journal I have made it. Biden is 
Dr. No. It took me less than a month, and I just wanted you to 
know I am flattered to be in your company, for different 
reasons I might add, but flattered to be in your company.
    Today, the Senate Foreign Relations Committee begins a 
series of hearings in which we plan on examining the threats 
and perils to our national security, and how we can best 
respond to them. I am putting up a chart here from the Defense 
Department--it is about a year old--that indicates the threats 
that we face, the likelihood of facing them, and the impact of 
the threat were it to come to fruition.
    These threats include strategic missile attack, a rogue 
state missile attack with a weapon of mass destruction, 
information operations--information warfare attacks going after 
our entire information system, our computers, et cetera--
terrorist attacks abroad, regional conflicts, peacekeeping 
operations, the war on drugs, and humanitarian crises. We need 
to know not only how we can best respond to these threats, but 
what should be our priority in responding to them as a Congress 
and as a Nation.
    We begin today by examining one of these threats, an attack 
by an ICBM missile, a threat that, as you know, the Pentagon 
says is the least probable to occur, although if it occurs 
would be, obviously, devastating.
    First, let us state the Bush administration rationale as to 
why this threat should get the highest priority and the most 
money by a factor of 10 or 12 or 15, whatever it turns out to 
be.
    One, the Bush administration argues the world has changed, 
that it is time to jettison the immoral doctrine of mutual 
assured destruction. Two, that deterrence does not work, 
particularly against rogue states, for we know that leaders in 
countries like Iran, Iraq, and North Korea would go ahead and 
use such a weapon if it suited them, notwithstanding the fact 
they knew they would be immediately destroyed by retaliatory 
attack by the United States.
    Third, that America is immediately vulnerable, because 
rogue nations, i.e., one rogue nation in particular, will soon 
have the capability, having developed a long-range ICBM and the 
ability to tip it with a biological, chemical, or even, 
theoretically, a nuclear weapon, to strike the United States. 
And fourth, therefore, even though no reasonable prospect of 
any system in the near future can guarantee our defense against 
such an attack, the Bush administration would have us move 
forward with tests that, and I am going to ask you about this 
today, may require us to walk away from the ABM Treaty and 
perhaps start a new arms race.
    There are some basic questions. What are we proposing to 
do? Why are we doing it? Why are we proposing to do it? Will 
what we propose to do violate the ABM Treaty and when? What 
makes such an action worth the possible downside of sparking a 
massive new arms race by walking away from a treaty that has 
kept the peace for 30 years, and what is the new strategic 
framework the President is proposing to replace the old 
strategic framework? And does that new framework envision 
amending the ABM Treaty or abandoning and replacing the ABM 
Treaty? What is the administration's missile defense plan?
    The idea of missile defense is not new. We have tried to 
develop this since the 1950's. President Bush wants to develop 
a missile defense to accomplish the following objectives, 
according to what he has said:
    No. 1, defend U.S. territory from a limited long-range 
ballistic missile attack by a rogue state.
    No. 2, defend our allies and U.S. forces deployed abroad; 
and
    No. 3, defend the United States from an accidental launch 
of even the most sophisticated Russian intercontinental 
ballistic missile.
    These are all ambitious and worthwhile goals, but as the 
witnesses will tell us, they require three different 
architectures and vastly different amounts of money to develop 
them, somewhere between $60 to $100 billion, and perhaps even 
up to half a trillion or more, depending on which system we are 
going to develop.
    President Bush's broad outline leaves intact the concept of 
mutual assured destruction, or MAD, that is retaliatory 
deterrence, as our primary defense against nuclear attack. I am 
glad to see that one of our witnesses today, Under Secretary of 
State John Bolton, has acknowledged this in his testimony. It 
is the point I have been making for months to those who have 
asserted that the President's missile defense program will move 
us beyond MAD. It does no such thing.
    Each of the President's directives requires very different 
systems. Each will likely pose unique political, legal, and 
technological hurdles, and before spending the taxpayer's money 
to conduct tests that will require us to walk away from the ABM 
Treaty, we must know exactly what the administration has 
planned.
    In two hearings before the Armed Services Committee earlier 
this month, Deputy Secretary of Defense Paul Wolfowitz and Lt. 
Gen. Ronald Kadish, who is here with us today, and is the 
Director of the Ballistic Missile Defense Organization, were 
not able, or possibly unwilling, to provide any details on how 
the administration intends to spend the $8 billion requested 
for missile defense and whether or not spending that money will 
drive us out of the ABM Treaty within a matter of months.
    Secretary Wolfowitz said, ``we have not yet chosen the 
systems architecture to deploy.'' General Kadish has been 
commendably blunt in his testimony, pointing out the 
administration's missile defense program does not define the 
specific architecture yet. It does not commit to procurement 
programs for a full layered defense. There is no commitment to 
specific dates for production and deployment, other than for 
lower tier terminal defense elements.
    General, I hope you continue to be blunt with us today. I 
hope you will also help us get a better handle on the 
commitments the administration can make. Perhaps the 
administration does not know what its missile defense program 
will look like. It has also been unable to answer a very simple 
but critical question: When will it violate the Anti-Ballistic 
Missile Treaty?
    I find it amazing that we are about to undertake a testing 
program that will potentially put us up against the ABM Treaty 
constraints within a matter of months, and we do not know 
whether or not those tests, which are planned within the next 
couple of months, will actually violate the ABM Treaty.
    General, I hope you will continue, as I said, to be blunt. 
Secretary Powell has said we need an understanding, an 
agreement, a treaty, something with the Russians that allows us 
to move forward with our missile defense program, but he has 
not given us any indication of what would be agreed to, how 
long it may take to reach an agreement, or when the talks may 
begin.
    Now, I understand from today's press reports on the meeting 
in Genoa that the President has indicated that Dr. Condoleeza 
Rice will be going to Russia to begin just such talks. Yet the 
question remains, and it was a subject of several editorials 
today, if in the meantime, while those discussions are taking 
place, will President Bush continue to move forward with 
testing plans that will move us up against and/or cause us to 
break out of the ABM Treaty before those negotiations are 
complete?
    Secretary Wolfowitz tried to answer these questions in his 
testimony before the Senate Armed Services Committee. In his 
testimony he said, ``our program, must at some point, and 
increasingly over time, encounter the restraints imposed by the 
ABM Treaty.'' He initially objected to Senator Levin's 
assertion that the administration had informed the world that 
the program, ``would likely conflict with the ABM Treaty in a 
matter of months, not years.'' Secretary Wolfowitz said the 
administration's plans would only, ``bump up against,'' our 
obligations under the treaty.
    Presented with a copy of the administration's own press 
release on the issue, which clearly refers to the pending 
conflict with the ABM Treaty, Secretary Wolfowitz conceded that 
conflict was possible, but denied the administration had made 
any determination that its program would violate the ABM 
Treaty.
    My question is, how can the administration not know whether 
the test it obviously has to have planned by now, if it is 
going to occur in the next couple of months, has the 
probability of violating the ABM Treaty?
    Frankly, I marvel at the audacity of a request for $8 
billion to conduct unspecified research and development on 
programs which may or may not violate the treaty, from which 
the administration may or may not withdraw within 6 months 
before an unspecified date, but sometime soon assuming, of 
course, that one believes the ABM Treaty is in force in the 
first place, which is another question which the administration 
seems reluctant to give us a firm answer on. It is like the 
song from West Side Story, `Sometime, Somewhere, Somehow.''
    In short, we need an answer to the basic question, what is 
the administration proposing to do? It is one thing for the 
President to, as he is constitutionally permitted after 
consultation with us, to walk away from a 30-year-old treaty. 
It is quite another thing to ask us to appropriate $8 billion, 
which may be the very money used to fund tests which may be the 
very tests that cause us to break out of the ABM Treaty.
    The threat has variously been described as a crude missile 
threat by a rogue state. We do not know what we are doing on 
missile defense. It is understandable how it is hard to say why 
we are doing it. The administration has tried valiantly to lay 
out a number of threats for the American people to consider. 
The approach seems to be to throw out any number of menaces, 
all of which are potentially real, and hope that at least one 
will prove persuasive.
    The threat has variously been described as a crude missile 
threat from North Korea, Iraq, or Iran, the risk of an 
accidental launch of a sophisticated Russian ICBM, or of the 
danger posed by missiles which might menace U.S. forces 
deployed on the Korean Peninsula, or some other hot spot around 
the world.
    It seems to me that answering the ``why'' question on 
missile defense requires a discussion not only of the threats, 
but how real they are, how damaging to U.S. interests they are, 
how immediate they are, and also the alternatives available to 
meet those threats. Are we doing all we can to safeguard loose 
nukes and other weapons of mass destruction in the former 
Soviet Union? Are we funding our cooperative threat reduction 
programs with Russia adequately so that rogue nations and/or 
terrorists do not acquire the actual weapons or the expertise 
to build these weapons through Russian scientists to pose these 
threats to us? Have we seriously explored a diplomatic solution 
to North Korea's development of and export of long-range 
missiles?
    For if there were no immediate possibility of North Korea 
having the capacity to launch a long-range missile to strike 
the United States, there would be no need to initiate a test 
program that in the minds of some experts is of questionable 
utility and costs billions of dollars.
    At the end of the day, will the administration's missile 
defense program make us more or less secure? That seems to me 
to be the operative question. Will the benefits outweigh the 
costs?
    The global response to any U.S. missile defense plan will 
depend on how well we lay the necessary diplomatic groundwork. 
Will our European allies support our initiative, and if so, at 
what cost? For the moment, most are deeply skeptical, and 
strongly oppose any initiative which would jettison the 
existing arms control framework.
    Can we negotiate modifications of the ABM Treaty or side 
agreements with the Russians to accommodate our missile defense 
plan? The President, certainly, as I said, is within his power 
to withdraw from the ABM Treaty after consultation, but I do 
not want to be complicit in that without knowing what we are 
doing exactly. The Senate, which ratified the ABM Treaty, must 
be consulted prior to any decision to withdraw, and that means 
not just informed, but consulted, and be clearly told what will 
replace the treaty that could make this country more secure 
than we are now.
    Can China be convinced not to expand its nuclear arsenal 
from 18 intercontinental ballistic missiles to 180 or more? 
This is crucial to avoid an arms race in Asia that could even 
lead some of our allies to potentially go nuclear. Does anyone 
doubt that, if we abandon the ABM Treaty, whatever 
modernization programs China planned, they will do more, and 
that India will respond in kind, and Pakistan will respond to 
India. How long will it be before a new generation of Japanese 
leaders, sitting there faced with an Asia with new 
sophisticated nuclear weapons, maybe say the nuclear umbrella 
that the United States is providing is not sufficient.
    One of the things the greatest generation in the world did, 
in my view, is provide us with a world where Germany and Japan 
were not nuclear States.
    So we come back to the question, what does the 
administration really propose doing? Why are they doing it? 
Will what they propose to do violate the ABM Treaty, and when, 
and are these proposals worth the downside risks and the costs?
    It seems to me we have to get some answers to these 
questions. The Congress and the American people have a right to 
know what is actually being proposed, and whether the actions 
taken by the administration will make our people more or less 
secure.
    [The prepared statement of Senator Biden follows:]

            Prepared Statement of Hon. Joseph R. Biden, Jr.

             NATIONAL MISSILE DEFENSE: WHERE ARE WE GOING?

    Today, the Senate Foreign Relations Committee begins a series of 
hearings examining threats to our national security and how we can best 
respond to them. These threats include:

  <bullet> Strategic Missile Attack

  <bullet> Rogue Missile/WMD Attack

  <bullet> INFO OPS/INFO War Attacks

  <bullet> Terrorist Attacks Abroad

  <bullet> Regional Conflicts

  <bullet> Peacekeeping Operations

  <bullet> War on Drugs

  <bullet> Humanitarian Crises

    And not only how we can best respond to them. But what should be 
our priority.
    We begin today by examining one of those threats, attack by ICBM, a 
threat that the Pentagon says has the least probability of occurrence.
    Today's hearing examines the administration's proposed response to 
this threat.
    First let's state the Bush rationale for why this threat should get 
the highest priority.

          1. The world has changed.

          2. Deterrence doesn't work.

          3. America is immediately vulnerable because rogue nations 
        will soon have the capability to strike with ICBM's with 
        biological and chemical weapons.

          4. Therefore even though no reasonable prospect for a system 
        to guarantee defense, the Bush administration would have us 
        move forward with tests that would require us to walk away from 
        the ABM Treaty and start a new arms race.

    Some basic questions:

  <bullet> What are you proposing to do?

  <bullet> Why are you doing it?

  <bullet> Will what you propose violate the ABM Treaty?

  <bullet> What makes such action worth the downside risk of sparking a 
        massive new nuclear arms race by walking away from a treaty 
        that has helped keep the peace for thirty years?

  <bullet> What is the new strategic framework the President is 
        proposing that replaces the old one of ABM and arms control?

  <bullet> What is the administration's missile defense plan?

    The idea of missile defense is not new. We've tried to develop this 
since the 1950's.
    President Bush wants to develop missile defenses to accomplish the 
following objectives:

  <bullet> Defend U.S. territory from limited long-range ballistic 
        missile attacks by ``rogue states;''

  <bullet> Defend our allies and U.S. forces deployed abroad; and

  <bullet> Defend the U.S. from an accidental launch of even a 
        sophisticated Russian intercontinental ballistic missile.

    These are ambitious goals requiring three different architectures 
and vastly different amounts of money--from $100 billion to half a 
trillion dollars.
    President Bush's broad outline leaves intact the concepts of 
mutually assured destruction (MAD) and retaliatory deterrence as our 
primary defense against nuclear attack.
    I am glad to see that one of our witnesses today, Under Secretary 
of State John Bolton, has acknowledged this in his testimony--it is a 
point I have been making for months to those who have asserted that the 
President's missile defense program will move us ``beyond MAD.''
    Each of the President's objectives requires very different 
defensive systems. Each will likely pose unique political, legal, and 
technological hurdles.
    Before spending the taxpayers' money to conduct tests that would 
require us to walk away from the ABM Treaty, we must know what exactly 
the administration has planned.
    In two hearings before the Senate Armed Services Committee earlier 
this month, Deputy Secretary of Defense Paul Wolfowitz and Lieutenant 
General Ronald Kadish, Director of the Ballistic Missile Defense 
Organization, were not able, or were unwilling, to provide many details 
on how the administration intends to spend the $8 billion requested for 
missile defense.
    Secretary Wolfowitz said, ``We have not yet chosen the system 
architecture to deploy.''
    General Kadish was commendably blunt in his testimony, pointing out 
that the administration's missile defense program, ``. . . does not 
define the specific architecture yet. It does not commit to a 
procurement program for a full, layered defense. There is no commitment 
to specific dates for production and deployment, other than for lower-
tier terminal defense elements.''
    General, I hope you will continue to be blunt with us today. I hope 
you will also help us get a better handle on what commitments the 
administration can make.
    Perhaps because the administration doesn't know what its missile 
defense program will look like, it has also been unable to answer a 
very simple, but very critical, question: When will it violate the 
Anti-Ballistic Missile Treaty?
    Secretary of State Powell has said, ``We need an understanding, an 
agreement, a treaty, something with the Russians that allows us to move 
forward with our missile defense programs.'' [emphasis added].
    But President Bush now says, ``I have told President Putin that 
time matters; that I want to reach an accord sooner, rather than later 
. . . I would rather others come with us, but I feel so strongly and 
passionately on the subject about how to keep the peace in the 21st 
century that we'll move beyond if need be.''
    Secretary Wolfowitz tried to answer the ``when'' question in his 
testimony before the Armed Services Committee. In his prepared 
testimony he said, ``it [our program] must at some point, and 
increasingly over time, encounter the constraints imposed by the ABM 
Treaty.'' [emphasis added].
    He initially objected to Senator Levin's assertion that the 
administration had informed the world that its program would likely 
``conflict'' with the ABM Treaty in a matter of months, not years. 
Secretary Wolfowitz said the administration's plans would only ``bump 
up against'' our obligations under the treaty.
    Presented with a copy of the administration's own press release on 
the issue, which clearly refers to a pending ``conflict'' with the ABM 
Treaty, Secretary Wolfowitz conceded that conflict was possible, but 
denied the administration had made any determination that its programs 
would violate the ABM Treaty. How can the administration not know 
whether the tests it has planned within the next few months would 
violate the ABM Treaty?
    Frankly, I marvel at the audacity of a request for $8 billion to 
conduct unspecified research and development on programs which may or 
may not violate a treaty from which the administration may or may not 
withdraw six months before an unspecified date--but sometime soon--
assuming, of course, that one believes the ABM Treaty is in force in 
the first place, which is another question to which the administration 
seems reluctant to give a straight answer.
    It's like the song from West Side Story--``Sometime, Somewhere, 
Somehow!''
    In short, we need an answer to the basic question, what is the 
administration proposing to do? It is one thing for the President to 
walk away from a 30-year-old treaty without knowing what strategic 
framework will replace it. It is quite another to ask Congress to be 
complicit by approving $8 billion for unclear objectives.
    The second basic question is, why is the administration spending 
this additional $8 billion?
    Without knowing what we are doing on missile defense, it is 
understandably hard to say why we are doing it. The administration has 
tried valiantly to lay out a number of threats for the American people 
to consider. The approach appears to be to throw out any number of 
menaces and hope that at least one will prove persuasive.
    The threat has variously been described as a crude ``rogue missile 
threat'' from North Korea, Iraq, or Iran, the risk of an accidental 
launch of a sophisticated Russian ICBM, or the danger posed by missiles 
which might menace U.S. forces deployed on the Korean Peninsula or to 
some other hotspot around the world.
    It seems to me that answering the ``why'' question requires a 
discussion not only of the threats--how real are they, how damaging to 
U.S. interests, how immediate--but also the alternatives available to 
us to meet the threats.
    Are we doing all we can to safeguard ``loose nukes'' and other 
weapons of mass destruction in the former Soviet Union? Are we funding 
our cooperative threat reduction programs with Russia adequately so 
that rogue nations or terrorists do not acquire actual weapons or 
expertise from Russian scientists?
    Have we seriously explored a diplomatic solution to end North 
Korea's development and export of long-range missiles, for if there 
were no immediate possibility of North Korea developing a true ICBM 
based on their Nodong missile, there would be no need to initiate a 
test scenario of questionable utility and great cost.
    I think all our nonproliferation programs are vital to meeting the 
real threats that are out there today or on the horizon. Threats that 
the Joint Chiefs of Staff have said are more likely than an attack by a 
long-range ballistic missile! I worry that funds devoted to missile 
defense, or the recent tax cut, are hurting our ability to meet these 
more current and realistic threats. And I worry that a narrow-minded 
pursuit of missile defense, without having any notion of what missile 
defense to develop could derail both our programs in Russia, as well as 
our negotiations with North Korea.
    Is what the administration appears to be proposing worth the 
downside risks?
    At the end of the day, will the administration's missile defense 
program make us more, or less, secure? Will the benefits outweigh the 
costs?
    The global response to any U.S. missile defense plan will depend on 
how well we lay the necessary diplomatic groundwork. Will our European 
and Asian allies support our initiative? For the moment, most are 
deeply skeptical, and strongly oppose any initiative which would 
jettison the existing arms control framework.
    Can we negotiate modifications to the ABM Treaty or side agreements 
with Russia to accommodate our missile defense plans? The President is 
certainly within his power to withdraw from the ABM Treaty, but I do 
not want to be complicit in that.
    The Senate, which ratified the ABM Treaty, must be consulted prior 
to any decision to withdraw, and be clearly told what will replace the 
treaty that could make this country more secure in the future.
    Can China be convinced not to expand its nuclear arsenal from 18 
intercontinental ballistic missiles to 180 missiles, or more? That is 
crucial to avoiding an arms race in Asia that could even lead some of 
our allies to go nuclear.
    So we come back to our basic questions:

  <bullet> What are you proposing to do?

  <bullet> Why are you doing it?

  <bullet> Will what you propose violate the ABM Treaty?

  <bullet> What makes such action worth the downside risk of sparking a 
        massive new nuclear arms race by walking away from a treaty 
        that has helped keep the peace for thirty years?

  <bullet> What is the new strategic framework the President is 
        proposing that replaces the old one of ABM and arms control?

    We must get some answers to these questions.
    The Congress and the American people have a right to know what is 
really being proposed, and whether actions taken by this administration 
will make our people more or less secure?

    The Chairman. And now I would yield to the Senator from 
North Carolina.
    Senator Helms. Mr. Chairman, I thank you. I scarcely know 
where to begin. In the first place, the ABM Treaty, in the 
opinion of a lot of us, is nonexistent. I pleaded with the 
former President of the United States in writing and in person 
to send the treaty up to us if he had any doubt about that. He 
never did.
    Now, only the Soviet Union and the United States--and the 
Soviet Union does not exist today, so my position on that, I 
will say to the chairman respectfully, and he is my friend, the 
treaty does not exist. As for much of the other situation that 
he described, I asked for and received a briefing 
confidentially on the ABM, and on missile defense, and I cannot 
discuss that, but I wish that the distinguished chairman had 
been able to be there.
    Now then, Mr. Chairman, I was hopeful that we might have 
met the administration's request to delay this hearing for a 
few days, given the fact that the President is still overseas 
working on foreign policy matters, and he has sent his National 
Security Advisor to Moscow to consult with Russian leaders 
regarding U.S. plans for a missile defense system, which 
obviously is the subject of today's hearing.
    Now, that said, missile defense is in my judgment the most 
important security issue facing this country today. Ten days 
ago, a very successful missile test proved that missile 
defenses are not a dream, that Ronald Reagan was not foolish, 
but clearly it is the basis for the future security of this 
country one way or another. That is going to be demonstrated, I 
suspect, even to the distinguished chairman, but it has not 
been to date, obviously.
    It is necessary for the United States to dispense with the 
1972 Anti-Ballistic Missile Treaty in order to proceed, I 
suppose, with the deploying of a missile defense system, and 
there are compelling reasons for doing so. The cold war is 
over, and it is long overdue for both the United States and 
Russia to stop clinging to anachronistic strategies like 
mutually assured destruction, with its deliberate vulnerability 
to missile attack. The ABM Treaty was a part of that now-
outdated and dangerous strategy, and we must now turn away from 
what used to be and look at the world for what it is now.
    The truth is, the United States for nearly a decade has 
been extending a hand of friendship to Russia. We want nothing 
more than to see Russia become a democratically governed 
country with a strong free market economy, and while Russia's 
Government is still autocratic and undemocratic, and its war on 
the Chechnyan people is an abomination, nevertheless the world 
is now a long way from the days when the Soviet Union wrapped 
its tentacles virtually around this world.
    Now, there is no reason today for the Russians to insist on 
maintaining an ability to launch nuclear missiles at undefended 
cities in the United States of America. Russian generals who 
mistakenly rail against U.S. missile defense plans on the 
grounds that such a system will jeopardize the credibility of 
Russia's offensive nuclear deterrent are like the ABM Treaty 
itself, relics of a bygone era.
    Moscow must update its strategic thinking to reflect the 
fact that there is today a far different relationship with 
Russia than the United States has ever had before with the 
Soviet Union. Indeed, if Russia is willing to acquiesce in the 
deployment of missile defenses, there may be an unprecedented 
opportunity for both the United States and Russia to make 
significant reductions in our respective nuclear arsenals.
    Adding missile defenses to the strategic equation will 
enable the Bush administration to achieve substantial 
flexibility in shaping a smaller, more modern nuclear force, 
and another obvious justification for moving beyond the ABM is 
the very clear technological feasibility of deploying a 
national missile defense.
    Everybody, or somebody, or many people pooh-poohed Ronald 
Reagan time and time again, but Ronald Reagan stands proven 
today by the events of recent days. In 1972, such a defense was 
admittedly little more than theoretical. However, since that 
time the technology for shooting down incoming warheads has 
matured, and after countless successful tests, including the 
one a few days ago, there is no longer any question about the 
missile defense being workable, so Ronald Reagan's dream of a 
global missile shield is now within our reach, and I am among 
those looking forward to the time when every nation 
acknowledges that ballistic missiles are crude and ineffectual 
relics of the past, and the day is finally arriving when the 
American people will no longer be threatened by nuclear or 
biological missile attack.
    Yes, it is true that hostile regimes in North Korea, Iran, 
Iraq, Libya and Syria have been on weapons-buying sprees, and 
you know whom they are purchasing them from. That is another 
story. In addition to missiles, these regimes are working on 
deadly chemical, biological or nuclear warheads, but you do not 
hear much about that. Secretary of Defense Donald Rumsfeld 
warned about this as far back as 1997.
    In addition to the threat from Russia and China, the United 
States may very well soon face a hostile tyrant wielding an 
intercontinental range missile. North Korea's test of the Tapoe 
Dong-1 missile, and Iran's progress on the Shahab-3 missile, 
both suggest that such a time may be close at hand, therefore, 
the third reason for deploying a national missile defense is 
because we no longer live in a world with just two nuclear 
powers. Rather, we are living in a world of rapidly 
proliferating missile and warhead technologies.
    So in this multi-nuclear world, when leaders such as Saddam 
Hussein seek the ability to blackmail the United States, the 
concept of deliberate vulnerability which we have today is far 
worse than reckless. It is an open invitation to nations to 
obtain ballistic missiles to exploit the failure of the United 
States to defend the American people, and that, I think, is why 
we must develop missile defenses, because that, Mr. Chairman, 
in my judgment will make North Korea and Iranian ballistic 
missiles a waste of time and money for them, and Russia need 
have no fear of being left behind, because the administration 
has offered publicly to cooperate on a defense system that is 
global, truly and undeniably, in its coverage.
    We have offered Russia early warning information, pre-
launch and post-launch notification regimes, and a joint 
satellite program. Most importantly, President Bush has offered 
to consult closely with President Putin on every aspect of this 
issue. These are not arms control negotiations between 
adversaries. These are intended to be consultations between 
countries that are working diligently on better relations. 
These overtures show clearly that the United States is serious 
about working with Russia if Russia will work with us.
    Mr. Chairman, I thank you very much.
    [The prepared statement of Senator Helms follows:]

                 Prepared Statement of Hon. Jesse Helms

    Mr. Chairman, I was hopeful that we might have met the 
administration's request to delay this hearing for a few days, given 
that the President is still overseas working on important foreign 
policy matters, and has sent his National Security Advisor to Moscow to 
consult with Russian officials regarding U.S. plans for a missile 
defense system the subject of today's hearing.
    That said, missile defense, is in my judgment, the most important 
security issue facing our country today. Ten days ago a very successful 
missile test again proved that missile defenses are not a dream, but 
clearly the basis for the future security of America.
    It is, however, necessary, for the United States to dispense with 
the 1972 Anti-Ballistic Missile Treaty in order to proceed with the 
deploying a missile defense system. There are compelling reasons for 
doing so:
    The Cold War is over. It is long overdue for both the United States 
and Russia to stop clinging to anachronistic strategies like 
``mutually-assured destruction,'' with its deliberate vulnerability to 
missile attack. The ABM Treaty was a part of that now outdated and 
dangerous strategy. We must now turn away from what ``used to be'' and 
look at the world as it is now.
    The truth is, the United States, for nearly a decade, has been 
extending a hand of friendship to Russia. We want nothing more than to 
see Russia become a democratically-governed country with a strong, free 
market economy. While Russia's government is still autocratic and 
undemocratic, and its war on the Chechen people is an abomination, 
nevertheless the world is now a long way from the days when the Soviet 
Union wrapped its tentacles virtually around the globe.
    There is no reason today for the Russians to insist on maintaining 
an ability to launch nuclear missiles at undefended American cities. 
Russian generals who mistakenly rail against U.S. missile defense plans 
on the grounds that such a system will jeopardize the ``credibility'' 
of Russia's offensive nuclear deterrent are--like the ABM Treaty 
itself--relics of a bygone era. Moscow must update its strategic 
thinking to reflect the fact that there is, today, a far different 
relationship with Russia than the U.S. ever had with the Soviet Union.
    Indeed, if Russia is willing to acquiesce in the deployment of 
missile defenses, there may be an unprecedented opportunity for both 
the United States and Russia to make significant reductions in their 
nuclear arsenals. Adding missile defenses to the strategic equation 
will enable the Bush administration to achieve substantial flexibility 
in shaping a smaller, more modern nuclear force.
    Another obvious justification for moving beyond the ABM Treaty is 
the very clear technological feasibility of deploying a national 
missile defense. In 1972, such a defense was little more than 
theoretical. However, since that time, the technology for shooting down 
incoming warheads has matured. After countless, successful tests--
including the one ten days ago--there no longer is any question about 
missile defense being workable.
    So, Ronald Reagan's dream of a global missile shield is now within 
our reach, and I am among those looking forward to the time when every 
nation acknowledges that ballistic missiles are crude and ineffectual 
relics of the past.
    The day is finally arriving when the American people will no longer 
be threatened by nuclear or biological missile attack.
    Yes, it is true that hostile regimes in North Korea, Iran, Iraq, 
Libya and Syria have been on weapons-buying sprees. In addition to 
missiles, these regimes are working on deadly chemical, biological, or 
nuclear warheads. Secretary of Defense Donald Rumsfeld warned about 
this in 1997. In addition to the threat from Russia and China, the 
United States may soon face a hostile tyrant wielding an 
intercontinental range missile. North Korea's test of the Taepo Dong 1 
missile, and Iran's progress on the Shahab-3 missile, both suggest that 
such a time may be close at hand.
    Therefore, the third reason for deploying a national missile 
defense is because we no longer live in a world with just two nuclear 
powers. Rather, we are living in a world of rapidly proliferating 
missile and warhead technologies.
    So, in this ``multi-nuclear'' world, when leaders such as Saddam 
Hussein seek the ability to blackmail the United States, the concept of 
deliberate vulnerability--which we have today--is far worse than 
reckless. It is an open invitation to nations to obtain ballistic 
missiles to exploit the failure of the United States to defend the 
American people. That is why we must develop missile defenses--because 
that, Mr. Chairman, will make North Korean and Iranian ballistic 
missiles a waste of time and money.
    Russia need have no fear of being left behind, because the 
administration has offered to cooperate on a defense system that is 
truly global in coverage. We have offered Russia early warning 
information, pre-launch and post-launch notification regimes, and a 
joint satellite program. Most importantly, President Bush has offered 
to consult closely with President Putin on every aspect of this issue.
    These are not ``arms control'' negotiations between adversaries. 
These are intended to be consultations between countries who are 
working diligently on better relations. These overtures show clearly 
that the United States is serious about working with Russia, if Russia 
will work with us.

    The Chairman. Thank you very much. In the interest of time 
we will put any opening statement of any witness on the panel 
in the record at this time, if they so choose, and I would 
invite the witnesses to make any statements they wish, starting 
with Secretary Bolton, if you will.

STATEMENT OF HON. JOHN R. BOLTON, UNDER SECRETARY OF STATE FOR 
 ARMS CONTROL AND INTERNATIONAL SECURITY, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Bolton. Thank you, Mr. Chairman, members of the 
committee. It is my pleasure to discuss the administration's 
missile defense plans and the ABM Treaty.
    Today's hearing follows on the heels of the President's 
meeting with President Putin in Genoa. One of President Bush's 
primary objectives in that meeting was to take a further step 
in our efforts to persuade President Putin to join us in 
creating a new strategic framework for dealing with the 
security threats we now face, while moving us toward a 
cooperative relationship with Russia and away from the 
adversarial legacy of the cold war.
    This objective was accomplished. The President has reached 
an understanding that the world has changed, and they would 
immediately begin intensive consultations on missile defenses 
and offensive systems. This interrelationship between offenses 
and defenses is not a new idea, but directly follows from what 
President Bush has been saying. His May 1 speech made clear his 
vision that a new strategic framework would embody a new 
concept of deterrence that included limited defenses and 
reduced reliance on offensive nuclear weapons. We are hopeful 
the intensive consultations that have now been agreed to will 
lead quickly to an agreement on a new strategic framework.
    In the President's view, that framework needs to move 
beyond the ABM Treaty. For sometime, we have been saying there 
are two fundamental problems with this treaty. First, the 
treaty severely limits the kind of development and testing 
needed for the most effective missile defense systems to defend 
the American populace, our troops deployed abroad, and our 
allies from the threats of rogue states and accidental 
launches.
    The treaty, after all, was negotiated with the specific 
intention of severely limiting missile defenses and prohibiting 
homeland defense against long-range ballistic missiles. 
Consequently, we do not believe seeking line-out amendments of 
the treaty to try to get the flexibility to conduct this or 
next year's test program is viable. Rather, we need to accept 
that the treaty is fundamentally in conflict with the 
administration's approach toward the development of missile 
defenses.
    To develop the most effective missile defenses, our 
approach must not prejudge the mix of technical solutions that 
will provide effective defenses for us and our allies. This is 
the approach described by the President in his May 1 speech, 
and has been detailed in recent testimony by Deputy Secretary 
of Defense Wolfowitz and General Kadish before the Senate and 
House Armed Services Committees.
    The second fundamental problem with the ABM Treaty is that 
it is no longer appropriate for the future relationship we want 
with Russia. We need to define a new strategic framework more 
appropriate to great powers that are no longer enemies. The 
cold war is over. We need to move away from the remnants of a 
relationship that was one of ideological conflict and hostility 
with the Soviet Union, where our relations were adversarial, 
and our main concern was to contain the imperial tendencies of 
Communist ideology. We need to escape from the inertia that has 
kept the concept of mutual assured destruction at the center of 
our strategic relationship with Russia. This focus is 
counterproductive and incompatible with the idea of developing 
a more cooperative, constructive relationship.
    We are not talking about doing away with the realities of 
nuclear deterrence against new threats, but recognizing the 
obvious fact that deterrence can be strengthened by a 
combination of offensive and defensive capabilities, and that 
our relationship with Russia should be increasingly defined not 
by deterrence but by cooperation.
    The defenses we seek to deploy would be limited in nature, 
able to intercept handfuls of missiles, not thousands. Our 
defenses would not be able to negate Russia's strategic missile 
capability, even at much lower Russian force levels. We are 
talking about supplementing retaliatory deterrence against 
small threats with effective defenses, and we are talking about 
accelerating the transformation of our security relationship 
with Russia into one in which cold war calculations of 
retaliatory deterrence are increasingly irrelevant to the 
reality of cooperation and partnership.
    Since the end of the cold war, we have made some modest 
changes to our force structure to lower overall numbers, reduce 
alert levels, and adjust our deterrence requirements, but the 
size and character of each side's nuclear forces are still not 
commensurate with the improvements that have taken place in the 
U.S.-Russian political relationship with the end of the cold 
war.
    We are making progress. We are cooperating well with Russia 
in stemming the flow of drugs and terrorism from Afghanistan. 
As Minsk group cochairs the U.S. and Russia are actively 
involved with Azerbaijan and Armenia in finding a solution to 
the problem of Nagorno-Karabak. We welcome Russia's cooperation 
and contributions on these and other issues. They are 
constructive, and tie Russia to the international community, 
and they have led to increased bilateral understanding between 
us.
    We have, however, an even larger set of important relations 
that we should engage in with the Russians. We need to work, 
for example, toward broad economic cooperation, and we need 
better cooperation on security matters of common interest. The 
Russians also face problems if the proliferation of weapons of 
mass destruction and ballistic missile technologies continue in 
countries potentially hostile to Russia. At the National 
Defense University, the President spoke of missile defense as 
one area of potential real opportunities for cooperation.
    Cooperative relationships should also be premised on 
openness, mutual confidence, and the removal of uncertainties. 
Greater transparency and confidence-building measures can help 
address some of the current concerns, for example, over the 
nature and scope of U.S. missile defense programs.
    Moreover, the President has made clear his desire to 
maintain the lowest possible number of nuclear weapons 
consistent with our national security needs, including our 
obligations to our allies. Our nuclear posture review 
continues, with decisions expected later this year, and 
Presidents Bush and Putin jointly recognize the 
interrelationship of offensive forces with issues of defense.
    Thus, the ideas I have discussed could all be elements of a 
new strategic framework with Russia, one that represents a 
clean break from the past, and especially the adversarial 
legacy of the cold war, of which the ABM Treaty is a part. What 
we do not want to do is become bogged down in negotiations that 
could extend indefinitely, formal agreements of hundreds of 
pages that count every warhead and pound of throw weight are 
characteristic of agreements negotiated by distrustful 
adversaries. That is not the kind of relationship we want with 
Russia.
    Our discussions are ongoing. President Bush has now met 
twice with President Putin. Secretary Powell has had six 
meetings this year with Foreign Minister Ivanov, and will meet 
with him again this week in Hanoi, possibly even today. 
Secretary Rumsfeld held productive talks with Defense Minister 
Sergey Ivanov at NATO last month. Condi Rice will be flying to 
Moscow tomorrow to set up the schedule and agenda for the 
intensive ministerial level consultations President Bush and 
President Putin agreed to in Genoa.
    We do not have a precise timetable, but we have made clear 
that the constraints of the ABM Treaty are a problem for us. 
The President has stated that we are going to have to move 
forward. At the moment, our goal is to set in motion high-level 
consultations to see whether we can quickly agree on the 
outlines of a new strategic framework. Our extensive engagement 
with the Russians should make clear that we want to move 
forward cooperatively. We believe these discussions can be 
successful.
    The support of this committee and the Congress for the 
President's fiscal year 2002 missile defense program and the 
need to move beyond the ABM Treaty to establish a new strategic 
framework would make an important contribution to our prospects 
for success. As I noted, however, we need to move forward 
expeditiously.
    In his testimony before the Senate Armed Services Committee 
last Tuesday, Deputy Secretary Wolfowitz stated that the 
Defense Department has established a process that will identify 
treaty issues raised by the administration's missile defense 
program at the earliest possible moment. Specifically, he 
stated that DOD's compliance review group has been directed to 
identify ABM Treaty issues within 10 working days of receiving 
the plans for new development or treaty events.
    We are sure that interagency involvement will help develop 
final administration positions on these questions. Make no 
mistake, however, as Secretary Powell said in his confirmation 
hearing regarding moving forward with our missile defense 
programs, ``the only way we can eventually move forward to that 
goal is to see the ABM Treaty modified, or eliminated, or 
changed in some fundamental way.''
    Our objective is to reach an understanding with Russia by 
the time our development program comes into conflict with the 
provisions of the ABM Treaty. I believe there is increasing 
evidence that Russia is ready to explore cooperative solutions 
and reach agreement on a new strategic framework. The 
administration intends to do its utmost to reach this outcome. 
As the President said Sunday in Genoa, ``I know we will work to 
an accord--to see if we cannot reach an accord about both the 
new strategic framework for defensive weapons, as well as the 
need to reduce offensive weapons in order to make the world 
more peaceful.'' I urge the understanding and support of this 
committee in that effort.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bolton follows:]

               Prepared Statement of Hon. John R. Bolton

    Mr. Chairman, and members of the Committee, it is my pleasure to 
appear before you today to discuss the Administration's missile defense 
plans and the ABM Treaty.
    Today's hearing follows on the heels of the President's meeting 
with President Putin in Genoa. One of President Bush's primary 
objectives in that meeting was to take a further step in our efforts to 
persuade President Putin to join us in creating a new strategic 
framework for dealing with the security threats that we now face, while 
moving us toward a cooperative relationship with Russia and away from 
the adversarial legacy of the Cold War. This objective was 
accomplished. The Presidents reached an understanding that the world 
has changed, and they would immediately begin intensive consultations 
on missile defenses and offensive systems.
    This interrelationship between offenses and defenses is not a new 
idea, but directly follows from what President Bush has been saying. 
His May 1 speech made clear his vision that a new strategic framework 
would embody a new concept of deterrence that included limited defenses 
and reduced reliance on offensive nuclear weapons. We are hopeful that 
the intensive consultations that have now been agreed to will lead 
quickly to agreement on a new strategic framework.
    In the President's view, that framework needs to move beyond the 
ABM Treaty. For some time, we have been saying that there are two 
fundamental problems with this treaty.
    First, the Treaty severely limits the kind of development and 
testing needed for the most effective missile defense systems to defend 
the American populace, our troops deployed abroad, and our Allies from 
the threats of rogue states and accidental launches. The Treaty, after 
all, was negotiated with the specific intention of severely limiting 
missile defenses and prohibiting homeland defense against long-range 
ballistic missiles. Consequently, we do not believe seeking line-in, 
line-out amendments of the Treaty to try to get the flexibility to 
conduct this or next year's test program is viable. Rather, we need to 
accept that the Treaty is fundamentally in conflict with the 
Administration's approach to the development of missile defenses. To 
develop the most effective missile defenses our approach must not 
prejudge the mix of technical solutions that will provide effective 
defenses for us and our allies. This is the approach described by the 
President in his May 1 speech and has been detailed in recent testimony 
by Deputy Secretary of Defense Wolfowitz and General Kadish before the 
Senate and House Armed Services Committees.
    The second fundamental problem with the ABM Treaty is that it is no 
longer appropriate to the future relationship we want with Russia. We 
need to define a new strategic framework more appropriate to great 
powers that are no longer enemies. The Cold War is over. We need to 
move away from the remnants of a relationship that was one of 
ideological conflict and hostility with the Soviet Union, where our 
relations were adversarial, and our main concern was to contain the 
imperial tendencies of communist ideology.
    We need to escape from the inertia that has kept the concept of 
mutual assured destruction as the centerpiece of our strategic 
relationship with Russia. This focus is counterproductive and 
incompatible with the idea of developing a more cooperative, 
constructive relationship.
    We are not talking about doing away with the realities of nuclear 
deterrence against new threats, but of recognizing the obvious fact 
that deterrence can be strengthened by a combination of offensive and 
defensive capabilities, and that our relationship with Russia should be 
increasingly defined not by deterrence but by cooperation. The defenses 
we seek to deploy would be limited in nature, able to intercept 
handfuls of missiles, not thousands. Our defenses would not be able to 
negate Russia's strategic missile capability, even at much lower 
Russian force levels. We are talking about supplementing retaliatory 
deterrence against small threats with effective defenses; and we are 
talking about accelerating the transformation of our security 
relationship with Russia into one in which Cold War calculations of 
retaliatory deterrence are increasingly irrelevant to the reality of 
cooperation and partnership.
    Since the end of the Cold War we have made some modest changes to 
our force structure to lower overall numbers, reduce alert levels, and 
adjust our deterrence requirements, but the size and character of each 
side's nuclear forces are still not commensurate with the improvements 
that have taken place in the U.S.-Russian political relationship with 
the end of the Cold War. We are making progress. We are cooperating 
well with Russia in stemming the flow of drugs and terrorism from 
Afghanistan. As Minsk group co-chairs, the U.S. and Russia are actively 
involved with Azerbaijan and Armenia in finding a solution to the 
problem of Nagorno-Karabakh. We welcome Russia's cooperation and 
contributions on these and other issues; they are constructive, they 
tie Russia to the international community, and they have led to 
increased bilateral understanding between us.
    We have, however, an even larger set of important relations that we 
should engage in with the Russians. We need to work, for example, 
toward broad economic cooperation, and we need better cooperation on 
security matters of common interest. The Russians also face problems if 
the proliferation of weapons of mass destruction and ballistic missiles 
technologies continue in countries potentially hostile to Russia. At 
the National Defense University, the President spoke of missile defense 
as one area of potential real opportunities for cooperation. A 
cooperative relationship should also be premised on openness, mutual 
confidence, and the removal of uncertainties. Greater transparency and 
confidence-building measures can help to address some of the current 
concerns, for example, over the nature and scope of U.S. missile 
defense programs.
    Moreover, the President has made clear his desire to maintain the 
lowest possible number of nuclear weapons consistent with our national 
security needs, including our obligations to our allies. Our nuclear 
posture review continues with decisions expected later this year; and 
Presidents Bush and Putin jointly recognized the interrelationship of 
offensive forces and reductions with issues of defense.
    Thus, the ideas I have discussed could all be elements of a new 
strategic framework with Russia, one that represents a clean break from 
the past, and especially the adversarial legacy of the Cold War of 
which the ABM Treaty is a part. What we don't want to do is become 
bogged down in negotiations that could extend indefinitely. Formal 
agreements of hundreds of pages that count every warhead and pound of 
throw-weight are characteristic of agreements negotiated by distrustful 
adversaries. That is not the kind of relationship we want with Russia.
    Our discussions with Russia are ongoing. President Bush has now met 
twice with President Putin. Secretary Powell has had six meetings this 
year with Foreign Minister Ivanov and will meet with him again this 
week in Hanoi. Secretary Rumsfeld held productive talks with Defense 
Minister Sergey Ivanov at NATO last month. Condi Rice will be flying to 
Moscow tomorrow to set up the schedule and agenda for the intensive 
Ministerial-level consultations Presidents Bush and Putin agreed to in 
Genoa. We do not have a precise timetable, but we have made clear that 
the constraints of the ABM Treaty are a problem for us, and the 
President has stated that we are going to have to move forward. At the 
moment our goal is to set in motion high-level consultations to see 
whether we can quickly agree on the outlines of a new strategic 
framework.
    Our extensive engagement with the Russians should make clear that 
we want to move forward cooperatively. We believe these discussions can 
be successful. The support of this Committee, and the Congress, for the 
President's FY 2002 missile defense program and the need to move beyond 
the ABM Treaty to establish a new strategic framework would make an 
important contribution to our prospects for success.
    As I noted, however, we need to move forward expeditiously. In his 
testimony before the Senate Armed Services Committee last Tuesday, 
Deputy Secretary Wolfowitz stated that the Defense Department had 
established a process that will identify Treaty issues raised by the 
Administration's missile defense program at the earliest possible 
moment. Specifically, he stated that DOD's Compliance Review Group 
(CRG) has been directed to identify ABM Treaty issues within 10 working 
days of receiving the plans for new development or treaty events. We 
are sure that interagency involvement will help develop final 
Administration positions on these questions. Make no mistake, however, 
as Secretary Powell said in his confirmation hearing regarding moving 
forward with our missile defense programs ``. . . the only way we can 
eventually move forward to that goal is to see the ABM Treaty modified 
or eliminated or changed in some fundamental way . . .''.
    Our objective is to reach an understanding with Russia by the time 
our development program comes into conflict with the provisions of the 
ABM Treaty. I believe there is increasing evidence that Russia is ready 
to explore cooperative solutions and reach agreement on a new strategic 
framework. The Administration intends to do its utmost to reach this 
outcome. As the President said Sunday in Genoa, ``I know we'll work to 
an accord--to see if we can't reach an accord about both a new 
strategic framework for defensive weapons as well as the need to reduce 
offensive weapons in order to make the world more peaceful.'' I urge 
the understanding and support of this Committee in that effort.
    Thank you.

    The Chairman. Thank you very much, Mr. Secretary.
    Now, we will hear from Hon. Douglas Feith, Under Secretary 
of Defense for Policy, Department of Defense.

STATEMENT OF HON. DOUGLAS J. FEITH, UNDER SECRETARY OF DEFENSE 
       FOR POLICY, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Feith. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Helms and members of the committee, it is an honor to appear 
before you. The subject of this hearing is important and 
sensitive right now, with the President having just met with 
President Putin and with National Security Advisor Rice on her 
way, as Secretary Bolton has said, to Moscow to help organize 
the dialog that Secretary of State Powell will be conducting 
with the Russian Foreign Minister, Igor Ivanov, and Secretary 
of Defense Rumsfeld will be conducting, with the Russian 
Minister of Defense, Sergey Ivanov.
    As you know, Mr. Chairman, I have been in my position at 
the Defense Department for only 1 week, but I shall do my best 
to answer your questions. I have a written opening statement 
that, with your permission, I will submit for the record.
    The Chairman. Without objection, your entire statement will 
be placed in the record.
    Mr. Feith. I propose to forego an oral opening statement. 
General Kadish, the Director of the Ballistic Missile Defense 
Organization, has a short video that I hope the committee will 
now permit him to show to you and narrate.
    [The prepared statement of Mr. Feith follows:]

              Prepared Statement of Hon. Douglas J. Feith

                              INTRODUCTION

    Mr. Chairman, Members of the Committee, thank you for this 
opportunity to testify on missile defense and the ABM Treaty.
    Imagine, if you will, the following scenario: A rogue state with a 
vastly inferior military, but armed with ballistic missiles and weapons 
of mass destruction, commits an act of aggression against a neighboring 
country. As President Bush sends U.S. forces into theater to respond, 
the country's genocidal dictator threatens our allies and deployed 
forces with ballistic missile attack. Suddenly, almost without warning, 
missiles rain down on our troops, and pound into the densely populated 
residential neighborhoods of allied capitals. Panic breaks out. Sirens 
wail, as rescue crews in protective gear race to search the rubble for 
bodies and rush the injured to hospitals. Reporters, mumbling through 
their gas masks, attempt to describe the destruction, as pictures of 
the carnage are instantaneously broadcast across the world.
    Mr. Chairman, the scene I have described is not science fiction. It 
is not a future conflict scenario dreamed up by creative Pentagon 
planners. It is a description of events that took place ten years ago--
during the Persian Gulf War.
    This year marks the 10th anniversary of the first U.S. combat 
casualties from a ballistic missile attack. In the waning days of 
Desert Storm, a single SCUD missile hit a U.S. military barracks in 
Dhahran, killing 28 of our soldiers and wounding 99. Thirteen of those 
killed came from a single small town in Pennsylvania called Greensburg. 
For American forces, it was the single worst engagement of the Gulf 
War. For thirteen families in Greensburg, it was the single worst day 
of their lives.
    Today, ten years later, it is appropriate to ask how much better 
able are we to meet a threat that was already real and serious ten 
years ago--and has become even more so today? The answer, sadly, is 
hardly any better. Despite this tragic experience, here we are, a 
decade later, still virtually not yet able to defend against ballistic 
missile attacks, even from relatively primitive SCUD ballistic 
missiles.
    Today, our capacity to shoot down a SCUD missile is not much 
improved from 1991. We are still a year or two away from initial 
deployment of the PAC-3--our answer to the SCUD, and an effective one--
and many years from full deployment. Today our forces in the Persian 
Gulf and Korea--and the civilian populations they defend--have almost 
no means of protection against North Korean ballistic missiles armed 
with both chemical and conventional warheads. With no missile defenses, 
an attack by North Korea could result in tens or even hundreds of 
thousands of casualties.
    To those who wonder why so many of the regimes hostile to the 
United States--many of them desperately poor--are investing such 
enormous sums of money to acquire ballistic missiles, I suggest this 
possible answer: They know we don't have any defenses.
    It cannot have escaped their notice that the only weapons that 
really permitted Saddam Hussein to make American forces bleed during 
the Gulf War--the only weapons that allowed him to take the war into 
the territory of his adversaries and murder innocent women and 
children--were ballistic missiles.
    We underestimated the ballistic missile threat ten years ago--and 
today, a decade later, we are underestimating it still.
    Mr. Chairman, the time has come to lift our heads from the sand and 
deal with some unpleasant but indisputable facts: The short-range 
missile threat to our friends, allies, and deployed forces arrived a 
decade ago; the intermediate-range missile threat is now here; and the 
long-range threat to American cities is just over the horizon--a matter 
of years, not decades, away--and our people and territory are 
defenseless.
    Why? The answer has four letters: A-B-M-T.
    For the past decade, our government has not taken seriously the 
challenge of developing defenses against missiles. We have not 
adequately funded it, we have not believed in it, and we have given the 
ABM Treaty priority over it. That is not how America behaves when we 
are serious about a problem. It is not how we put a man on the Moon in 
just 10 years. It is not how we developed the Polaris program or 
intercontinental ballistic missiles in even less time.
    The time to get serious is long past. Today, the number of 
countries pursuing nuclear, chemical and biological weapons is growing. 
The number of countries pursuing advanced conventional weapons is 
growing. The number of countries pursuing ballistic missile technology 
is growing. The number of missiles on the face of the Earth is growing.
    Consider these facts:

  <bullet> In 1972, when the ABM Treaty was signed, the number of 
        countries pursuing biological weapons was unknown; today there 
        are at least thirteen.

  <bullet> In 1972, ten countries had known chemical weapons programs; 
        today there are sixteen (four countries ended theirs, but 10 
        more jumped in to replace them;)

  <bullet> In 1972, we knew of only five countries that had nuclear 
        weapons programs; today we know of twelve;

  <bullet> In 1972, we knew of a total of nine countries that had 
        ballistic missiles; today we know of twenty-eight, and in just 
        the last five years more than 1,000 missiles of all ranges have 
        been produced.

  <bullet> And those are only the cases that we know of. There are 
        dangerous capabilities being developed at this very moment that 
        we do not know about, and which we may not know about for 
        years--perhaps only after they are deployed.

    For example, in 1998 North Korea surprised the world with its 
launch of a Taepo Dong 1 missile over Japan, with a previously unknown 
third stage. The intelligence community tells us this launch 
demonstrated a North Korean capability to deliver a small payload to 
the United States. North Korea is currently developing the Taepo Dong 2 
missile, which will be able to strike even deeper into U.S. territory 
and carry an even larger weapons payload.
    Other unfriendly regimes, like Iran, Syria, and Libya, are also 
developing missiles of increasing range and sophistication. A number of 
these countries are less than five years away from being able to deploy 
such capabilities. And these regimes are collaborating with each other, 
sharing technology and know-how.
    The countries pursuing these capabilities are doing so because they 
believe they will enhance their power and influence; because they 
believe that if they can hold the American people at risk, they can 
prevent us from projecting force to stop acts of aggression, and deter 
us from defending our interests around the world.
    If we do not build defenses against these weapons now, hostile 
powers will soon have--or may already have--the ability to strike U.S. 
and allied cities with nuclear, chemical or biological weapons. They 
will have the power to hold our people hostage to blackmail and terror. 
They may secure, in their estimation, the capability to prevent us from 
forming international coalitions to challenge their acts of aggression 
and force us into a truly isolationist posture. And they would not even 
have to use the weapons in their possession to affect our behavior and 
achieve their ends.
    But we cannot be sure they would not use these weapons in a crisis. 
If Saddam Hussein had the ability to strike a Western capital with a 
nuclear weapon, would he really be deterred by the prospect of a U.S. 
nuclear strike that would kill millions of Iraqis? Is he that concerned 
about his people? And would we really want our only option in such a 
crisis to be destroying Baghdad and its people? A policy of intentional 
vulnerability is not a strategy to deal with the dangers of this new 
century.
    While we have been debating the existence of the threat for nearly 
a decade, other countries have been busily acquiring, developing and 
proliferating missile technology. We can afford to debate the threat no 
longer. We are in a race against time--and we are starting from behind. 
Thanks in no small part to the constraints of the antiquated ABM 
Treaty, we have wasted the better part of a decade. We cannot afford to 
waste another one.

                        DEVELOPMENT AND TESTING

    President Bush has declared his intention to develop and deploy 
defenses capable of protecting the American people, our friends, allies 
and forces around the world from limited ballistic missile attack. The 
2002 amended budget requests $8.3 billion for missile defense.
    We intend to develop defenses, capable of defending against limited 
missile attacks from a rogue state or from an accidental or 
unauthorized launch. We intend to develop layered defenses, capable of 
intercepting missiles of any range at every stage of flight--boost, 
mid-course, and terminal.
    We have designed a program to develop and deploy as soon as is 
appropriate. Developing a proper layered defense will take time. It 
requires more aggressive exploration of key technologies, particularly 
those that have been constrained by the ABM Treaty. So we plan to build 
incrementally, deploying capabilities as the technology is proven 
ready, and then adding new capabilities over time as they become 
mature.
    We have designed the program so that, in an emergency, we might, if 
appropriate, deploy test assets to defend against a rapidly emerging 
threat. This has been done a number of times before with other military 
capabilities, both in the Gulf War and in Kosovo. But barring such an 
emergency, we need to consider the operational deployment of test 
assets very carefully--because such deployments can be disruptive, and 
can set back normal development programs.
    However, we have not yet chosen a systems architecture to deploy. 
We are not in a position to do so because so many promising 
technologies were not pursued in the past. The program we inherited was 
designed not for maximum effectiveness, but to remain within the 
constraints of the ABM Treaty. As a result, development and testing 
programs for defense against long-range threats were limited to ground-
based components--ignoring air, sea and space-based capabilities with 
enormous potential.
    In order to accelerate the program, we must first broaden the 
search for effective technologies before we can move forward toward 
deployment. We must dust off technologies that were shelved, consider 
new ones, and bring them all into the development and testing process.
    To do this, we have designed a flexible and strengthened research, 
development, testing and evaluation program to examine the widest 
possible range of promising technologies, of which there are many. We 
will expand our program to add tests of technologies and basing modes, 
including land, air, sea and space-based capabilities that had been 
previously disregarded or inadequately explored.
    Notwithstanding the delays of the past decade, the capability to 
defend America is within our grasp. The technology of 2001 is not the 
technology of 1981, or, for that matter, 1991--the year we suffered our 
first losses to ballistic missile attack by a rogue state.
    On 14 July, we conducted a successful test intercept of an 
intercontinental ballistic missile over the Pacific Ocean. This 
successful test is another step forward on the long road to developing 
and deploying effective defenses to protect the American people from 
limited ballistic missile attacks. It underscores the point that today, 
ballistic missile defense is no longer a problem of invention--it is a 
challenge of engineering. It is a challenge America is up to.

                               ABM TREATY

    To build on the success of this test, we will need successive tests 
that push the envelope even further, that are even more operationally 
realistic, and to begin testing the many promising technologies were 
not pursued in the past, but which have enormous potential to enhance 
our security.
    This inevitably means that our testing and development program will 
eventually encounter the constraints imposed by the ABM Treaty. We are 
seeking to build defenses to defend the American people. The ABM 
Treaty's very purpose is to prohibit us from developing such defenses.
    Our program is designed to develop the most capable possible 
defense for our country, our allies and our deployed forces at the 
earliest feasible time. We will not conduct tests solely for the 
purpose of exceeding the constraints of treaty--but neither will we 
design our program to avoid doing so.
    However, this administration does not intend to violate the ABM 
Treaty; we intend to move beyond it. We are working to do so on two 
parallel tracks: First, we are pursuing the accelerated research, 
development and testing program I have described. And second, we are 
engaged in discussions with Russia on a new security framework that 
reflects the fact that the Cold War is over and that the U.S. and 
Russia are not enemies. We are moving forward on both of these tracks 
simultaneously, and we feel the prospects for success in both cases are 
promising.
    To succeed we need your help in both areas:
    First, we need Congress' support to fully fund the President's 
budget request for further development and testing of missile defense. 
The ability to defend the American people from ballistic missile attack 
is clearly within our grasp. But we cannot do so unless the President 
has Congress' support to expand and accelerate the testing and 
development program. The 14 July test shows the potential for success 
is there. Let us not fail because we did not adequately fund the 
necessary testing, or because we artificially restricted the 
exploration of every possible technology.
    Second, we need Congress' support for President Bush's efforts to 
achieve an understanding with Russia on ballistic missile defense. The 
President is working to build a new security relationship between the 
U.S. and Russia whose foundation does not rest on the prospect of the 
mutual annihilation of our respective populations that was the basis of 
the old U.S.-Soviet relations. That is not a healthy basis for U.S.-
Russian relations in the 21st century.
    This past weekend, on the sidelines of the G-8 Summit in Genoa, 
Presidents Bush and Putin met for a second time. At the meeting, they 
agreed to move forward with discussions on the development of a new 
strategic framework. Following up on that meeting, National Security 
Advisor Condi Rice is scheduled to visit Russia this week to work out 
the framework for these discussions.
    Secretary Rumsfeld and Secretary Powell are also engaged in 
discussions with their Russian counterparts. Secretary Rumsfeld had a 
productive dialogue at NATO last month with Russian Defense Minister 
Sergei Ivanov. Indeed, after their meeting, Minister Ivanov declared 
his agreement with Secretary Rumsfeld that ``there are not only more 
threats facing us now in the 21st century, but they are multifaceted, 
much more so than they were in the past.''
    So our discussions with Russia are underway, and we have no reason 
to believe that they will fail. The question of whether we will violate 
the ABM Treaty in 2002 presumes they will fail. But there is no reason 
to assume we will fail; and if we succeed, the ABM Treaty will no 
longer be an obstacle to protecting the American people, our allies and 
deployed forces from ballistic missile attack.
    We hope and expect to have reached an understanding with Russia by 
the time our development program bumps up against the constraints of 
the ABM Treaty. But President Bush has also made clear that a 30 year-
old treaty designed to preserve the nuclear balance of terror during 
the Cold War must not be allowed to prevent us from taking steps to 
protect our people, our forces and our allies. We would prefer a 
cooperative outcome, and we are optimistic that such an outcome is 
possible. But we must achieve release from the constraints of the ABM 
Treaty.
    Congress can have a significant impact on the outcome of our 
discussions with Russia. If Congress shows the same resolve as the 
President to proceed seriously with development and testing of defenses 
to protect our people, our friends and allies, and our forces around 
the world, it will significantly enhance the prospects for a 
cooperative outcome.
    Conversely, Congress should not give Russia the mistaken impression 
that they can somehow exercise a veto over our development of missile 
defenses. The unintended consequence of such action could be to rule 
out a cooperative solution, and leave the President no choice but to 
walk away from the treaty unilaterally--an outcome none of us surely 
wants.
    As I stated earlier, the current planned testing program is not 
designed with the constraints of the ABM Treaty in mind; neither has it 
been designed for the purpose of exceeding those constraints. However, 
as the program develops and the various testing activities mature, one 
or more aspects will inevitably bump up against treaty restrictions and 
limitations. Such an event is likely to occur in months rather than in 
years. It is not possible to know with certainty whether it will occur 
in the coming year. This uncertainty is in part the result of 
inevitable uncertainty of all research and development programs. Many 
of the early issues will involve legal complexities, which we will 
fully resolve through the treaty compliance review group.
    For example, the test bed currently scheduled to begin construction 
in April 2002 is designed to permit the testing of a ground-based mid-
course capability under realistic operational conditions. There will 
also be opportunities, while we are testing the Aegis mid-course 
system, to test the ability of Aegis ship-based radars to track long-
range ballistic missiles. There will also be opportunities to combine 
the data from radars used in mid-course tests with the radars used to 
track short-range missiles. Will these tests exceed the limits of the 
treaty? In each case, there will be those who argue on all three sides 
of the coin.
    We have established a process for resolving these difficult issues 
at the earliest possible moment. The Department's ABM Compliance Review 
Group has been directed to identify ABM Treaty issues within 10 working 
days of receiving the plans for new development or treaty events. That 
process is already underway. The Secretary and I will be informed of 
whether the planned test bed, use of AEGIS systems in future Integrated 
Flight Tests, or concurrent operation of ABM and air defense radars in 
next February's tests are significant treaty problems. This process 
will permit us to take them into account as early as possible as we 
pursue our negotiations with Russia on a new strategic framework.
    By the time a planned development activity does encounter ABM 
Treaty constraints, we fully hope and intend to have reached an 
understanding with Russia. We would expect to identify such issues six 
months in advance. By that time, we will either have reached an 
understanding with Russia, in which case the question would be moot, or 
we would be left with two less than optimal choices: to allow an 
obsolete treaty to prevent us from defending America, or to withdraw 
from the treaty unilaterally, which we have every legal right to do.
    However, even in the latter circumstance, we should continue our 
efforts to reach an understanding with Russia. But our goal is to reach 
an understanding with Russia well before that time. Such an 
understanding is in both countries' interests. The end of the Cold War 
has fundamentally transformed our relationship. We ask for your support 
as we continue to work towards a cooperative solution.
    If we agree that a cooperative outcome is preferable to a 
unilateral withdrawal from the ABM Treaty, then we need Congress' full 
support for missile defense research and testing. We look forward to 
working with the Committee to build on the recent successful test, and 
to ensure that we can defend the American people, our friends and 
allies, and our deployed forces, from limited ballistic missile 
attacks.

                        NEW DETERRENCE FRAMEWORK

    We are optimistic about the prospects of reaching an understanding 
with Russia, because reaching a new security framework is in both of 
our nations' interests. The Cold War is over. The Soviet Union is gone. 
Russia is not our enemy. We are no longer locked in a posture of Cold 
War ideological antagonism. Yet the ABM Treaty codifies a Cold War 
relationship that is no longer relevant to the 21st century.
    The missile defenses we deploy will be precisely that--defenses. 
They will threaten no one. They will, however, deter those who would 
threaten us with ballistic missile attack. We do not consider Russia 
such a country. Americans do not lie awake at night worrying about a 
massive Russian first strike, the way they worried about a Soviet first 
strike during the Cold War.
    Our missile defenses will be no threat to Russia. Their purpose 
will be to protect against limited missile attacks from an increasing 
number of possible sources--but not against the thousands of missiles 
in Russia's arsenal.
    Further, they will be just one part of the larger, 21st century 
deterrence framework we are working to build. During the Cold War, our 
aim was to deter one adversary from using an arsenal of existing 
weapons against us. In the 21st century, our challenge is not only to 
deter multiple potential adversaries from using existing weapons, but 
to dissuade them from developing dangerous new capabilities in the 
first place.
    This requires a different approach to deterrence. Just as we intend 
to build ``layered defenses'' to deal with missile threats at different 
stages, we also need a strategy of ``layered deterrence'' in which we 
develop a mix of capabilities--both offensive and defensive--which can 
deter and dissuade a variety of emerging threats at different stages.
    Such a strategy would aim to dissuade countries from pursuing 
dangerous capabilities in the first place, by developing and deploying 
U.S. capabilities that reduce their incentives to compete; to 
discourage them from investing further in existing dangerous 
capabilities that have emerged, but are not yet a significant threat; 
and to deter them from using dangerous capabilities once they have 
emerged to threaten us all, with the threat of devastating response.
    Just as America's overwhelming naval power discourages potential 
adversaries from investing in building competing navies to threaten 
freedom of the seas--because, in the end, they would spend a fortune 
and not accomplish their strategic objectives--we should develop a 
range of new capabilities that, by their very existence, dissuade and 
discourage potential adversaries from investing in other hostile 
capabilities.
    Missile defense is one example. It has received significant 
attention because it is new--but it is just one element of a new 
deterrence framework that includes several mutually-reinforcing layers 
of deterrence, including diplomacy, arms control, counter-terrorism, 
counter-proliferation and smaller but effective offensive nuclear 
forces.

                        WHAT THE PROGRAM IS NOT

    We have discussed what the program is; we must also discuss what 
the program is not.

  <bullet> It is not an effort to build an impenetrable shield around 
        the United States. This is not Star Wars. We have a much more 
        limited objective to deploy effective defenses against limited 
        missile attack. Indeed the change in the threat--from the 
        thousands of missiles in the Soviet arsenal to handfuls of 
        limited missile attacks--makes deployment of effective defenses 
        more realistic than ever before.

  <bullet> It is not a threat to anyone. It will be a problem only for 
        those rogue states that wish to threaten our people, our allies 
        or our deployed forces, with ballistic missile attacks.

  <bullet> It will not undermine arms control or spark an arms race. If 
        anything, building effective defenses will reduce the value of 
        ballistic missiles, and thus remove incentives for their 
        development and proliferation. Since they will have virtually 
        no effect on Russia's capabilities, there is no incentive for 
        Russia to spend scarce resources to try to overcome them. And 
        China is already engaged in a rapid modernization of its 
        missile capabilities, and will continue this modernization 
        whether or not we build missile defenses. To the contrary, the 
        Russians and the Chinese will be able to see that we are 
        reducing our offensive nuclear forces substantially and there 
        is no need for them to build up theirs. In this budget proposal 
        alone, with Peacekeeper, Trident, and B-1 reductions, we will 
        be reducing START-countable warheads by over 1,000. We plan to 
        reduce our nuclear forces no matter what Russia decides to do, 
        but we believe it is in their best interest to follow the same 
        path.

  <bullet> It is not a ``scarecrow'' defense. We intend to build and 
        deploy effective defenses at the earliest possible moment. 
        Those defenses will grow more and more effective over time, as 
        we deploy an increasingly sophisticated mix of capabilities 
        that provide ``layered defenses'' against all ranges of 
        missiles at all stages of flight. The more capable the better, 
        but the defenses don't have to be perfect to save lives and 
        reduce casualties. As imperfect as the PAC-2 system was during 
        the Gulf War, there wasn't a single ally or commander who 
        didn't clamor for more.

    Will our defenses be 100% effective? Mr. Chairman, no defense is 
100% effective. Notwithstanding the billions we spend on counter-
terrorism, we failed to stop terrorist attacks on the Khobar Towers, 
our embassies in Kenya and Tanzania, or the World Trade Center. Yet I 
know of no one who has suggested that we stop spending money on 
counter-terrorism because we have no perfect defense. Moreover, 
defenses won't need to be 100% effective to make a significant 
contribution to deterrence.

  <bullet> It will not cost the taxpayers hundreds of billions of 
        dollars. The money we propose to spend on missile defense is 
        comparable to other major defense development programs, and 
        comparable to other elements of our security strategy. We are 
        proposing $8.3 billion for missile defense in 2002. That is 
        still a large amount, but the consequences of the failure could 
        be enormous.

  <bullet> It does not divert attention and resources from other, more 
        pressing threats. Some have argued that we should not spend 
        money on missile defense, because the real threat comes from 
        terrorist using suitcase bombs. That is like arguing that you 
        should not lock your front door because a burglar can break in 
        through your window. Both threats are real--but for the last 
        decade, work on countering the terrorist threat has proceeded 
        aggressively, while work on ballistic missile defense has been 
        hamstrung by an obsolete theory. We are correcting that.

    As we move forward with accelerated testing and development, Mr. 
Chairman, there will certainly be bumps along the way. We expect there 
to be test failures. There is not a single major technological 
development in human history that did not begin with a process of trial 
and error and many of our most successful weapons developments have 
been marked by testing failures:

  <bullet> The Corona satellite program, which produced the first 
        overhead reconnaissance satellites, suffered 11 straight test 
        failures.

  <bullet> The Thor Able and Thor Agena launch programs failed four out 
        of five times.

  <bullet> The Atlas Agena launches failed 5 out of 8 times.

  <bullet> The Scout launches failed 4 out of 6 times.

  <bullet> The Polaris failed in 66 out of 123 flights.

    Mr. Chairman, from these failures came some of the most effective 
capabilities ever fielded. Failure is how we learn. If a program never 
suffers test failures, it means someone is not taking enough risks and 
pushing the envelope. Intelligent risk taking is critical to any 
advanced development program--and it will be critical to the 
development of effective ballistic missile defenses.

                               CONCLUSION

    Mr. Chairman, let me conclude where I began. This threat is not 
fictional. It is not limited. It is not remote. And it is not going to 
disappear if one or another troublesome regime disappears.

  <bullet> If there were a war in Korea tomorrow, our best intelligence 
        estimates are that North Korea missiles would wreak havoc on 
        population centers and our deployed forces in South Korea, even 
        if armed only with conventional weapons, and North Korea now 
        poses a significant threat to Japan as well.

  <bullet> And we know that it is a matter of time before Iran develops 
        nuclear weapons, and may soon have the capacity to strike 
        Israel and some NATO allies.

    Think about what kind of hearings we would be having three or four 
years from now if Iran demonstrates intermediate-range capability to 
strike Israel or U.S. troops deployed in the Gulf--or if North Korea 
demonstrates the capability to strike the U.S. with long-range nuclear 
missiles. I, for one, don't want to have to come before this Committee 
and explain why we ignored the coming threat, and didn't do everything 
we could to meet it.
    This is not a partisan issue. We do not now know whether the 
President who first faces a crisis with a rogue state capable of 
striking Los Angeles, Detroit or New York with nuclear, chemical or 
biological weapons will be a Republican or a Democrat. But we do know 
that individual will be an American. And that is how we too must 
proceed--not as Republicans, or Democrats, but as Americans.
    Let future generations who look back at this period not see 
partisan bickering, but statesmen who rose above party to make sure 
America and its allies and deployed forces were protected against this 
real emerging threat.
    Thank you very much.

    The Chairman. General Kadish.

  STATEMENT OF LT. GEN. RONALD T. KADISH, DIRECTOR, BALLISTIC 
     MISSILE DEFENSE ORGANIZATION, DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    General Kadish. Mr. Chairman, members of the committee, it 
is a pleasure to appear my first time in front of you, and we 
thought it would be a good idea if we could show you some 
visual evidence of our progress in the basic technology that we 
are using for missile defense, and show you that I believe we 
are moving now from the idea that it is a question of invention 
to the idea that it is a very tough engineering problem that we 
are facing ahead of us.
    Now, we certainly had our successes, and we have had our 
failures, some of them very high profile, but what I would like 
to do today is show you that the basic technology of what we 
call hit-to-kill is now beginning to gain confidence in the 
technical community, and this hit-to-kill idea is that there is 
no explosives on board our kill vehicles, and the destructive 
mechanism against the warheads of the missiles that are 
incoming is nothing more than pure kinetic energy. In other 
words, we hit it at very high speed.
    Now, that requires great accuracy, and it requires a lot of 
integrated activities working together, and that is our 
challenge, so making this hit-to-kill work in all phases of the 
threat, missile flight from boost to midcourse and then to 
terminal is a major challenge and what I would like to show you 
is the progress we have made.
    I will start out with short-range missiles, where we 
intercept them in the atmosphere with Patriot 3. Then I will 
show you more long-range missiles, intermediate missiles 
intercepted by the THAAD program a couple of years ago that is 
now in further development, and that is done at the edge of 
space, and then I will show you the last two successes out of 
the four attempts for our long-range missiles against ICBM's 
that we just had our latest test here on 14 July, and I can 
show you moving up that ladder, what we have been able to 
accomplish, and the intercepts you will see, I would like to 
emphasize, is no explosive power except the sheer energy of 
hitting that warhead in a space about this big [indicating], so 
would you roll the film, please? It is about 4 minutes.
    We will start out with the Patriot 3. This is in the 
atmosphere against short-range missiles. You can see it 
maneuvering, and as it gets close to the target you will see 
some white puffs of smoke come out of the side of the missile, 
which very accurately aims it at the incoming warhead that is 
coming in at high speed, and you will see that here momentarily 
as it is maneuvering. There it goes, and that is an accurate 
hit. Patriot has only missed once in our test program, so we 
have a pretty good record in the atmosphere against short-range 
missiles.
    Now against the intermediate-range missiles, long-range 
missiles, THAAD, we have had a lot of problems, but in the 
final two flights we were able to demonstrate that we could do 
the same thing at the edge of space against faster missiles. 
You can see the turns it did on takeoff. Now, this is a THAAD 
missile maneuvering to hit the target, and this is slow motion. 
You can see the puffs of smoke from the engines getting very 
accurate into hitting that warhead, and that is pure kinetic 
energy, the actual speed of the missile, with no explosives.
    Upcoming will be a faster look at more real time of that 
particular intercept, and this was done at White Sands Missile 
Range, and you can see this intercept from Albuquerque, not 
much left of that warhead, and that is what it looked like from 
a distance.
    Now, the next series will show you that last intercept as 
the kill vehicle was maneuvering to come in and hit the 
warhead. You will see an infrared picture of this warhead come 
up and you can get a sense of how accurate we were with the 
last frame of telemetry that we got before it hit.
    Now, I would like to go to the long-range missile defense. 
We have certainly had our failures here, but this was the first 
test that was done in October 1999. This is a target rising out 
of Vandenberg Air Force Base. It is a Minuteman II missile 
headed toward the Kwajelein Islands, 5,000 miles away. This is 
the intercept here at Kwajelein Island, designed to take off 
and intercept it. It is a prototype, the first time we tried 
it, and you can see it lifting in order to intercept it in 
outer space.
    The intercept takes place about 140 miles into space at a 
closing velocity between 4\1/2\ to 5 miles per second, and this 
is a slow motion infrared picture of that intercept, and here 
is a visual you can track the kill vehicle from the left into 
the target, again a very accurate hit, no explosives.
    Now, the test we did on the 14th, a week ago this past 
Saturday, is the next series I would like to show you, and I 
will start with the interceptor, again a long-range repeat 
exactly of the last two attempts, two of which failed, so you 
can see the repeatability here. It looks the same from a launch 
perspective, and you can see the maneuvering of the rocket to 
attain altitude with kill vehicle on top, and then as the kill 
vehicle is released and goes in for the intercept I will show 
you the radar plots, and the visual that we got here is a 
visual of the intercept.
    Here is a radar plot with the kill vehicle coming in from 
the left and the confirmation of the kill, and this is a final 
real time shot, and that is the end of the film clip.
    So the point is that despite the difficulty we have had 
developing this technology, and the failures we have had, we 
have learned from them, but we have got a long way to go in 
perfecting these types of systems, but it is a pretty good 
start, and sometimes we do not see the successes matched with 
the failures, and this is more of a glass half-full approach 
than it is a glass half-empty.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Very impressive.
    Are you finished?
    Mr. Feith. Yes.
    The Chairman. We will limit ourselves--I think if we do 7 
minutes we will not get through anything. We will limit 
ourselves to 10 minutes, and we will hold everyone, including 
me, strictly accountable to that, and let me begin by saying 
that you ought to be commended, general, as should the entire 
Defense Department. It is an impressive display of capability, 
planning, and technology.
    You use the phrase, hit-to-kill, which we just saw on the 
screen, and note we are beginning to gain confidence in the 
system. I think that is an accurate and honest way to 
characterize it, which is very different than what some people, 
not you, not the Defense Department, and not the 
administration, are suggesting, and that is that our test shows 
that we have a missile defense system in place now. This does 
not show we have a missile defense system, does it?
    General Kadish. No, Mr. Chairman, it does not.
    The Chairman. Let me begin, if I may, with you, Mr. Feith. 
Deputy Secretary Wolfowitz raised with the Senate Armed 
Services Committee three planned activities that may conflict 
with the ABM treaty. One was the construction of a missile 
defense test bed in Alaska, and the others were actual test 
activities, the use of the Aegis SPY-1 radar to track a missile 
defense target immediately after it is launched from Vandenberg 
Air Force Base, and the use of an ABM radar at Kwajelein to 
track each target in a theater missile defense test this coming 
February.
    Now, which of these activities, if you can tell us, would, 
in fact, actually conflict with ABM?
    Mr. Feith. Mr. Chairman, the review of that question is 
underway. There is a compliance review group at the Pentagon 
that is responsible for assessing whether activities within the 
Ballistic Missile Defense Program can be conducted within the 
terms of the ABM Treaty, and there is an initial review that 
this compliance review group does on an expedited basis within 
a 10-day period.
    When the Ballistic Missile Defense Organization brings an 
issue to the group's attention, the group within 10 days 
assesses whether the treaty compliance issue is above the 
threshold that warrants a further, more detailed review, and as 
I understand it this initial review is going to be completed on 
Monday for the activities you just mentioned.
    The Chairman. Well, is it appropriate for us to assume that 
you will have an answer to that question before you conduct the 
test?
    Mr. Feith. Yes.
    The Chairman. Now, John Rhinelander will point out in his 
testimony that the planned test bed facility at Fort Greely may 
be permissible under article IV of the ABM Treaty so long as 
the total number of ABM launchers at all U.S. test ranges does 
not exceed 15, and if the additional test range is consistent 
with the rest of the treaty, including article I.
    Now, given the existing and planned launchers at White 
Sands and Kwajelein testing ranges, do you have enough head 
room under the ABM Treaty for your plans in Alaska? Do you 
understand what I am asking?
    Mr. Feith. Perhaps you could repeat that.
    The Chairman. As I understand it, Mr. Rhinelander is going 
to make the case that article IV of the ABM Treaty would not be 
violated as long as the total number of ABM launchers at all 
U.S. test ranges does not exceed 15. Now, given the fact that 
you have ABM launchers at White Sands and at Kwajelein testing 
ranges, do you have enough head room to stay under 15 as you 
move forward with your plans in Alaska without having this 
element of your plan violate the ABM Treaty?
    Mr. Feith. Mr. Chairman, as I understand it, on the issue 
of the numbers, the answer is yes. There are other treaty 
compliance issues related to the test bed.
    The Chairman. I just wanted to make sure that on this 
issue, that single issue----
    General Kadish. Mr. Chairman, it might require some 
destruction of silos that exist, but certainly we could stay 
within the compliance with the treaty.
    The Chairman. I appreciate that, general, thank you.
    Now, how can we structure the deployment of U.S. missile 
defenses in such a manner as to provide--and I would ask this 
to Mr. Bolton or Mr. Feith--real assurance to the Russians that 
whatever system that we are building does not pose a threat to 
their nuclear deterrence?
    Mr. Feith. Mr. Chairman, the system that we are building is 
designed to protect against a limited threat. The Russians know 
this, and if there is any doubt, we will certainly address it, 
I am confident, to their satisfaction in the dialog that is 
underway and will be continuing in the coming months. They know 
that nothing we are doing in this program is going to be 
undermining Russian security. That really is not an issue. That 
program does not represent a military problem for Russia.
    The Chairman. Well, how does that square with the assertion 
that we are building a system that would defend against an 
accidental launch as well? Can this system, general, that is 
being envisioned deal with a limited threat from a rogue nation 
and defend against an accidental launch anywhere in the world?
    General Kadish. Well, Senator, we do not have a system yet. 
As we stated earlier in our discussion in previous committees, 
the architectural decisions and the specifics of what system 
would actually be deployed or produced for long-range missile 
defense has not been decided.
    The Chairman. So we are a ways off?
    General Kadish. We are a ways off on that, and the RDT&E 
program that is proposed for fiscal year 2002 and beyond is 
designed for us to gain rapid confidence in building such an 
architecture with the robust testing we have, and so to answer 
that question now is somewhat premature, but certainly that 
would be one of our objectives.
    The Chairman. The reason I asked the question is, because 
there is an assertion made by Senator Helms and many others 
that we are right on the cusp of being able to put in place a 
missile defense system. Yet we have not even decided what 
system, have we?
    General Kadish. That is correct, Mr. Chairman, but that 
does not mean we could not move rapidly.
    The Chairman. Well, let me ask you this question. Wouldn't 
it take a lot more capability and confidence to be able to 
protect against an accidental launch of a sophisticated SS-18 
out of the Soviet Union, or an accidental launch of another 
sophisticated Soviet weapon that, unlike the test you have 
shown here, have real countermeasures on them, that have 
significant decoys with them, that are capable of being 
independently targeted? Would that not require a whole other 
degree of sophistication?
    General Kadish. The primary reason for the defensive 
systems architecture would be a limited attack against what we 
call rogue states now, so any residual capability would be 
accidental launch at this point, but those decisions have not 
been taken. The primary objective is against the Third World-
type launches.
    The Chairman. I am not asking about the decision being 
taken. I am asking about the technology in hand to be able to, 
in the near term, develop such a system. I have been briefed by 
you and many others, and the intelligence community. I have 
spent hundreds of hours trying to master this.
    I know of no one who has suggested that you have on the 
shelf anything that could reasonably be taken off in the near 
term and be tested that would be able to intercept a 
sophisticated missile that was accidentally launched from the 
Soviet Union. Is there any technology on the table in the near 
term, meaning next year, two, three, four, or five years from 
now, that has that capability? I know of none. I would like to 
know if there is.
    Mr. Feith. Mr. Chairman, you are quite right that there are 
some purposes that are harder to achieve within this program 
than others, but to go back to your original question about the 
concerns that the Russians might have about our undermining 
their capabilities and their security, I think it is important 
to emphasize that the U.S. ability to intercept a Russian 
missile that was launched by accident, or in an unauthorized 
fashion, does not at all affect or damage Russian security. And 
I think it is important also to point out that if Russia had a 
similar capability to intercept an accidental or unauthorized 
launch, that would not undermine U.S. security.
    The Chairman. My time is up. I will come back if there is 
time.
    Senator Helms.
    Senator Helms. General, we are well on our way, are we not, 
with developing this?
    General Kadish. Yes, Senator, I believe we are. We have 
made substantial progress.
    Senator Helms. I cannot discuss what I have heard in 
briefings up on the fourth floor of the Capitol, but of course 
you are not going to do it tomorrow afternoon, or next month, 
but you are well on your way, am I right?
    General Kadish. Yes, Senator, I believe so.
    Senator Helms. Thank you.
    Now, Secretary Bolton, first of all I congratulate you. You 
are doing a good job down there. I knew you would.
    Yesterday, Condi Rice, the National Security Advisor, 
described President Bush's agreement with President Putin as 
stating, and I am quoting here, ``we do not see the need for a 
treaty regime here,'' and she further pointed out that, ``the 
arms control treaties of the past between the United States and 
the Soviet Union reflected a highly abnormal relationship 
between the two adversaries.''
    Now, for the record, I agree with Condi Rice. Given the 
President's desire to create a new tone in U.S.-Russian 
relations, it would seem unwise to perpetuate this cold war 
treaty approach. Am I off-base on that? Do you agree?
    Mr. Bolton. Absolutely, Senator. If I might just read for 
the record, if I could, the joint statement that President Bush 
and President Putin issued in Genoa, this is really a 
remarkable document. They said, ``We agree that major changes 
in the world require concrete discussions of both offensive and 
defensive systems. We already have some strong and tangible 
points of agreement. We will shortly begin intensive 
consultations in the interrelated subjects of offensive and 
defensive systems.''
    Now, that is, I think, really a very important first step. 
Nobody knows where these consultations will come out, to be 
sure, but we want to start out on the optimistic side, hoping 
that these consultations, through these discussions we can come 
to a more normal relationship with Russia.
    Senator Helms. Well, I am alarmed, and I wonder if you are, 
by the speed with which North Korea and Iran and others are 
developing ballistic missiles, and they are getting so much 
foreign assistance that the U.S. intelligence community now--
and I do not think I am violating any secret information--the 
U.S. intelligence community now is warning us that they 
probably will deploy ICBM's within the next few years. Is that 
your understanding?
    Mr. Bolton. That is some of the estimates. Sadly, a lot of 
this, as you know, is highly classified and we really cannot 
discuss it publicly, but it is on the basis of that information 
that much of our planning and much of our development and hopes 
for missile defenses are based.
    Senator Helms. Well, in any case, Secretary Bolton, given 
that missile defenses cannot be deployed overnight, and we all 
know that, and admit it, how much time does the administration 
have in consultation with the Russians to be safe about this 
thing?
    Mr. Bolton. Well, as I indicated in my statement, I think 
the President has emphasized yesterday these are not going to 
be traditional arms control negotiations, with small armies of 
negotiators inhabiting the best hotels in Geneva for months and 
years at a time. The President described it, I think, quite 
well yesterday. He said, time is of the essence, and that while 
we hope, expect, are optimistic for cooperation with the 
Russians, the President is determined to have an effective 
missile defense system. We can do it together, that would be 
great, but if we cannot, we will do it ourselves.
    Senator Helms. Let me go back to Condi Rice's statement of 
yesterday. She said, ``the United States is prepared to engage 
in,'' and I am quoting now, ``consultations at the ministerial 
level on arms control negotiations,'' and there is a decided 
difference. The President has also warned that the United 
States is prepared to proceed with missile defense testing if 
Russia cannot be brought around to a new way of thinking. That 
is my understanding. Is that yours?
    Mr. Bolton. Yes, and I think that the emphasis that she has 
placed in her interviews of these consultations being at the 
ministerial level, that is to say, Secretary of State to 
Minister of Foreign Affairs, Secretary of Defense to Minister 
of Defense, shows both the intention and the optimism that I 
think both Presidents have that they will try and proceed at 
the very highest levels as expeditiously as possible.
    Senator Helms. Well, of course, I ask this question to make 
clear that I do not want anybody to assume that the Bush 
administration is going to give Russia a de facto veto over 
U.S. missile defenses, and we are not going to allow Russia to 
delay the deployment of missile defenses by dragging out 
complex arms control negotiations.
    Mr. Bolton. Yes. We are short on Pollyannas in the Bush 
administration. It is our full intention to engage as robustly 
and as expeditiously and as sincerely as we can, but 
ultimately, as the President has said, it is his intention to 
move forward with Congress to have an effective missile defense 
system. We hope that the Russians will see this as part of the 
new strategic framework in a cooperative mode that is in both 
of our interests, but we will move ahead on our own if need be.
    Senator Helms. General, I enjoyed and appreciated your 
testimony this morning. I appreciate all three of you, as a 
matter of fact. Now, I hear the critics, some of whom are my 
very best friends, say that missile defense is not feasible, we 
cannot get it in time to do anything, and I guess I am amazed 
by the skepticism, given the successful defense test, missile 
defense, on what was it, July 14, and all of the other 
successes the missile defense programs have had.
    Now, here again, I am having to be careful, because I do 
not want to talk about information that we got under an 
agreement to keep it secret, but do you believe that an 
effective missile defense is technologically feasible?
    General Kadish. Senator, we certainly have moved the 
problem of missile defense from invention, which is very 
difficult, into one of engineering, and in that sense we are 
making tremendous progress, but the testing we have done to 
date is part of a longer journey to pull these things together, 
but we have made substantial progress.
    Senator Helms. I think that is the safest statement you can 
make.
    Now, this committee has heard from time to time various 
witnesses, it seems to me, who have dreamed of ways to defeat a 
missile defense, but many of these same good folks and their 
friends seem to think that just because they are able to draw a 
countermeasure on a piece of paper, a country such as North 
Korea or Iran will be able to deploy such a system next week, 
or pretty quick. Have you thought about countermeasure 
problems? Have you developed a program to ensure that U.S. 
missile defenses will be able to defeat enemy countermeasures?
    General Kadish. Yes, Senator. The countermeasure problem is 
a difficult one for any defense, but countermeasures are part 
of military system development, even disregarding a missile 
defense problem, but there are a few things to consider about 
countermeasures in our current program.
    First, we do have an active countermeasure program to 
develop our systems to handle those. The development of the 
countermeasures themselves by our adversaries is not a trivial 
problem. Some would like to make that a trivial problem, and 
postulate that they could be easily overwhelming of our 
systems, so even though they are difficult to make, the 
integration of them is even more difficult, in my opinion.
    But even having said that, the approach that we are taking 
with the robust countermeasure program in the midcourse systems 
that we have been describing will also be supplemented by the 
fact that we are attempting this RDT&E program to look at a 
layered defense system, and a layered defense system attacks in 
the boostphase, in the midcourse phase, and potentially in the 
terminal phase, and it, in and of itself, as a layered system, 
should we be able to build it as we envision, would be a 
counter-countermeasure.
    In other words, the countermeasures that work in boost do 
not work in the midcourse, and the countermeasures that work in 
the midcourse do not work in boost-phase, and so that if we are 
able to take attacking shots at each one of those phases, and 
multiple shots within those phases, it is a much more effective 
defense, and in the end the countermeasure problem is 
diminished.
    Senator Helms. Mr. Chairman, my time is almost over. Well, 
it is over as a matter of fact.
    The Chairman. Thank you very much. The Senator from 
Massachusetts, Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman, and thank you for 
having this important hearing, or set of hearings, and thank 
you, gentlemen, for being here.
    I want to try to establish a little bit of baseline here, 
if I can in this discussion, because I am deeply concerned 
about the level of rhetoric that accompanied some of the 
discussion, and may raise expectations, and certainly 
contributes to misunderstanding by some people of what we are 
dealing with here.
    I embrace and support, as do many of my colleagues, the 
concept of a limited, transparent, hopefully mutually arrived-
at or deployed defense system. I think that makes sense, 
particularly for the low grade potential threat, and I 
emphasize low grade threat, of a rogue missile attack.
    It is very hard to understand why a country like North 
Korea, or Iran, would purposefully send one missile, or two, 
our way, with a trail inviting obliteration on their part, when 
they have so many other methods to injure this country. I know, 
general, that within the Pentagon that is low on the threat 
analysis compared to some of the things we are aware of, in 
terms of terrorism and other activities that threaten us. But 
that said, I believe we should pursue this, we should pursue 
the technology, and no country should have a veto.
    But I heard here even this morning rhetoric saying we must 
stop clinging to outdated concepts of mutual assured 
destruction, and even the President has embraced very broad 
rhetoric about the new architecture.
    Now, it seems to me that if, indeed, the system is limited, 
and we ought to get this on the table and try to understand it 
right up front, if the system is limited, as you say it is 
going to be, and, indeed, we have tried to proceed in 
cooperation with the Russians and Chinese, and therefore all we 
are targeting are, in fact, rogue missiles, or an accidental 
launch, or unauthorized launch, it is absolutely inconceivable 
that we have, in fact, moved away from mutual assured 
destruction [MAD], because all adversaries who hold nuclear 
weapons that could be fired at us will still have sufficient 
numbers of warheads that they will overwhelm the limited system 
you are contemplating deploying. Is that accurate?
    Mr. Feith. Senator, I do not believe it is accurate.
    Senator Kerry. Well, tell me how, in mere absolute, nuclear 
warfare terms, it is not accurate.
    If you have a limited system that can only shoot down a 
limited number of missiles, and someone possesses more warheads 
than you have missiles that can shoot down, can they not 
destroy you?
    Mr. Feith. The concept of mutual assured destruction was a 
governing theory during the cold war between the United States 
and the Soviet Union.
    Senator Kerry. It is not a governing theory. It is a 
reality today of the existing warheads between our countries. 
We have about 7,000. They are going down, hopefully, to 3,500. 
The whole theory of nuclear weapons is that after you have 
struck, they can strike you back, and you can strike back, and 
you both destroy each other. That is mutual assured 
destruction. Now, that still exists today, does it not?
    Mr. Feith. Senator, I would say that that entire concept of 
mutual assured destruction is related integrally to the hostile 
relationship that existed between the United States and the 
Soviet Union. The United States and Russia now do not have a 
relationship that is hostile in that way.
    Senator Kerry. I am not talking about the state of today's 
political relationship. I am talking about the physical 
relationship of weapons that we have. The numbers of weapons 
and their deployment is based on the concept of mutual assured 
destruction.
    Mr. Feith. I think, Senator, you have put your finger on an 
enormously important point, which is that the concept of 
deterrence, or even mutual assured destruction, in the view of 
some of us is not a numerical or mechanical matter. Rather, it 
is tied to the idea of hostility of the type that would cause 
one country to want to destroy the other.
    Senator Kerry. But that can change, Mr. Secretary. I mean, 
that changes with time. The whole purpose is not to sit there 
and look somebody in the eyes and say, I trust you. It is to 
have a system in place that guarantees the Nation physical 
security.
    Now, Secretary Powell does not agree with you. Secretary 
Powell was here before this committee, and I asked him that 
question, and I said, so in other words, we would not be doing 
away with it, mutual assured destruction. He said, ``we cannot 
entirely do away with what has been known as mutual assured 
destruction.'' Some would argue--now, I mean, you cannot do 
away with it, and if you deploy a limited system, as you are 
contemplating deploying, you still cannot do away with it.
    The reason the Russians object to this, and the reason the 
Chinese are apoplectic about their 23 missiles, perhaps being 
completely rendered useless by a defensive system is because 
they know it alters the balance, and so my question is, similar 
to what Senator Biden was saying. If you are going to deploy a 
system that has the capacity to deal with accidental launch, 
you would have to have a system that is capable of shooting 
down a missile from anywhere at any time at any point. That is, 
in effect, the kind of larger shield that has always upset a 
potential adversary.
    I am not saying a sure bet adversary, but someone who does 
not hand to the United States of America a veto over their 
moves in any context whatsoever.
    Now, how do you avoid the potential of breakout? In terms 
of defense, if you have developed a defense that has the 
ability, just as we feared for 50 years, the potential of 
offensive breakout, how do you prevent the capacity of 
defensive breakout from taking place and so rendering 
completely out of balance the entire military equation in which 
other countries make a determination about their security and 
their level of threat and their relationship in the world?
    Mr. Feith. Senator, you have raised a range of very 
interesting questions. One that is particularly important to 
address is this notion that we have a relationship of mutual 
assured destruction with China, which is implied in your 
question. It is not the case, and I think it is important that 
we do not import that into our thinking about U.S.-China 
relations, and in particular the nuclear issues in that 
relationship. We should not import into our thinking about 
China the cold war concepts of mutual assured destruction that 
applied between the United States and the Soviet Union.
    Senator Kerry. Mr. Secretary, life changes. Things happen. 
Countries do not trust each other. I mean, here we are, you are 
saying on the one hand that MAD is dead because Russia does not 
intend to shoot at us, but you are saying we have to build this 
system because North Korea, even though it may not have the 
intent, has the capability. I mean, you are building on pure 
capability without intent, but you are using intent to 
rationalize the fact that you think mutual assured destruction 
is not there.
    I cannot plan on that. I do not know what is going to 
happen in 20 years. I do not know what kind of Russia you will 
have in 20 years, but if they have not proceeded to agree to 
START II because we are building a system unilaterally, let me 
tell you something, you are stuck with mutual assured 
destruction, as Secretary Powell said. Do you disagree with 
Secretary Powell?
    Mr. Feith. I disagree with the idea that intent is not 
relevant, and we do, in fact----
    Senator Kerry. Well then, you have just negated your own 
argument on Russia, if intent is not relevant.
    Mr. Feith. No, Senator. We do not worry about a nuclear 
balance with the United Kingdom or with France because those 
countries do not intend us harm. We do not focus on their 
capability and say, ``We need missile defense because the 
French or the British have missiles and nuclear weapons.''
    When we look at the North Koreans, when we look at Iraq, 
when we look at other countries that, in fact, have hostile 
intent against the United States, and missile programs and 
weapons of mass destruction programs, that is when we say, 
``this is a serious problem,'' because those capabilities that 
they are developing are combined with hostile intent.
    Senator Kerry. Well, we are going to have to come back to 
this, but how you measure the hostile intent of one or two 
missiles is hard to measure against the theory of mutual 
assured destruction, which remains a reality. When we have 
3,500 missiles, and they would be obliterated overnight, it is 
hard to make that calculation of intent in a realistic way, and 
I would like to pursue it later.
    The Chairman. I find it fascinating, this administration's 
romance with Russia, and the certainty of Russia's actions. 
That is interesting.
    Anyway, I would yield to Senator Allen.
    Senator Allen. I do want to associate myself with the 
remarks and thoughts and sentiments that were expressed earlier 
by Senator Helms.
    In the midst of all of this discussion, Mr. Chairman, there 
have been some assertions about various other concerns and 
attacks and threats to the United States and to our people and 
our forces, and I do think cyber terrorism is a threat, a very 
real threat. Terrorists using rented vehicles, or suitcase 
bombs, are also a threat. Biological attacks or chemical 
attacks I fear are unfortunately a very real threat.
    I think that we need to make sure that our defense forces, 
our intelligence forces are integrated law enforcement, whether 
that is State, local, or national, all need to be involved in 
trying to detect and hopefully thwart any such attacks, and we 
need to be able to respond and react and recover in the event 
that any such attacks would occur.
    I also think we need to have a defense against weapons of 
mass destruction and missile technology. I do not think any of 
these are exclusive. You have to be facing multifaceted threats 
from a variety of ways of doing it, and obviously delivered by 
missile technology.
    Senator Kerry's cross-examination, and we cannot 
necessarily determine the future, means that you need to have a 
multifaceted approach to the future, in my view. It argues for 
the point that we have to prepare for all eventualities, some 
that are seen now, some that may be foreseen, and others that 
may arise that we cannot even contemplate, and none of this is 
going to happen overnight, with all of the structuring of the 
engineering and the scientific research and the testing that 
will go forward.
    The thing that I find interesting about this hearing is 
that this is not a hearing of first impression for the U.S. 
Senate. In 1999, the Senate passed by a vote of 97 to 3 
language which clearly states, and I would like to say this for 
the record, since it seems to be forgotten at times, quote, 
``it is a policy of the United States to deploy as soon as 
technologically possible an effective national missile defense 
system capable of defending the territory of the United States 
against limited ballistic missile attacks, whether accidental, 
unauthorized or deliberate.''
    This law said nothing about taking into consideration 
international reactions, or the need to preserve the ABM 
Treaty, and yet some want to either ignore this law altogether 
by delaying the administration's missile defense plan, or 
reinterpreting its very clear language, so I just want to put 
that on the record, so everyone knows what the law of the land 
is right now, although it may change, but I certainly would not 
want it to.
    I have a great deal of interest in the naval, the sea-based 
approach, and I do not know whether I should address this to 
Mr. Feith or General Kadish, but the report in December of 2000 
talked about and concluded that a ship-based missile system, 
coupled with a planned national missile defense system with 
land and space-based sensors could provide an effective 
complement to the ground-based interceptors, and whichever one 
of you feel more comfortable, I would like to have you explain, 
or share with us about the integration of the naval forces and 
systems with regard to the concept of a national missile 
defense system.
    General Kadish. Senator, the RDT&E program that is before 
the Congress now aggressively pursues a sea-based option in 
terms of missile defense. We are looking at it not only in the 
midcourse, but also in the boost-phase as a hedge against some 
of our other technologies, but I would like to emphasize the 
difficulties with sea-based midcourse at the same difficulties 
we face with the ground-based system as well, because it is the 
same countermeasure problem, same problem we have in space, 
hit-to-kill, all those types of technologies face the sea-based 
option as well, and we need to aggressively pursue how we 
implement those and see whether or not they add to our layered 
defense capability. That is part of the program.
    Senator Allen. How would you, general, find what is the 
value of the sea-based system over the ground-based, or air-
based.
    General Kadish. The values tend to be complimentary, 
whereas a land-based system of any sort, but especially missile 
defense, is available for fixed site, relatively stable threat 
scenario available 24 hours a day, 7 days a week, any day of 
the year.
    The mobility of the sea-based system, however, provides us 
a degree of flexibility not only to move the engagement 
envelope toward the ascent phase, in the midcourse, but also to 
protect geography. That mobility would lend itself toward--in 
other words, a fixed site is a fixed site, but a mobile site 
can go where we need it, and so it provides an element of 
flexibility that we do not currently have with a ground-based 
system.
    Senator Allen. In sort of your thinking of eventualities 
that we cannot contemplate right now, I would like to ask you, 
can you see a situation where the sea-based system would be of 
assistance to us, whereas the fixed land-based system in an 
eventuality of threat or altercation or war would be of greater 
assistance?
    General Kadish. There are certainly scenarios where one is 
favored over the other, but on balance, in a layered system, 
they are all complementary, and that is what we are trying to 
figure out now with our development program.
    Senator Allen. Let me ask you this. In a real-life matter 
where we were under attack from missiles, and that was just 
about 10 years ago in the gulf war, our Armed Forces were 
subject to missile attack, as were the people of the State of 
Israel, actually having their own country being subjected to 
missile attack, and generally taking them, although getting hit 
by them, and maybe trying to knock some of them down, and these 
were the SCUD missile attacks from Iraq.
    Could you extrapolate from that scenario where our troops, 
and people who were really not involved in that war in Israel, 
were being subjected to missile attack, and could you 
extrapolate how a missile defense system could change or 
improve our defense of our armed service personnel, also the 
United States, or also our allies that may be also subjected to 
these attacks, and how would this missile defense help us in 
that regard?
    General Kadish. Well, Senator, to the degree that we are 
able to protect our deployed forces, it is obvious how that 
helps us, and at the same time of protecting our deployed 
forces, we could protect our allies or defend territory partial 
to our allies, that is a major improvement over what we had 10 
years ago, and certainly even what we have today, because even 
with our best efforts the Patriot 3 that I showed you in that 
film earlier is still a year or two away from major deployment 
quantities, so it is a major deployment to our war-fighting 
capability to protect our troops from missiles.
    Senator Allen. Well, the Patriot is for short-range?
    General Kadish. That is correct.
    Senator Allen. Do we have anything for intermediate range?
    General Kadish. Not now.
    Senator Allen. From, say the Middle East, would Europe be 
considered intermediate range?
    General Kadish. I believe so. This geography problem is 
tough and interesting at the same time, because when you say 
Europe, I could say that about two-thirds of Europe is 
intermediate range, and the rest of Europe is long-range, so we 
have got a mix, and that is where we have got this problem with 
layering defenses against all ranges. You cannot protect one 
range of missiles and ignore the other range.
    For instance, if we only have protection against short-
range missiles, then the countermeasure to that is to have 
faster, longer-range missiles, and if you are protecting a 
given set of territory, you would want protection against all 
of them, because in the end the long-range missiles could be 
used for short range by being faster in reentry, so it is a 
very complicated question, but an oversimplified answer to you 
is, it depends on what territory you are talking about.
    Senator Allen. Well, in the scenario, say there is certain 
countries in the Middle East that are having expansive or 
threatening actions, could they threaten our allies, say, if 
you continue in your activities, maybe they could not launch a 
missile to the United States from Baghdad or somewhere in Iraq 
or Iran, but they could hit Paris, or they could hit London, or 
they could hit Frankfurt.
    Do you envision, if it is technologically feasible, the 
national missile defense system being able, or it is just a 
missile defense system, again utilizing some of the naval base 
flexibility, being able to protect our allies in Europe in 
those particular cities? Let us be specific.
    General Kadish. I do, and I am able to envision that. The 
Secretary has asked us and was very specific in the RDT&E 
approach to look at protecting the United States, our allies, 
and friends, and deployed forces, and so that is certainly the 
major charge we have in our approach to missile defense at this 
time.
    Senator Allen. Thank you, general, and gentlemen.
    [A prepared statement of Senator Allen follows:]

                Prepared Statement of Hon. George Allen

    Washington, DC.--United States Senator George Allen, a member of 
the Senate Foreign Relations Committee, today released the following 
statement on the use of a National Missile Defense System, the subject 
of a committee hearing:
    ``With the proliferation of missile technology and nuclear weapons 
of mass destruction, I continue to believe that, as soon as it is 
technologically feasible, the U.S. should deploy a system that will 
help keep Americans safe from missile attacks, whether from a major 
adversary or from a rogue nation. I am encouraged by the recent 
successful anti-missile defense test this month. I look forward to a 
`new reality' modified treaty that will allow us to deploy an air, sea 
and land-based defense.
    ``In the 21st century, America faces new threats, new battlefields 
and new weapons, and age-old disputes--the world is still a dangerous 
place. As leaders of this great nation, we must understand that the 
challenges and threats of this century are far different from those 
experienced in wars and conflicts of the past century.
    ``There is a basic, inescapable and gripping truth about the 
freedom we cherish. We must make sure that our country continues to be 
strong enough to defend its security and its interests whenever they 
are threatened.
    ``Therefore, the U.S. must address threats from cyberterrorists, 
terrorists using rental vehicles or suitcase bombs, and biological 
attacks. We need multifaceted assistance from our intelligence, armed 
forces and law enforcement agencies and early detection to thwart 
attacks as well as preparing for defense and recovery if such attacks 
occur. Also, we should have a defense against weapons of mass 
destruction.''

    The Chairman. Point of clarification, Senator. Were you 
asking whether or not the theater missile defense system was 
enhanced by the test that was conducted last week intercepting 
a missile in mid-flight in the outer atmosphere? Was that your 
question?
    Senator Allen. No, that was not--my question was beyond 
that.
    The Chairman. Thank you very much.
    Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman.
    Mr. Chairman, it appears to me that a situation is evolving 
where the United States is likely to achieve enormous 
technological success, but simultaneously to produce tremendous 
political divisions. The tragedy of this all is that it is 
entirely unnecessary.
    As the administration is envisioning a multi-tiered missile 
defense it could have simultaneously envisioned a tiered 
strategy, politically, for dealing with missile defense that 
under the best of designs, with the optimum performance, the 
system envisioned is only going to deal with rogue nations, 
those with limited numbers of offensive weapons, or mistaken 
launches.
    I have never heard the administration describe or pronounce 
its intentions or even envision anything that would deal with 
something of a scale of Russian offensive weapons. Therefore, 
rather than having begun this effort in the Bush administration 
by undermining the ABM Treaty, or unnecessarily attack the 
reality of mutual assured destruction, this plan could have 
been announced not as a repudiation of the ABM Treaty but 
simply the need for a modest modification.
    Where each nation is now allowed to have a single defensive 
site, that could have been transformed to a single site 
defending its entire territory, with limited numbers of 
defensive interceptors.
    We have now divided ourselves from our allies, potentially 
placed ourselves in an adversarial position with the Russians, 
when ironically we have common interests. The United States is 
no more vulnerable to a launch by Iraq, Iran, or North Korea 
than Europe or Russia. Indeed, we are probably less vulnerable, 
given our advantage of geography, but we manage to separate 
ourselves.
    A political defeat can become the product of an enormous 
technological success, and as these divisions with our allies 
and the Russians are unnecessary, so are divisions in this 
Congress. There is the perception in this Nation that the Bush 
administration, like the Reagan administration, is the creator 
of missile defense. The effort to secure missile defense began 
in the Bush administration no more than it began in the Reagan 
administration. Jimmy Carter began this technological search.
    This was not imposed on a Democratic Congress. Most of the 
resources for missile defense research emanated from a 
Democratic Congress. There is no reason here for division, but 
the foolish and unnecessary retreat from a generation of arms 
control, the engaging of our allies in common strategy which do 
not even conflict with your technological objectives. Now, I do 
not quarrel with your assessment of the North Koreans. Like 
some of my colleagues, I have been to North Korea. There is no 
question in my mind, North Korea represents a real and present 
danger for the United States.
    It is not a question of whether the North Koreans are going 
to have a capability to reach the United States with offensive 
intercontinental missiles. it's only a question of when, and 
unlike some nations, a diplomatic solution reaching an 
agreement with North Koreans cannot be seen as permanent, but 
only temporary, and never trustworthy.
    The Nation must obtain some limited missile defense, but 
this returns us to Senator Kerry's point. We are not going to 
achieve that defense that can deal with Russian offensive 
capabilities. Therefore, we must marry a limited missile 
defense that deals with the North Koreas and Iraqs with the 
reality of a Russian situation, while not prompting them to 
attempt to overwhelm a system which we could not deal with even 
under current circumstances with missile defense.
    I would only urge the administration not only to avoid the 
divisions with our allies that comes from the current political 
posture, but divisions in this Congress that are similarly 
unnecessary. We ironically all have the same objective, 
internationally and internally, but we are being needlessly 
divided. There is nothing within your research program that 
must threaten this international regime of arms control, and an 
ABM Treaty which can be much more easily modified than 
abandoned.
    Ironically, it appears to me Mr. Putin may have recognized 
this, and may save the administration from itself, but that 
does not mean we cannot all still return to the same point of 
departure.
    In any case, I would invite your comment.
    Mr. Bolton. Well, perhaps I can start off, I disagree in 
the first instance that we are divided from our allies. Just 
yesterday, for example, the newly elected leader of Italy gave 
an extremely enthusiastic defense of the President's missile 
defense program. We have had extensive consultations with not 
only our NATO allies, but with specific friends and allies as 
well, and we have received very warm responses to the extent to 
which we have tried to explain the nature of the threat that we 
see.
    We have tried to explain the thinking that we have been 
undertaking in the development of missile defense, and to try 
and explain how we hope that this will benefit friends and 
allies around the world, and I think there is a growing 
acceptance in Europe and in the Pacific that our analysis of 
the threat is pretty much on target, that they understand 
better the nature of the development and testing that we are 
undertaking, and that they look forward to our discussions with 
the Russians and further consultations.
    I think it would be a mistake to think that the sort of new 
strategic framework we are talking about with the Russians can 
be developed with them in a heartbeat, or that the allies 
themselves necessarily would accept these new ideas that we are 
putting forward. The consultations have been extensive. Right 
now, I would say, Senator, with the American embassies around 
the world and the materials we have sent to them, and the 
discussion they are undertaking, I think it is fair to say 
consultations are basically a 24-7 proposition, and will 
continue to be so.
    I think it is also important that we pay homage where 
homage is due. This is a very well-written treaty, designed to 
prevent a defense of the territory of our country. That is what 
it says in article I, section 2, and it says very specifically 
that each party undertakes not to develop tests or deploy ABM 
systems or components which are sea-based, air-based, space-
based, or mobile land-based, and so it is not possible to have 
a defense of our territory even against rogue nation launches 
and accidental launches under the constraints of this treaty as 
written.
    Senator Torricelli. Let me respond. First, perhaps only the 
two of us are gratified to see the Prime Minister of Italy 
speaks for our allies and characterizes European opinion. I 
believe that, many people in New Jersey believe it, but it 
generally would not be accepted, and as representing the NATO 
alliance it is the height of illusion to believe that public 
opinion in Europe, or largely our allies around the world, 
believe in this administration's approach to the ABM Treaty. We 
can disagree, but we can at least, sir, deal with each other 
honestly----
    Mr. Bolton. I think I am, Senator, and consultations are 
going on, and we are making great progress.
    Senator Torricelli. The way this works is, the time belongs 
to me, and I would be happy to yield and have you respond, but 
just because we are honest does not mean our allies are not 
always right, but we can certainly characterize properly where 
they stand. Opposition to our views now internationally is 
enormous.
    Part of our problem here is reconciling it. My opinion, 
what I am expressing to you on the ABM Treaty, is that I am 
sharing your judgment that the ABM Treaty clearly needs to be 
changed. When it was written, the notion of rogue states, the 
character of an Iraq or North Korea possessing weapons with 
this technological capability clearly was not envisioned. It 
was not seen as possible in the near term.
    We have now lived to see that reality. The treaty was 
written to govern extraordinarily different circumstances, but 
that does not mean the continuing reality of a Russia with 
thousands of warheads for which we cannot mount defenses under 
any technological scenario cannot be married, in the same 
treaty, with the reality of a North Korea which is about to 
possess that capability. One does not have to abandon the one 
strategy in order to develop the other.
    That is not only my concern. I think that is what we are 
hearing from Europe, because to cede you the point, I think 
they increasingly are recognizing in Europe that there is a 
vulnerability. This is a reality. I simply think this could 
have been done with more subtlety, and we are in a needless 
confrontation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    First let me congratulate the panel and also the President 
of the United States. I think the accomplishments and the 
leadership shown by the President during his trip to Europe 
were rather significant.
    In picking up on what my colleague from New Jersey was 
talking about, the question whether we are at odds with our 
allies in Europe on missile defense, I have, Mr. Chairman, a 
list that I would like to enter into the record of recent, over 
the last 45 days, statements made by the leaders of the Czech 
Republic, Hungary, Italy, of course, the U.K., Poland, Romania, 
Spain, Slovakia, Australia, Japan, Georgia, and others.
    [The list referred to by Senator Hagel follows:]

            Quotes Supportive of U.S. Missile Defense Plans

    Australia.--Foreign Minister Downer (June 1, 2001): ``We've said to 
the Americans that we are understanding of their concerns about the 
proliferation of missile systems . . . if a rogue state were to fire a 
missile at the United States, would an appropriate response be for the 
United States to destroy all of the people in that country? And I 
think, understandably, the Americans are saying that may be a slight 
over-reaction. And if that is all that their current deterrence 
arrangements provide for, then I think it's understandable that they 
should want to look for more sophisticated and more effective, and at 
the end of the day, more humane ways of dealing with these problems.''
    Foreign Minister Downer (May 12, 2001): ``We've just made it clear 
to them that . . . we completely understand what they're saying on the 
need for a missile defense system . . . The more people understand what 
is being talked about here, the more they think it makes sense.''

    Czech Republic.--President Havel (June 13, 2001): ``. . . the new 
world we are entering cannot be based on multually assured destruction. 
An increasingly important role should be played by defense systems. We 
are a defensive alliance.''

    Georgia.--President Shevardnadze (June 26, 2001): ``Now 
proliferation is a fact. Several states have such weapons, and many 
others are very close to possessing the bomb. I therefore believe that 
there are good reasons for examining the need to create anti-missile 
systems . . . let us suppose that such systems are created: when that 
happens, there will be no more reason for anyone to have nuclear 
weapons. An antimissile system does not harm anyone, whereas nuclear 
weapons represent the threat of an elimination of the whole of 
mankind.''

    Hungary.--Prime Minister Orban (May 29, 2001): ``The logic of the 
Cold War, which was based on mutual vulnerability, has lost its 
legitimacy. The alliance has the right and duty to defend itself.''
    Prime Minister Orban (May 29, 2001): ``The logic of the Cold War, 
mutual deterrence, would not give a reply to the problems of the 
future. It is important that North America and Europe should work 
jointly on solutions demanded by the new realities.''

    Italy.--Prime Minister Berlusconi (June 13, 2001): ``We agree that 
it is necessary for a new, innovative approach in our policies towards 
these new threats.''
    Defense Minister Martino (June 11, 2001): ``[Missile defense] would 
not be directed against the Russian Federation today; the aim is to 
protect us from unpredictable moves by other countries. It is in the 
interests of peace, of all of us.''
    Defense Secretary General Admiral Giampaolo (June 14, 2001): 
``Russia and the U.S. are no longer opponents, while there are new 
players on the world scene, there are countries that possess deadly 
ballistic systems with intentions unknown to us. They are 
unpredictable. The ABM Treaty no longer works against these new dangers 
. . . Now we must move on to a new concept, that of an offensive-
defensive mix. If there is a potential hotheaded adversary, I must make 
him understand that he cannot strike me . . . [with] a missile defense 
system capable of protecting against limited missile attacks from 
irrational countries. The U.S. is very responsibly discussing this with 
its allies, with Russia, and also with China.''

    Japan.--Prime Minister Koizumi (June 7, 2001): ``This is very 
significant research because it might render totally meaningless the 
possession of nuclear weapons and ballistic missiles.''
    Prime Minister Koizurni (June 6, 2001): ``If the system being 
considered by the United States is established, it could completely 
change ideas about security. It could render nuclear weapons 
meaningless. That is why I think it is worth studying, and the Japanese 
Government understands why the United States is conducting such 
research.''

    NATO.--Secretary General Lord Robertson (June 20, 2001): ``. . . 
keeping NATO ahead of the game--looking at the hurdles coming up in 
front of us, not the one behind--means looking at the existing and 
emerging challenges. The vulnerability exposed by the proliferation of 
weapons of mass destruction and their means of delivery. And the 
disaggregation of the security threats we face--from yesterday's 
monolithic and massive Soviet Union, to today's multiple actors who can 
present a potential threat, using flexible and highly destructive WMD 
and missile capabilities . . . we do need to think about military 
responses as well. Missile defense is and should be the subject of deep 
reflection and consultation in NATO. We have an obligation to protect 
our societies. And we must ensure that our own military capabilities 
remain relatively less vulnerable, so that they remain effective in all 
situations,''

    Poland.--President Kwasniewski (June 13, 2001): ``[The U.S. missile 
defense plan is a] visionary, courageous, and logical idea.''
    President Kwasniewski (June 15, 2001): ``When it comes to the 
missile defense system, following the presentation of President Bush's 
opinion in Brussels, the case seems very clear. The United States 
wishes to build this system--not exclusively safeguarding its own 
interests, but to reinforce a general world security . . . And I think 
this is a very rightful and very appropriate position.''
    Defense Minister Komorowski (May 27, 2001): ``Poland has looked 
upon U.S. declarations on the necessity of establishing a missile 
defense system with understanding from the very start. We . . . see the 
modification of the project to provide for a ``protective shield'' for 
European allies as a step in the right direction. This can only enhance 
defense capabilities but also strengthen the unity of NATO. The 
territory of Poland and the Polish defense system may become a key 
element of an allied missile defense structure.''
    Secretary of the National Security Council Siwiec (May 18, 2001): 
``The ABM Treaty . . . stands in the way of building a flew security 
system. The debate on the missile shield is not unlike protests of 
steam engine users against the inventors of rocket engines . . ..''

    Romania.--Defense Minister Pascu (June 12, 2001); Romariia 
understands the U.S. desire for protection from missile attack and 
would have ``no objection at all'' even if the U.S. proceeded 
unilaterally. Regarding those in Europe that dismiss the threat of 
missile attack, Pascu said ``It is a real danger. To some, it is not 
because they don't want it [missile defense] done.''

    Slovakia.--Prime Minister Mikulas (June 8, 2001): ``We have always 
perceived the United States as the protector of democratic principles 
in the world and we understand the alliance (NATO) as a defense 
community. So we consider the missile defense project to be a new means 
of collective defense . . ., a security umbrella for this democratic 
society and therefore in general we support this project.''

    Spain.--President Aznar (June 12, 2001): Regarding the U.S. missile 
defense initiative, ``What I'm surprised by is the fact that there are 
people who, from the start, disqualified this initiative, and in that 
way, they are also disqualifying the deterrence that has existed so far 
and probably they would also disqualify any other kind of initiative. 
But what we're dealing with here is an attempt to provide greater 
security for everyone.''
    Defense Minister Trillo (May 23, 2001): ``The [U.S.] missile 
initiative . . . is neither an aggressive initiative--it is a defensive 
one--nor a nuclear escalation, but rather, on the contrary, a means of 
deterrence of the buildup of nuclear weaponry.''

    United Kingdom.--Prime Minister Blair's Spokesman (July 18, 2001): 
``There is a shared analysis of the problem. The Prime Minister 
understands the concerns that the U.S. administration has from a 
different threat post the Cold War. He is concerned at the spread of 
weapons of mass destruction and missile technology just as the 
Americans are.''
    Prime Minister Blair (July 19, 2001): ``. . . I want to say this 
and say it clearly, that I think President Bush is right to raise the 
issue of the proliferation of weapons of mass destruction and say that 
that needs new and imaginative solutions, because it's a huge threat 
facing the whole of the world. Secondly, I think that that has got to . 
. . encompass defensive systems and offensive systems . . . And the 
third thing is that we welcome very much the approach that President 
Bush and the administration have taken to consulting allies, and also 
making it clear that they wish to have a dialogue and a partnership 
with Russia about this issue.''

    Senator Hagel. These represent quite complimentary 
statements about this President's leadership, and about missile 
defense, and most importantly in my mind, the idea behind what 
we are trying to accomplish.
    Much of the rhetoric gets lost here in trying to dissect 
paragraph 3 of subsection 6 of some document, and we lose sight 
of the fact that what this is about very simply is trying to 
make this world a safer place, so when I hear talk about, we 
are upsetting the Russians and our European allies, that 
rhetoric does not square with the facts.
    And I think more to the point, the agreement that the 
President made with the President of Russia, which will result 
in our National Security Advisor going to Russia tomorrow to 
sit down with her counterparts, I think speaks for itself. The 
political rhetoric notwithstanding, there are differences of 
opinion on this, but let us deal with the facts as they are.
    Speaking of facts, my friend from Virginia noted Public Law 
106-38. That is the National Missile Defense Act of 1999. That 
is the act that Senator Allen referred to that the U.S. Senate 
passed, and President Clinton signed, which puts the U.S. 
Senate on record, and he read from that to go forward with a 
national missile defense system when technologically possible.
    Now, part of this debate is perplexing to me, and many 
things are perplexing to me, but it is rather schizophrenic, 
inconsistent, contradictory to say on the one hand 97 to 3, 
with the President of the United States signing this, that we 
are going to go forward and build a missile defense system, but 
wait a minute, do not test, do not research, do not do anything 
that might interfere with other obligations out there, but yes, 
we are on record, and it is a public law directing the general 
and the Pentagon to go get that done, but yet we say, no, no, 
wait, we are not sure we can do that.
    We should unwind that schizophrenia in this debate and 
decide, now, maybe we should have another vote on this. Maybe 
we should put this back to the Senate and see where everybody 
stands. This was just 2 years ago, but I am one Senator who 
proudly voted for this, is a strong supporter of missile 
defense, and would proudly vote again just as I voted 2 years 
ago.
    The fact is here that I do not know--and maybe, general, 
you could enlighten this panel with this question. I do not 
know of one technology in the history of mankind that has not 
been developed through a series of tests and failures in those 
tests, and yes, that requires some resources, does it not?
    Speaking of resources, what, in your best estimate, 
general, might be the cost of a missile defense system that we 
are trying to implement here over the next few years?
    Now, I heard my friend the chairman say that the bottom of 
that, I think, if I heard him right, $60 billion. It could go 
into the hundreds of billions. Now, I have never heard it 
referenced as a floor at $60 billion, but I would be interested 
in your numbers.
    General Kadish. Well, Senator, that is a little bit of an 
awkward question for me right now.
    Senator Hagel. Of course it is.
    General Kadish. It is going to be very expensive.
    Senator Hagel. Is the chairman right? Are we talking 
hundreds of billions and a floor of $60 billion? You are the 
general.
    General Kadish. The problem I have is that we have not 
defined the architecture, as I pointed out earlier, sufficient 
to give a cost estimate, but I would ask people to look when we 
do this and put cost estimates on the table, to look at 
affordability, because I can tell you, it is going to be 
expensive.
    Senator Hagel. What does that mean?
    General Kadish. The issue is, many billions of dollars.
    Senator Hagel. What is many billions, hundreds of billions? 
What is it?
    General Kadish. In my judgment, no.
    Senator Hagel. Well, you are here for your judgment, 
general, so see if we can bracket this a little tighter. This 
is in your best interests, general. We could put up a sign to 
say that if you have not caught it yet, but it is in your best 
interest.
    General Kadish. If I was able to be precise, I could be 
very comfortable answering that question, but at this point in 
time the precision in what we are about to do is difficult for 
me to say it is going to be $100 billion, $60 billion, $20 
billion.
    I can tell you what our previous estimates were, that the 
very limited system that we were proposing under the last 
administration we believed had a price tag somewhere between 
$23 and $30 billion for that system. As you add more capability 
to it, it obviously will get more expensive, but over the life 
of this system we are in that type of a ballpark, but I could 
be here telling you next month or a year from now a very 
different number, depending on the decisions that were taken on 
what to build, and/or what has succeeded.
    Another point I would make is that we are asking for $8 
billion next year for research and development. That is a lot 
of money.
    Senator Hagel. Is this over a 15-year period, 10-year 
period? What is this time span?
    General Kadish. The number I gave you of about $23 to $30 
billion would be over about a 6-year timeframe to buy the 
system. Then you have another cost estimate of how much it is 
going to take to operate it over a 20 or 30 or 40-year 
timeframe, so that number can be very large based on those 
types of calculations, and so a system that would cost $10 or 
$12 billion to acquire might end up costing $40 billion over a 
15 or 20-year lifetime to operate.
    But next year we intend to spend $8 billion on a 
development program, should the Congress appropriate the money.
    Senator Hagel. Thank you.
    Secretary Bolton, what would you say the objective of 
Secretary Rice's national security trip to Russia is?
    Mr. Bolton. Her principal objective is to meet with 
President Putin, with Defense Minister Ivanov, her counterpart, 
Mr. Rushaylo and others to begin to set up a schedule in the 
pace and the subject of the ministerial level consultation that 
President Bush and President Putin agreed to, and as I 
mentioned earlier, I think it is very important for the scope 
and the pace of these discussions that they are being conducted 
at that very high level to show the importance that both 
Presidents place on them.
    Senator Hagel. Let me get to some of the recent discussion 
here regarding layered deterrence, layered defense. First, 
would you all agree that most likely we will never come up with 
a completely impenetrable system, that there will be weaknesses 
in any system, just as there are weaknesses, as far as I know, 
in any defense system we have? Do you all agree or not agree 
with that?
    Mr. Feith. I agree. It is not the intention of the program.
    Senator Hagel. I am not asking the intention, but I am 
asking the reality of a defense system. Any technology, any 
defense technology, is it 100-percent foolproof, nobody can get 
through it?
    Mr. Bolton. No human invention is perfect.
    Senator Hagel. So we will have flaws, right?
    General Kadish. Yes, Senator.
    Senator Hagel. So is not the point of layered deterrence, 
layered defense being part of that layered deterrence, working 
with all nations of the world on nonproliferation issues, 
working with governments influencing their behavior on all 
fronts, economic trade, environment, as well as national 
security technologies that are all part of the total deterrence 
effort?
    Mr. Bolton. I think that is critical, because one of the 
things we have been trying to explain about the importance of a 
missile defense system is that we are looking at threats that 
were not contemplated during the cold war, or at the time of 
the drafting of the ABM Treaty, that it is, after the cold war, 
a more complex threat environment that we face, and therefore 
that our defenses and our capabilities have to be more varied, 
and take into account that these threats can come from a 
variety of different places, which--and I am sorry Senator 
Torricelli has left, but one thing one with his idea of just 
having one missile site that would defend the entire country is 
that that just does not take into account where the various 
hostile missiles might come from, so that this complexity is 
required by the changed circumstances that we face in the world 
at the end of the cold war.
    Senator Hagel. Thank you. Mr. Chairman, thank you.
    The Chairman. For the record, I would say to my friend 
where I got those numbers was--the point the general made, 
initially they said $15 to $20 billion, and that was for 6 
years, but if you are going to operate it, and I am assuming 
you are going to operate it if you develop it, the next 
estimate they came along with was $60 billion for 20 years. 
That is where I got it.
    Now, assuming they are not going to operate it, then it 
only costs about $15 to $20 billion, but I assume they would 
operate it.
    We have already spent--and I voted for, and since you have 
been here have voted for it, since the late seventies in 
current dollars about $100 billion so far in research, which I 
support. I support that, but I do not want you to think that I 
am making these numbers up out of thin air.
    And the reason I raised the question about 100 percent 
effectiveness is that I am not suggesting that any system they 
are designing, even with redundancy, is going to guarantee 100 
percent success. You have Secretary Rumsfeld saying, and I 
quote, ``I think if one looks at any complicated system you 
will find that it does not work perfectly 100 percent of the 
time. It may be .9, it may be .7 success. That is plenty.''
    Now, just so you know, if you have a .7 success of hitting 
a missile, a country that fires two missiles at you, has a 50-
percent chance that one is going to hit, and back when you and 
I, during our years of growing up, there used to be a bumper 
sticker that said, ``One nuclear weapon can ruin your day.'' So 
I think we have just got to put this in perspective. I was not 
trying to be smart. That is where I got the numbers.
    The numbers relating to a $1/2 trillion are the numbers you 
go back and dig up on an enormous system that in fact can 
protect against an accidental launch. If you protect against an 
accidental launch, it means you have to protect against any 
missile fired from anywhere. Therefore, you must have the most 
sophisticated system in place to intercept the most 
sophisticated missile, which goes far beyond the capability of 
a rogue state, and that is just a wild estimate, because no one 
has any idea how to do that. But anyway, that is how I came up 
with those numbers.
    I would yield to my friend from Rhode Island.
    Senator Chafee. Thank you, Mr. Chairman. In your opening 
statement, you asked whether the pursuit of national missile 
defense would make the United States more or less secure. That 
was an interesting question. I think pertinent to that is the 
tone of the administration as well as comments from our allies. 
In addition, we saw the colored picture from the meeting 
between President Putin and President Jiang from the People's 
Republic of China, and the Russian press commenting about unity 
against American unilateralism. I think this meeting is all the 
more important in the question of whether our pursuit of 
missile defense makes the United States more or less secure?
    So the tone of how the administration goes forward is very 
important. In that respect, Mr. Bolton, what exactly do you 
mean by we are short of Pollyannas? What exactly does that 
mean?
    Mr. Bolton. Well, I think we are a pretty hard-headed 
realistic group of people, if I may say so. I do not think that 
we have any illusions about the difficulties of transforming 
the strategic relationship with Russia, nor do I think we have 
any illusions about the difficult relations possibly ahead with 
the People's Republic of China. I don't think we are operating 
under any illusions. I think we understand that there is a lot 
of cold war thinking remaining in Moscow, and there is a lot of 
thinking that needs to be addressed in Beijing as well, and 
that really is the thrust of what I was trying to say. I might 
just say if I could on the Putin-Jiang Zemin agreement, I 
really think there is less there than meets the eye, but I 
acknowledge that this question of how the United States deals 
with both the PRC and with Russia is something that we should 
devote considerable time and attention to.
    Secretary Powell will be in Beijing, and we will be 
discussing this missile defense and the new strategic framework 
with the Chinese leadership, among other things. That is why 
one of the initial consultation teams we sent out after the 
President's Ft. McNair speech was to China, and we anticipate 
considerable additional consultations with them as well.
    Senator Chafee. Well, I think there is certainly support 
for missile defense among the American public, as evidenced by 
the Cochran bill that passed the Senate by a 97 to 3 vote. But 
I will also say with regard to Senator Torricelli's comments, 
that we have to be very careful about dividing what already has 
some momentum, I think, with the public and here in Congress. 
Again, in respect to the tone and the aggressiveness and the 
unilateralism in which the administration is going forward.
    Mr. Bolton. May I just say in response to that, we really 
have had, we have tried in as many ways as we could, 
particularly with friends and allies to address their concerns. 
We have sent multiple teams to capitals I think in virtually 
every meeting that Secretary Powell has had with his 
counterparts, the subject has either come up or certainly could 
have come up. It is something that we have been addressing at 
the most senior levels of the government. Secretary Rumsfeld 
has been working over time on it, and I think that the effort 
and inclusiveness and I think symbolized by the agreement to 
have high-level intense consultations that President Bush and 
President Putin reached in Genoa is indicative of the 
seriousness with which we are undertaking this effort, meet the 
objectives that you indicate.
    Senator Chafee. Thank you.
    The Chairman. Any further questions?
    Senator Chafee. No, sir.
    The Chairman. We will do a second round if we can now. I 
think the number is classified, and obviously if it is, I don't 
expect you to respond, but as I understand it, even with 
multiple attempts, that is firing more than one kill vehicle at 
an incoming missile, that the limited system that began to be 
developed in the last administration and that apparently is not 
necessarily the same system, but has the same objective to deal 
with the limited nuclear strike, even with multiple kill 
vehicles being fired at a single warhead, the plan, the 
planning requirement is not to have 100 percent kill capability 
for incoming missiles, is that right? And I am not asking you 
what the number is, but it is less than 100 percent, is not it?
    General Kadish. No system we contemplate is going to be 100 
percent effective, but it will be very good.
    The Chairman. Now, Mr. Secretary, you said you have no 
illusions. You are a pretty hard-headed bunch of folks about 
what is under way here. I assume you have no illusions about 
the lesser degree of difficulty of a nation like North Korea or 
Iran or Iraq delivering a weapon of mass destruction by other 
than an ICBM missile to strike the United States. You do not 
have any illusions about that, do you?
    Mr. Bolton. No. And I think our programs in that regard are 
important and could just as easily be strengthened as those we 
are working on on missile defense. I don't think anybody 
underestimates that risk.
    The Chairman. Now, along those lines, if either of the two 
Secretaries would be willing to respond, for the missile 
defense test bed in Alaska as I understand it, the request is 
for $8 billion--a small portion of the defense budget. But the 
fact is that most of that budget is already spoken for in 
Defense. If you look at the truly discretionary spending in the 
Defense budget, you have proposed a $3 billion increase, your 
proposed increase of $3 billion is a lot of money. Vice Admiral 
Dennis McGinn, the Navy's top requirement advocate, said last 
month, ``whatever national missile defense costs, we have 
expended that part of our national treasure against a very, 
very narrow part of the threat, a threat that is very 
unambiguous in determining what its origin was, a threat that 
would perhaps be dealt with by assurances that we will destroy 
any regime that uses it.'' He goes on to say, this is ``a very, 
very high opportunity cost and we need to think carefully 
through this problem and assess what the relative importance of 
the various vectors of threats coming to our Nation are before 
we go down that path.''
    Now, I think the admiral was on to something. Last year the 
Joint Chiefs gave the Armed Services Committee the chart that I 
mentioned earlier. This chart from the Joint Chiefs shows an 
attack on the United States using long-range ballistic missiles 
as potentially the most damaging attack we could experience, 
but also the least likely. By contrast, such threats as 
terrorist attacks or major regional conflicts, are more likely 
to occur, and while many may not be quite as devastating as a 
missile attack, they could involve nuclear, chemical and 
biological weapons.
    In addition, 2 years ago, our own Intelligence Committee 
warned that a short-range or cruise missile can be ``more 
reliable'' than ICBM's that have not completed rigorous testing 
and validation programs. The intelligence community added that 
``countries or nonstate actors,'' which we fancy as terrorists, 
could pursue non-missile delivery options, most of which are 
less expensive than developing and producing ICBM's and can be 
covertly developed.'' This is, and I am quoting, ``and the 
source of the weapon could be masked in an attempt to evade 
retaliation probably would be more reliable than ICBM's that 
have not completed rigorous testing and validation,'' still 
quoting, ``and probably would be more accurate than emerging 
ICBM's over the next 15 years.'' Continuing to quote, 
``probably would be more effective in disseminating biological 
warfare agents and ballistic missiles. These delivery options 
would avoid missile defenses.'' Now, I have a couple of 
questions.
    First, how can we defend against those threats today? Tell 
me how we defend against a cruise missile launched off our 
shore from a ship today or any of the other things that we have 
spoken of here? And I would begin with you, either the general 
or Mr. Feith.
    Mr. Feith. Senator, it is true that there are non-missile 
options available to countries that might consider using 
weapons of mass destruction against the United States, and as 
Secretary Bolton said, this is something the administration 
considers to be a serious threat. And our intelligence 
community says these are more reliable than ICBM's, and 
probably would be more accurate. That is what our intelligence 
community says.
    Reliability has to do with a number of factors. There are 
programs to defend the United States against somebody who would 
try to smuggle a weapon of mass destruction into the United 
States. And that is part of our defense effort. It is not 
unimportant.
    The Chairman. What are those programs? Can you be specific?
    Mr. Feith. Well, there are a range, having to do with 
controlling the borders and intelligence. I believe the 
expenditure for that type of activity is in the neighborhood of 
$11 billion a year.
    The Chairman. And being cut, being cut by this 
administration.
    Mr. Feith. I am not aware that it is being cut.
    The Chairman. I will submit for the record my evidence, for 
why I assert that, but go ahead.
    Mr. Feith. Those are serious threats.
    [The information referred to by Senator Biden follows:]

  Interim Russian-American Nuclear Security Advisory Council [RANSAC] 
                                Report:

  PROPOSED FEDERAL BUDGET CUTS FOR NUCLEAR SECURITY EFFORTS IN RUSSIA

    Based on authoritative budget documents, it is clear that the 
Department of Energy (DOE) programs are scheduled to be cut back 
significantly in key areas. Overall, the top-line budget request for 
DOE nuclear nonproliferation programs in FY 2002 will be $801 million, 
or about $73 million below the FY 2001 (current year) appropriated 
level of $874. This is an overall 8.4% reduction. When compared to the 
request from DOE to the Office of Management and Budget (OMB) during 
the last months of the Clinton administration, the cut is even more 
significant. The Clinton era OMB request for FY 2002 was rumored to be 
approximately $1.2 billion. If this information is accurate, then the 
cut from the projected Clinton budget is closer to 33%.
    Authoritative information on the budget requests for the State 
Department is not available, though Colin Powell did testify that the 
nonproliferation programs in the State Department would be receiving an 
increase in the upcoming budget year. Information on the Department of 
Defense Cooperative Threat Reduction program budget requests is also 
unavailable at this time, though there have been rumors of reductions.
    Attached to this overview is a chart of the major FY 2002 DOE 
nuclear nonproliferation budget requests, which have not yet been 
released by the Bush administration.
    Several programs that have been targeted for elimination or 
significant cuts include:

  <bullet> Nuclear Cities Initiative (NCI). This is the only U.S. 
        government program specifically focused on decreasing Russian 
        nuclear weapon production capability and creating alternative 
        employment opportunities in MinAtom's closed nuclear weapons 
        cities. In FY 2001, $26.6 million is appropriated for the 
        program. For FY 2002, DOE had sought a request of $30 million. 
        The new Bush budget requests only $6.6 million, a 75% reduction 
        from the current year. This is the lowest level of funding ever 
        proposed for this program and it will be extremely difficult to 
        sustain this program at $6.6 million. Prior to this year, the 
        program's lowest appropriation was $7.5 million in FY 2000. In 
        particular, the budget eliminates a $10 million line item to 
        facilitate closure of warhead production plants.

  <bullet> Material Protection, Control and Accounting (MPC&A). This is 
        the primary U.S. program to improve the security of Russia's 
        fissile material, accelerate consolidation of this material at 
        fewer sites, and to work with the Russian Navy in the 
        protection of its nuclear materials. In FY 2001, approximately 
        $169 million is allocated to the MPC&A program. The program 
        sought a request of approximately $226 million for FY 2002. The 
        Bush budget request will be $139 million--a $30 million (18%) 
        cut from the current level. The major cuts come in the 
        improvement of security at Mayak, which is a major fissile 
        material storage facility, the part of the program designed to 
        sustain the security improvements after they are installed, and 
        the Russian Navy program.

  <bullet> Plutonium disposition activities in the United States and 
        Russia. Under this program, 34 metric tons of plutonium is to 
        be eliminated by both the U.S. and Russia, Last year, after a 
        long delay, a U.S.-Russian agreement on this subject was 
        signed. The budget for plutonium disposition in FY 2001 was 
        about $189 million. Approximately $450 million had been 
        requested in the Clinton FY 2002 budget for overall fissile 
        material disposition (roughly a $225 million increase from FY 
        2001), including approximately $45 million for activities to 
        assist Russian plutonium disposal. However, the Bush 
        administration request provides only $20 million for the 
        Russian component (or about a $21 million reduction from the 
        current funding level). While the FY 2002 Bush request does 
        increase the fissile materials disposition budget overall, the 
        amounts fall short of what is needed to move the program with 
        Russia forward significantly and to convince Russia and other 
        G-8 countries of the U.S. commitment to eliminate plutonium 
        stocks.

  <bullet> Non-Proliferation Verification R&D. This is essentially 
        national laboratory research money for verification 
        technologies and not particularly of interest to the Russians, 
        but it is still important. In FY 2001 the appropriated level 
        was $245 million. In the proposed Bush budget it is $208 
        million, a 15% cut.

  <bullet> New fissile material security programs. In FY 2001, funding 
        was provided for several new DOE programs as part of a ``Long-
        term Nonproliferation Program for Russia.'' The FY 2002 budget 
        would eliminate funding for these new activities, including the 
        following:

    <bullet> Creation of a Russian plutonium registry. The United 
            States currently does not know the total Russian plutonium 
            inventory. This program was a small effort to facilitate an 
            accurate accounting. For FY 2001, $500,000 is provided to 
            assist Russia in developing an unclassified database of its 
            entire plutonium stockpile. In the Bush administration 
            budget it is eliminated as a program.

    <bullet> Ending civil plutonium separation. The plutonium separated 
            from non-military spent fuel is stored at the Mayak 
            production complex. Russia's civil plutonium stockpile is 
            currently around 30 metric tons and it increases each year 
            as more plutonium is separated from Soviet designed 
            reactors. The goal of this program was to incentivize 
            Russia to stop producing this material. In FY 2001, $15 
            million was provided for this effort. The current Bush 
            administration request is $0.

                   Summary of FY 2002 Budget Requests

           SELECTED DEFENSE NUCLEAR NONPROLIFERATION PROGRAMS

           U.S. DOE/NATIONAL NUCLEAR SECURITY ADMINISTRATION

                         [Dollars in thousands]

Nonproliferation and Verification R&D (NN-20)


----------------------------------------------------------------------------------------------------------------
                            Program                              FY 2000   FY 2001   FY 2002    Delta   % Change
----------------------------------------------------------------------------------------------------------------
Nonproliferation and Verification R&D.........................   212,842   244,515   208,102   -36,413    -14.9%
----------------------------------------------------------------------------------------------------------------


Selected Arms Control Programs (NN-40)


----------------------------------------------------------------------------------------------------------------
                            Program                              FY 2000   FY 2001   FY 2002    Delta   % Change
----------------------------------------------------------------------------------------------------------------
Nuclear Cities Initiative (NCI)...............................     7,500    16,616     6,616   -10,000    -80.2%
Serial Production Facility Closure (NCI)......................         0    10,000         0   -10,000     -100%
                                                               -------------------------------------------------
    Subtotal NCI..............................................     7,500    26,616     6,616   -20,000    -75.1%

Initiatives for Proliferation Prevention (IPP)................    20,716    24,143    22,143    -2,000     -8.3%
Plutonium Registry............................................         0       500         0      -500   -100.0%
Kazakhstan Spent Fuel Project.................................    15,459    15,926     9,615    -6,311    -39.6%
Spent Fuel Storage/Repository.................................         0     2,385     2,385         0      0.0%
Separated Civilian Plutonium Management.......................         0    14,799         0   -14,799     -100%
----------------------------------------------------------------------------------------------------------------


International Materials Protection, Control, and Accounting (MPC&A) 
(NN-50)


----------------------------------------------------------------------------------------------------------------
                            Program                              FY 2000   FY 2001   FY 2002    Delta   % Change
----------------------------------------------------------------------------------------------------------------
MPC&A: Navy Complex...........................................    56,698    58,551    38,000   -20,551    -35.1%
MPC&A: Navy Upgrades..........................................         0    19,000         0   -19,000   -100.0%
MPC&A: MINATOM Complex........................................    20,375    24,416    35,300   +10,884    +44.5%
MPC&A: Mayak..................................................         0     5,000         0    -5,000   -100.0%
MPC&A: Materials Consolidation and Civilian Sites.............    32,868    31,521    40,000    +8,479    +26.9%
MPC&A: National Programs and Sustainability...................    28,094    25,019    22,000    -3,018    -12.1%
MPC&A Multilateral and Emergency Coordination.................       700     5,200     3,500    -2,700    -43.5%
                                                               =================================================
    Total, MPC&A..............................................   138,735   168,707   138,800   -30,907    -18.2%
----------------------------------------------------------------------------------------------------------------


Fissile Materials Disposition (NN-60)


----------------------------------------------------------------------------------------------------------------
                            Program                              FY 2000   FY 2001   FY 2002    Delta   % Change
----------------------------------------------------------------------------------------------------------------
I. U.S. Fissile Materials Disposition (Operations):

  U.S. plutonium disposition..................................   133,259    90,216    92,000    +1,784     +2.0%
  U.S. uranium disposition....................................         0     9,955    26,000   +18,045   +161.2%
  Supporting technologies (includes some uranium-related               0    14,692    26,089   +11,397    +77.6%
   disposition technologies)..................................
                                                               -------------------------------------------------
    Subtotal, U.S. Program (Operating)........................   133,259   114,863   144,089   +29,226    +25.4%
                                                               -------------------------------------------------

    Subtotal, U.S. Program (Operating), less uranium             133,259    98,902   112,089   +13,187    +13.3%
     disposition activities...................................

II. U.S. Fissile Materials Disposition (Construction):
  U.S. Program (Construction), including uranium-related          31,126    69,778   104,000   +34,222    +49.0%
   facilities.................................................
  U.S. Program (Construction), less uranium disposition           31,126    48,892    80,000   +31,108    +63.6%
   facilities.................................................
                                                               =================================================
    Total U.S. Fissile Materials Disposition Program..........   164,385   184,641   248,089   +63,448    +34.4%
                                                               =================================================
    Total, U.S. Fisslle Materials Disposition Program, less      164,385   147,794   192,089   +44,295    +30.0%
     HEU disposition projects.................................

III. Russian Plutonium Disposition:
  Russian Surplus Plutonium Disposition facilities............     3,111    16,650    42,000   +25,350    152.3%
  Advanced Reactor Development................................     5,000     9,847     1,000    -8,847    -89.8%
  U.S. Oversight of Russian Activities........................    21,834    30,010    19,000   -11,010    -36.7%
                                                               -------------------------------------------------
    Subtotal, Russian Plutonium Disposition...................    29,945    56,507    62,000    +5,493     +9.7%
    Less use of prior year balances...........................  ........   -15,000   -42,000   -27,000     -180%
                                                               =================================================
    Total, Russian Plutonium Disposition......................    29,945    41,507    20,000   -21,507    -51.8%
                                                               =================================================

      Grand Total, Fissile Materials Disposition..............   194,330   226,148   268,089   +41,941    +18.5%
                                                               =================================================
      Grand Total, Fissile Materials Disposition, less HEU       194,330   189,301   212,089   +22,788    +12.0%
       disposition............................................
----------------------------------------------------------------------------------------------------------------


    The Chairman. Do you think these are more or less likely 
threats than an ICBM attack?
    Mr. Feith. I infer from the fact that countries like North 
Korea and Iraq are making heavy investments of their scarce 
resources into missile programs that those countries believe 
that it is useful to them to have the capability to deliver 
weapons of mass destruction by missiles.
    The Chairman. Let us assume that is true, and it doesn't 
have to do with prestige, but let us assume that is true. Is it 
more or less likely?
    Mr. Feith. I must say, I find it difficult to think of the 
issue in quite those terms, as if we have enough knowledge to 
have a worthwhile calculation of probabilities in this area.
    The Chairman. I assure you, we do have enough knowledge. I 
assure you we do have enough knowledge to assess those 
capabilities.
    Mr. Feith. To assess whether a country like Iraq would 
consider firing, if it had the capability of firing a missile 
at the United States?
    The Chairman. Yes. Whether it is capable of firing a 
missile at the United States versus whether it is capable of 
using biological agents smuggled into the United States, which 
is more likely? Which do they have the greater capacity to do, 
whether Iraq has that capacity, whether or not it has, forget 
intent, the capacity. We do have that capability unless we are 
wasting all of our money on our intelligence here and our 
intelligence is all dead wrong. I mean, I have been briefed 
month after month after month on this.
    We do understand that it is a hell of a lot easier and 
possible for someone to have a knapsack full of sarin gas and 
cross from Vancouver to Seattle, Washington, and do great 
damage. We do know that it is a lot easier to take anthrax 
across the line. We do know all of those things.
    Mr. Feith. In the cases you talked about, it is not clear 
to me what that says about the importance of defending the 
United States against ballistic missiles when we know that 
hostile countries with weapons of mass destruction programs are 
investing in ballistic missile capabilities.
    The Chairman. I will give you an example of what it means 
and my time is up and I will come back again. We do know many 
countries have the ability to launch within the theater, for 
example, a SCUD missile, and I might note for the record, had 
every opportunity if I am not mistaken, Mr. Bolton, to put a 
chemical or biological weapon on top of those SCUD missiles. I 
find it fascinating that he, Saddam Hussein, during this 
period, did not do that. That he fired the SCUD's without 
putting it on those missiles. I assume it is because George 
senior said if you do, we will blow you away, but maybe not. 
Maybe deterrence doesn't work with him, but he had the 
capability and did not use it. I find it kind of fascinating at 
any rate. I end my question where we are here.
    We know that it is easier for nations to deal with less 
complicated means of delivery than an ICBM, and we do not have 
that capacity now. We have not fully developed our theater 
missile defenses yet. It seems to me that would be a higher 
priority than spending the money we are going to spend on 
developing a national missile defense. That is my only point, 
not whether we should jettison one versus the other, but what 
are our priorities in terms of the limited dollars we have?
    Mr. Feith. Well, we are and have been for years working on 
the capacity to intercept shorter range missiles, and as the 
general said, there are some programs that are relatively close 
to deployment that can address the threat of SCUDs, for 
example. But we have no capability now, to handle the longer 
range missile threat, and will not for some years, as hard as 
we are planning to work on this.
    The Chairman. Is there one now? Is there a threat?
    Mr. Feith. But as Senator Helms was, I think correctly, 
saying earlier, this is a threat that is growing in intensity. 
There are significant investments being made by a number of 
countries very hostile to us in their missile capabilities and 
in particular, long-range missile capabilities. We certainly do 
not want to be in a position where they get to their 
intercontinental range missile capabilities long before we get 
to our effective defenses.
    The Chairman. My time is up. I will yield.
    General Kadish. Senator, if I might on the $8 billion we 
are requesting for next year for the test data activity in 
Alaska, most of that $8 billion goes for shorter range missile 
defense.
    The Chairman. But is it roughly $3 billion for Alaska?
    General Kadish. That is correct. I think we have about $3 
billion out of the $8 billion for the ground-based system, but 
I want to make sure that not all $8 billion goes there.
    The Chairman. I thought I said that, but if I did not, the 
record is clear. The Senator from North Carolina.
    Senator Helms. Thank you, Mr. Chairman. As a matter of 
personal privilege, I think it is fairly well-known that I am 
devoted to this committee, its history contains so many great 
Senators and so many great decisions have been made by this 
committee important to our Nation, and I do not want ever to--
it could be a mistake by me and if I do make a mistake, I want 
to be called on it. I hope we can always be rude to nobody. 
Now, earlier, Mr. Bolton, Secretary Bolton was cutoff in the 
middle of a sentence with a comment that: I own this time and 
you cannot answer the question, and I would ask unanimous 
consent that 3 minutes be given to Mr. Bolton to state the 
answer that he was about to make.
    The Chairman. Without objection.
    Mr. Bolton. Thank you, Senator. I wanted to point out to 
Senator Torricelli that in fact the drift of sentiment in 
Europe, I think, has been in the direction of support for the 
administration's missile defense program. As I think I outlined 
at several points in the testimony, we have consulted very 
extensively with the Europeans, and others, other friends and 
allies around the world, and I think it is certainly, it is far 
from over in the sense that not every NATO leader has expressed 
unconditional support for the missile defense program, but I 
think attitudes over the past 3 or 4 months, particularly, they 
have been changing.
    And I think that is important for the Senate to consider as 
it looks at the role that missile defense will play as part of 
our international strategic structure. It is, I think, an 
element of American leadership to be very frank about it, that 
when we have new technologies like this, we have to introduce 
them. We have the burden of persuading the allies. We have the 
burden of moving them in our direction. That is not an easy 
task. Leadership never is, but I think President Bush has been 
directing an extraordinarily effective diplomatic campaign, and 
I think that his success in his most recent European visit and 
the support that European leaders have been giving to missile 
defense and to our analysis of the problem, which is ultimately 
to come to a political conclusion, is really very important and 
represents a significant diplomatic campaign for the United 
States and one that is bearing fruit. Thank you.
    Senator Helms. I thank you, Mr. Secretary. Now, Mr. 
Secretary, I believe you said you have been 10 days on the job. 
Is that what you said?
    Mr. Feith. Perhaps even a little less.
    Senator Helms. You have done well. I do have a question for 
you. It relates to one of the criticisms of the 
administration's missile defense plans. It is being said that 
the plans will provoke a massive Chinese buildup in its nuclear 
arsenal. I have heard that repeatedly. I regard it as 
nonsensical because Communist China has already engaged in a 
nuclear buildup. Communist China is building more accurate 
ICBM's to point at American cities. China is making its nuclear 
missiles more mobile and survivable. It is already doing all 
the things which missile defense critics claim will happen if 
the administration proceeds with this program.
    Now, given that the United States has not yet deployed any 
missile defenses, do you agree perhaps that other factors must 
be driving this Chinese buildup instead of what the critics are 
saying?
    Mr. Feith. Senator, I agree that one cannot attribute the 
modernization of the Chinese nuclear force or the increase in 
the size of that force that is underway to the Bush 
administration's missile defense program. The proof that it is 
not proper to attribute it, is that this modernization program 
of the Chinese antedates the Bush administration. It goes back 
a number of years.
    We are fulfilling the President's commitment to eliminate 
unneeded offensive nuclear weapons. The fact is that the United 
States is now reducing its own offensive nuclear forces. We are 
doing so substantially and we are doing so unilaterally, right 
away, without waiting for any opportunity to use unneeded 
nuclear forces as bargaining chips in a negotiation.
    That we are doing so should, in combination with the dialog 
that we are having with the Chinese, help explain and 
demonstrate to the Chinese that nothing that we are doing could 
justify their developing a large nuclear force. So I think it 
is wrong when critics say that our missile defense plans are 
the reason that the Chinese are developing their forces.
    Senator Helms. General, I would like for you to share 
something with me, your opinion. If you remember in September 
1999, I believe it was, the CIA said, and I am quoting, ``by 
2015, Russia will maintain as many nuclear weapons on ballistic 
missiles as its economy will allow, but well short of START I 
or START II limitations.'' Now, my question is if Russia's 
economy is the driving force behind the size of its nuclear 
deterrents, would you agree that Russia under the present 
circumstances there is unlikely and probably unable to respond 
to U.S. missile defenses with a massive nuclear buildup?
    General Kadish. Well, Senator, that is out of my line as a 
developer. I worry every day about how to build these things, 
and I would defer to the others.
    Senator Helms. I would like any or both of the other two 
witnesses to comment.
    Mr. Feith. I think, Senator, that is a correct point. The 
financial constraints on the Russian nuclear forces are 
significant, and those financial constraints, according to all 
the estimates within the U.S. Government, are going to lead to 
a large diminution in the size of Russian forces, in any event.
    Senator Helms. One other question, Mr. Chairman. Article XV 
of the ABM Treaty which we have been discussing gives the 
United States the right to withdraw from the treaty if the 
United States decides ``extraordinary circumstances related to 
the subject matter of this treaty have jeopardized its supreme 
interest.''
    Now, since ratification of the ABM Treaty in 1972, and that 
is a long time ago, the Soviet Union has collapsed, and there 
are a lot of people, and I am one of them, who feel that since 
the Soviet Union doesn't exist any more, and since that is the 
sole signatory other than us, that the treaty falls on its own 
weight, but since the ratification of the ABM Treaty, let us 
look at what's happened. The number of countries with nuclear 
weapons has doubled since 1972. The number of countries with 
ballistic missile programs has tripled. Hostile unpredictable 
regimes in Iran, Iraq, Libya, Syria, North Korea, as we have 
said over and over this morning all are working with chemical 
or biological weapons and on missiles.
    China is engaging in a massive buildup of its short-range, 
medium-range, and intercontinental-range missiles and may 
triple or quadruple the number of nuclear warheads pointed at 
the United States of America, and our cities. So my question to 
each of you, or all three of you or any one of you who wants to 
tackle that question, do you agree that the United States is 
well within its legal right to say that our supreme interest, 
our supreme interest of the United States of America and the 
American people have been jeopardized by extraordinary 
circumstances and thereby justify our withdrawing from the ABM 
Treaty?
    Mr. Bolton. Senator, for all the reasons you stated, I 
don't think there is any question that the President would be 
perfectly within his rights under article XV to give notice of 
withdrawal. It is his hope, as I said earlier, that we can work 
cooperatively with the Russians to move beyond the treaty. And 
that is a central part of the ministerial level discussions 
that will begin, but in terms of the right of the United States 
under article XV to withdraw, I think the case is clearly made 
if we choose to exercise it.
    Senator Helms. My time is up, Mr. Chairman. Thank you very 
much.
    The Chairman. A couple of housekeeping matters. For the 
record, No. 1, I don't think that Senator Torricelli was rude. 
I thought inadvertently, at least the Secretary was 
interrupting Senator Torricelli, but that is a matter for 
anyone to interpret. Number 2, when we come back, we are going 
to finish this panel. We have other questions. We will begin 
and we will come back at 2:15 when we finish with this panel, 
which ought to be in the next 15 minutes or so with Messrs. 
Perry, Cutler, Woolsey, and Smith, and then we will go to the 
third panel, and when we come back at 2:15 to continue this. 
Everyone is on notice, this hearing is for the entire day. I 
appreciate the forbearance of the witnesses, and I might add, 
Mr. Chairman, when I mentioned China, according to press 
reports, accounts of our own intelligence community said, in 
1999, that development of U.S. missile defense would lead to a 
tenfold increase of their BM or ICBM warheads versus a much 
smaller increase if we did not proceed in that way. This is not 
an analysis by missile defense critics but by our intelligence 
community. The key point is China. Yes. China is modernizing 
its arsenal, and will do so no matter what we do, but the U.S. 
intelligence community agrees that our actions on NMD will 
affect the number of Chinese missiles, will affect whether they 
resume nuclear testing, and will affect if they MIRV their 
missiles, and that is from our intelligence community, not from 
us, so we are not trying to make these things up. I would yield 
to the Senator from Massachusetts.
    Senator Kerry. Thank you very much, Senator. I want to come 
back to an area, and let me just comment. One of the Senators 
inquired about the Cochran amendment, and I think clearly 
people who voted for that, myself included, interpreted----
    The Chairman. Would the Senator yield? I think that was a 
voice vote. We all stated what our vote was.
    Senator Hagel. No. It was on the record. 97 to 3.
    Senator Kerry. There was a record vote. I remember the 
debate very well because I was working with Senator Levin on a 
component of it, but in our statements and in everybody's vote, 
because the language, and I have it right here. It is very 
short, there was a clear understanding we each had as to what 
effective meant when we talked about an effective national 
missile system with its capability as we described it, but 
equally importantly, we declared in section III the policy to 
seek continued negotiated reductions with the Russians that 
were contemplated in the ABM Treaty and of course, since that 
is the law of the land, none of us contemplated we would break 
the law of the land in order to commit deployments. It also 
contemplated we would be doing the necessary engagement with 
the Russians in order to amend the ABM Treaty.
    Now, that is a difference of interpretation, but let it be 
clear that many of those votes I dare say wanted to respect the 
law of the land, and not proceed willy nilly, but I want to 
come back. Secretary Bolton, maybe you and I can try to 
establish this. I think this baseline is so important because 
it really underscores what I think is some fuzzy thinking and 
some wishful thinking with respect to the world we are going to 
find ourselves in as we go down this road.
    Currently, the United States has about 7,300 strategic 
nuclear warheads. Russia has about 6,100. The 1991 START I 
treaty limits each country to roughly 6,000 deployed warheads. 
START II brings that down to 3,500. Now, initial talks with 
Russia during the Clinton administration on START III focused 
on getting down to 2,000 to 2,500, but let us make sure the 
record is clear, that there are serious roadblocks preventing 
the United States from reducing our nuclear arsenal to START II 
levels or below, and starting in fiscal year 1998, the Defense 
Department authorization bill included a clause prohibiting the 
reduction of strategic nuclear delivery systems to those below 
the START I treaty, and the fiscal year 2001 this year's 
Defense authorization bill conditioned the lifting of this ban 
on the completion of a new Nuclear Posture Review, which is 
under way. In addition, the Pentagon has had its own reasons 
for opposing further warhead cuts. As Bruce Blair argues, the 
strategic target list, the SIOP grew from 2,500 sites in 1995 
to 3,000 sites in the year 2000. Notwithstanding the sort of 
emergence of a new relationship we have talked about with 
Russia.
    Now general, I do not know anybody in the Pentagon who is 
talking about going below 1,500 warheads, am I correct? And 
most people are stuck at about 2,500. Is that accurate?
    General Kadish. I would defer to Secretary Feith on that. I 
am not in that business at this time.
    Senator Kerry. Fair enough.
    Mr. Feith. Senator, the Nuclear Posture Review is under 
way, and I can't comment on that until we complete the review.
    Senator Kerry. But up until this point in time, as we sit 
here today, no one has put on the table a reduction below 1,500 
nuclear warheads that we would keep and Russia would keep, is 
that correct?
    Secretary Bolton, is that correct?
    Mr. Bolton. I am not participating in the nuclear posture 
review. I can't answer that.
    Senator Kerry. I am not asking about the Nuclear Posture 
Review. I am asking about the state of plate today the Nuclear 
Posture Review hasn't come out yet. I mean, is it impossible 
for you to share with me what is a matter of public record 
today? Do you know anybody who has recommended going below 
1,500 warheads?
    Mr. Feith. I do not know anybody in the administration who 
has recommended, who has made it a public statement saying that 
we should go below 1,500.
    Senator Kerry. Now, assuming that Russia were to keep 1,500 
or more or in that vicinity, is the defense, missile defense 
system that you are contemplating building going to be capable 
of shooting down 1,500 warheads?
    Mr. Feith. No.
    Senator Kerry. And if it is not capable of shooting down 
1,500 warheads, aren't you still stuck with mutual assured 
destruction?
    Mr. Bolton. If you are asking the question whether the 
capability of mutual assured destruction still exists, the 
answer, of course, is yes, it does.
    Senator Kerry. That is what we are stuck with, correct?
    Mr. Bolton. That is the point that Secretary Powell was 
addressing in response to the question you indicated earlier.
    Senator Kerry. It took us a long time to get there, but 
gentlemen, the point is if that reality is in place, even if 
you are measuring intent, and I respect the fact I hope we 
forever live with Russia that may be a member of NATO that may 
never revert to what it was, and maybe that will alter people's 
perceptions about how many nuclear warheads we have to keep in 
that new world. China, after all, has felt quite safe with 
somewhere in the vicinity of 23, but the point is if you change 
a country's perception of its safety, based on its own 
perception, by virtue of your defense, and they are not as 
secure in what the long-term relationship might be with you, 
aren't you also then inviting them to alter the balance of 
power in order to secure a greater level of safety as they may 
perceive it?
    Mr. Bolton. If I may address that, the question of what the 
Russian perception is of our missile defense program is, of 
course, a very important one. If their perception is inaccurate 
in the sense that they do not appreciate what we have said, 
that the system is designed to protect against, that is to say, 
handfuls of missiles launched by rogue states or accidental 
launches, if they do not share or appreciate that perception, 
it is then our task to disabuse them of their misperception 
because I do not believe that we should base our defense 
policies on the acceptance of somebody else's misperception of 
the facts.
    Senator Kerry. In the long run, that would be true, Mr. 
Secretary, and I would agree with you. Ultimately I said they 
should not have a veto, but you would have to exhaust a 
remarkable number of so to speak administrative remedies to get 
to the point where you really feel you have not been able to 
bring them along, in other words. I am in favor of building a 
limited system, but I am in favor of doing it if there is 
sufficient transparency, and mutuality so that they cannot 
misunderstand what its capacities are, and if you proceed 
effectively enough in the negotiating and sharing process, one 
would hope that you are going to bring them along in a way that 
would also amend the ABM Treaty so you could have a mutuality 
of process here that doesn't run up against any barriers, but 
if we proceed unilaterally with what we are considering doing, 
building five silos soon, I understand under a new budget, we 
in fact may send the wrong messages that invite the wrong 
counter reaction. Is not that in fact a possibility?
    Mr. Bolton. Well, maybe a possibility, sure, but part of 
our diplomacy and part of what Secretary Powell and Secretary 
Rumsfeld have undertaken, I believe, with a significant measure 
of success so far, is trying to explain that indeed our 
building missile defense capabilities to protect ourselves 
against launches from states like North Korea or Iran in fact 
do not and cannot at any realistically foreseeable future be a 
threat to the Russian first or second strike capability.
    Senator Kerry. That works well for Russia, Mr. Secretary, 
but it doesn't work so well for China. And let me just finish 
the question and I will give you ample chance to answer, 
because I want to have it be a dialog, but the problem is that 
the Chinese have a completely different number of missiles 
which they have been satisfied to make judgments about their 
security for 40 years plus. And with Taiwan, and some of the 
issues that have been raised recently about sharing defense 
with Japan, the equation changes quite significantly for China 
unless they are also sharing in that process. Is that not a 
fair assessment?
    Mr. Bolton. Well, may I finish addressing the Russian point 
first, because I think that it obviously, has to be the first 
priority since they are the other party to the ABM Treaty, and 
that is the purpose of the consultations we have had to date 
and the purpose of the ministerial level and intensive 
consultations we hope will follow. I think that we need to 
pursue that further. Obviously one cannot, I am certainly not 
going to predict success at this early stage, but part of the 
process of the consultations with the Russians, I think will 
have important spillover benefits with the Chinese as well. And 
I believe that when Secretary Powell is in Beijing in a couple 
of days, that that will be part of his discussions. Quite 
clearly, the level of Chinese ICBM capability is different from 
the Russian level. And the extent of the capabilities of our 
missile defense system will look different to them than they do 
to the Russians. I acknowledge that we have got a lot of work 
to do with the Chinese, and I think that that is going to be a 
very intensive focus of our diplomacy, and as I say, it is one 
of the major issues that Secretary Powell is raising in a few 
days.
    Senator Kerry. Well, I appreciate the degree to which you 
are reaching out to Russia. I think it is absolutely critical 
in this process to be transparent, and I think you may be able 
to move to some limited deployment concept under that 
construct. It is difficult, however, to imagine how you do an 
accidental launch system that doesn't run roughshod up against 
this concept of breakout that I raised. I mean, if you are the 
Chinese looking at this and you are reduced to sort of feeling 
well, the Russians seem to be going along and they say it is 
limited, but all of a sudden once you have the technical 
capacity which I certainly hope we could develop and I am 
impressed by what we are doing, but if you have got that 
technical capacity significantly developed and you then have 
deployed a so-called limited system and you are Chinese and 
outside of it still, you have to be seriously concerned about 
the potential for U.S. breakout at any time, where once we have 
got the developed technology and developed capacity, could you 
break it out much more broadly, overwhelm their 23 missile 
system and significantly alter their perception of what kind of 
hand they are playing as a rising power on the planet. One of 
the five permanent members of the Security Council with huge 
interest with respect to the South China Sea, Southeast Asia 
and indeed Japan and the Koreas and Taiwan, so how do you 
guarantee them the lack of a breakout problem?
    Mr. Bolton. Well, I think there are two separate breakout 
questions, one with respect to the Russians, and that is a 
question that goes very much to both intentions and 
capabilities, and I think we have said in both of those 
categories we have not the intention and we do not expect to 
have the capability for a breakout against the extent of their 
strategic rocket forces and what they would be able to do, so I 
think in that sense in both the objective and the subjective 
area, if you will, I think that is something that we can make 
progress on with them.
    Senator Kerry. Would that depend upon a fairly vigorous 
verification structure in terms of deployment? I mean, 
intrusive verification?
    Mr. Bolton. I think it is hard to say at this point exactly 
how that would be done. That is part of what we have to 
explore, although in the case of the United States, we are so 
transparent that it would be hard for them not to know, I 
think, pretty much what we are doing on a fairly real-time 
basis. I think the question of China, though, is a question not 
simply of its ICBM capability, that is to say not simply a 
question of its capability of reaching the continental United 
States, but a question of its short and intermediate range 
missiles that might reach Taiwan, South Korea, and Japan as 
well. I think that, and it is that complexity, that added 
forced question that adds to the difficulty of dealing with the 
Chinese. As I say, I hope I am not being----
    Senator Kerry. I agree with that and I do not disagree with 
what you just said, which is why I strongly advocated last year 
that I think the major focus ought to be on the boost-phase, 
and almost an extension of the THAAD program which I know is in 
the budget now, and I think that is a very important piece of 
it. I think that does make a lot of sense, and the more you can 
push it to that kind of structure, I think the more acceptable 
it might be able to become. Obviously, that is more difficult 
with respect to accidental launch. But certainly with respect 
to rogue. That may be the best way to approach that, and the 
least offensive in terms of these kinds of issues we are 
raising. Mr. Chairman, thank you.
    The Chairman. Thank you very much. You wanted to say 
something?
    Mr. Feith. If I may, Mr. Chairman, I would like to note 
that comments that Senator Torricelli made and Senator Kerry 
made, and you, Mr. Chairman, have made highlight that there 
actually is, on this very important subject, agreement on a 
number of elements. It is more stimulating to focus on 
disagreements, but I think it is worth pausing a moment to 
reflect on some of the points made that establish common ground 
on both sides of the aisle, and with the administration. There 
seems to be general support for the idea of a limited missile 
defense. There is concern for Russia's view in making sure that 
as we proceed with the development of missile defenses we have 
the important relationship with Russia in mind, and the issue 
of international stability in mind, and that nothing be done 
that is reckless in that regard.
    There is a general agreement that working cooperatively 
with Russia is desirable, but letting the Russians have a veto 
over whether we proceed with missile defenses would not be 
acceptable to anybody here. There is an interest in promoting 
transparency in our relations with Russia and cooperation and 
reduction of force levels and many of the goals that have 
traditionally been attributed to the arms control process. The 
administration is intent on achieving these through this dialog 
with Russia. In fact, the fact that we are not in an 
adversarial relationship with Russia means that some of the 
things that were accomplished through the cold war arms control 
process can be taken a further step.
    At the center of this debate are concerns about how our 
progressing with missile defense plans will affect the Russians 
and whether it will drive them to enormous buildups or to 
actions that would destabilize the relationship. It is a proper 
concern and it's one that the administration shares. There is a 
difference in view as to how likely it is that the Russians 
will respond in a negative hostile unconstructive fashion to 
what we are doing. The President has taken some important steps 
that give us grounds for at least some optimism that this 
dialog can be managed to allow us to proceed with a missile 
defense system that meets these essential criteria. I think 
there is bipartisan support for that, without getting into the 
kinds of difficulties that you, Mr. Chairman, and some your 
colleagues have expressed concern about.
    So I think that there really is a possibility of moving 
forward in a harmonious fashion. I say that in light of Senator 
Torricelli's point about keeping the focus on harmony and 
minimizing divisiveness. There is some basis, I think, for 
optimism on that point.
    The Chairman. Well, Mr. Secretary, let me respond. I 
appreciate your commentary, and I think much of what you say is 
true. Let me just speak for me. The bottom line for me is, at 
the end of the day, with whatever we pay for, that whatever the 
general develops and that the administration decides to deploy 
at the end of the day, are we more or less secure?
    If as a consequence of deploying a limited system, we only 
have the ability to get 90, 95, or 99.5 percent of a handful or 
several handfuls of missiles that are fired at us by rogue 
states, if as a result of that we generate a new arms race in 
Asia, if the result of that Japan ends up being a nuclear 
power, the Korean Peninsula is nuclearized, and India and 
Pakistan respond to China, et cetera then that is not a safer 
world for me. And for me, count me out. If in fact it is 
arrived at through mutual negotiation, where it does not have 
the ill effects, that is worse than the positive effect we get, 
then sign me on. And further, is this the best way to spend our 
limited resources that now are not available as a consequence 
of the action that was taken by the Congress and the President 
relative to the tax cut? Is this the way to spend our money--we 
may argue whether it is tens of billions or hundreds of 
billions, but it is at least tens of billions. At least tens of 
billions. And that is why this is the first in a series of 
hearings on the entire spectrum of threats on which I hope you 
will cooperate with us. The entire threat analysis and where we 
expend our dollars, limited now that we have eliminated the 
surplus. And I might add, I do not want to get anybody in 
trouble, but I have spoken with three of the five Joint Chiefs 
who are not enamored with the bulk of this additional money 
being spent on a national missile defense relative to the 
conventional forces budget. You know the Joint Chiefs are going 
to be coming and saying we need somewhere between $200 and $500 
billion over the next 10 years for our wish list. Just the 
joint strike fighter costs $220 billion, so this is a relative 
deal as well. Where do we put our resources? And I want to 
point out the other thing I find interesting, which is a change 
in the attitude here, and I appreciate it. It is that we have 
embraced Russia now in a way that I never envisioned Bill 
Clinton embracing Russia, and I am not talking about looking 
into his eyes and seeing his soul.
    I think that is a useful thing for a President to do. I 
really am not taking issue with that, I really am not. It seems 
to have had the desired effect of helping the relationship, so 
I am not criticizing that, but it is amazing to me how the 
Defense Department is so secure about Russia's intentions after 
28 years of being here. I have been lectured and told a number 
of times, ``Senator, you are a young man,'' when I was 30 years 
old. ``We must look at capability not intentions, capability, 
not intentions.'' There is not a Defense planner in the United 
States of America who if told the following: ``Russia, after a 
first strike against the United States has the potential to 
have residual defense capability that would be able to handle a 
significant portion of what we could fire back, that they would 
in fact envision the possibility of a first strike.'' You are 
sitting there as a Russian planner. You sit and say a first 
strike with a reduced number of weapons by the United States, 
and we know we wouldn't strike first, but a first strike by the 
United States of America with an American capacity, if it is 
achieved, of being able to intercept any accidental launch, 
which means you have a worldwide layered system, can put the 
United States in the position that someone could contemplate 
that the retaliatory capability would be so diminished, that it 
may be worth their effort. That is what Russian planners do. 
That is in my experience, and it used to be anyway up until a 
month ago, what defense planners do in the United States e.g., 
the worst case scenario. And when you are disabusing the 
Chinese, Mr. Secretary, also disabuse some of your allies in 
the Senate. Disabuse some of the Senators who stand on the 
floor and say this is about defending against China. I will get 
you the quotes from very bright, very intelligent, very 
supportive national missile defense Republican Senators. So the 
disabusing is not just to start in Beijing, but the disabusing 
should start here. We send confusing signals.
    And in international relations, it is a funny thing. Words 
matter. Words matter. I yield to the Senator.
    Senator Kerry. Can I just make one brief comment? Would you 
yield just for a moment? I appreciate it, Senator. Just two 
things very quickly.
    One, I hope as we go along, No. 1, I liked your summary 
pretty much, except that I would add to it the fact that we 
have to also measure what kind of threat this might augment 
from an Iran or an Iraq if you have built it or from a North 
Korea. If you do go ahead and deploy the system, does it then 
drive them into other sectors where in fact you get back to 
being more exposed than you meant to be? That is No. 1.
    Number 2, I hope we will get away from this grandiose 
notion about this new framework that changes the concept of 
mutually assured destruction. I hate it, but I think we are 
stuck with it. And I think that if you are limited in the way 
you are talking about being limited and you are still going to 
have 2,500 warheads or 1,500 pointed at each other, potentially 
pointed at each other available to be pointed, depending upon 
the stage of relations, we are stuck with that relation 
ultimately, and as a military planner, that is ultimately what 
the generals and admirals are going to sit in the Pentagon and 
figure in as they think about war gaming what a particular 
conflict may lead to. That those could again be pointed, and 
that is where the progression of each person's react and act 
goes to.
    A time comment. There was a time when we were looking at 
other far less expensive ways of ``defending'' against 
unauthorized and accidental launch. Rogue is a different issue. 
Rogue is rogue. But it seems to me if our newfound relationship 
with Russia is indeed what you say it is, so much so that you 
see a different equation, could we not have a far more 
intrusive joint protocol which would almost make impossible 
unauthorized launch a level of security with joint keys. I 
mean, if the relationship indeed is what you say it is, if this 
is a party potentially to NATO ultimately, one could envision 
that happening. And with respect to the accidental launch, we 
used to talk about global permissive action links [GPALs]. Now, 
it seems to me that missile defense is a pretty expensive way 
to take care of an accidental launch. If it is indeed 
accidental, a technician ought to be able to push a button on 
the panel and blow the thing up before it gets anywhere. And 
yes, we have that technological capacity. That is a lot cheaper 
than building and deploying a system all over the globe that 
creates this incredible change of balance. Just push a button 
and the thing blows up like you blow up a test missile when you 
are firing it and it goes awry and you do not want it to go 
into a populated area. So maybe we ought to be a little more 
creative and think about how to protect ourselves for far less 
money against unauthorized and accidental launch and deal with 
the rogue, which could be done in a very simple nonthreatening 
way to China, Russia, and the rest of the world.
    The Chairman. I hate to do this, Senator, but I am a rogue 
for letting you, having let you go on.
    Senator Hagel. Mr. Chairman, thank you. And again, I want 
to thank our witnesses again this morning for coming up here. 
Understand that it had been under some considerable strain when 
you have got your National Security Advisor on her way out of 
town to followup on President Bush and President Putin's 
agreement. Secretary Powell is out of town, but as you all 
know, you have been around here, it is life in the fast lane, 
so thank you for coming up here. And I think your testimony was 
on point. All three of you. And I for one, as a member of this 
committee, appreciate it. The Chairman and I were talking a 
couple of minutes ago about the nuclear theorist, nuclear 
theology, and we tend to drift into those kinds of universes 
when we talk about these things, and we lose sight of the 
reality of what missile defense or indeed any defense 
capability is about.
    It is about real consequences, and it was noted this 
morning that 10 years ago, the Americans in Desert Storm were 
on the receiving end of one of these missiles, and just for the 
record, to enlighten our committee, there were 28 Americans 
killed, and 99 wounded in that SCUD attack 10 years ago. It was 
a missile sent into our barracks in Dhahran, and that is what 
we are talking about here this morning. That is reality. That 
is not theory. That is not theology. That is reality.
    And going back to the point of this debate, the point of 
what the President is trying to do and the point of what the 
Congress did 2 years ago and the point of Chairman Biden's 
hearings is to get us focused on making the world a safer place 
so that we do not blow each other up--which certainly we have 
the capability of doing. And all the rest of it is important, 
but it is not as critical and to the point as preventing that 
accidental or intentional effort by someone to do damage and 
destroy, and use a nuclear bomb, which we have had little 
experience with is devastating. We all accept that, but when we 
talk about the possibility of, would North Korea or Iraq or any 
rogue nation really dare obliterating their country knowing 
full well that we are sitting there with 7,000 nuclear weapons. 
Are they crazy? We should factor into that not just the 
unpredictability and the uncertainty of this but the blackmail 
dynamic of this. Now, let us go back 10 years again. And if Mr. 
Saddam Hussein would have had the capability to deliver and 
maybe he did, a nuclear weapon or biological weapon. And he 
made the bargain with us.
    You give me Kuwait, or I will in fact take out one of those 
cities, and all the other pieces in this, maybe not an American 
city, by the way, maybe Paris, general, if you were asked that 
question, but those are the eventualities we are looking at 
here over the next 20 years. So when we talk about just the 
precision dynamic of defense here, and would Saddam Hussein or 
any other irresponsible leader in the world today really risk 
this? He might. He might. This is not only a defense issue. 
This is the deterrent issue.
    Now, let me ask the question that as far as I know has not 
been asked. If we are not able to make progress with the 
Russians, and we are not able to come to an agreement with the 
Russians on abrogating ABM or adjusting or amending ABM, and we 
go our separate ways then, each of you, I would appreciate 
answering this question: Do you think the President and the 
Congress should walk away from missile defense that in fact 
would give us no other option other than to violate the ABM 
Treaty or not do it? Secretary Bolton?
    Mr. Bolton. I think the President has made it very clear 
that his strongest hopes are that we can move cooperatively 
with the Russians, move forward together with them to move 
beyond the ABM Treaty, and that we intend to consult 
intensively to try and do that, and we begin optimistically. 
But that if it does not succeed, he is prepared to exercise our 
withdrawal rights.
    Senator Hagel. You think that is a responsible action of 
any President of the United States to put the security of his 
country and allies first?
    Mr. Bolton. That is his highest constitutional obligation.
    Senator Hagel. Mr. Secretary.
    Mr. Feith. I agree with what Secretary Bolton just said, 
and I think it is also worth noting that no one in the 
administration, when there is discussion of moving beyond the 
ABM Treaty, is talking about violating the treaty. Within the 
treaty's terms, the parties are permitted to withdraw with 
notification.
    Senator Hagel. Yes. And that is an important point, so you 
think it would be the responsible action of any President to in 
fact, if we cannot get an agreement, to withdraw and in fact 
build that missile defense system?
    Mr. Feith. Yes, sir.
    Senator Hagel. General Kadish.
    General Kadish. No further comment, Senator.
    Senator Hagel. I want to also revisit an issue that has 
been talked about considerably this morning, and that is, I 
think, a misperception that the United States is traveling this 
road in a unilateralist way, that somehow, we are staking out 
our position in missile defense and essentially the hell with 
the rest of the world. I don't think that is accurate for many 
reasons. I think we have explored some of the reasons this 
morning, but as I close, Mr. Chairman, I suspect everyone is 
ready for lunch, or certainly a break.
    I would make this observation. In my opinion, I don't think 
there has been a nation on the face of this Earth in the 
history of mankind that has done more to preserve the peace of 
the world than the United States of America--certainly over the 
last 50 years. You can measure that by any means. Resources we 
have put into troops we have stationed in forward deployments 
all over the world, all the things that we do and we have done. 
We have made mistakes. Absolutely.
    But to somehow suggest that the United States is taking a 
unilateral course basing our policy only on our own selfish 
self-interest is just wrong. And it is inaccurate. And that 
issue needs to be addressed, especially in light of some of the 
things that happened in Europe over the weekend, and it bothers 
me some that we are not talking about those things enough. And 
it seems that we in the Congress and other policymakers, 
certainly Americans, are very timid about addressing that 
issue. We do not want to appear arrogant. We do not want to 
appear self-centered, and that is appropriate. That is right. 
But at the same time, let us keep some balanced historical 
perspective here that in fact if we go forward, and I hope we 
do, and I believe we will, with the missile defense system, it 
will be in not only the interest of this country, of course, 
any sovereign nation will always respond to their best 
interests. They must.
    But it will also be in the best interests of our allies. We 
can cooperate with Russia, with China, and the world, and I 
conclude, Mr. Chairman, with that comment because it doesn't 
often get any play. Not only in a hearing like this, but in any 
forum do we have an opportunity to say those things and for the 
three of you as is the case with the chairman who has devoted 
30 years of his life to wrestling with these imperfect 
complicated, tough issues, I thank you, Mr. Chairman.
    The Chairman. Thank you. Let me say that I share the 
Senator's enthusiasm for the intentions of the United States, 
and I share his view that we do not often talk enough about our 
conduct and our intentions, but I remember when I was in grade 
school, when I would misbehave, the nuns would make me walk to 
the blackboard after school and write 500 times on the 
blackboard, ``The road to hell is paved with good intentions.''
    The question is, is what we are proposing going to 
accomplish what we all assert we wish to have accomplished? All 
of this is premised upon the immediate, a limited defense. It 
is premised upon an assumption that I have yet to see anyone 
demonstrate, that has never been confirmed by actions in 
history. And that is that a nation state is not susceptible to 
deterrence. And therefore, because they are not susceptible to 
deterrence, we must move in order to build a system that is 
able to intercept anything they send our way because they are 
not susceptible to deterrence.
    My friend from Nebraska, and he is my friend, he really is 
my friend. I have great respect for him. He pointed out, as is 
appropriate, that 10 years ago, a number of brave American 
soldiers stationed abroad were taken out by a missile, but that 
is not what this is about. This is about a weapon of mass 
destruction. We would not be doing this, for example, if in 
fact God came down and sat in the middle there and said, ``By 
the way, North Korea will have a long-range capability of 
getting a missile to the United States that will only have a 
conventional weapon on it.'' I doubt whether we would be 
focusing this much on it if that were the case.
    There is no question based upon the briefings I have gotten 
that our intelligence community thought that the Iraqis were 
capable of putting something other than a conventional warhead 
on top of a SCUD missile. That is why the Israelis ran around 
with gas masks on. It is interesting to me that the most 
certifiable rogue any of us can come up with since Hitler is 
the guy who sits in Iraq right now, a mad man, as we 
characterized him, a guy impervious to international concerns, 
a guy who is only interested in himself. He had the capacity to 
use a weapon of mass destruction. We know he had biological 
weapons. We know he had chemical weapons. He did not use them. 
I only raise that because with 500,000 forces heading down his 
way, he at least was under the impression we were not going to 
stop, even though we weren't certain what we were going to do, 
and he did not use them. He did not use them.
    Now, I think that flies in the face, not absolutely, but it 
flies in the face of the assertion so blatantly made that we 
know these guys do not yield to deterrence. I find that a 
preposterous statement. Maybe they are less inclined to. I do 
not know the evidence yet of that. I have not seen any. When 
they had the capacity, thinking that they were about to be 
annihilated. I know I have heard some say he knew we were going 
to stop. Well, he knew something we did not know. He knew 
something we did not know at the time, and so I think it is 
worth for us, and I hope no one is suggesting, and I know you 
are not, that we should not be examining the basic premise 
here, the basic premise and whether or not the allocation of 
our limited resources is best allocated in this way. This idea 
of blackmail. I remember, in the Clinton administration, the 
scenario was Kim Jong-il is going to wake up one morning and 
decide to take South Korea. It was actually proposed. It came 
out of the Department of Defense and other places. And he is 
going to pick up the phone and call the National Security 
Advisor or someone and say ``we are coming.'' If your 30,000 
troops engage or try to stop us, we are going to use a nuclear 
weapon or a weapon of mass destruction. We are going to fire it 
on you. And so the President is going to call his National 
Security Advisor and say ``What do we have here''? ``Well, we 
have an unlimited missile defense system.'' ``Well, what 
options does it give me''? Well--at the time we were talking 
approximately 90 percent--so you can get the vast majority of 
the overwhelming number of the missiles coming our way.
    The President says ``OK, they fired 20, what do we get''? 
Well, based on the calculus as I remember coming from the 
Defense Department, three may get through. Now, the President 
has got an option, he says, ``Oh, I am only going to lose San 
Francisco, Chicago, and Dallas. Go get them.'' I think the 
basic premise is preposterous. The basic premises are 
preposterous from my point of view. I do not know what option 
it would give me if I were President. Am I any less or more 
likely to give up Kuwait because I am going to lose only three 
cities instead of 10 cities? Or one city? I do not quite get 
this. And I do not quite understand why.
    Deterrence no longer has the value that it has had in the 
past. But the administration witnesses, I acknowledge, and I am 
pleased as always, have been extremely forthcoming. I have 
additional questions and other members may that we will submit 
in writing to you.
    [The questions and responses can be found on page 167.]
    The Chairman. General Kadish, I have listened to and have 
been briefed by you a number of times. I mean this absolutely, 
I sincerely admire your professionalism. I admire the way you 
answer questions. You are right on point. You are on the 
button. You just say what you know and you stand by it, and I 
also admire the incredible breakthroughs you have made. Please 
do not misunderstand--none of us who are skeptical about 
replacing the system, that has been in place for a while, with 
a new system, which we do not know what it is, are any less 
mindful of or any less proud of or any less awed by what you 
have been able to accomplish. It is, as my kids would say when 
they were younger, it is awesome. Absolutely awesome. But you 
have been frank to state we are not in a position to deploy a 
national missile defense at this point, and so the idea when 
people talk about how this is a real world test is wrong; this 
test was not a real world. It is a necessary test to get to a 
real world test. But it is not a real world test. It is not a 
real world test, and I will not take the time now, but I will 
submit for the record the statements on countermeasures, and 
the statements and our own Defense Department's analysis of 
countermeasures and capabilities of other countries, and the 
ability of our
country to deal with those countermeasures. I would just submit 
them for the record.
    [The information referred to follows:]

Director Operational Test and Evaluation Report in Support of National 
      Missile Defense Deployment Readiness Review--10 August 2000

                          VI. Recommendations

                           A. FLIGHT TESTING

1. Testing Complexity
    Testing is currently designed to accommodate an aggressive pace of 
development. Flight testing, however, needs to aggressively increase in 
complexity to keep pace with NMD C1 development and to adequately 
stress design limits, particularly for the missile system.

  <bullet> Target suites used in integrated flight tests need to 
        incorporate challenging unsophisticated countermeasures that 
        have the potential to be used against the NMD C1 system (e.g., 
        tumbling RVs and non-spherical balloons). Use of the large 
        balloon should be discontinued, as it does not mimic in any way 
        the current test RV. True decoys that attempt to replicate RV 
        signatures as well as balloon-type countermeasures that have 
        been examined by the Countermeasures Hands-On Program (CHOP) 
        need to be integrated into flight test target suites.

  <bullet> Engagement times of day and solar position need to be 
        planned to stress the acquisition and discrimination process by 
        all of the sensor bands. Additionally, the effects of weather 
        on radar, telemetry and satellite operations need to be tested 
        either during intercept or risk reduction flight tests or other 
        targets of opportunity. Radar discrimination, IFICS 
        transmission/reception, and DSP/SBIRS launch detection may be 
        operating at their technical limits, and heavy rain or dense 
        cloud conditions may have significant effects on their 
        performance.

  <bullet> Category B engagements are engagements in which an 
        interceptor is launched against a target cluster (based on 
        radar track) before the threat RV is resolved and 
        discriminated. Since such engagements are expected to be common 
        during NMD missions, this capability will need to be 
        demonstrated in an integrated flight test before IOC. Such 
        engagements are currently not included in the defined test 
        plan.

  <bullet> Multiple engagements will be the expected norm in tactical 
        situations, therefore, simulated extrapolation from 1-on-1 
        scenarios to M-on-N need to be validated through intercept 
        flight testing. Multiple engagements of at least 2-on-2 
        scenarios need to be flight tested, as too many technical 
        challenges to the system exist beyond merely the command and 
        control software. Identifying the impact of the interaction of 
        one kill vehicle to another and assessing the performance of 
        ground tracking systems in M-on-N scenarios lead to several 
        questions:

    --How will an EKV respond to another EKV in its field of view, or 
            multiple RVs in its field of view?

    --How is the performance of an EKV seeker affected by a thrusting 
            EKV or another EKV intercepting an object in its field of 
            view?

    --Can the X-Band radar simultaneously track multiple RVs that 
            require different antenna orientations?

    --Can the IFICS communicate with multiple KVs?

  <bullet> Radar discrimination with limited a priori knowledge of the 
        target complex needs to be flight tested prior to the FY01 
        radar decision. This type of test (``pop quiz'' type) of flight 
        test needs to be executed, at least during a risk reduction 
        flight. This test should employ multiple decoys designed to 
        mimic the RV radar signature but should not provide 
        unrealistically detailed target or decoy information to the 
        GBR-P radar prior to the engagement.

2. Testing Artificiality
    Current test range limitations need to be removed to adequately 
test the NMD system.

  <bullet> Use of the FPQ-14 range radar as the source of Weapon Task 
        Plan data needs to be phased out. Target trajectories or radar 
        surrogate locations need to be changed to permit the organic 
        NMD system to provide early radar cueing with the appropriate 
        degree of position and velocity accuracy.

  <bullet> Engagement geometries need to be devised that will provide 
        higher speed engagement conditions for the EKV, as would be 
        expected in the C1 timeframe with the tactical booster.

3. Operational Realism
    Avoidable limitations to operational realism must be removed before 
conduct of IOT&E.

  <bullet> Rehearsed engagements with a priori knowledge of target 
        complex, target trajectory, and time of launch need to be 
        discontinued during operational testing. Situations employing 
        lack of a priori knowledge also need to be examined in DT to 
        assure acquisition and discrimination algorithms are properly 
        designed.

  <bullet> The flight testing artificialities addressed above must be 
        eliminated for IOT&E. Alternative intercept test scenarios must 
        be devised that employ inbound or crossing targets rather than 
        outbound relative to the Early Warning Radar. GPS and midcourse 
        radar tracking using a transponder cannot be used by the NMD 
        system to perform its mission. The Weapon Task Plan must be 
        prepared based on organic NMD tracking systems. Option for 
        higher speed intercepts must be investigated.

  <bullet> Deployed element usage needs to be maximized for IOT&E. The 
        X-Band Radar and/or Upgraded Early Warning Radar should be 
        used. Deployed IFICS ground antennas and tactical 
        communications should also be tested as part of the IOT&E.

  <bullet> Multiple engagements must be accomplished during IOT&E. 
        Furthermore, this type of engagement should be flown in IFTs 
        before IOT&E to maximize the chance of success in IOT&E.

4. Spares
    Plans for providing adequate spares should be developed, especially 
for targets where current target components can be as much as 30 years 
old.

  <bullet> Adequate GBI booster spares need to be procured as a risk 
        reduction effort, to preclude further schedule slip should a 
        failure occur in preflight booster testing.

  <bullet> NMD is currently employing what is referred to as a 
        ``rolling spare'' concept for its targets. It can take up to 
        six weeks to prepare for and reset the IFT launch date. A ``hot 
        span'' approach for which an additional target is prepared at 
        the target launch site would eliminate the need to stand down 
        operations at the interceptor launch site in the event of a 
        failed target launch. This could be more significant as flight 
        testing becomes more complex or critical, such as in the small 
        number of OT shots, when a failed target launch might be much 
        more costly to the program. The delay to the target launch 
        during IFT-5 is a strong example of this potential problem. If 
        the last minute target problems could not have been corrected, 
        IFT-5 would have slipped an additional month.

                    B. GROUND TESTING AND SIMULATION

1. Hardware-in-the-Loop (HWIL)
    An innovative new approach needs to be taken towards NWIL testing 
of the EKV, so that potential design problems or discrimination 
challenges can be wrung out on the ground in lieu of expensive flight 
tests.

  <bullet> HWIL development needs to focus on the EKV, since this is 
        the most challenging technical area for NMD hit-to-kill. 
        Funding and development needs to be accelerated or the required 
        capability in this area will not be available to support C1 
        testing.

  <bullet> The HWIL facility and test approach needs to be done at the 
        highest level of EKV system integration achievable, so that all 
        component interaction, from sensors to the divert systems, can 
        be examined simultaneously.

  <bullet> An innovative approach should be taken that provides an 
        interactive scene generation capability that adapts to changes 
        in EKV and target aspect angles.

  <bullet> Scene generation should have the capability to challenge 
        target acquisition by the EKV, discrimination and homing 
        algorithms with anticipated or potential countermeasures.

2. Lethality
    Current analysis of exoatmospheric lethality is limited to computer 
simulations and light gas gun tests.

  <bullet> New techniques or facilities need to be developed to achieve 
        higher speed intercepts on the ground in full scale to validate 
        hydrocode simulations and \1/4\ scale light gas gun tests.

  <bullet> Investments need to be made in the Holloman High Speed Test 
        Track to permit lethality testing of medium to high fidelity 
        representations of the kill vehicle to at least the low end of 
        the range of potential intercept velocities.

3. Simulation
    LIDS development has taken much longer than originally promised. 
Additionally, it is practically a hard-wired simulation that only the 
Boeing developers can modify. This precludes independent, Government 
sensitivity analysis and assessment.

  <bullet> LIDS needs to evolve to a fully validated high fidelity 
        simulation. It should be flexible enough to allow both DOT&E 
        and Service Operational Test Agencies to examine subsystem 
        drop-outs and graceful degradation or other areas of 
        sensitivity or design margin analysis. There is currently no 
        apparent plan by the LSI to do this.

                         C. PROGRAMMATIC ISSUES

1. Performance Criteria
    Discrimination by the radar and weapon system (EKV) should be given 
more weight in performance criteria. All other aspects of the NMD 
performance requirements appear to be within the state of the art of 
technology. Discrimination by the EKV on the other hand will be the 
biggest challenge to achieving a hit-to-kill intercept. Decoys that 
provide a close representation of the RV or modify the RV signature 
have only been minimally investigated.

2. ORD Reliability Requirements
    The NMD requirements for reliability, availability, and 
effectiveness are specified in the NMD ORD. When these requirements are 
allocated to the individual elements of the NMD system, the resulting 
reliability performance standards are unrealistically high as well as 
difficult to test. As the program develops, it may be necessary to re-
examine the overall requirements for NMD reliability and availability.

3. Risk Reduction Efforts
    The following programs can make significant contributions to risk 
reduction efforts if properly utilized.

  <bullet> Minuteman Missile OPEVAL testing needs to continue to be 
        leveraged, not only for IFT rehearsal, but also to look at the 
        impact of countermeasures to ground radar systems.

  <bullet> Ballistic Missile Critical Measurements Program tests need 
        to be conducted to examine countermeasure signatures and 
        discrimination algorithms.

4. Countermeasures Hands-On Program (CHOP)
    BMDO sponsors a red team approach to the possible development of 
countermeasures. Operated at very modest funding levels, CHOP develops 
and demonstrates ROW countermeasures that could be challenging for U.S. 
missile defense systems. By charter, CHOP does not try to develop 
``sophisticated'' countermeasures. However, the unsophisticated, ROW 
countermeasures they do develop are realistic and challenging and 
should be included as an integral part of the NMD flight testing and 
ground test HWIL simulation programs.

  <bullet> The CHOP program needs to be supported for aggressively 
        examining the potential of states of concern to develop more 
        sophisticated countermeasures.

  <bullet> The Defense Intelligence Agency (DIA) needs to begin 
        tracking CHOP experiments. They should then investigate and 
        bound the ability of states of concern to develop and apply the 
        technologies that the CHOP teams use in their experiments to 
        counter an NMD system. This information should then be fed back 
        to CHOP management for planning and executing CHOP 
        developments.

5. Operations in a Nuclear Environment (OPINE)
    The NMD Program Office chartered a red team to look at OPINE 
testing and facility requirements for the EKV. The red team found the 
Raytheon-proposed test and parts screening program to be inadequate.

  <bullet> OPINE testing needs to be conducted at the EKV system level 
        in nuclear environments that replicate expected operational 
        conditions, including expected flux levels.

  <bullet> OPINE test facilities at Aberdeen Proving Ground and Arnold 
        Engineering Development Center need to receive appropriate and 
        timely funding to support EKV OPINE testing required to begin 
        in FY02.
6. Hit to Kill
    The NMD Program Office should investigate lethality enhancement 
options for dealing with potential countermeasures, using relatively 
simple techniques, that try to alter the effective RV size or shape in 
an attempt to foil discrimination and aimpoint selection.

    The Chairman. Again, this is in no way to imply that we 
shouldn't move toward it is to imply that I hope the devil that 
when moving forward we do it in such a way that we do not 
artificially, ahead of what was the normal testing regime, and 
deliberately test to break out of the ABM Treaty when you get a 
very small bang for the buck in terms of what you will receive 
from that test relative to your goal. That is what some 
skeptics are wondering about, No. 1. Number 2, that we will be 
in a situation where, at the end of the day, we are very coldly 
calculating about what is realistic, hardheaded about what is 
likely to happen in terms of the efficacy of the technology we 
are trying to deploy, and cognizant of the results that may 
flow from the deployment of that technology with or without 
agreement or consultation with anyone else in the world.
    And so again, this is just one of a series of hearings that 
will be held on assessing various threats, and I truly 
appreciate the time you have given us. We have trespassed on 
your patience a long time and did not give you a chance for a 
break here. And as I say, the time ran away from us here, but I 
appreciate your willingness to be here.
    I misspoke earlier when I said we would be back at 2:15. I 
understand the rest of the committee was told that we will be 
back at 2:30, and it wasn't 2:15, so we will be back at 2:30. 
One of our witnesses who was on another panel has a time 
constraint, so we will have him join the next panel. Dr. 
Cornwall, he has a time constraint and we will let him join the 
next panel and he will be the first one to make a statement. He 
probably won't be able to stay for the whole panel. But again, 
thank you very much, gentlemen, and we are adjourned until 
2:30.
    [Whereupon, at 1:15 p.m., the committee adjourned, to 
reconvene at 2:30 p.m., the same day.]
                              ----------                              


             Additional Statements Submitted for the Record


             Prepared Statement of Hon. Christopher J. Dodd

    I would like to take a moment to congratulate the Chairman for 
holding a hearing on this very important issue that undoubtedly has 
profound implications for our national defense and global security. I 
apologize for being unable to attend the morning session due to a 
scheduling conflict. Please know that I will review the materials and 
statements in a careful and critical manner. I am appreciative of the 
witnesses who have taken the time to testify on this critically 
important matter of National Missile Defense. Amongst these witnesses 
are very senior players in the Clinton administration with a diverse 
and vast array of experience and expertise in all aspects of foreign 
policy generally and National Missile Defense specifically.
    I know that there are deep concerns associated with the development 
of a National Missile Defense system. For the record, the idea of 
creating a guided missile system to intercept incoming hostile 
ballistic missiles is not new. Since the 1950s, the United States has 
been exploring, in one way or another, methods of constructing a 
missile defense system that is consistent with domestic priorities, 
defense and diplomatic concerns, arms control treaties, and reasonable 
costs. Historically, I have opposed the carte blanche deployment of a 
national missile defense system. Clearly, such factors as cost, 
effectiveness, and the arms control process must be taken into careful 
consideration.
    The National Missile Defense Act of 1999, which had widespread, 
bipartisan support, required the deployment of a National Missile 
Defense system ``as soon as technologically possible.'' However, there 
were two important provisions included in this legislation that seem to 
have been overlooked or forgotten during this debate. The first 
provision requires that the National Missile Defense program be subject 
to the annual authorization and appropriations process. Therefore, each 
year Congress can strike the appropriate balance between national 
missile defense and other priorities. The second provision made it 
clear that the United States remains devoted to nuclear arms control. 
For more than 50 years, arms control has been a central tenant of our 
national security, and any missile defense system must improve, not 
threaten, that security.
    On May 1, 2001, in a speech to the National Defense University, 
President Bush announced his administration's strong commitment to the 
development and deployment of a national missile defense system. He 
also spoke of making changes to the 1972 Anti-Ballistic Missile Treaty 
or at some future point abrogating it entirely. I am concerned that 
such a move, if done unilaterally, would weaken, rather than strengthen 
our national security by alienating our allies, and forcing Russia to 
maintain a more capable nuclear deterrent than it might otherwise 
pursue. In addition, China might then choose to increase its own 
nuclear program, which would likely result in similar buildups in India 
and Pakistan.
    Part of the uneasiness with this respect to this issue among many 
in Congress and our allies around the world is the Bush 
administration's failure, up to this point, to articulate what exactly 
its plan is with regard to National Missile Defense. I am, however, 
encouraged by recent steps taken by President Bush, specifically the 
President's meeting with Russian President Vladimir Putin last weekend 
at the Group of Eight summit in Genoa, Italy. It is my sincere hope 
that these talks can lay the foundation for progress on many issues of 
national and global security, including national missile defense and 
nuclear arms control, with our erstwhile rival. In my view, it is 
critically important to fashion cooperative agreements and 
constructively engage our allies in Europe and around the world with 
regard to the important issues relating to our national defense and 
global security. In order to allay legitimate concerns in the 
international community and to preserve global security, a delay of the 
deployment of a National Missile Defense system may indeed be 
warranted. While no foreign government should hold veto power over our 
pursuit of national security, we should seek the consideration of the 
global community when it is compatible with our national interests. The 
fruitful discussions at the Group of Eight summit in Genoa, Italy, may 
represent an important first step.
    It is unclear when the technology will be available to field a 
reliable national missile defense system, and this technology may not 
be ready for some time. I believe we must prudently advance the 
research and testing of the system and learn from recent test successes 
as well as failures.
    It is important to note that the Bush administration has made the 
behemoth $1.3 trillion tax cut its highest priority and has served as 
the centerpiece of the administration's domestic agenda. But, the 
implications of the tax cut will have profound effects on many other 
areas of concern--including funding for many critical priorities, the 
National Missile Defense program and the defense budget included. 
Regrettably, the tax cut threatens to siphon away needed investments in 
many areas, including funding in the research and development of new 
national defense programs, national missile defense and theater missile 
defense chiefly among them. It is my hope that we can continue to make 
progress in the development and testing of a National Missile Defense 
system within the confines of the 1972 ABM Treaty and with constructive 
engagement with our Allies in Europe, Russia, China, and the 
international community.
    I look forward to hearing from witnesses today, and I will ask 
questions at the appropriate time.

                                 ______
                                 

             Prepared Statement of Hon. Russell D. Feingold

    Thank you, Mr. Chairman, and thank you for calling this important 
hearing.
    Welcome, Secretary Feith, Secretary Bolton, and General Kadish.
    While I did not oppose legislation authorizing development of a 
missile defense system, I have serious concerns about this particular 
proposal for a number of reasons. I am concerned about the cost of such 
a system, for which there is still no realistic estimate.
    I am concerned about the provocative impact that this system could 
have on our relations with our friends and allies.
    I am concerned about the impact that this system could have on the 
destructive ambitions of potential enemies who would seek to thwart it.
    And I am concerned about the impact that this system could have on 
our relationship with Russia and on the careful balance of arms control 
we have achieved over the past 30 years.
    Many observers argue that the deployment of even a limited missile 
defense system could spark another arms race that could plunge us into 
the uncertain depths of another cold war.
    Thus, we should proceed cautiously, and we must do so within the 
limits of our ability to pay for such a system and we should do so 
within the framework of the Anti-Ballistic Missile Treaty.
    The ABM Treaty has served our interests well for almost thirty 
years, and it is the foundation upon which our strategic relationship 
with Russia is built. To abandon this treaty now would be akin to 
removing the cornerstone upon which this carefully structured 
relationship rests.

                                 ______
                                 

               Prepared Statement of Hon. Michael B. Enzi

    Thank you, Mr. Chairman. Thank you for holding this hearing today 
and I want to commend your active leadership in foreign relations and 
defense-related policy issues. Several of our congressional colleagues 
and many outside the government have shown strong interest in deploying 
a ballistic missile defense to protect the United States from attack. I 
strongly support National Missile Defense (NMD) and believe that the 
United States must amend or abrogate the ABM Treaty so that it can 
pursue a more robust defense.
    While I understand my colleagues' concerns about NMD, I believe the 
United States must continue to develop such a system. To address the 
threats of the 21st century, we need a new concept of deterrence that 
includes both offensive and defensive forces. Today, the list of 
countries with weapons of mass destruction and ballistic missiles 
includes some of the world's least responsible nations. For example, 
North Korea and Iran are continuing to test more advanced ballistic 
missiles.
    These nations seek weapons of mass destruction to intimidate their 
neighbors and to keep the United States and other responsible nations 
from helping allies and friends in strategic parts of the world. When 
rogue nations such as these gain access to this kind of technology, it 
illustrates just how important it is for us to protect our nation and 
our troops abroad. In the less predictable world of the 21st century, 
our challenge is to deter multiple potential adversaries not only from 
using weapons of mass destruction, but to dissuade them from acquiring 
weapons of mass destruction and missiles in the first place.
    The ABM Treaty prohibits nationwide defense, but permits the United 
States to deploy up to 100 interceptors for long-range ballistic 
missiles at a single site. I have strong concerns that the ABM Treaty 
bans development, testing, and deployment of many of the most promising 
technologies and basing modes for strategic missile defense, like sea- 
and air-based defenses.
    The United States has pursued the development and deployment of 
defenses against long-range ballistic missiles since the early 1950s. 
The Bush administration favors a more robust NMD program, that is 
likely to include land-, sea- and space-based assets. We need a robust 
development and testing program to determine what works. To criticize 
the Bush administration's approach on the effectiveness or cost grounds 
of the NMD now, before we have been able to pursue our development and 
testing program, is premature.
    I support President Bush's willingness to work with Russia to craft 
a new strategic framework that reflects our nations' common interests 
and cooperation. I believe the new strategic framework should be 
premised on openness, mutual confidence, and real opportunities for 
cooperation, including the area of missile defense. This framework 
should allow both countries to share information so that each nation 
can improve its early warning capability and its capability to defend 
its people and territory. Furthermore, the framework should focus on 
cooperation to strengthen and enlarge bilateral and multilateral non- 
and counterproliferation measures.
    Thank you again, Mr. Chairman, for holding this hearing today. I 
know it is unclear what direction missile defense will take in the 
future, but I welcome the witnesses and look forward to hearing their 
testimonies. I believe these NMD capabilities are not an alternative or 
substitute for traditional deterrence, but rather an essential means to 
enhance deterrence against the new threats of today, not those of the 
past.

                              ----------                              


                           AFTERNOON SESSION

    The committee met, pursuant to notice, at 2:35 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Joseph R. Biden, 
Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Bill Nelson, Lugar, and 
Chafee.
    The Chairman. The hearing will come to order. I thank the 
next panel for being here. On the panel is Hon. William J. 
Perry, Berberian professor and senior fellow, Institute for 
International Studies, Stanford University, better known to us 
as former Secretary of Defense; Hon. Lloyd N. Cutler, senior 
counsel, Wilmer, Cutler & Pickering, who has been involved in 
about every major negotiation, since I have been in the U.S. 
Senate, relating to strategic doctrine; Hon. R. James Woolsey, 
a partner at Shea & Gardner, but also former Director of the 
CIA and Defense Department official and a man of great 
knowledge, and a man who I have disagreed with lately, but I 
still love him; Hon. David J. Smith, president of Global 
Horizons, Inc.; Dr. John M. Cornwall, professor of physics, 
University of California Los Angeles, and professor of science 
and policy analysis, RAND Corporation Graduate School in Los 
Angeles. And with the indulgence of the panel he has--and he 
let us know well in advance--a plane he has to catch, and with 
the permission of the rest of the panel I would like to invite 
Dr. Cornwall to deliver his testimony first, and doctor, I may 
have a question for you right then and there, but if not, as 
long as you can stay, we would like you to. We understand that 
you may not be able to, and we will submit some questions in 
writing to you if that is appropriate.
    With that, why don't we begin. More of my colleagues are 
coming, I should note for the panel. Each of the political 
parties has their luncheon caucus today and there is a lot we 
are caucusing about these days, so I think people will be 
dribbling in. It is not out of lack of interest. They are there 
out of a desire to know what the game plan is going to be 
between now and the August recess, and so doctor, let us begin 
with you.

   STATEMENT OF DR. JOHN M. CORNWALL, PROFESSOR OF PHYSICS, 
 UNIVERSITY OF CALIFORNIA LOS ANGELES AND PROFESSOR OF SCIENCE 
 AND POLICY ANALYSIS, RAND CORP. GRADUATE SCHOOL, LOS ANGELES, 
                               CA

    Dr. Cornwall. Thank you. I appreciate your allowing me to 
speak out of turn here. I am going to speak to some of the 
technology issues which would have been raised, or which will 
be raised on the second panel, which will be third now, both on 
testing and deployment. As far as I can say as a technologist, 
I do not know whether the Russians might be willing to consider 
amending the treaty to allow us certain actions currently not 
permitted.
    I am speaking as an individual. My opinions are not to be 
identified with those of any organization with which I am 
affiliated. I have served for many years as a member of the 
Jason group of academic consultants to the Government. I have 
been a member of the Defense Science Board, and I am currently 
a member of the Ballistic Missile Defense Organization white 
team, which referees interaction between a red team developing 
midcourse hit-to-kill countermeasures, and the blue team, which 
tries to counter countermeasures. That has just begun. I was a 
coauthor of a recent report called ``Countermeasures,'' with 
the Union of Concerned Scientists, which made an unclassified 
physics-based evaluation of potential countermeasures which 
were plausibly available to hostile nations.
    The Chairman. Excuse me. Can you all hear clearly in the 
back?
    Dr. Cornwall. As a Jason, I have led various studies 
sponsored by the Government concerning ballistic missile 
defense, and I was a member of the Defense Science Board that 
recommended the formation of a Skunk Works for countermeasures 
(now in existence at the Air Force Research Lab) called the 
Countermeasures Hands-on Program. However, this was all about 
10 years ago. I now serve with the BMDO White Team, which has 
just begun, so I am speaking as someone who has learned about 
these recent matters from the newspapers, and who looks at them 
as a physicist, not as an expert informed in the details of the 
technology.
    My understanding is that this committee is concerned with 
planned missile defense test activities in Alaska: Do they make 
technical sense, are they especially useful in proceeding to 
fielding a national missile defense system, will these 
activities bring the U.S. sooner rather than later into 
violation of the ABM Treaty?
    On technical grounds, my answer is brief. I know of no 
compelling technical reasons why tests of hit-to kill 
interceptors and radars must be done in Alaska rather than on 
the usual test range from Vandenberg to Kwajalein. It is true 
the interception geometry is different, and the ranges are 
longer. You can bring other sensors into play to look at the 
engagement, but I have no reason to doubt that full and 
successful tests from Kwajalein would give us confidence in 
other engagement geometries.
    We test all of our ICBM's from Vandenberg to Kwajalein, 
even though that, of course is not where they will be used, and 
we still have confidence in them. Moreover, weather and 
logistics conditions at Shemya and Kodiak are very different 
from those at Kwajalein. Testing may be precluded for many 
months of the year. Installing interceptor missiles will be 
difficult, possibly, and so we really have to have very good 
reasons indeed to go to Shemya and Kodiak just for testing.
    The question is not just whether we should test midcourse 
hit-to-kill components in Alaska, but also to what extent this 
system is currently so laden with technical vulnerabilities 
from countermeasures and political vulnerabilities that a 
decision on deployment or a decision to abrogate the ABM Treaty 
should be deferred.
    Let me recall the goal of the administration in testing and 
implementing an ABM system is to prevent the detonation of 
weapons of mass destruction, nuclear, biological, on the United 
States or its allies. An ABM system is one way to reach that 
goal, but I will not be as pessimistic as Franz Kafka, who once 
said ``there is a goal but no way,'' but one should ask whether 
in all cases the way of the ABM system is the right way to 
achieve the goal. My conclusion is that in two of five general 
cases the defensive ABM system might make sense and is worthy 
of further technological investigation. These cases are theater 
missile defense and boost-phase defense.
    The other three ABM system components with question marks 
are midcourse hit-to-kill, space-based defense, and U.S.-based 
terminal defense. I will not discuss space-based defense and 
terminal defense here, although it is addressed in my 
statement. Even for boost-phase defense, where I argue that 
further investigation is warranted, it is far from clear that 
deployment of such a system is the final answer to threats we 
might face from rogue nations or from unauthorized or 
accidental launches from a nuclear power.
    In the case of an accidental or unauthorized launch, it may 
be better to take effective cooperative measures with other 
nuclear powers to eliminate as far as technically possible the 
risk of such a launch. Perhaps the most effective steps we 
might take involve weaning the nuclear powers from an explicit 
or implicit posture of launch on warning by making it 
verifiably difficult and time-consuming to bring nuclear 
weapons to a state of launch readiness.
    Now, very briefly, on theater missile defense. It began, as 
we know, in the gulf war. It did not work that well then. It 
has come a long way since then, and I have no reason to doubt 
that it will have an effectiveness which makes it worth 
pursuing. There are serious countermeasures to midcourse, and 
even terminal defense theater ballistic missile defense, but I 
think it is within the capability of the United States to hit 
an uncountermeasured theater ballistic missile now, and these 
theater missile defense efforts based on interceptors are, or 
can be made to be, compatible with the ABM Treaty as governed 
by the first agreed statement of the Standing Consultative 
Commission, so that is the first component that warrants 
further investigation.
    In boost-phase defense, the idea is to strike the offensive 
missile before they have had a chance to deploy their reentry 
vehicles and countermeasures. It is the one defense which is 
effective against the threat of using a large number of small 
submunitions to dispense biological agents such as anthrax.
    Boost-phase defense has two other things going for it. 
First, it is much harder to countermeasure, and it need not be 
a threat to Russia or China, because the range and the reach in 
time of these missiles is not sufficient to hit the Russian or 
Chinese missiles in boost-phase.
    Sometimes one hears that boost-phase defense is going to be 
based on recycled theater missile defense missiles, but that is 
not so easy, because ICBM's travel more than twice as fast as 
the fastest interceptor velocity allowed under the first agreed 
statement. Speed is necessary not only to intercept the missile 
if you get close to it, but to get close to it in the first 
place, because you do not have very much time to act.
    Boost-phase defense is a violation of the ABM Treaty as 
written, but as is well known (We have heard some discussion of 
that this morning.) President Putin has on several occasions 
declared his willingness to discuss boost-phase defense, 
including a cooperative boost-phase defense developed with 
Russia. Presidents Putin and Bush discussed at Genoa the 
possibility of coupling missile defenses and further offenses 
arms reductions, so I think there is a good possibility that 
something could be brought to fruition there between Russia and 
the United States which might lead to boost-phase defense but 
which would not undermine the spirit of the treaty.
    If I have another minute or so, I would like to speak about 
countermeasures to midcourse defense, because these are the 
things which make it so difficult to field. The Union of 
Concerned Scientists report spoke of these. Three of them seem 
to me to be the sort of things that a rogue nation could 
develop, or if necessary buy, if it really wanted to shoot an 
ICBM at us. I do not think they would, but if they did, the 
most important are anti-simulation countermeasures. Instead of 
trying to make a decoy look like a warhead, you try to make a 
warhead look like a decoy.
    Perhaps the best of these is a shroud covering the reentry 
vehicle called a multilayer insulation shroud, which insulates 
the reentry vehicle [RV] effectively from the outside world 
both as far as its temperature and radar is concerned. Many 
lightweight shrouds with no RV's in them are dispensed at the 
same time, to make it impossible for the defense to tell which 
is which.
    You can cool the shrouds if necessary to make it a stealth 
RV, one which is for all intents and purposes invisible to the 
infrared seekers of the space-based and kill vehicle assets and 
radar countermeasures as well, and many scientists see no 
technological obstacle even for rogue nations in constructing 
and deploying these countermeasures.
    The fact that we may not have evidence of such construction 
and testing does not mean that these countermeasures are, in 
fact, not out there. This is one of the deepest, darkest 
secrets that a country who wishes to fool our defense will 
have.
    The current BMDO red, white, and blue teams are making a 
dedicated effort to assess the true effectiveness of these 
midcourse countermeasures, and it is too early to make a final 
judgment. It is certainly premature to start deployment on a 
midcourse hit-to-kill system before the countermeasures 
problems are thoroughly investigated with tests of the best 
possible countermeasures, and that just has not happened to 
date.
    So let me quickly summarize. It makes sense for the United 
States to continue its efforts in theater missile defense with 
due regard to the possible countermeasures that might be used 
with a relatively unsophisticated offensive missile system. It 
could make sense for the United States to explore boost-phase 
defense possibilities, provided it can be made clear to the 
Russians that such defenses have to be cooperative, and that 
the United States did not have in mind violating the spirit of 
the ABM Treaty, even though jointly agreed upon amendments 
might be required, but we must be honest about countermeasures 
to a midcourse hit-to-kill system, making sure that the very 
best efforts are made to build and test these countermeasures 
in realistic scenarios.
    It seems to me that unilateral abrogation of the treaty is 
not the path the United States should take. There are 
potentially useful steps toward missile defense which could be 
agreed to by both Russia and the United States, steps which 
would require amending the treaty but not abandoning it. The 
ABM Treaty might be outmoded in its technical reach, but the 
spirit of the treaty is certainly not outmoded, and we should 
take steps, as we did in 1972, to forestall offensive 
proliferation by limiting the scope of defensive systems.
    This is particularly important for the Chinese, of course 
not signatories to the treaty, but still vitally interested, 
whose small deterrent threat would be seriously undermined by 
an effective defensive system.
    Thank you very much.
    [The prepared statement of Dr. Cornwall follows:]

               Prepared Statement of Dr. John M. Cornwall

    Thank you for the opportunity to speak before the Committee on 
issues related to the Administration's plans for ballistic missile 
defense and their relation to the ABM Treaty. I will speak to some of 
the technology issues which are raised by ballistic missile defense, 
both testing and deployment: whether certain apparently Treaty-
violating actions are necessary for the development of U.S. missile 
defense technology; and whether it would seem likely that, at least on 
technological grounds, the Russians would be willing to consider 
amending the Treaty to allow certain actions not currently permitted. I 
speak here only as an individual and my opinions are not to be 
identified with those of any organization with which I am affiliated.
    I have served for many years as a member of Jason, a group of 
academic consultants to the Government; I have been a member of the 
Defense Science Board; and I am currently a member of the BMDO White 
Team, which referees interactions between a Red Team developing 
National Missile Defense countermeasures concepts and a Blue Team which 
tries to counter the countermeasures. I was a co-author, along with 
several others, of a Union of Concerned Scientists report called 
``Countermeasures,'' which made an unclassified physics-based 
evaluation of potential countermeasures which were plausibly available 
to hostile nations to use against a hit-to-kill midcourse defense 
system. As a Jason, I have led various studies sponsored by the 
Government concerning ballistic missile defense, including a study on 
Brilliant Pebbles. As a member of the Defense Science Board. I have 
participated in similar studies, including one which recommended a 
countermeasures ``Skunk Works'' which would develop countermeasures 
efforts as a rogue nation might, using only unclassified descriptions 
of the defense to work from. This came to fruition as the 
Countermeasures Hands-On Program (CHOP), headquartered at the Air Force 
Research Laboratory.
    In the time period from 1992 until my recent service (which is just 
beginning) on the BMDO White Team, I have not been involved in any 
government-sponsored studies on ballistic missile defense, and my 
testimony on current ballistic missile defense efforts is based solely 
on open source material.
    My understanding is that this Committee is concerned with planned 
missile-defense test activities in Alaska: Do they make technical 
sense, and are they especially useful in proceeding to fielding a 
national missile defense system? Will these activities bring the U.S. 
``sooner rather than later'' into violation of the ABM Treaty? My 
answer is brief: I know of no compelling technical reasons why tests of 
hit-to-kill interceptors and radars must be done at Shemya rather than 
on the usual test range from Vandenberg to Kwajalein. It is true that 
the interception geometry for tests is very different, the ranges are 
longer, and so forth, but I see no reason to doubt that full and 
successful tests from Kwajelein would give us confidence in other 
engagement geometries. Recall that, in testing our own ICBMs, we 
restrict ourselves to flights from Vandenberg to Kwajelein, which does 
not test our systems at full range or in geometries where locations of 
targets may be less precisely known, yet we still have confidence in 
these ICBMs wherever they might be targeted. Moreover, weather and 
logistic conditions at Shemya are very different from those at 
Kwajelein: testing may be precluded for many months of the year, and 
installing interceptor missiles will be difficult and costly. There 
would have to be very good reasons indeed to go to Shemya just for 
testing.
    The question is not just whether we should test mid-course hit-to-
kill components in Alaska, but also to what extent this system is 
currently so laden with technical vulnerabilities (from 
countermeasures) and political vulnerabilities that a decision on 
deployment, or a decision to abrogate the ABM Treaty, should be 
deferred.
    The goal of the Administration in testing and implementing an ABM 
system is to prevent the detonation of weapons of mass destruction 
(nuclear or biological) on the United States (or its allies); an ABM 
system is one way in which that goal could, in principle at least, be 
reached. One need not be as pessimistic as Franz Kafka, who once said 
``There is a goal, but no way'', but one should ask whether in all 
cases the way of the ABM system is the right way to achieve the goal. 
My conclusion is that in two of five general cases of ABM systems, a 
defensive system might make sense and is worthy of further 
technological investigation. These cases are:

          1. Theater missile defense (TMD)

          2. Boost-phase defense (BPD)

    In three other cases, I believe that the combinations of technical 
risk (especially from offensive countermeasures), the potential threat 
to international amity (from. e.g., outright abrogation of the ABM 
Treaty, including deployment, or threatening the effectiveness of 
Russian and Chinese deterrence), or cost and technical complexity makes 
these ABM system components unattractive. As far as I know, everyone is 
in agreement that a missile defense system should not be a threat to 
deterrence between the nuclear powers--deterrence which has worked for 
fifty years. But Russia and China have worries that a mid-course 
defense system could not just violate the ABM Treaty, it could threaten 
the very basis for deterrence itself. The three ABM system components 
with question marks are:

          3. Mid-course hit-to-kill (formerly termed National Missile 
        Defense, or NMD)

          4. Space-based defense (in the Reagan era, the Strategic 
        Defense Initiative)

          5. U.S.-based terminal defense

    Even for BPD, where I argue that further investigation is 
warranted, it is far from clear that deployment of such a system is the 
final answer to the threats we might face from rogue nations, or from 
unauthorized or accidental launches from a nuclear power. Consider the 
scenario of a madman in power. who threatens to launch a few weapons of 
mass destruction against the U.S.--not with the aim of destroying us, 
but with an aim such as deterring us from some action against his 
interests, or simply hurting the U.S. badly. Would he use an ICBM, 
which effectively has its return address written on it, thereby 
inviting effective retaliation from the U.S.? Or would he use covert 
means of delivery, such as a short-range ship-borne missile, or 
biological weapons carried by human agents? And in the case of an 
accidental or unauthorized launch, would it not be better to take 
effective cooperative measures with other nuclear powers to eliminate, 
as far as technically possible, the risk of such a launch? In this 
case, perhaps the most effective steps we might take involve weaning 
the nuclear powers from an explicit or implicit posture of launch on 
warning, by making it verifiably difficult and time-consuming to bring 
the nuclear missiles to a state of launch readiness.

                        THEATER MISSILE DEFENSE

    TMD first came into use in the Gulf War, with Patriot missiles 
originally designed for air defense used against Iraqi Scuds as a 
terminal defense system, and with the Defense Support Program (DSP) 
satellites used for launch indication. Since then, the TMD program has 
ramified in several directions, including the Patriot upgrade to PAC-
III; the THAAD missile for mid-course hit-to-kill intercept; two Navy 
mid-course missile types launched from Aegis cruisers; and the Airborne 
Laser (ABL). There is a mixed record of success and failure in TMD 
efforts of the last decade based on interceptor missiles, notably a 
string of six successful Patriot tests and a long string of THAAD test 
failures. There are serious countermeasures threats to mid-course and 
even terminal intercept defense of theater ballistic missiles (TBMs), 
but this issue aside (for the moment) it clearly should be within the 
capability of the United States to hit an uncountermeasured theater 
ballistic missile. Moreover, these TMD efforts based on interceptors 
are (or can be made to be) compatible with the ABM Treaty, as governed 
by the First Agreed Statement of the Standing Consultative Commission 
issued on September 26, 1997. However, no such agreement covers use of 
the Airborne Laser, even in a TMD mode.
    Theater missile defense usually has two phases: Mid-course and 
terminal. (Of course, it would make a great deal of sense to have a 
boost-phase or even pre-boost-phase defense component as well.) The 
mid-course phase is subject to countermeasures of the type I discuss 
later on, and there are potential countermeasures to terminal defenses 
as well. In fact, some of these terminal countermeasures were used 
inadvertently by the Iraqis during the Gulf War. Their Scuds tended to 
fall apart on re-entry, producing a number of radar-confusing targets, 
and so unbalancing the warhead that it began to maneuver randomly as it 
encountered enough atmosphere to ``fly''; the Patriot of the day could 
not keep up with these maneuvers. However, terminal countermeasures are 
considerably more difficult than mid-course countermeasures (they must 
be dense and heavy, or they will immediately fall behind the warhead 
during re-entry, so there cannot be large numbers of them), and they 
are likely to be less threatening to a terminal defense system than are 
countermeasures to a mid-course hit-to-kill system.

                          BOOST-PHASE DEFENSE

    In boost-phase defense the idea is to strike the offensive missiles 
before they have had a chance to deploy their re-entry vehicles and 
countermeasures. It is the one defense which is effective against the 
threat of using a large number of small submunitions to dispense 
biological agents such as anthrax.
    Boost-phase defense has two other things going for it: First, it is 
much harder to countermeasure BPD. Second, it need not be a threat to 
the land-based missiles of either Russia or the People's Republic of 
China, because neither interceptor missiles nor the Airborne Laser have 
the reach to hit these countries' missiles in boost-phase. The BPD 
interceptor missiles should have a range sufficiently short so that it 
is clear to other nuclear powers that they are ineffective in a mid-
course defense system. It is straightforward to do this verifiably. 
Indeed, it is likely that the high acceleration needed from a BPD 
interceptor will preclude these interceptors from having mid-course 
defense capabilities unless they are extremely large. Note that the 
effective range of boost-phase kill is not necessarily set by the 
interceptor missiles' range, but by the time that the offensive 
missiles take to complete boost-phase (less the time it takes to 
receive warning of launch and make the decision to exercise the 
defense). This time need not be anywhere as long as the five minutes it 
takes for large liquid-fueled ICBMs.
    While the interceptor missiles may have a relatively short range, 
they cannot be recycled TMD missiles. Sometimes one hears that TMD 
technology is easily extended to boost-phase defense against ICBMs, 
using missiles launched from Navy ships stationed off rogue nation 
waters. But in fact, ICBMs travel considerably faster than TBMs at the 
end of boost-phase and more than twice as fast as the fastest 
interceptor velocity allowed under the First Agreed Statement to the 
ABM Treaty. And speed is necessary not only to match the ICBM's speed, 
but in order to get to that ICBM before boost-phase has ended.
    BPD is a violation of the ABM Treaty as written. But, as is well-
known, President Putin of Russia has on several occasions declared his 
willingness to discuss BPD, including a BPD cooperatively developed 
with Russia. Most recently, Presidents Putin and Bush discussed at 
Genoa the possibility of further bilateral meetings on missile defenses 
tied to offensive reductions. It may be that the U.S. and Russia might 
find it possible to amend the ABM Treaty to allow certain BPD 
activites, subject to such constraints as the interceptor missile range 
spoken of above.
    One must not underestimate the logistic and operational 
difficulties of a boost-phase defense, relying in large part on ships 
which must, be on station at the right time. And in certain parts of 
the world, such as Iran, it is difficult if not impossible to station 
ships where needed.

                     MID-COURSE HIT-TO-KILL DEFENSE

    This part of the system is subject to plausible countermeasures, 
but at the same time is very threatening to Russia and China because it 
(and space-based defenses) offers a serious threat to the deterrence 
capability of these nuclear powers should it be, or if it is perceived 
to be, effective. Some of the countermeasure threats have been detailed 
in the Union of Concerned Scientists report of which I was a co-author. 
They include:

          1. Anti-simulation measures, in which a real warhead is 
        disguised as a decoy. Of these, one of the most effective is a 
        so-called multi-layer insulation shroud, of which lightweight 
        decoys are made in the size and shape of the warhead, and which 
        covers the warhead itself. This shroud, made of many very thin 
        spaced layers of metallized plastic, completely conceals the 
        thermal mass and temperature of the warhead as well as its 
        radar features, making it appear just like the empty decoy 
        shrouds both to the radar and to visible or infrared sensors.

          2. Cooled shrouds enveloping the RV, which make its 
        temperature so low that it is hard to detect by infrared 
        sensors.

          3. Radar countermeasures, including chaff and lightweight 
        decoys (such as the multilayer insulation empty shrouds) for 
        confusing the engagement radars.

    Many scientists see no technological obstacle even for rogue 
nations in constructing, testing, and deploying countermeasures to a 
level which make it nearly impossible to discriminate a real warhead 
from a fake by means of radar, visible, or infrared sensing. And it 
should be kept in mind that any nation intending to field 
countermeasures will take extraordinary efforts to keep the detail of 
the countermeasures secret, and absence of evidence of other nations' 
countermeasures programs must not be construed as evidence of absence. 
The current BMDO Red, White (of which I am a member), and Blue Teams 
are making a dedicated effort to address the true effectiveness of mid-
course countermeasures, and it is too early to make a final judgment. 
But one thing is true: It is certainly premature to start deployment of 
a mid-course hit-to-kill defense before the countermeasures problems 
are thoroughly investigated with tests of the best possible 
countermeasures. To date, as BMDO emphasizes, while multiple objects 
have been flown in various flight tests, no attempt has been made to 
set a difficult discrimination problem for the defensive missiles. This 
should be done before a deployment decision is made.
    If, for whatever reasons, the U.S. later does withdraw from trying 
to deploy a midcourse hit-to-kill defensive system, it does not mean 
that our investment in technology has been wasted. Advances in radar 
and missile technology will be useful in other arenas, possibly 
including TMD and BPD, and sensor platforms such as SBIRS can be very 
useful surveillance satellites for many missions.

                       SPACE-BASED DEFENSE SYSTEM

    There is no reason to detail here the many obstacles of cost and 
technology which lie in the way of an effective space-based defense. In 
some ways it becomes harder to contemplate such defenses than it was in 
the Reagan era, since we are closer to understanding the real 
technological limitations of, e.g., space-based lasers than we were 
fifteen years ago. And we will not have the one prerequisite required 
of space-based defenses then, which was the leverage gained by the 
possibility of attacking Soviet MIRVed missiles with up to ten warheads 
each in boost-phase; today, the threat missiles are mostly single-
warhead. In addition to their vulnerability to some of the 
countermeasures previously mentioned, space-based systems are subject 
to the countermeasure of anti-satellite attack, easy enough for any 
opponent technogically good enough to build ICBMs, and these attacks 
would best be carried out not after a full defense constellation is in 
place (which might have good self-defense capabilities) but they would 
be begun as we begin deployment of the first space-based laser in 
space.

                      U.S.-BASED TERMINAL DEFENSE

    The usual argument for terminal defense is that it is a component 
of a layered defense system, in which the defense gets more than one 
shot at the incoming warhead (for example, if the mid-course system has 
been fooled by decoys). This sort of defense was envisaged in the 
sixties and seventies, before the ABM Treaty: Short-range interceptors 
(then nuclear-tipped) which could defend specific cities or other 
targets. But, short of defending all cities in the U.S., how does one 
choose which cities to defend, or does one defend them all, incurring 
enormous costs? Terminal defenses do make sense for TMD, as part of a 
layered system which allows for another chance at an offensive missile 
in case the mid-course component of TMD fails. In TMD, the threatened 
area is smaller than the U.S., the targets less numerous, and the 
offensive missiles may be less sophisticated (since theater missiles 
may be as primitive as the Scuds used in the Gulf War).

                                SUMMARY

    It makes sense for the U.S. to continue its efforts in theater 
missile defense, with due regard to the possible countermeasures that 
might be used with a relatively unsophisticated offensive missile 
system. Without making any judgments about the need for deployment, it 
could make sense for the U.S. to explore boost-phase defensive 
possibilities, provided that it could be made clear to the Russians 
that such defenses could be cooperative and that the U.S. did not have 
in mind violating the spirit of the ABM Treaty, even though jointly-
agreed amendments might be required. But we must be honest about 
countermeasures to a mid-course hit-to-kill system, making sure that 
the very best efforts are made to build and test these countermeasures 
in realistic scenarios. It may well happen that a mid-course hit-to-
kill system ends up being unattractive both because of the real risk of 
countermeasures and the perceived risk to the Russians and Chinese of 
ultimately thwarting their present deterrent forces, thereby starting 
another arms race.
    I do not believe that it makes sense for the U.S. to continue the 
development of enormously expensive space-based defenses, threatening 
the Russian and Chinese deterrrence posture. And the costs of a U.S.-
based terminal layer are likely to be so large as to be unacceptable.
    It seems to me that outright unilateral abrogation of the Treaty is 
not the path the United States should take, and that there are 
potentially useful steps toward missile defense which could be agreed 
to by both Russia and the United States--steps which would require 
amending the Treaty, not abandoning it. The ABM Treaty may be outmoded 
in its technical reach, but the spirit of the Treaty is certainly not 
outmoded, and we should take steps, as we did in 1972, to forestall 
offensive proliferation by limiting the scope of defensive systems. 
This is particularly important for the Chinese (of course, not 
signatories to the Treaty, but still vitally interested) whose small 
deterrent threat would be seriously undermined by an effective 
defensive system.
    Thank you for the opportunity to enter these remarks into the 
record.

    The Chairman. Thank you very much, and in the meantime 
Senator Lugar has come in, and I will ask you just a few 
questions since you have to go. Then we will go to the rest of 
the panel for their statements.
    A man you know, Phil Coyle, former Director of Operations, 
Testing and Evaluations, said, ``the 1972 is not holding back 
designing and developing of a technology needed for national 
missile defense, nor is the treaty slowing the testing of an 
NMD system. Development of NMD will take a decade or more for 
technical and budgetary reasons, but not due to impediments 
caused by the ABM Treaty.''
    Now, some skeptics among us think that this administration 
is designing a testing regime with the express purpose of 
bumping up against and/or--the phrase was used in the Armed 
Services Committee--violating the ABM Treaty. Giving the 
rationale to violate the treaty they then come back to the 
Congress and say, you told us to test, you have either got to 
tell us to stop testing or violate the ABM Treaty.
    Obviously, Phil Coyle says that is not the case. What is 
your view?
    Dr. Cornwall. I agree, we can test without violating the 
treaty long before we have to deploy and, in fact, the decision 
to deploy anything except the allowed theater missile defense, 
which we are now developing, is premature by a number of years.
    The Chairman. Now, is it true that there is, what you just 
said, plenty of needed testing and development that you could 
do without coming into conflict with the ABM Treaty? There is a 
lot that has to be done for us to gain a level of confidence 
that any system could be deployed before we even have to make 
the decision to pull out of ABM, isn't that correct?
    Dr. Cornwall. Correct. Of course, we could if we wish to 
devise a test system which would violate the treaty, but it is 
possible to do it without violating the treaty, especially in 
the area of testing against countermeasures for midcourse 
defense systems.
    The Chairman. Let me ask it another way. Would our research 
and testing program be stopped in its tracks if we deferred the 
test that would violate the ABM Treaty until it was negotiated?
    Dr. Cornwall. No.
    The Chairman. One last question, and then I will yield to 
my colleague. The issue of boost-phase, given the great speeds 
attained by ballistic missiles, the window of opportunity, as 
you point out, for boost-phase interceptor systems to 
successful acquire and then destroy an ICBM is very short, no 
more than, I am told, 3 or 4 minutes, is that correct?
    Dr. Cornwall. It may be less than that, because first of 
all it takes time to get warning from the satellites that are 
looking for these things.
    Another question which has to be addressed is how 
autonomous will the system be? Is there a human in the loop who 
has to make a decision? There is the question of the 
acceleration and the speed necessary for those missiles to 
cover probably several hundred kilometers to reach the boosters 
before they end their boost-phase, which for a modern solid 
fuel rocket can be as short as a minute.
    The Chairman. Now, what has to be done to assure that the 
response time will be adequate? What do we have to develop in 
order to be in a position to deploy. I mean, what hurdles do we 
have to overcome in attempting to develop such a system that 
deals with the response time?
    Dr. Cornwall. We have to develop satellites which are 
newer, improved versions of the Defense Support Program 
satellites, which worked successfully in the gulf war in 
detecting missile launches, but had time lines such that we 
were unable to do anything about those launches in the boost-
phase.
    We have to develop high acceleration, hit-to-kill missiles, 
and in many cases these defenses will be mounted on ships, so 
we will have to develop the launch facilities and the radars 
necessary to support the engagement.
    The Chairman. So, to say it another way, if we go the 
boost-phase route it is going to take at least several years to 
develop an airtight command and control network for such a 
system. Even if we had a boost-phase system we still have to 
have that. Even if we had the actual rocket with enough force, 
speed, and power, even if we had the satellites, we still need 
to develop a command and control system before we could deploy 
it with any confidence.
    Dr. Cornwall. That is true, and the satellites are by no 
means in orbit now. They are going to take some years to 
develop, so both the command and control system and the 
satellites are going to take some time.
    The Chairman. Again, the reason I say this is there are 
some tests in the boost-phase, and/or deployment of the boost-
phase, which would be in violation of ABM. So one of the things 
that is confusing the public and confusing the press and, quite 
frankly, confusing my colleagues is, how can the Defense 
Department today say they have to conduct certain tests which 
may bump up against the ABM Treaty, or violate the ABM Treaty, 
and at the same time other people say, wait a minute, you do 
not have to conduct those tests in the near term in order to 
have the ability to develop a system within the same timeframe. 
It is just what you choose, which end of the problem you try to 
solve first, and I just cite that as an example.
    So you need a control network, an airtight command and 
control network for a boost-phase intercept system in order to 
be assured it works. You can now decide, well, we will put that 
to the last, and we will test those features of the system 
which will violate ABM first, even though we do not know 
whether we can get the other part done.
    What I am trying to get at is, how does one explain--and I 
will ask that to the rest of the panel at some point after 
their testimony--how do you explain this order of testing? In 
what order do you decide to test systems that are contemplated, 
because some tests that you undertake would violate ABM, yet 
you may have another couple of years of research with other 
tests that would not violate the ABM, and they need not proceed 
serially, isn't that correct?
    Dr. Cornwall. You can do the whole thing serially if you 
wish, in such a way that you leave treaty violations to the 
last. I am not advocating violating the treaty, you understand, 
but I think you could develop in parallel up to quite an 
advanced stage before you really had to violate the treaty, and 
given the Russians' interest, or apparent interest in 
cooperating on these matters, I would hope some agreement could 
be reached as you are doing this.
    The Chairman. Well, I would hope so, too.
    The last question I have is countermeasures. The impressive 
test that we saw on video. The last one being the most recent 
test of a midcourse interceptor, and it was impressive, but as 
I understand it there were three things flying around up there, 
one the bus, the other the warhead, and the other a decoy.
    As I understand, the decoy was considerably larger by a 
factor of, I do not know, 10 or so, than the warhead. This was 
the countermeasure, and I understand we knew the telemetry, we 
knew exactly the course, and we knew where it was going to be, 
et cetera. How much of a real world test of what we are going 
to face--and I thought General Kadish was very straightforward 
about this--is that test? Having successfully completed that 
test, is it appropriate to say we are ready to roll now, that 
we now have technologically solved the problems for midcourse 
intercept, we are ready to go?
    Dr. Cornwall. As I believe General Kadish would be the 
first to admit, that was not a test of countermeasures. As you 
point out, the balloon was large and different from the RV in 
many respects. This is a test of an ability to distinguish 
objects, not to see how easily or difficult or how hard it is 
to fool you, and I believe the Ballistic Missile Defense 
Organization has not claimed that it tests against effective 
countermeasures.
    The Chairman. They have not, but I think it is important to 
get in the record that they have not made that claim, and that, 
as the senior Senator from North Carolina indicated, that it is 
not quite accurate to say that this test proves--and I am 
paraphrasing--that we are ready to deploy.
    I would yield to my colleague from Indiana.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Dr. Cornwall, in your testimony you list a number of 
different phases or types of missile defense. You conclude that 
only theater missile defense and boost-phase defense have 
realistic possibilities. Although you suggest there may be 
other ways of getting there, but that these two have some 
possibilities.
    You suggest that midcourse, the space-based defense, and 
the U.S.-based terminal defense are flawed. You arrive at this 
conclusion by calculating international amity over the 
abrogation of the ABM Treaty, the U.S.-Chinese relationship, 
the effectiveness of countermeasures, and the cost associated 
with missile defense.
    Now, with regard to the latter point, how would you 
recommend the Senate, and the American people think through the 
cost factor? It is suggested that the cost will be very high, 
and everyone understands that, but so is our defense budget. 
Have experts calculated the costs associated with each type of 
missile defense or the impact on our economy or other things 
that cost implies? Do you have any estimates in that area?
    Dr. Cornwall. I do not have any figures, but I will say 
that a space-based defense is likely to be the most expensive 
by far, and the reason is a little bit ironic. Fifteen or 20 
years ago we were considering space-based defenses for the 
first time. The Russians had 10,000 warheads on a far smaller 
number of missiles, because they were MIRV'd. The SST-18 had 10 
warheads on one missile, so if you got that missile in boost-
phase you got 10, and you had boost-phase leverage. That is 
what it was called.
    We do not have boost-phase leverage any more. All of the 
ICBM's are single-warhead, and so you still have about as many 
missiles to destroy with the space-based defense as you did 
during the Star Wars era. That means you have a large absentee 
ratio, because the defense is in orbit you cannot have very 
many of them capable of striking those missiles which are being 
fired at one time, since some of the defenses are halfway 
across the world.
    The costs of getting things in orbit have not decreased in 
the last 20 years. If anything, they have gone up a little bit. 
We have made technical advances in building lasers, but 
certainly not in building them any more cheaply than we used 
to, so space-based is going to be very expensive.
    As for midcourse, we heard that General Kadish does not 
know how much it will cost, and if he does not, I certainly do 
not, but I think that some figure with a small number of 
hundreds of billions of dollars on it might be what it costs.
    As for boost-phase defense, let me not underestimate the 
difficulty of fielding the ships. They will have to be on 
station with crews. You will have to have backups and 
replacements. There, I think the cost of developing the boost-
phase defense will be far less than the cost of operating and 
maintaining it, but we are again talking tens of billions of 
dollars for development, I would guess.
    Senator Lugar. OK, you see some possibilities with boost-
phase defenses, as I understand your argument, although you 
think there may be less expensive ways of doing it, and perhaps 
there are. That is one of the questions the country must weigh. 
Clearly, one reason why even some opponents of a full missile 
defense system have shown interest in boost-phase defenses is 
that it is seen as a way of isolating the single North Korean 
missile, or some other power that develops these.
    We wish they would not develop long-range missiles to begin 
with, and then we would not have to spend the money defending 
against it, but nevertheless, in the real world, they are 
there. As opposed to going to war and simply annihilating the 
country or eliminating a whole area where the threat is 
located, we have decided that the better alternative is to take 
a defensive posture, expensive as it may be.
    I am not certain how we ascertain the cost of boost-phase 
defenses. I am still learning the costs associated with other 
types of missile defense. I have listened carefully to 
discussions of a multi-layered missile defense system and it is 
very difficult to see how you develop that without violating 
the ABM Treaty. As a result you could make the point that the 
better part of honesty or valor here is simply to indicate to 
the rest of the world our intentions to develop a total missile 
defense system.
    The ABM Treaty was not meant to deal with a world in which 
we are currently living. The best course of action, in terms of 
diplomacy may be for President Bush to say to President Putin 
that we are going to develop a system that breaks the ABM 
Treaty and ask what can we do together to change the treaty so 
we move along together.
    I find the countermeasure issue to be an interesting one, 
and developed in good detail this morning, in General Kadish's 
testimony. It is difficult how missile defenses will defeat 
countermeasures or how much that capability may cost as a part 
of any overall system.
    I appreciate your spelling this out so that we can frame in 
a way that reasonable people can begin to see how we arrive at 
our decisions. Ultimately, some will argue there is not that 
much of a threat to defend against. They claim we are looking 
for threats in order to develop a missile defense system. But 
on the other hand, you have a number of very sound Americans 
who have testified that there is a threat, and have reported it 
in great detail, and we have a responsibility to respond to 
that.
    I thank you very much for your testimony. Thank you, Mr. 
Chairman.
    The Chairman. Senator Nelson.
    Senator Nelson. Mr. Chairman, former chairman Senator Sam 
Nunn said that we ought to treat this issue, national missile 
defense, as technology, not theology, and I think that kind of 
summarizes my feelings.
    I certainly believe in technology and the advance thereof, 
and it seems to me that it is just common sense that we can 
approach an issue like this as, let us continue robust research 
and development of these systems and see where they go and what 
is in the defense interest of the United States, while at the 
same time trying to pursue this, reaching out to our friends 
and allies and, indeed, adversaries and former adversaries.
    That seems to me to be the logical way to pursue this 
defense question and this foreign policy question, and I would 
like to have any of you comment on that.
    The Chairman. Senator, we have not heard from the panel 
yet. Maybe if you could hold that question, Dr. Cornwall has a 
plane to catch. If you have a specific question, address it to 
him.
    Senator Nelson. I apologize.
    The Chairman. Senator, do you have a specific question for 
Dr. Cornwall? Doctor, thank you very much for being here. I 
understand you might have to leave now to catch your plane. You 
are welcome to stay as long as you can.
    Dr. Cornwall. I can stay a little bit longer.
    The Chairman. We would love to have you stay. Now, let us 
begin the testimony. Dr. Perry, why don't you begin.

  STATEMENT OF HON. WILLIAM J. PERRY, BERBERIAN PROFESSOR AND 
 SENIOR FELLOW, INSTITUTE FOR INTERNATIONAL STUDIES, STANFORD 
                    UNIVERSITY, STANFORD, CA

    Dr. Perry. Thank you, Mr. Chairman. Today in my mind 
without question the most dangerous threat to America's 
security is the proliferation of nuclear weapons. The supply is 
huge, the demand is large and growing, and the security control 
of the supply is becoming increasingly uncertain. As a result, 
my bottom line is, there is every likelihood that sooner rather 
than later this combination of forces will result in a 
catastrophic nuclear incident. There is also some likelihood 
that a catastrophic incident will involve biological weapons.
    It is in this context we consider the emergence of an ICBM 
threat from Third World nations, but to put this in some 
perspective, I would observe that an ICBM does not pose a 
significant threat to the United States unless it has a nuclear 
warhead.
    At the same time, nuclear weapons or biological weapons 
pose a serious threat to us, even if the hostile force does not 
have long-range ballistic missiles. Indeed, covert means of 
delivering are not only feasible, but they probably would be 
the only means of delivery for transnational groups operating 
either on their own or as agents of a hostile nation, and so 
our actions to deal with proliferation should be focused 
primarily on nuclear and biological weapons and secondarily on 
the means of delivery.
    Now, given the seriousness of the threat and the level of 
catastrophe that we could suffer in an attack by nuclear and 
biological weapons, actions to mitigate these threats should be 
our first priority. Just as the threat of deterring a threat of 
nuclear attack was an overriding priority during the cold war.
    Today, we have several lines of defense to deal with the 
proliferation problem. We can work to prevent proliferation. We 
can tailor our deterrence to make it more relevant to hostile 
Third World nations, and we can develop counterproliferation 
programs, that is, military programs to defeat the threat if 
prevention and deterrence fail.
    Our first line of defense should be preventive defense and 
preventive diplomacy, actions to prevent proliferation. A 
characteristic of these programs is that they require 
cooperation from other nuclear powers. Put another way, no 
matter what actions the United States takes to prevent 
proliferation, these actions can easily be nullified if Russia, 
for example, decides to proliferate its nuclear technology, 
weapons, or fissile material.
    The cooperation necessary to prevent proliferation can be 
manifested through treaties, through bilateral or multilateral 
agreements, and by cooperative programs such as the Nunn-Lugar 
program, but even if we sustain the present programs and fully 
implement its successes, we cannot count on prevention working 
under all conditions for all time, and thus it is prudent to 
have a second line of defense, deterrence.
    Now, even if START I, START II, START III were to be fully 
implemented, the United States would still have a nuclear force 
capable of destroying any nation foolish enough to use nuclear 
weapons against us, but I want to make an additional point, 
which is our conventional military forces, especially our long-
range, precision-guided weapons such as Tomahawk, are also 
capable of a devastating response to any acts of aggression 
against the United States or its allies.
    This is important in this context, because an aggressor 
might believe that we would be self-deterred from using our 
nuclear weapons, but we have several times demonstrated our 
willingness and our capability to use conventionally armed 
precision-guided weapons in truly devastating attacks. In 
short, the United States has a powerful and a credible 
deterrent force consisting of both nuclear and nonnuclear 
weapons, and this fact makes a nuclear attack on the United 
States very unlikely.
    But what if both prevention and deterrence should fail? How 
should we prepare now for that remote contingency? A covert 
attack, a nuclear bomb in a truck or a small ship, for example, 
is the most immediate threat, and the best and about the only 
defense on that is to have an intelligence effort effective 
enough to give us some advance warning of the time and the 
place of the attack.
    A surprise attack could also be launched from small 
aircraft or cruise missiles, perhaps based in freighters off 
our coast. It is clear that no high-confidence defense could be 
available against such an attack when the time and place of an 
attack were not known. Indeed, the Soviet Union in the sixties 
and seventies spent more than $100 billion trying to build such 
an air defense, involving thousands of surface-to-air missiles, 
to protect their nation against B-47's and B-52's.
    In response to this massive effort, the Strategic Air 
Command simply modified their procedures, after which we 
estimated that the Soviet defense would stop at most 10 percent 
of our bombers. This estimate was given credibility in the 
seventies, when a German pilot flew his light civilian airplane 
from Germany and landed in Red Square without being intercepted 
by the massive Soviet air defense.
    The United States in that same time period, after much 
debate, decided not to emulate the Soviets, so we never built 
the complex Nike-Ajax antiaircraft missiles that had been 
proposed to defend our cities, which in retrospect was a very 
good decision.
    A third mode of attack would involve long-range ballastic 
missiles with nuclear warheads, and the defense against such an 
attack, of course, is under development. There has been much 
controversy about this system, particularly after several test 
failures.
    Let me make my own view on this quite clear. While hitting 
the bullet with a bullet demands quite advanced technology, I 
believe that the United States will, before long, perhaps in 
another 5 to 10 tests, convincingly demonstrate that we have 
mastered it, so I believe the feasibility issues that have been 
raised as a result of test failures will soon be resolved. But, 
and this is an important but, in assessing the likely 
operational effectiveness of this system, we must take a 
realistic view of the degrading effects of realistic 
countermeasures, a problem that fundamentally limits the 
effectiveness of all air defense systems.
    We have no operational history yet on missile defense 
systems, but we have 60 years of operating air defense sytems, 
and even the best air defense systems under operational 
conditions have never demonstrated the ability to shoot down 
more than 20 to 30 percent of the attacking force. Indeed, 
under most operational conditions they have done much poorer 
than that.
    The analogy of ballistic missile defense to air defense is 
far from perfect, and I would not want to apply uncritically 
historical records of air defense systems to ballistic missile 
defense systems, but on balance it is not easier to shoot down 
a ballistic missile than it is an airplane, and most 
importantly, it is clear that countermeasures will be at least 
as much of a problem, therefore one can find no historical 
basis for believing that any ballistic missile defense system 
under operational conditions will achieve the 80 or 90-percent 
levels of effectiveness that should be achievable in time on 
the test range.
    We should also be realistic in assessing the likely cost of 
a missile defense system, and understanding that to some sense 
funding missile defense must compete with funding other 
military needs. During my period as Secretary of Defense, one 
of the most difficult jobs I had was setting the funding 
priorities for defense programs and then defending those 
priorities to the President and to the Congress.
    My judgment when I was Secretary, and still today, is that 
while ballistic missile defense is an important program, I 
would place it at a lower priority than many programs that are 
key to maintaining military readiness, particularly the 
programs that provide for the quality of America's military 
forces and provide them with the best and most realistic 
training of any military force in the world.
    These training programs are realistic, intense, and 
frequent, so they are also very costly, but I have no doubt 
that the results are worth the cost, so I would not want to 
reduce them. I would also place BMD at a lower priority than 
many of the programs designed to upgrade our conventional 
forces.
    In particular, I believe we have an urgent need to replace 
our tactical fighter and bomber forces with new generation 
aircraft that have been developed over the past 10 years. This 
new generation of fighters and bombers embody technology, 
especially stealth and precision weapon delivery, that will 
ensure that America's military will enjoy air supremacy in any 
military conflict during the next several decades.
    Desert Storm demonstrated that air supremacy leveraged all 
aspects of our military operations, allowing us to win quickly, 
decisively, and with minimal casualties. It also demonstrated 
that to the rest of the world, so it was a critical factor in 
deterring future wars. There is no doubt that these new 
programs will be very expensive, but again I am confident that 
the results are worth the cost.
    In sum, then, I believe that the threat of nuclear 
proliferation is real and growing, and if not managed properly 
could quickly lead to catastrophic results. Thus, I see dealing 
with proliferation as one of our highest concerns. Let me 
summarize the four actions I think we can take to deal with 
this problem.
    First we should assign a higher priority, devote more 
funding and dedicate a greater diplomatic effort to preventive 
defense and preventive diplomacy. What is required here is 
staying the course on the programs already established, 
increasing the funding level where appropriate, for example, on 
the Nunn-Lugar program, and pursuing aggressively new 
opportunities to reduce the threat before it emerges. For 
example, in negotiating an agreement whereby North Korea 
abandons long-range missiles.
    More generally, we must work hard to establish a 
cooperative anti-proliferation effort with Russia and China. 
This consultation is not done as a favor to Russia and China, 
but because we understand that if we proceed unilaterally, we 
will be giving up on a unique historical opportunity to prevent 
nuclear and biological weapons from emerging as threats.
    Second, we should assign a higher priority and devote more 
funding to those intelligence efforts that show greatest 
promise for penetrating transnational groups planning terrorist 
attacks in the United States, and to those intelligence efforts 
that illuminate the nature of the proliferation threat.
    Third, we should maintain a robust R&D program in missile 
defense. By robust, I do not mean a program that pursues every 
BMD concept proposed, but one sharply focused on how to deal 
with countermeasures. In particular, we need a much more 
aggressive program in testing and simulation to gain real 
understanding of the countermeasures threat, how best to deal 
with it, and how it fundamentally limits our effectiveness, and 
my emphasis here is on simulation followed by field testing.
    Fourth, because we can never be sure that any missile 
defense system will be fully effective, we should establish a 
policy and the capability to support that policy that we, the 
United States, will attack the launch sites of any nation that 
threatens to attack the United States with nuclear or 
biological weapons. We have a variety of ways of conducting 
such an attack. For example, it likely could be effectively 
carried out with conventionally armed precision-guided weapons.
    Let me close by observing that our future security depends 
fundamentally on actions we take today to prevent the 
proliferation of nuclear and biological weapons, and that the 
success of these actions depends fundamentally on the 
cooperation of the other nuclear powers.
    Thank you.
    [The prepared statement of Dr. Perry follows:]

              Prepared Statement of Hon. William J. Perry

    Today, the most dangerous threat to American security, indeed, to 
world security, is the proliferation of nuclear weapons. The technology 
for nuclear weapons is mature and increasingly available through the 
internet. The supply of nuclear weapons and fissile material is huge, 
measured in tens of thousands of weapons and many tons of fissile 
material, with the security controls for this huge supply becoming 
increasingly uncertain. And the demand for nuclear weapons by nations 
or transnational groups hostile to the United States is large and 
growing, with many of these groups having ready access to substantial 
financial resources. There is every likelihood that, sooner rather than 
later, this combination of forces will result in a catastrophic nuclear 
incident.
    While the nuclear threat is here and now, the threat is growing 
that some of these same hostile groups will use biological weapons. The 
technology for biological weapons of mass destruction is becoming 
mature and is easier to apply than nuclear weapons. A large supply of 
such weapons was developed by the Soviet Union, some of which may still 
be available, and North Korea and Iraq have both had biological weapons 
programs. The demand for biological weapons is likely to be from 
transnational groups who intend to employ terrorist attacks against 
urban targets, which are especially vulnerable to such attacks.
    Much attention has been given to the emergence of an ICBM threat to 
the United States. But to put this in some perspective, I observe that 
an ICBM does not pose a significant threat to the United States unless 
it has a nuclear warhead; at the same time, nuclear weapons or 
biological weapons pose a serious threat to us even if the hostile 
force does not have long-range ballistic missiles. These weapons can be 
delivered by trucks, satchels, small boats, or small airplanes. Indeed, 
covert means of delivery are not only feasible, they probably would be 
the only means of delivery for transnational groups, operating either 
on their own or as agents of a hostile nation. So our actions to deal 
with proliferation should be focused primarily on nuclear and 
biological weapons, and secondarily on the means of delivery.
    Given the seriousness of the threat, and the level of catastrophe 
that we could suffer in an attack by nuclear or biological weapons, 
actions to mitigate these threats should be our first priority, just as 
deterring the threat of a nuclear attack was an overriding priority 
during the Cold War. Then we essentially depended on a single strategy, 
deterrence, and the primary goal of our defense programs was to ensure 
that deterrence was strong; in the language of the day, we wanted our 
deterrence to be unequivocal. Today, we have several lines of defense 
to deal with the proliferation problem. We can work to prevent 
proliferation, we can tailor our deterrence to make it more relevant to 
hostile third-world nations, and we can develop counter-proliferation 
programs--military programs to defeat the threat if prevention and 
deterrence fail.
    Our first line of defense should be preventive defense and 
preventive diplomacy--actions to prevent proliferation. A 
characteristic of preventive programs is that they cannot succeed 
through unilateral actions of the United States. Their success requires 
cooperation from the other nuclear powers, especially Russia, and, to a 
lesser but still important degree, China. Put another way, no matter 
what actions the United States takes to prevent proliferation, these 
actions can easily be nullified if Russia, for example, decides to 
proliferate its nuclear technology, weapons, or fissile material. 
Russia's perception of its own national interests should be a major 
disincentive for them to proliferate. However, this internal 
disincentive may not be sufficient as evidenced by Russia's sales of 
commercial nuclear technology to Iran, in spite of the fact that such 
commercial technology can facilitate Iran's development of nuclear 
weapons.
    The cooperation necessary to prevent proliferation can be 
manifested through treaties, such as the NPT and START (already in 
force), and CTBT, START 2 and START 3 (not yet implemented); through 
bilateral and multilateral agreements, such as the Trilateral Agreement 
(with Russia and Ukraine), the Agreed Framework (with North Korea) and 
the missile agreement under discussion with North Korea; and by 
cooperative programs, such as the Cooperative Threat Reduction Program 
(Nunn-Lugar), with Russia and other former Soviet states. Many of these 
programs have proven to be quite successful, and, if we build anthem, 
will help us prevent proliferation on into the future. But even if we 
sustain the present programs and fully implement their successors, we 
cannot count on prevention working under all conditions for all time. 
Thus we must consider our second line of defense--deterrence.
    Even if START I, START II, and START III were to be fully 
implemented, the United States would still have a nuclear force capable 
of destroying any nation foolish enough to use nuclear weapons against 
us. In particular, a nuclear attack using ballistic missiles would be 
immediately backtracked to its place of origin and thus invite 
immediate retaliation. This fact is known by all, and serves as a 
powerful instrument of deterrence. But the United States also has the 
most powerful conventional military forces in the world. Our 
conventional military forces, especially our long-range precision-
guided weapons (Tomahawk, e.g.), are also capable of a devastating 
response to any acts of aggression against the U.S. or its allies. This 
is important because an aggressor might believe that we would be self-
deterred from using our nuclear weapons, but the United States has 
several times demonstrated its willingness and capability to use 
conventionally-armed precision-guided weapons in truly devastating 
attacks.
    In short, the United States has a powerful and credible deterrence 
force consisting of both nuclear and non-nuclear weapons. This fact 
makes a nuclear attack on the United States very unlikely. But what if 
both prevention and deterrence should fail? While this possibility is 
remote, it is prudent to have some insurance to protect against it. So 
it is reasonable to ask what our response should be, and how should we 
prepare now for that contingency?
    A covert attack (a nuclear bomb in a truck or small ship, e.g.) is 
the most immediate threat. The modality of attack would be similar to 
attacks that we have already experienced with high explosive bombs. The 
probable agent of such an attack would be a transnational terrorist 
group, acting on its own or on commission from (and with support of) a 
hostile nation. Since a terrorist group would try to maintain secrecy 
as to the place and time of the attack, conventional defense tactics 
are largely irrelevant, since we cannot maintain terrorist alerts 
continuously for the entire nation. The best defense is to have an 
intelligence effort effective enough that it gives us some advance 
warning of the time and place. If that happens, there is a reasonable 
probability of aborting the attack and arresting the conspirators. 
While we could not count on this defense working, we have had more 
success with it than is commonly understood. In particular, at the time 
of Desert Storm, when we had ample strategic warning of intended 
attacks, our intelligence and counter-espionage effort had substantial 
tactical success in thwarting intended attacks.
    A surprise attack could also be launched from small aircraft and/or 
cruise missiles, perhaps based in freighters off our coast. It is clear 
that no high-confidence defense could be available against such an 
attack when the time and place of the attack are not known. Indeed, the 
Soviet Union, in the 60s and 70s, spent more than $100 billion trying 
to build such an air defense, involving thousands of surface-to-air 
missiles, to protect their nation against our B-47s and B-52s. In 
response to this massive effort, the Strategic Air Command simply 
modified the bomber flight patterns to penetrate the Soviet Union at 
low altitudes, thereby underflying most of the Soviet defense radars. 
We estimated that the Soviet defense would stop at most 10% of our 
bombers. This estimate was given credibility in the 70s when a German 
pilot flew his light civilian plane from Germany and landed in Red 
Square without being intercepted by the massive Soviet air defense. The 
United States, after much debate, decided not to emulate the Soviets, 
so we never built the complex of Nike-Ajax anti-aircraft missiles that 
had been proposed to defend our cities.
    A third mode of attack would involve long-range ballistic missiles 
with nuclear warheads, and a defense against such an attack is under 
development. The ground-based system, which is well along in 
development, attempts to intercept the incoming warheads in midcourse, 
essentially trying to ``hit a bullet with a bullet''. There has been 
much controversy about this system, particularly after several test 
failures. My own view is that while hitting a bullet with a bullet 
demands quite advanced technology, the United States will, before long 
(perhaps in another 5 to 10 tests) convincingly demonstrate that we 
have mastered it. So I believe that the feasibility issues that have 
been raised as a result of test failures will soon be resolved.
    But in assessing the likely operational effectiveness of this 
system, we must take a realistic view of the degrading effects of 
realistic countermeasures. A wide variety of countermeasures are 
possible, and we are not likely to know which of these might actually 
be used against our system. However, we should expect countermeasures 
to be tailored to the specific nature of our BMD system (e.g., our use 
of infrared terminal guidance), since key characteristics of our BMD 
system are a matter of public record. This problem is not new; indeed, 
it is the classic problem which all air defense systems have--a problem 
that fundamentally limits the effectiveness (kill rate) of all air 
defense systems. We have no operational history yet on missile defense 
systems, but we do have 60 years of operating air defense systems. Even 
the best air defense systems, under operational conditions, have not 
demonstrated the ability to shoot down more than 20 or 30% of the 
attacking force; indeed, under most operational conditions, they have 
done much poorer than that. The analogy of ballistic missile defense to 
air defense is far from perfect, and I would not want to apply 
uncritically historical records of air defense systems to ballistic 
missile defense systems. But, on balance, it is not easier to shoot 
down a ballistic missile than it is an airplane, and, most importantly, 
it is clear that countermeasures will be at least as much of a problem. 
Therefore, one can find no historical basis for believing that any BMD 
system under operational conditions will achieve even close to the 80 
or 90% levels of effectiveness than have been discussed, or that should 
we in time be able to demonstrate on the test range.
    We should also be realistic in assessing the likely costs of a 
missile defense system, and understanding that, in some real sense, 
funding missile defense must compete with funding other military needs. 
During my period as Secretary of Defense, one of the most difficult 
jobs I had was setting the funding priorities for defense programs--and 
then defending those priorities to the President and the Congress! Even 
with savings achieved through reform of the defense acquisition system 
and with the closing of unneeded bases, the budget realities imposed by 
the state of the economy and the recent tax cut mean that the money for 
new defense programs will not be unlimited. Thus we will need to make 
careful choices about where we make new investments.
    My judgment when I was Secretary, and still today, is that while 
BMD is an important program, I would place it at a lower priority than 
many programs that are key to maintaining military readiness, 
particularly the programs that provide for the quality of America's 
military forces and provide them with the best and most realistic 
training of any military force in the world. These training programs 
are realistic, intense and frequent, so they are also very costly, but 
I have no doubt that the results are worth the cost, so I would not 
want to reduce them. I would also place BMD at a lower priority than 
programs now under development to upgrade our conventional forces. In 
particular, I believe that we have an urgent need to replace our 
tactical fighter and bomber forces with the new generation aircraft 
that have been developed over the last ten years. This new generation 
of fighters and bombers embody technology (especially stealth and 
precision weapon delivery) that will ensure that America's military 
will enjoy air supremacy in any military conflict during the next 
several decades. Desert Storm demonstrated that air supremacy leveraged 
all aspects of our military operations, allowing us to win quickly, 
decisively, and with minimal casualties. It also demonstrated that to 
the rest of the world, so maintaining this capability is a critical 
factor in deterring future wars. There is no doubt that these new 
programs will be very expensive, but, again, I am confident that the 
results are worth the cost.
    In sum, then, I believe that the threat of nuclear proliferation is 
real and growing, and, if not managed properly, could lead to 
catastrophic results. Thus I see dealing with proliferation as one of 
our highest security concerns. What actions should we take, what 
programs should we support to respond to that concern?

          1. We should assign a higher priority, devote more funding, 
        and dedicate a greater diplomatic effort to preventive defense 
        and preventive diplomacy. What is required is staying the 
        course on the programs already established, increasing the 
        funding level where appropriate (for example on the Nunn-Lugar 
        program), and pursuing aggressively new opportunities to reduce 
        the threat before it emerges (negotiating an agreement whereby 
        North Korea abandons long-range missiles, e.g.). More 
        generally, we must work hard to establish a cooperative anti-
        proliferation effort with Russia and China. I understand that 
        this will not be easy, but it is clear that it will not even be 
        possible if we elect to take unilateral actions on our 
        strategic forces. Whatever we do on reducing strategic forces 
        and deploying BMD systems must be done in serious consultation 
        with Russia, and with some consideration of its impact on 
        China. Our consultation is not done as a favor to Russia and 
        China, or simply for the good feelings they generate. Rather we 
        consult, and consult seriously, with a goal of achieving 
        agreements on cooperative programs that will reduce the 
        worldwide threat of proliferation (agreements like the 
        Trilateral agreement and the Cooperative Threat Reduction). We 
        pursue these agreements because we understand that if we 
        proceed unilaterally, we will be giving up on a unique 
        historical opportunity to prevent nuclear and biological 
        weapons from emerging as threats. In the context of 
        proliferation, discussions on BMD are important to the extent 
        our BMD program is seen as an obstacle to such agreements; 
        discussions on the level of strategic forces are important 
        because they lead to such agreements (as the START treaty led 
        to the Nunn-Lugar program).

          2. We should assign a higher priority and devote more funding 
        to those intelligence efforts that show greatest promise for 
        penetrating transnational groups planning terrorist attacks in 
        the U.S., and to those intelligence efforts that illuminate the 
        nature of the proliferation threat. Perhaps this committee 
        could get recommendations from the PFIAB on specific actions 
        along those lines.

          3. We should maintain a robust R&D program in missile 
        defense. In my judgment, robust does not mean trying out every 
        BMD concept ever proposed, but instead a program sharply 
        focused on how to deal with a realistic countermeasure threat. 
        In particular, we need a much more aggressive program in 
        testing and simulation to gain a real understanding of the 
        countermeasures threat, how best to deal with it, and how it 
        fundamentally limits our effectiveness. We probably will never 
        know what countermeasures our BMD system would have to face, 
        but we should assume that they will be tailored to the system 
        we are developing, as it is described in the public record. 
        Therefore our counter-countermeasures design and the testing of 
        that design should be against that realistic threat. Testing 
        plays an important role in validating our counter-
        countermeasures design, but only very detailed and extensive 
        simulations will allow us to ``test'' the system against the 
        wide variety of realistic countermeasures and conditions that 
        we could face. The field tests are the final stage, essentially 
        to validate the results already proven in detailed and 
        realistic simulations.

          4. Because we can never be sure that any missile defense 
        system will be fully effective, we should establish a policy 
        (and the capability to support the policy) that we will attack 
        the launch sites of any nation that threatens to attack the 
        U.S. with nuclear or biological weapons. We have a variety of 
        ways of conducting such an attack. For example, it likely could 
        be effectively carried out with conventionally-armed precision-
        guided weapons.

    Let me close by observing that our future security depends 
fundamentally on actions we take today to prevent the proliferation of 
nuclear and biological weapons, and that the success of these actions 
depends fundamentally on the cooperation of the other nuclear powers. 
It is reasonable to prepare a defense against a ballistic missile 
attack, but we should not believe that we can fully defend the country 
against a reasonably determined attack, even after our BMD technology 
matures. So as we assess our course of action, we should carefully 
consider that if we proceed unilaterally to deploy a BMD, we could be 
inadvertently increasing the level of threat we face from 
proliferation. We should also carefully consider the opportunity cost 
of a BMD system relative to other very real and very important defense 
needs.

    The Chairman. Thank you very much for a very succinct and 
compelling statement.
    Mr. Cutler.

  STATEMENT OF HON. LLOYD N. CUTLER, SENIOR COUNSEL, WILMER, 
               CUTLER & PICKERING, WASHINGTON, DC

    Mr. Cutler. Thank you very much, Mr. Chairman, and Senator 
Lugar, for the invitation to testify again about the work of 
the Russian task force headed by Senator Baker and myself and 
its report card on the development of the Department of 
Energy's nonproliferation programs with Russia.
    I was pleased to appear before your committee, Senator 
Baker and I, on May 28, 2001. We are a bipartisan Commission, 
but we filed a unanimous report. We include many of your former 
colleagues such as Senator Nunn, Senator Simpson, Senator 
McClure, Senator Boren, your colleague in the House, Lee 
Hamilton, and Susan Eisenhower.
    My additional statement, which I submit for the record 
today, makes six points. First, the nonproliferation programs 
of the U.S. Government are a very good investment in our 
national security. Beginning with the Nunn-Lugar legislative 
initiative in 1991, the United States has established an 
impressive array of threat-reduction programs in the 
Departments of Defense, State, Commerce, and Energy to assist 
in dismantling Russia's nuclear and other weapons of mass 
destruction that Bill Perry referred to, and to improve 
significantly the physical security of such weapons and 
materials. I will concentrate on the importance and value of 
the Department of Energy programs, leaving the other Nunn-Lugar 
initiatives to others.
    Second, the benefits of cooperation between the United 
States and Russia help both nations. An example of the mutual 
benefit to our security is an event that took place last year 
at the Kurchatov Institute in Moscow that I had the opportunity 
to visit. The collaboration between American and Russian 
experts to fix the flaw in the American-designed nuclear 
accounting software at that institute is paying a high national 
security return on our investment in nonproliferation programs.
    Third, not all of the task force recommendations require 
increased funding. We have recommended an increase in both the 
budget and the pace of several specific programs. However, we 
have identified several bureaucratic reforms both in the United 
States and in Russia that would enable these programs to run 
more smoothly without costing more money.
    For instance, the task force has recommended that the 
President formulate a strategic plan and create a high-level 
leadership position in the White House. Our role model for a 
job like that would be Senator Baker, if he were available, 
someone of the gravitas and the skill and the negotiating and 
persuasive ability to resolve the inevitable turf wars that 
exist when you have a program carried out by so many different 
agencies.
    Fourth, the task force is very concerned, just as the 
Clinton administration and the Bush administration appear to 
be, about the continuing Russian supply of so-called dual-use 
weapons and technology to Iran. This issue has been raised 
between the two governments at the highest levels, first by 
President Clinton to President Putin, and now by President Bush 
as well with President Putin.
    The task force is concerned that the continuing supply of 
this dual-use equipment and technology by Russia to Iran 
undermines the nascent trust that has developed between our two 
countries under the programs which require the cooperation Bill 
Perry described, and that the issue must be resolved.
    Fifth, in Russia we are seeing changes at the top that are 
a hopeful sign, as the old guard like Mr. Adamov is replaced by 
new ministers who are more interested in supporting 
nonproliferation. Our task force is hopeful that our two 
countries will continue to work together in a growing and fully 
transparent partnership to reduce the risk to the security of 
both our nations.
    Sixth, we are pleased to note that both the House and 
Senate appropriators have increased funding beyond the 
administration's original budget request for the 
nonproliferation programs carried on at the DOE, and we are 
encouraged that the 107th Congress remains committed to 
investing in programs that are such a good value to our 
national security.
    In my personal view, the U.S. joint nonproliferation 
programs with Russia should have three prongs. Prong one is to 
secure weapons-grade fissile materials in the custody of the 
Ministry of Atomic Energy, and ultimately to dispose of them in 
a manner that prevents their reuse in nuclear or other weapons.
    Prong two is to physically, and I emphasize the word 
physically, secure the existing nuclear weapons that are in 
storage in the custody of the Ministry of Defense. This has 
been a major program, I know, for Senator Lugar.
    Prong three, which both the Clinton and Bush 
administrations appear to be moving in favor of, would be to 
safeguard the ICBM and other nuclear weapons sitting atop 
missiles poised for launch by de-alerting them and moving the 
missiles to storage, and by helping Russia to improve its own 
early warning systems.
    This last prong, about the early warning systems, is 
particularly relevant in the light of such incidents as the May 
11 fire at the Russian mission control center at Kourilovo, 
which temporarily disrupted communication between Russian space 
forces and their own early warning satellites. Loss of early 
warning capability in space could leave Russia vulnerable, in 
the event of a nuclear alert, to the danger of misinterpreting 
a benign event like the Norwegian sounding rocket incident in 
1995, as an attack.
    In addition, somewhat more than 70 percent of Russian 
satellites are now past their expected service lives, and the 
system is much more prone to cause false alarms that could 
destabilize the international security environment. Russia's 
deteriorating early warning system poses a real threat to our 
own security and to that of other nations.
    Finally, I want to comment on a program that was just 
getting started at the close of the Clinton administration and 
in the making of our task force report, and that is the request 
initiated on the Russian side for American assistance in 
disposing of the nuclear power plants in the Russian submarines 
that are being dismantled because of old age.I21That is a 
program which the Russians initiated, which has all kinds of 
benefits for the United States, Russia, and for the rest of the 
world. In Howard Baker's phrase, as you will recall, it was the 
United States and Russia who started the cold war, who 
developed these nuclear weapons that we now have, and it is our 
joint responsibility for the safety of not only our own 
population but that of the entire world to get rid of what we 
ourselves created as rapidly as possible.
    With the submarine program, if it goes forward, there would 
be a great opportunity to share costs with other nations 
because of the serious environmental and other risks involved 
if this material is stolen, or if the vessels should sink of 
their own dead weight before the power plants are removed.
    There is great concern, as you know, in Norway even about 
the fleet of dismantled overage vessels that exist, I suppose, 
almost 1,000 miles away in Murmansk. There is equal concern on 
the part of Japan, and even, no doubt, on the part of Alaska, 
and it should be on the part of the entire United States if the 
dismantled overage vessels in Vladivostok suffered a similar 
fate. For environmental reasons, if for no other reason, that 
would be a very valuable program for both sides to pursue.
    Thank you.
    [The prepared statement of Mr. Cutler follows:]

               Prepared Statement of Hon. Lloyd N. Cutler

    Thank you very much, Chairman Biden, for the invitation to testify 
about the work of the Cutler-Baker ``Russia Task Force,'' and its 
Report Card on the Department of Energy's Non-Proliferation Programs 
with Russia. I am very pleased to be here.
    I was pleased to appeared before your committee on May 28, 2001, 
with my Co-Chairman, Senator Howard Baker to discuss the findings of 
Russia Task Force. We are a bipartisan, unanimous commission. Today, I 
hope to continue the very useful discussion we began that day about the 
Department of Energy's non-proliferation programs. My statement, which 
I submit for the record today, makes six points:
    First, the non-proliferation programs of the United States 
government are a good investment in our national security. Beginning 
with the Nunn-Lugar legislative initiative of 1991, the United States 
has established an impressive array of threat reduction programs in the 
Departments of Defense, State, Commerce, and Energy to assist in 
dismantling Russian nuclear and other weapons of mass destruction and 
to improve significantly the security of such weapons and materials. I 
will describe the importance and value of the Department of Energy 
programs, discuss the work they do, and highlight the Task Force 
recommendations.
    Second, the benefits of cooperation between the United States and 
Russia work both ways. I will illustrate the mutual benefit to our 
security with an event that took place last year at Kurchatov Institute 
in Moscow. The collaboration between American and Russian experts to 
fix a flaw in the nuclear accounting software at that Institute 
demonstrates that the good will and trust that has developed between 
our two countries pays a high national security return on our 
investment in non-proliferation programs.
    Third, not all of the Task Force recommendations require increased 
funding. We have recommended an increase in both the budget and the 
pace of several specific programs. However, several bureaucratic 
reforms both in the United States and in Russia would enable these 
programs to run more smoothly without costing more money. As an 
important part of governmental reform, the Task Force recommends that 
the President formulate a strategic plan and appoint a high-level 
leadership position in the White House to improve coordination of all 
non-proliferation programs between the United States and Russia. 
Establishing this leadership position could be the most significant 
possible step toward achieving the other objectives--such as 
streamlining internal bureaucratic impediments, improving interagency 
coordination, and increasing Russian transparency and access--that do 
not require increased funding.
    Fourth, the Task Force is concerned about the proliferation of 
weapons of mass destruction (WMD) technology to Iran. This concern has 
been raised between the two governments at the highest levels: Former 
President Clinton expressed his concern about proliferation to Iran 
with Russian President Putin. During the last Administration, officials 
at the highest levels pressed this issue with their Russian 
counterparts. In the new Administration, President Bush also expressed 
his concerns about Russian proliferation to Iran in his first meeting 
with President Putin. The Task Force is concerned that proliferation 
from Russia to Iran could undermine the nascent trust that has 
developed between the United States and Russia. The Task Force is 
concerned that further proliferation to Iran could jeopardize the 
success of our nonproliferation programs.
    Fifth, in Russia, we are seeing changes at the top that are a 
hopeful sign. As the old guard is replaced by new ministers who are 
more interested in non-proliferation, I am hopeful that our two 
countries will continue to work together, as part of a growing and 
transparent partnership, to reduce the risk to both our nations' 
security.
    Sixth, both the House and Senate Appropriators have increased 
funding beyond the Administration request for non-proliferation 
programs at the Department of Energy. I believe this is a good sign 
that the 107th Congress remains committed to investing in programs that 
are a good value to our nation's security. I would like to thank the 
House Appropriations Committee for seeking to support the 
recommendations of the Baker-Cutler ``Russia Task Force'' within the 
available funding.
    In my personal view, the U.S. non-proliferation assistance programs 
should have three prongs. Prong one is to secure weapons-grade fissile 
materials in the custody of the Ministry of Atomic Energy, and 
ultimately disposing of them. Prong two is to secure nuclear weapons in 
storage in the custody of the Ministry of Defense. Prong three, which 
does not presently exist, would be to safeguard the nuclear weapons 
sitting atop missiles poised for launch by de-alerting them and moving 
the missiles to storage.
    The last prong is particularly relevant in light of incidents such 
as the May 11 fire at the Russian mission control center at Kourilovo, 
which temporarily disrupted communication between Russian Space Forces 
and their early-warning satellites. Loss of early-warning capability in 
space could leave Russia vulnerable in the event of a nuclear alert to 
the danger of misinterpreting a benign event--like the Norwegian 
sounding rocket incident in 1995--as an attack. In addition, as more 
than 70 percent of Russian satellites have surpassed their expected 
service lives, there is concern that as the system degenerates it is 
more prone to cause false alarms that could destabilize the 
international security environment. Russia's deteriorating early-
warning system poses a real threat to U.S. security, and thus, it is in 
the common interest of the United States and Russia to ensure that the 
other has access to reliable early-warning information.

I. DESCRIPTION OF THE DEPARTMENT OF ENERGY'S NON-PROLIFERATION PROGRAMS

    In February 2000 Secretary of Energy Bill Richardson requested 
former Senate Majority Leader Howard Baker and me to co-chair a 
bipartisan task force to review DOE's nonproliferation programs in 
Russia. The Task Force was asked to ``provide appraisals and 
recommendations to the Secretary of Energy regarding the policy 
priorities established by DOE to pursue cooperative nonproliferation 
and nuclear safety programs in Russia, with an eye to identifying 
crucial program areas that may not have been addressed in the past.'' 
The United States has a special responsibility in this area. As my co-
chairman, Senator Howard Baker, so eloquently testified, the United 
States and Russia are the creators of the nuclear age; thus we have a 
special set of responsibilities to control and prevent the 
proliferation of weapons of mass destruction in order to minimize the 
risk to civilization. The Task Force aimed from the outset to provide a 
set of concrete recommendations to help shape DOE's nonproliferation 
programs in Russia and make the world a safer place in the 21st 
century.
    The Task Force reviewed seven of DOE's cooperative nonproliferation 
programs that fall into four broad categories: control of fissile 
materials; reduction of the amount of material; redirection of nuclear 
complex workers; and safety of material and people. The programs 
selected for review--each designed to address a specific aspect of the 
overall nonproliferation problem--have the common goals of reducing the 
danger posed by the proliferation of weapons material and eliminating 
the danger of scientists selling their weapons of mass destruction 
expertise to unauthorized third parties. Each program does only part of 
the job, but together these programs complement each other and the work 
of other U.S. agencies. The programs include:

  <bullet> Material Protection, Control and Accounting Program (MPC&A);

  <bullet> Highly Enriched Uranium (HEU) Purchase Agreement and 
        Transparency Implementation Program;

  <bullet> Russian Plutonium Disposition Program;

  <bullet> Second Line of Defense (SLD) Program;

  <bullet> Initiatives for Proliferation Prevention (IPP) Program;

  <bullet> Nuclear Cities Initiative (NCI); and

  <bullet> Nuclear Safety Cooperation.

A. Material Protection, Control and Accounting Program
    The Material Protection, Control and Accounting (MPC&A) Program is 
one of the most mature of the U.S. Government threat reduction 
programs. Its purpose is to reduce rapidly the threat posed by 
unsecured Russian nuclear weapons-usable material. This program 
provides Russian nuclear facilities with modern safeguards, material 
accounting and physical protection systems; training for nuclear 
personnel in proper MPC&A techniques; assistance in developing a 
comprehensive and enduring regulatory basis for nuclear material 
security in Russia; and assistance in improving the physical protection 
of nuclear weapons-usable, materials in transit.
    Even though the MPC&A Program was a primary focus of the Nunn-Lugar 
initiative, the sensitive issue of secrecy in the weapons complex 
initially prevented the development of a large-scale cooperative 
effort. That barrier was not overcome until 1994, when the Russians 
stopped objecting to cooperative work at sites actually handling 
plutonium or HEU. A laboratory-to-laboratory initiative was then 
established to complement the collaborative government work and both 
efforts moved forward. Initial funding came primarily from the 
Department of Defense, with MPC&A being fully transferred to DOE in FY 
1996. The budget for MPC&A reached $136 million in FY 1999 and $145 
million in FY 2000. Funding for this program grew to $173 million in FY 
2001.
    The MPC&A Program focuses on enhancing the security of materials at 
current locations, transferring material from insecure sites, and 
consolidating that material at sites where enhanced security systems 
are in place. Initially, MPC&A may apply what are known as ``rapid 
upgrades,'' which provide an immediate increase in security and may 
include placing bricks in front of windows or installing portal 
monitors. Comprehensive long-term upgrades are implemented once rapid 
upgrades are completed. Security improvements have begun for 
approximately 80 percent of the current estimate of the Russian 
stockpile of nuclear weapons-usable material not contained in nuclear 
weapons.

            Task Force Assessment of MPC&A

    While the security of hundreds of tons of Russian material has been 
improved under the MPC&A Program, comprehensive security upgrades have 
covered only a modest fraction of the weapons-usable material. There is 
no program yet in place to provide the incentives, resources, and 
organizational arrangements for Russia to sustain high levels of 
security. In addition, disputes between the U.S. and Russia over access 
continue to stymie work at some sites with large quantities of material 
and undermine the broader atmosphere of cooperation. Also, a 
comprehensive testing and assessment program to ensure that the 
upgrades have been fully effective still awaits implementation.

B. Highly Enriched Uranium
    Like the MPC&A Program, the Highly Enriched Uranium (HEU) Purchase 
Agreement is a mature program. The agreement, which authorizes the 
contract mechanism between the U.S. Enrichment Corporation (USEC) and 
the Russian Techsnabexport, was signed during the Moscow Summit of 
January 1994. It authorizes the U.S. purchase of 500 metric tons of HEU 
to be removed from former Soviet nuclear weapons and converted to low 
enriched uranium (LEU) suitable for commercial fuel. At the time of the 
agreement, its total estimated value was $12 billion over 20 years. The 
agreement describes transparency measures that will be implemented to 
provide the necessary assurances that the U.S. Government's nuclear 
nonproliferation objectives are being fulfilled. The agreement 
specifies that the HEU is to be derived from dismantled nuclear 
weapons; that this same HEU material is to be processed and converted 
into LEU for delivery to USEC; and that this LEU is to be used to 
fabricate fuel elements for commercial power reactors. To date, more 
than 110 metric tons of HEU have been down-blended, in accordance with 
the agreement, and the resultant LEU has been delivered to the 
international market. The agreement continues through 2013, by which 
time the 500 metric tons of HEU that is expected to have been down-
blended will total the amount of material that would have been found in 
25,000 warheads.
    The HEU agreement represents a challenge to the worldwide nuclear 
fuel market because it brings to market material representing 15 
percent of world demand. Tensions between the commercial interests of 
entities in the nuclear fuel market, and the international security 
interest in rendering this fissile material impotent as rapidly as 
practicable, are inevitable. MinAtom Minister Adamov told the Task 
Force in July 2000 that Russia sees the HEU Purchase Agreement as an 
important and successful ``swords into ploughshares project.'' The HEU 
agreement provides a financial incentive to dismantle thousands of 
nuclear warheads, renders the material in those warheads impotent, 
provides a valuable commercial product to the U.S., and provides 
hundreds of millions of dollars per year to Russia. These funds can be 
used to create thousands of non-weapons-related jobs for workers, who 
might otherwise be tempted to sell their expertise, and to provide a 
source of Russian funding for conversion and cleanup of its vast 
nuclear complex.

            Task Force Assessment of the HEU Purchase Agreement

    It is the Task Force's judgment, however, that this program still 
suffers from four key problems. First, the pace of implementation is 
unstable. Deliveries of LEU have been interrupted for months at a time. 
Second, the program, even when not interrupted, is too slow and the 
annual 30 metric tons currently being down-blended represent only one-
fortieth of the Russian HEU stockpile. The program now utilizes only 
about half of the estimated blending capacity of Russian facilities. 
Third, the 500 metric tons under the agreement represents less than 
half of Russia's total HEU stockpile and was agreed upon long before 
the recent Russian decision to reduce drastically its nuclear forces. 
Finally, transparency measures for the program require a greater level 
of joint technical cooperation to ensure full implementation. Renewed 
efforts to address these issues, including extending the program beyond 
500 metric tons, are critical.

C. Russian Plutonium Disposition
    The mission of the Russian Plutonium Disposition Program is to 
reduce the inventory of surplus Russian weapons-usable plutonium in 
step with the U.S. plutonium disposition program. Since the end of the 
Cold War, significant quantities of plutonium have become surplus to 
defense needs, both in the United States and in Russia. Continued 
implementation of arms reduction agreements is expected to produce 
further weapons dismantlement and may increase stockpiles of these 
weapons-usable materials. These materials will continue to pose a 
security threat as long as they remain in forms that are usable 
directly in nuclear weapons.
    The Russian Plutonium Disposition Program has only recently moved 
beyond joint technical studies in preparation for a large-scale program 
to reduce plutonium stockpiles. A framework agreement establishing U.S. 
and Russian commitments to dispose of 34 metric tons of excess weapons 
plutonium was signed in September 2000. The agreement provides a 
timeline for the design and construction of industrial-scale facilities 
to convert excess weapons plutonium to oxide, fabricate mixed oxide 
fuel, and carry out other functions under the program, including 
monitoring and inspections.
    In July 1998, the United States and Russia signed a Scientific and 
Technical Cooperation Agreement to conduct tests and demonstrations of 
proposed plutonium disposition technologies. In FY 1999 the U.S. 
Congress appropriated $200 million for the program. An additional $200 
million is being requested from Congress in FY 2000-2004. It is 
estimated, however, that approximately $2.1 billion will be required to 
dispose of this initial 34 metric tons of Russian plutonium, 
considerably more than current funding levels. Accordingly, the U.S. 
Government has made a commitment to seek the international financing 
needed to support plutonium disposition in Russia and to implement 
plutonium disposition activities in accordance with the bilateral 
agreement.
    The U.S. and Russia are working together to develop disposition 
methods and technologies that are cost effective and environmentally 
sound. Further, the U.S. and Russia have developed a plutonium 
disposition roadmap--or logic flow--and an associated nominal schedule 
for Russian plutonium disposition. The two countries have a different 
view of the economic value of plutonium, however, and this has 
precluded a commercial arrangement similar to the HEU Purchase 
Agreement.

            Task Force Assessment of the Plutonium Disposition Program:

    In the opinion of the Task Force, the Russian Plutonium Disposition 
Program suffers from uncertainty regarding financing and the reactor 
capacity needed to burn the material at the same disposition rate as 
the U.S. program can achieve. It also lacks a well-established security 
regime to ensure that the program is carried out without creating new 
proliferation threats.

D. Second Line of Defense Program
    The Second Line of Defense (SLD) Program, initiated in 1998, is one 
of the youngest and most modest of the programs related to nuclear 
materials. Like MPC&A, which is the ``first line of defense,'' the SLD 
Program has established an effective working relationship with its 
Russian partner, the Russian Federation Customs Service.
    The SLD Program is the first U.S.-Russian cooperative program to 
combat illicit trafficking of nuclear material and nuclear-related 
equipment across Russia's borders. It reinforces and enhances other 
U.S. Government programs, operated by the Defense Department, the 
Customs Service, the Federal Bureau of Investigation, the Department of 
State, and other agencies. The Department of Defense, for example, 
focuses on strengthening border controls among the now independent 
former Soviet countries. The SLD Program aims to reduce the threat of 
nuclear proliferation and terrorism through cooperative efforts with 
the Russian Government to strengthen its overall capacity to detect and 
deter illicit trafficking in nuclear materials at its borders. Nuclear 
weapons and the materials needed for their manufacture give off 
detectable emissions that are hard to conceal or disguise. Passive, 
non-intrusive monitors can detect the presence of these materials, 
allowing for innovative, technical solutions adaptable to the challenge 
of stolen materials.
    The SLD Program equips select strategic border crossings and ports 
of entry with radiation detection equipment facilitating detection, 
deterrence, and interdiction of smuggling of nuclear material. The 
program seeks to further minimize the risk of illicit trafficking by 
deploying radiation detection equipment, establishing search and 
identification equipment and procedures, and developing response 
procedures and capabilities to deter future trafficking in nuclear 
materials.

            Task Force Assessment of the Second Line of Defense (SLD) 
                    Program

    In the Task Force's judgment, the SLD Program is moving forward too 
slowly and would benefit from a stable budget. In FY 2000 funding was 
limited to $6 million. DOE funding was $1 million, which was augmented 
by carryover funds from FY 1999, and an additional $5 million was 
provided from the Department of State's Nonproliferation and 
Disarmament Fund. Additional funds are desirable to support enhanced 
efforts to fully equip the most strategic Russian border crossings and 
to provide for a more comprehensive training program.

E. Initiatives for Proliferation Prevention Program
    The Initiatives for Proliferation Prevention (IPP) Program has been 
in place since 1994 with a goal of bringing U.S. and Russian laboratory 
scientists and the U.S. private sector together to move technologies 
from concepts to sustainable businesses. Dramatic budget reductions at 
scientific institutes employing weapons scientists and the lack of 
meaningful alternative employment present a significant proliferation 
threat. Evidence indicates that nations of concern with active weapons 
acquisition programs have already solicited technical expertise from 
the scientists at these facilities. In its work to respond to this 
threat, the IPP Program complements the Nuclear Cities Initiative, the 
International Science and Technology Center (ISTC) Program, and the 
Civilian Research and Development Foundation.\1\ The IPP Program seeks 
to reduce the risk of the proliferation of weapons of mass destruction 
expertise by identifying and developing sustainable, non-weapons-
related work for these scientists, engineers, and technicians to 
prevent brain drain.
---------------------------------------------------------------------------
    \1\ U.S. Government contributions to the latter two programs are 
managed by the State Department.
---------------------------------------------------------------------------
    The IPP Program pairs scientists from DOE's national laboratories 
with their counterparts in Russia to develop projects with commercial 
potential. Inter-laboratory teams review proposed projects to ensure 
technical viability and, along with specialists from a variety of U.S. 
Government agencies, to ensure that they do not contribute to foreign 
military capabilities. The IPP Program uses a number of measures to 
ensure accountability of its project funds. IPP projects are performed 
under firm, fixed-price subcontracts from DOE's national laboratories. 
Payment is made only when a deliverable under the subcontract is 
completed.

            Task Force Assessment of the Initiatives for Proliferation 
                    Prevention (IPP) Program

    The IPP Program has improved its performance in recent years. 
Following years of inconsistent funding, Congress appropriated $22.5 
million in FY 1999, and $24.5 million in FY 2001. An increasing number 
of projects are moving toward full commercialization, where U.S. 
Government funding will no longer be required. The number of actual 
weapons experts sustainably re-employed in commercial jobs, however, 
remains difficult to document. In the Task Force's judgment, it is 
important to recognize that funding for high-tech research and 
development, as IPP provides, can be only one element of a successful 
overall effort to redirect Russia's excess nuclear weapons expertise.

F. Nuclear Cities Initiative
    The Nuclear Cities Initiative (NCI) was established by Secretary 
Richardson and MinAtom Minister Adamov with the signature of a 
Government-to-Government Agreement in September 1998. It is both a new 
way of addressing the problem of brain drain and an effort to work with 
Russia to shrink the size of the massive Russian nuclear weapons 
complex.
    NCI's goals are two-fold: to assist Russia in its announced 
intention to reduce the size of its nuclear weapons complex; and to 
promote nonproliferation goals through redirecting the work of nuclear 
weapons scientists, engineers, and technicians in the closed nuclear 
cities to alternative, non-military scientific or commercial 
activities. Unlike the older programs such as IPP and ISTC, which focus 
on scientists still at work in weapons complex laboratories and 
facilities, NCI focuses on providing assistance to scientists as they 
lose their jobs in those very laboratories and facilities. The Russian 
Government has undertaken a massive downsizing and restructuring of the 
weapons complex, and requested, through NCI, the advice and assistance 
of the U.S. to accelerate this effort.
    In FY 2000, Congress cut NCI's $15 million budget in half, asking 
DOE to demonstrate results before providing additional funding. In 
response, the program concentrated on concrete efforts in the focus 
cities of Sarov, Snezhinsk and Zheleznogorsk. In Sarov, for example, a 
detailed strategic plan was developed that included an Open Computing 
Center to foster software development work, and a manufacturing park in 
a section of the Avangard nuclear weapons plant newly opened for 
conversion and commercial development. This innovative project has 
facilitated the first cooperative efforts with foreign companies inside 
a former Russian weapons production facility and promises to accelerate 
the planned shutdown of weapons assembly and disassembly activities at 
the plant.
    To carry out NCI in the closed cities, DOE has reached out to a 
number of U.S. Government programs and non-governmental organizations 
with experience in community building. These include the U.S. Agency 
for International Development, Department of State, Department of 
Commerce, W. Alton Jones Foundation, Soros Foundation, and others. NCI 
has also worked with the European Bank for Reconstruction and 
Development (EBRD) to bring a small business loan program to the 
nuclear cities.
    NCI works in partnership with MinAtom, its institutes, and western 
companies to create opportunities for short-term contract employment 
and to create the municipal and telecommunications infrastructure 
necessary to attract and establish longer-term business opportunities. 
U.S.-Russian laboratory teams continue to develop strategic plans for 
the three focus cities. These strategic plans define the challenges 
faced in downsizing, outline infrastructure needs, prioritize potential 
projects, and identify solutions to be implemented in the near term.

            Task Force Assessment of the Nuclear Cities Initiative 
                    (NCI) Program

    In its second full year of operation, NCI now has moved from 
planning to implementation. Although measurable results have been 
modest thus far, it has established contacts and working relationships 
designed to foster the viable business environment needed to attract 
and sustain non-military investment in the initial three focus cities. 
It is a challenge of unprecedented proportions. Multilateral 
cooperation will continue to be encouraged, and a larger investment by 
the Russian Government is required. Over the long term, NCI envisions a 
transition to private commercial investment and Russian Government 
funding. In the meantime, careful attention should be given to defining 
criteria for success and developing an exit strategy for this program. 
Congress has stipulated that $10 million of the FY 2001 budget may not 
be spent until DOE and MinAtom reach an agreement documenting MinAtom's 
commitment to close some of its nuclear weapons facilities. NCI plans 
to continue the work begun in the initial three cities and, depending 
upon the availability of resources and approval from Congress, to 
expand to all ten closed Russian nuclear cities.

G. Nuclear Safety Cooperation
    The International Nuclear Safety Program predates the breakup of 
the Soviet Union. The Chernobyl accident in 1986 focused international 
attention on the safety of Soviet-designed nuclear reactors in the 
Soviet Union and Eastern Europe. In the early 1990s, U.S., European and 
Japanese specialists began to search for ways to enhance the safety of 
these reactors for the remainder of their operational life. It is in 
the international community's interest that the reactors be operated in 
the safest manner possible.
    The International Nuclear Safety Program assists with the 
implementation of self-sustaining nuclear safety programs, consistent 
with international norms. DOE seeks to bolster Russia's responsibility 
for addressing safety issues, preventing accidents, and increasing 
Russian national funding for safety programs. DOE's program provides a 
modest investment in critical technologies that are urgently required 
to assure the safety of these nuclear power plants. Program activities 
provide opportunities not only for U.S. industry to contribute 
significantly to nuclear safety and nonproliferation efforts but also 
to engage in the economy of Russia and subsequent business ventures. A 
series of joint projects between the U.S. and Russian International 
Nuclear Safety Centers will be completed to assist other countries 
operating Soviet-designed reactors to develop and implement self-
sustaining nuclear safety infrastructure and improvement programs 
capable of implementing internationally accepted safety practices. To 
improve the safety of Soviet-designed nuclear power plants, a series of 
specific safety upgrade projects will be completed at these plants.

            Task Force Assessment of the Nuclear Safety Cooperation 
                    Program

    This program has been successful in improving the safety of many 
Soviet-designed reactors. Various safety improvements were made to 
Chernobyl, for example, during its period of continued operation prior 
to its recent shutdown on December 15, 2000. There has been little 
progress, however, in convincing Russia to shut down its oldest and 
most unsafe reactors. Indeed, the Russian Government is actively 
considering extending the life of these reactors. There remain 
important questions concerning what fraction of the safety problem has 
been successfully addressed, what more needs to be done, and whether 
efforts to help Russia develop a long-term safety culture and 
regulatory system will be successful.

               II. BENEFITS OF COOPERATION WORK BOTH WAYS

    The goodwill and trust that has developed through years of American 
and Russian nuclear experts working together has already paid 
dividends. A recent example of the high return on the American 
investment in Russian nuclear security took place recently at the 
Kurchatov Institute in Moscow.
    As part of the MPC&A program, the Department of Energy provided 
Kurchatov Institute, a renowned nuclear research center in Moscow, a 
simplified version of an accounting program developed by Microsoft that 
the Russian entity could adapt for its nuclear accounting needs. The 
computer accounting program was intended to supercede the hand-receipt 
paper system the Russians used to keep track of their nuclear stockpile 
in the past.
    In April of 1998, a Russian scientist began to notice some problems 
existed with the Kurchatov Institute material accounting system. The 
Russians found that over time, as the computer program is used, some 
files become invisible and inaccessible to the nuclear accountants 
using the system, even though the data still exists, imbedded in the 
database. Some have suggested that any insider who understood the 
software potentially could exploit this flaw by tracking the 
``disappeared'' files and then physically diverting, for a profit, the 
materials themselves.
    After investigating the problem for many months, the Russians came 
to believe that it posed a grave danger and suspended further use of 
the software in Russia's accounting system. By their calculations, an 
enormous amount of Russia's nuclear material--the equivalent of many 
thousands of nuclear bombs--would disappear from their accounting 
records if Russia were to use the flawed U.S. software program for 10 
years.
    Then, in early 2000, they did something they didn't have to do: 
They warned the United States about the problem, believing that an 
analogous risk must exist in the U.S. system. The Department of Energy 
has said that the accounting system software used at Kurchatov 
Institute is not the same system used at the DOE facilities, so there 
is no ``analogous risk'' of accounting error in the United States. But 
the warning from the Russian expert is a tangible example of how 
nuclear cooperation is a two-way street, with potential benefits on 
both sides.
    By working with a technical staff member at Los Alamos National 
Laboratory, the Russian and American nuclear experts were able to solve 
the problem together. The American expert duplicated the problem found 
at Kurchatov Institute and recommended an upgrade. He then worked with 
Microsoft to show that a specific, but rarely used, sequence of 
commands caused the problem. On advice and input from Los Alamos, 
Microsoft developed an alternative method to account for nuclear 
inventory without encountering this error, and subsequently issued an 
official error notice on this problem. The experts at Los Alamos 
provided the alternative to Kurchatov Institute.
    The importance of the goodwill and trust that had grown up between 
American and Russian nuclear experts over years of working together in 
this area is clear. As Bruce G. Blair wrote in an Op-Ed in the 
Washington Post, on July 11, 2001 (``Nukes: A Lesson From Russia''): 
``When the Russian scientists first discovered the computer flaw, the 
initial reaction in some high-level Moscow circles was to suspect an 
American Trojan horse, a bug planted deliberately to undermine Russian 
security. But trust overrode suspicion. The Russians concluded that the 
glitches were innocent errors, not devious traps.'' This cooperation 
surely represents a high return on the American investment in Russian 
nuclear security. ``The lesson is that nuclear cooperation is a two-way 
street, is paying off, and deserves continuing support.''

   III. NOT ALL TASK FORCE RECOMMENDATIONS REQUIRE INCREASED FUNDING

    Although the Task Force has recommended that the President 
accelerate the pace and increase funding for specific U.S. non-
proliferation programs with Russia, we also made several 
recommendations that would not require increased funding.
Need to Improve Transparency and Access
    The Task Force heard from many government and non-government 
program participants who experienced frustrating and often 
incomprehensible access problems during the course of doing business in 
Russia. For example, the team implementing transparency measures for 
the HEU agreement experienced repeated barriers to its efforts to 
adjust monitoring equipment at the Urals Electrochemical Plant, one of 
the main facilities blending down HEU to LEU. Only after months of 
negotiating, including at a high level, was the team allowed to visit 
the plant in order to make the necessary adjustments.
    The nuclear weapons complex in each country is still a highly 
secret place but both countries recognize that high-level interlocutors 
cannot routinely be involved in the details of obtaining adequate 
access if a program is to be successful. The Russians have pointed out, 
however, that transparency and access matters are still far from 
routine in the Russian bureaucracy. The security services, who continue 
to be responsible for maintaining the secrecy and security of the 
complex, take their job very seriously. There are no procedures for 
foreigners to have routine access to weapons complex facilities, and 
individual requests are often treated as unique and burdensome. The 
result is often delay or denied access, which requires high-level 
intervention and often serves to interrupt a long-planned 
implementation trip.
    Russian program managers have called for a high-level Russian 
Government decision establishing procedures to address the current 
necessity of routine transparency in and access to the nuclear weapons 
complex for legitimate foreign participants in these programs. Some 
have suggested that President Putin himself, given his former ties to 
the security services, will have to engage in order to resolve the 
issue. A decision at this level may be necessary.
    The Task Force observed that direct physical access to the 
facilities might not always be necessary. For highly secret facilities, 
for example, the correct installation of security measures such as 
fences and closed circuit TV cameras might be confirmed by other means 
such as still and video photography using sealed and tamper-proof 
cameras. For large construction projects such as the central storage 
facilities in the Northern and Far Eastern naval fleets, overhead 
photography could be a viable option. As the Russians develop more 
routine procedures for direct access to facilities, such methods should 
also be developed as legitimate means of providing transparency.

Need to Improve Coordination and Support
    At several levels, the Task Force observed that DOE programs need 
improved government-wide coordination and support for successful long-
term implementation. In particular, the urgent risk of proliferation of 
weapons of mass destruction demands the attention of the highest level 
of the U.S. Government. The advent of a new Administration provides an 
opportunity for enhanced focus on this issue in the White House.
    Coordination within and among U.S. Government agencies is 
insufficient and must be improved. Although the Task Force focused on 
the DOE nonproliferation programs, the members heard from many 
interlocutors that the programs would be improved, as would the 
counterpart programs in other agencies, if there were more coordination 
at all levels among all the U.S. Government programs. There is clearly 
a benefit to greater synergies among agency programs. For example, DOE 
and DOD have begun planning for possible work on dismantling Russian 
general-purpose nuclear submarines. Should such a program get underway, 
DOD could be responsible for handling removal of the reactor core while 
DOE could take responsibility for disposition of the submarine nuclear 
fuel--missions that take advantage of the relative expertise in each 
agency.
    The Task Force heard that even within DOE more effective 
cooperation would be beneficial, both for the nonproliferation programs 
and for other DOE missions. For example, effective technologies for 
nuclear waste cleanup and remediation are being developed under DOE 
nonproliferation programs such as the Nuclear Cities Initiative. Such 
technologies could also benefit cleanup efforts within the U.S. nuclear 
weapons complex but thus far links between NCI and other DOE programs 
have not yet been widely developed. Cooperation should be encouraged in 
all areas where appropriate.
    The Task Force believes a high-level position in the White House is 
needed to coordinate policy and budget for threat reduction and 
nonproliferation programs across the U.S. Government. The Task Force 
discussed several models for such a position, including having an 
experienced senior person brought in as a Senior Director of the 
National Security Council and Special Advisor to the President, 
reporting through the National Security Advisor to the President. 
Alternatively, this individual might report directly to the President 
as a high-level policy ``czar'', or to the Vice President, who would 
assume direct responsibility for the programs on behalf of the 
President. The Task Force offers no opinion on the preferred approach, 
but underscores the importance of attention to this issue in the new 
Administration. Establishing this leadership position could be the most 
significant possible step toward achieving the other objectives--such 
as streamlining internal bureaucratic impediments, improving 
interagency coordination, and increasing Russian transparency and 
access--that do not require increased funding.

Need to Streamline the Department of Energy Bureaucracy
    Beyond the need for high-level coordination, the Task Force 
observed impediments to DOE program implementation that should be 
addressed on an urgent basis. Many of these seem to revolve around 
restrictions on international travel stemming from both DOE internal 
regulations and procedures in other U.S. government agencies. These 
restrictions appear to have created unnecessary paperwork and 
bureaucratic impediments. They hinder DOE's ability to supervise work 
in the nonproliferation programs, maintain the pace of projects, and 
ensure that funds are used appropriately.

                IV. CONCERN ABOUT PROLIFERATION TO IRAN

    The Task Force is concerned about the proliferation of WMD 
technology to Iran. This concern has been raised between the two 
governments at the highest levels: Former President Clinton expressed 
his concern about proliferation to Iran with Russian President Putin. 
During the last Administration, officials at the highest levels pressed 
this issue with their Russian counterparts. In the new Administration, 
as recently as June, President Bush also expressed his concerns about 
proliferation to Iran in his first meeting with President Putin. The 
Task Force is concerned that proliferation from Russia to Iran could 
undermine the nascent trust that has developed between the United 
States and Russia. The Task Force is concerned that further 
proliferation to Iran could jeopardize the success of our non-
proliferation programs.
    An unclassified intelligence report to Congress on worldwide 
acquisition of weapons of mass destruction notes that ``Iran remains 
one of the most active countries seeking to acquire weapons of mass 
destruction and advanced chemical weapons technology from abroad. In 
doing so, Tehran is attempting to develop an indigenous capability to 
produce various types of weapons, chemical, biological, and nuclear, 
and their delivery systems.''
    The Clinton Administration and now the Bush Administration have 
been working with Russian President Putin on the very important problem 
of containing the proliferation of nuclear missile technologies to Iran 
from Russia. President Putin has committed to work hard to stem the 
flow of technology. But the Task Force believes that much work remains 
to be done.
    From the outset, a major issue will be Russia's plans to supply as 
many as five nuclear reactors to Iran, creating an atomic energy 
industry in a country that is believed to support terrorism and seeking 
to develop nuclear weapons in secret. In addition, the scientific and 
technical know-how to build a bomb is useless without sufficient 
quantities of highly enriched uranium or plutonium, the ``fissile 
material'' at the heart of an atomic weapon. It has proven 
extraordinarily difficult for countries like Iran to generate enough 
material to make a bomb on their own. Western analysts say that the 
most likely sources are the stockpiles of Russia and other countries of 
the former Soviet Union.
    Thus our government must insist that the Russian government exert 
its full authority to halt missile and missile technology transfers 
from Russia to Iran and others. Our government must also take those 
steps necessary to persuade the Russian government to act quickly and 
effectively on this problem.

 V. DISMISSAL OF ADAMOV IS A GOOD SIGN FOR NON-PROLIFERATION POLICY IN 
                                 RUSSIA

    In Russia, we are seeing changes at the top that are a hopeful 
sign. As the old guard is replaced by new ministers who are more 
interested in non-proliferation, I am hopeful that our two countries 
will continue to work together, as part of a growing and transparent 
partnership, to reduce the risk to both our nations' security.
    Russian President Putin's decision on March 28, 2001, to fire 
Yevgeny Adamov, the Minister of Atomic Energy, is a significant event 
in the area of nuclear non-proliferation. When he headed the Ministry 
of Atomic Energy, Adamov had expedited nuclear deals that ran counter 
to Russian national interests and international commitments. His 
dismissal is a good sign for those who are concerned about forming an 
appropriate international climate to ensure nonproliferation of nuclear 
weapons and dual-use technologies.
    The new Minister of Atomic Energy, Alexander Rumyantsev, was 
formerly the Executive Director of the Kurchatov Research Institute. He 
faces the important task of ensuring that MinAtom upholds Russian's 
nonproliferation obligations, its national legislation, and the 
provisions of the 2000 National Security Concept.

 VI. THE HOUSE AND SENATE APPROPRIATORS HAVE INCREASED FUNDING BEYOND 
       THE ADMINISTRATION REQUEST FOR NON-PROLIFERATION PROGRAMS

    Both the House and Senate Appropriators have increased funding 
beyond the Administration request for non-proliferation programs at the 
Department of Energy. In the House, the Appropriations Committee 
recommended a budget of $845.341 million, an increase of $71.641 
million over the Administration request of $773.7 million for nuclear 
nonproliferation in FY 2002. In particular, the Committee recommended 
$190 million for the MPC&A program--an increase of $51.2 million over 
the Administration budget request, and $16.144 million more than the FY 
2001 funding. The Committee also has recommended $10 million for the 
Nuclear Cities Initiative, $4 million above the Administration request.
    In addition, the House report language endorsed the Russia Task 
Force's major recommendation that ``the President, in consultation with 
Congress and in cooperation with the Russian federation, should quickly 
formulate a strategic plan to secure and/or neutralize in the next 
eight or ten years all nuclear weapons-usable material located in 
Russia and prevent the outflow from Russia of scientific expertise that 
could be used for nuclear or other weapons of mass destruction.'' And 
kindly concluded, ``[w]ithin available funding, the Committee has 
sought to support the recommendations of this Task Force.''
    In the Senate, the Appropriators also have recommended a budget 
above the Administration request for nuclear non-proliferation. While 
the Senate bill is not yet public, I believe this increased funding is 
a good sign that the 107th Congress remains committed to investing in 
programs that are a good value to our nation's security.

                            VII. CONCLUSION

    The Task Force recommended a strategic plan to secure and/or 
neutralize in the next eight to ten years all nuclear weapons-usable 
material located in Russia and to prevent the outflow from Russia of 
scientific expertise that could be used for nuclear or other weapons of 
mass destruction. I believe that it is quite feasible for the Russian 
Federation and the United States to carry out together an intensive, 
well-conceived and well-funded strategic plan over the next eight to 
ten years. If the strategic plan is conceived in full cooperation with 
the Russians, is adequately financed, and carried out as part of a 
growing and transparent partnership, the Task Force believes that 
Russia should be positioned to take over any work remaining at the end 
of the eight to ten year period.

                       VIII. GLOSSARY OF PROGRAMS

       Budget Chart of DOE Nonproliferation Programs with Russia


------------------------------------------------------------------------
        Program ($ in millions)              FY 00            FY 01
------------------------------------------------------------------------
MPC&A.................................  $144.6           $173.9
Second Line of Defense................     1.2              3.0
Plutonium Disposition.................    30.0             40.0
Nuclear Cities Initiative.............     7.5             27.5
Initiatives for Proliferation             22.5             24.5
 Prevention.
HEU Purchase/Transparency.............    15.7             15.2
Nuclear Safety........................    15.0             20.0
------------------------------------------------------------------------
    Totals............................  $236.5           $304.1
------------------------------------------------------------------------


  Appropriations Committees Budget Proposal for DOE Nonproliferation 
                          Programs with Russia


------------------------------------------------------------------------
                                       FY 02
     Program ($ in millions)          Admin.'s      FY 02 House Approps
                                      Request
------------------------------------------------------------------------
MPC&A............................  $138.8         $190.0
                                   .............  (+51.2)
Second Line of Defense...........  .............  4.0
                                   .............  (transferred from Arms
                                                   Control program)
Plutonium Disposition (Russia      57.0           57.0
 only).
U.S. Plutonium Disposition.......  130.089        130.089
Nuclear Cities Initiative........  6.0            10.0
                                   .............  (+4)
Initiatives for Proliferation      22.5           30.0
 Prevention.
HEU Purchase/Transparency........  13.95          13.95
Nuclear Safety...................  13.8           10.0
                                   .............  (- 3.8)
------------------------------------------------------------------------
    Total for entire program.....  $773.7         $845.341
------------------------------------------------------------------------


    The Chairman. Thank you very much. Mr. Woolsey.

 STATEMENT OF HON. R. JAMES WOOLSEY, PARTNER, SHEA & GARDNER, 
                         WASHINGTON, DC

    Ambassador Woolsey. Thank you, Mr. Chairman. If it is 
appropriate, I will submit my statement and then just use it as 
notes to speak from.
    The Chairman. Without objection, your statement will be 
placed in the record.
    Ambassador Woolsey. It is an honor to be asked to testify 
before you today. On the first page I included some notes about 
my history of involvement on this issue. I will not bore the 
committee with the details of that, except I will stress that 
in the seventies and eighties I was a substantial supporter of 
the ABM Treaty, and after President Reagan's SDI speech in 1983 
was substantially skeptical of SDI. Indeed, together with 
Messrs. Scowcroft and Deutch I wrote a piece in the New York 
Times in late 1996 and early 1997 along those lines.
    I think that for many of us in the seventies and eighties 
who emphasized the importance of offensive systems and were 
supporters of the ABM Treaty and somewhat skeptical of SDI, we 
had persuaded ourselves, in 1972 and after, that although we 
would have preferred that assured destruction not be mutual--
that Russia, or the Soviet Union be the only country that was 
assured of destruction if it attacked--nonetheless the ABM 
Treaty of 1972 seemed to many of us to present the lesser of 
two evils, even though we had to give up in it the capacity for 
national ballistic missile defense. First, we were not 
convinced in 1972 and for much of the seventies and eighties 
that the technologies that were foreseeable for ballistic 
missile defenses, certainly in the early seventies, were going 
to spawn deployable ballistic missile defense systems that 
could reliably defend us against our major concern, which was 
an all-out Soviet attack. Very little else by way of threats 
was on anyone's mind, not rogue states, not really even China, 
which had an embryonic ICBM program, but for most of this 
period was actually working cooperatively with the United 
States against the Soviet Union.
    Second, we felt that the massive Soviet lead in large 
ICBM's equipped with MIRV's, together with the Soviets' 
reasonably capable ballistic missile submarine force, put a 
large share of our own ICBM's and bombers at least 
theoretically at risk, and that led many others to become 
members in a sense of the you-need-both-a-belt-and-suspenders 
set. We wanted to ensure that even if U.S. offensive forces 
were heavily depleted by a Soviet attack, and Soviet defenses 
were upgraded, the U.S.'s ability to retaliate using submarine-
launched missiles alone would be clear and sufficient.
    We felt that keeping our allies reassured and being able to 
check Soviet recklessness in a crisis, most likely one in which 
the Soviets would be able to count on superiority of 
conventional forces in Europe, heavily depended on this clarity 
and on this sufficiency, and that limiting Soviet deployment of 
even less-than-perfect ABM defenses was extremely important to 
this end.
    Now, that thinking seems rather dated now. To some it was 
not persuasive even in 1972. It came to be increasingly 
questioned by others after President Reagan's famous 1983 SDI 
speech. By the 1990's, I would submit, it became outdated in 
almost all its assumptions, due to the end of the cold war, due 
to the absence of any serious conventional force threat to 
Europe's security from Russia or otherwise, due to the 
deterioration of former Soviet radar and satellite warning 
systems, as Lloyd Cutler alluded to, and due to persistent work 
on both longer range ballistic missiles and weapons of mass 
destruction by rogue states such as North Korea, Iran, and 
Iraq.
    Now, my point with respect to the ABM Treaty and its 
restrictions on the United States in today's world, and on 
Russia, I might add, is twofold. First, there is common ground 
possible now between those who have been on different sides of 
the ABM debate in the past: both those who have opposed the 
treaty for many years, often in company with support for the 
more ambitious forms of SDI, and those such as myself who 
supported the treaty during the same period and were skeptical 
of ambitious SDI.
    I think we need to realize that what matters today are the 
decisions that now need to be made, not ancient jousts between 
SDI supporters and ABM Treaty supporters during the era before 
the fall of the Berlin Wall. We may both have been somewhat 
right and somewhat wrong. It does not matter. Together, we won 
the cold war. It is time, indeed it is past time, to go on to 
the next set of problems.
    Now, second, if one focuses on the strategic realities of 
today, I would submit that there is no--no--strategic rationale 
for the ABM Treaty. The old rationale for our wanting to limit 
Soviet defenses as spelled out a minute ago does not apply to 
today's Russia, or to the Russia of the foreseeable future, 
even if it should turn somewhat more hostile to the United 
States than it is today.
    Russia is not capable of threatening Europe with massive 
conventional forces, so it would have no advantage in a crisis 
on that continent if unforeseen difficulties arose there 
between Russia and NATO. Consequently, we do not need to rely 
in any day-to-day sense on our strategic offensive nuclear 
forces to protect our NATO allies from Russian conventional 
attack.
    Moreover, Russian strategic nuclear forces do not threaten 
a substantial share of our nuclear deterrent. The deterrent 
that we do maintain is no longer heavily reliant on fixed land-
based ICBM's that might be vulnerable to Russian attack. Hence, 
we have no reason to want to limit Russian defenses to ensure 
that our retaliatory forces would be able to penetrate Russian 
defenses.
    Indeed, we should encourage Russian ballistic missile 
defenses and effective early warning systems so they do not--as 
Lloyd alluded to, and as they did temporarily in 1995--mistake 
such events as the launch of a harmless Norwegian scientific 
rocket for the possible launch of an American submarine-
launched missile.
    The only rationale, in my judgment, for the ABM Treaty 
today is one rooted in current foreign affairs concerns. The 
Russians do not want us to withdraw from it, so doing so would 
presumably upset them, and perhaps lead them to do other things 
that we do not want. For example, President Putin at one point 
threatened to deploy more Russian strategic warheads if the 
United States deployed ballistic missile defenses, although he 
seemed more accommodating on this point last weekend. But there 
is a limit to the degree to which we should let this sort of 
threat, if it recurs, influence us. Added numbers of Russian 
strategic warheads are not really of concern to us, since our 
deterrent is no longer principally based in ICBM's at fixed 
locations.
    The Russians were willing in 1992, following President 
Yeltsin's two remarkable speeches in January of that year, to 
consider substantial revisions to the ABM Treaty and to discuss 
mutual work on ballistic missile defenses with us. Perhaps the 
discussion last weekend between President Bush and President 
Putin heralds another such period, and this Russian Government 
will prove as reasonable in the future as President Yeltsin was 
in 1992. I hope so.
    But whether the Russians ultimately prove reasonable or 
not, it is still worth offering, in my view, to work with them 
in the way that we began in 1992 and then abandoned, 
unfortunately, in 1993. If that proves fruitless, there are 
ample legal and strategic grounds for either withdrawing from 
the treaty or, as I and others have argued, for asserting a 
legal case that this bilateral treaty did not survive the 
breakup of the Soviet Union, unless and until the U.S. Senate 
approves by a two-thirds vote the substitution of Russia, or 
Russia together with other states for the USSR.
    I might add, Mr. Chairman, that although the Russians will 
say the opposite, I believe Mr. Lukin's statement of a day or 
so ago is emblematic of their real thinking, namely that they 
should work with the Americans, because otherwise the Americans 
will go ahead on their own and do what they want to. I believe 
that encouraging Russian cooperation is best implemented by our 
taking a clear and decisive position that we will proceed with 
ballistic missile defenses.
    But however we set aside the treaty, whether it is by 
negotiating a new set of understandings with Russia, by 
withdrawing under the withdrawal clause, or simply by adopting 
the legal argument that the change in succession states--the 
substantial change affected by the succession of either Russia, 
or Russia plus the other three countries--will not be submitted 
to the Senate for a two-thirds vote.
    However we do it, I do not believe that we can perpetually 
let our security vis-a-vis the likes of North Korea, Iran, 
Iraq, and other states that are developing ballistic missile 
and weapons of mass destruction be held hostage to Russia's not 
wanting us to have defenses.
    Still less, Mr. Chairman, do I believe that the Senate 
should approve the expansion of the ABM Treaty, as is required 
by the Russian ratification of START II, to encompass Belarus, 
Ukraine, and Kazakhstan. That step was originally proposed by 
the Clinton administration, and then adopted by Russia. There 
is not even the most remote strategic rationale for this 
expansion of the treaty.
    We do not have any reason to want to limit these countries' 
ballistic missile defenses, and we have every reason not to 
want, for example, the execrable dictator of Belarus, Mr. 
Lukashenko, to be able to veto our ability to be able to 
develop and deploy defenses against rogue states.
    I would add, Mr. Chairman, I am in favor of trying to find 
ways to encourage Russia, North Korea and other states to stop 
their very troubling practices of participating in 
proliferation of technology and components for ballistic 
missiles and weapons of mass destruction. Sometimes, 
negotiations such as those of my old friend and co-witness 
today, Bill Perry, conducted with North Korea can be effective 
tools to this end.
    Sometimes cooperative programs with Russia can also be 
effective, as the Nunn-Lugar program has been, and as the 
programs which Lloyd testified may well continue to be. But 
negotiations of cooperative programs cannot be our only tool, 
for two reasons. First, the growing threat from ballistic 
missiles and weapons of mass destruction is not limited to 
countries with whom we are sure to have success in negotiations 
and cooperative programs.
    As we pointed out in the Rumsfeld Commission report in 
1998, this genie is out of the bottle. Deputy Secretary of 
Defense Wolfowitz has recently testified that in 1972, when the 
ABM Treaty was signed, we did not know that other countries 
might have biological weapons programs. We knew of only five 
with nuclear weapons programs and nine with ballistic missile 
programs. Today, there are 13 with biological weapons programs, 
12 with nuclear weapons programs, and 28 with ballistic missile 
weapons programs.
    Now, true, some of the ballistic missile programs are only 
at an early stage, but we have seen with North Korea how even a 
very poor country can make progress toward having missiles of 
intercontinental range. North Korea has no monopoly on this 
ability, and this problem will recur again and again and again 
as the years go on.
    Our leverage in negotiations with North Korea or any other 
country whose ballistic missile programs we seek to limit will 
be enhanced in my view, not degraded, if our ballistic missile 
defense program is steadily making these other countries' 
offense missiles less and less certain of reaching their 
targets. I have been an advisor, delegate, or Ambassador and 
chief negotiator in five sets of arms control negotiations with 
the Soviet Union and other countries between 1969 and 1991. In 
my experience, in those negotiations and in a number of 
negotiations I have conducted as a private attorney, it is much 
easier to get an adversary to bargain away something that he 
sees is declining in value. To the degree that rogue states 
continue to see their ballistic missiles as virtually certain 
of reaching their targets, as they do today, they will be 
harder to persuade to limit or abandon these programs.
    In short, Mr. Chairman, the world in which the ABM Treaty 
was an imperfect but in my view a reasonable accommodation to 
the strategic circumstances in which we found ourselves is gone 
with the wind. In the new world in which we live, we now 
require defenses I believe, for our security. And our treaty 
obligations, with due regard to the niceties of diplomacy, and 
the requirements of international law, must be adjusted to 
serve our strategic needs, not the other way around.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Woolsey follows:]

              Prepared Statement of Hon. R. James Woolsey

    Mr. Chairman, Members of the Committee, it is an honor to be asked 
to testify before you today.
    I would suggest to you that, in the circumstances of today, strong 
support for ballistic missile defense is a reasonable position--even 
if, indeed especially when, we are simultaneously seeking to limit 
proliferation through negotiations. I would add that I believe this is 
the case even for those who, like myself, have historically emphasized 
the central importance of offensive strategic weapons, have seen some 
value in certain arms control agreements, and did not initially welcome 
President Reagan's Strategic Defense Initiative. The circumstances have 
changed, and that calls for a substantial change in our assumptions and 
our policies.
    In setting out my reasons, I plan today to update some points I 
made in testimony to this committee over two years ago and in that 
context I believe it would be informative to trouble you with a few 
biographical points. Thirty-two years ago this fall, as a captain in 
the U.S. Army, I was serving as an analyst of strategic programs in the 
Office of the Secretary of Defense, and in that capacity I was assigned 
as an advisor on the U.S. delegation to the first round of the SALT I 
talks in Helsinki. Thus I was a very junior participant in the initial 
negotiations that led, three years later, to the ABM Treaty. When the 
treaty was approved by the Senate in 1972 I was the General Counsel of 
the Senate Armed Services Committee and assisted Senator Stennis in the 
Committee's consideration of the treaty and the floor debate. Then for 
three years in the late 1970's, as Under Secretary of the Navy, I was 
heavily involved in the Navy's strategic force planning, some aspects 
of which were influenced by the existence of the treaty.
    In 1983, I was a member of President Reagan's Commission on 
Strategic Forces, the Scowcroft Commission (and the principal draftsman 
of its report); we did not reject SDI when it was announced by the 
President during the middle of our deliberations, but it is fair to say 
that the Commission assigned SDI a decidedly secondary role to what we 
felt to be the nation's central strategic objective: maintaining a 
survivable and effective offensive deterrent. Following the Reykjavik 
summit of 1986, I was the co-author of an article in the New York Times 
Magazine that was highly critical of President Reagan's proposal there 
to ban all ballistic missiles and rely principally on SDI for our 
strategic protection. Messrs. Scowcroft, Deutch, and I wrote in the 
article:

          The official line has become a sort of strategic 
        Manichaeanism: that there exist only the dawn of S.D.I. and the 
        darkness of mutual assured destruction that went before it. The 
        concept of careful and stable deterrence, with modernization of 
        nuclear weapons to improve their survivability, some militarily 
        useful work on defensive systems and moderate arms control, was 
        abandoned.

    One aspect of the approach to strategic issues summarized by this 
quotation, for many of us in the seventies and eighties, included 
adherence to the ABM Treaty. But for an important share of the treaty's 
supporters, acceptance of the treaty was not accompanied by any lapse 
into revery about the beauty of the concept of mutual assured 
destruction. It was very far from desirable, for many of us who 
supported the treaty then, that by agreeing not to deploy nationwide 
ballistic missile defenses we would thereby guarantee most Soviet 
missiles a free ride to American targets--quite a few of us never liked 
the mutual aspect of mutual assured destruction. But we persuaded 
ourselves then that, nonetheless, the treaty presented the lesser of 
two evils, for two reasons.
    First, we were not convinced that the technologies foreseeable for 
ballistic missile defenses in the early seventies, or even through much 
of the eighties, were going to spawn deployable systems capable of 
defending reliably against our major concern--an all-out Soviet attack. 
Very little else with respect to threats was on anyone's mind. Thus we 
felt that the U.S. was not giving up something that was practically 
attainable when it signed on to the Treaty. Threats of lesser 
magnitude, other than the one that came to be posed by Chinese ICBM's, 
were not apparent in those years. (And for most of this period we were 
working cooperatively with China against the Soviet Union on a range of 
issues.)
    Second, we felt that the massive Soviet lead in large ICBM's 
equipped with MIRV's, together with its reasonably capable ballistic 
missile submarine force, put a large share of our own ICBM's and 
bombers theoretically at risk if the Soviets should ever contemplate 
launching a first strike in the midst of some crisis. This forced us in 
our strategic planning to rely heavily on our own ballistic missile 
submarines as the only truly survivable part of the American nuclear 
deterrent. Soviet deployment of an early ABM system around Moscow, 
together with their extensive infrastructure of sophisticated radars 
and air defense interceptors throughout the country, led some of us to 
join the you-need-both-a-belt-and-suspenders set. We wanted to ensure 
that--even if U.S. offensive forces were heavily depleted by a Soviet 
attack and Soviet defenses were upgraded--the United States' ability to 
retaliate using submarine-launched missiles alone would be clear and 
sufficient. We felt that keeping our allies reassured and being able to 
check Soviet recklessness in a crisis--most likely one in which the 
Soviets would be able to count on superiority of conventional forces in 
Europe--heavily depended on this clarity and sufficiency, and that 
limiting Soviet deployment of even less-than-perfect ABM defenses was 
extremely important to this end.
    This thinking seems dated now--to some it was not persuasive even 
in 1972--and it came to be increasingly questioned after President 
Reagan's famous 1983 SDI speech. By the nineties it became outdated in 
almost all of its assumptions due to the end of the cold war, the 
absence of any serious conventional force threat to Europe's security, 
the deterioration of the former Soviet radar and satellite warning 
systems, and persistent work on both longer-range ballistic missiles 
and on weapons of mass destruction by rogue states such as North Korea, 
Iran, and Iraq.
    My point with respect to the ABM Treaty in today's world is really 
twofold.
    First, there is common ground possible, today, between those who 
have been on different sides of the ABM Treaty debate in the past. Both 
those who have opposed the treaty for many years (often in company with 
early support of the more ambitious forms of SDI) and those, such as 
myself, who supported the treaty during the same period and were 
skeptical of ambitious SDI, need to realize that what matter, today, 
are the decisions that now need to be made, not ancient jousts between 
SDI supporters and ABM Treaty supporters during the era before the fall 
of the Berlin wall. We may have both been somewhat right and somewhat 
wrong. It doesn't matter. Together we won the cold war. It's time, 
indeed past time, to go on to the next set of problems.
    Second, if one focuses on the strategic realities of today, I would 
submit that there is no strategic rationale for the ABM Treaty.
    The old rationale for our wanting to limit Soviet defenses, as 
spelled out above, does not apply to today's Russia or the Russia of 
the foreseeable future, even if that nation turns more hostile to the 
U.S. than it is today. Russia is not capable of threatening Europe with 
massive conventional forces, so it would have no advantage in a crisis 
on that continent if unforeseen difficulties arose there between Russia 
and NATO. Consequently we do not need to rely in any day-to-day sense 
on our strategic offensive nuclear forces to protect our NATO allies 
from Russian conventional attack. Moreover, Russian strategic nuclear 
forces do not threaten a substantial share of our nuclear deterrent: 
the deterrent that we do maintain is no longer heavily reliant on fixed 
land-based ICBM's that might be vulnerable to Russian attack, and hence 
we have no reason to want to limit Russian defenses to ensure that our 
retaliatory forces would be able to penetrate Russian defenses.
    Indeed we should encourage Russian ballistic missile defenses and 
effective early warning systems so that they do not--as they did 
temporarily in 1995--mistake such events as the launch of a harmless 
Norwegian scientific rocket for the possible launch of an American 
submarine launched missile and even momentarily worry about whether 
they need to retaliate.
    The only rationale for the ABM Treaty today is one rooted in 
current foreign relations concerns: the Russians do not want us to 
withdraw from it, so doing so would, presumably, upset them and perhaps 
lead them to do other things that we don't want. For example, President 
Putin at one point threatened to deploy more Russian strategic warheads 
if the U.S. deployed ballistic missile defenses (although he seemed 
more accommodating this past weekend). But there is a limit to the 
degree to which we should let this sort of threat, if it recurs, 
influence us. Added numbers of Russian strategic warheads are not 
really of concern to us, since our deterrent is no longer principally 
based in ICBMs at fixed locations.
    The Russians were willing in 1992, following President Yeltsin's 
two remarkable speeches in January of that year, to consider 
substantial revisions to the ABM Treaty and to discuss mutual work on 
balistic missile defenses with us. Perhaps the discussion last weekend 
between President Bush and President Putin heralds another such period 
and this Russian government will prove as reasonable in the future as 
President Yeltsin was in 1992. But whether the Russians ultimately 
prove reasonable or not, it is still worth offering, in my view, to 
work with them in the way that we began in 1992 and abandoned in 1993. 
If that proves fruitless there are ample legal and strategic grounds 
for either withdrawing from the Treaty or, as I and others have argued, 
for asserting the legal case that this bilateral Treaty did not survive 
the break-up of the Soviet Union unless and until the U.S. Senate 
approves the substitution of Russia (or Russia together with other 
states) for the USSR. (Some have asserted that the Senate implicitly 
ceded its right to approve such a change to the executive branch. In my 
judgment this argument is about as weak, and as inimical to the 
Constitutional role of the Senate, as legal arguments ever get.)
    But however we set aside the Treaty--by negotiating a new set of 
understandings with Russia, by withdrawal, or simply by adopting the 
sound legal argument that it is no longer in force and effect--we 
cannot perpetually let our security vis-a-vis the likes of North Korea, 
Iran, Iraq, and other states that are developing ballistic missiles and 
weapons of mass destruction be held hostage to Russia's not wanting us 
to have defenses.
    I would add that, in my judgment, the Senate should not approve the 
expansion of the ABM Treaty to encompass Belarus, Ukraine, and 
Kazakstan--a step originally proposed by the Clinton Administration and 
then adopted by Russia. There is not even the most remote strategic 
rationale for this expansion. We don't have any reason to want to limit 
these countries' ballistic missile defenses and we have every reason 
not to want to want, e.g., the execrable dictator of Belarus, Mr. 
Lukashenko, to be able to veto our ability to develop and deploy 
defenses against rogue states.
    I would add, Mr. Chairman, that I am in favor of trying to find 
ways to encourage Russia, North Korea, and other states to stop their 
very troubling practices of participating in the proliferation of 
technology, components, and systems--both for ballistic missiles and 
for weapons of mass destruction. Sometimes negotiations, such as those 
that my old friend and co-witness today, Bill Perry, conducted with 
North Korea, can be effective tools to this end. Sometimes cooperative 
programs with Russia can also be effective, as the Nunn-Lugar program 
has been.
    But negotiations and cooperative programs cannot be our only tool 
for two reasons.
    First, the growing threat from ballistic missiles and weapons of 
mass destructions is not limited to countries with whom we are sure to 
have success in negotiations and cooperative programs. As we pointed 
out in the Rumsfeld Commission Report in 1998, this genie is out of the 
bottle. As Deputy Secretary of Defense Wolfowitz has recently 
testified, in 1972 when the ABM Treaty was signed, we did not know the 
number of countries with biological weapons programs and we knew of 
only five with nuclear weapons programs and nine with ballistic missile 
programs. Today, he noted, there are thirteen with biological weapons 
programs, twelve with nuclear weapons programs, and twenty-eight with 
ballistic missile programs. True, some of the ballistic missile 
programs are only at an early stage, but we have seen with North Korea 
how even a very poor country can make progress toward having missiles 
of intercontinental range. North Korea has no monopoly on this ability. 
This problem will recur again and again as the years go on.
    Our leverage in negotiations with North Korea or any other country 
whose ballistic missile programs we seek to limit will be enhanced, not 
degraded, if our ballistic missile defense program is steadily making 
these other countries' offensive missiles less and less certain of 
reaching their targets. I have been an adviser, delegate, or ambassador 
and chief negotiator in five sets of arms control negotiations with the 
Soviet Union and other countries between 1969 and 1991. In my 
experience, and in the many negotiations I have conducted as a private 
attorney, it is much easier to get an adversary to bargain away 
something that he sees is declining in value. To the degree that rogue 
states continue to see their ballistic missiles as virtually certain of 
reaching their targets, as they are today, they will be harder to 
persuade to limit or abandon these programs.
    In short, Mr. Chairman, the world in which the ABM Treaty was an 
imperfect, but in my view reasonable, accommodation to the strategic 
circumstances in which we found ourselves is gone with the wind. In the 
new world in which we live we now require defenses for our security, 
and our treaty obligations--with due regard to the niceties of 
diplomacy and the requirements of international law--must be adjusted 
to serve our strategic needs, not the other way around.

    The Chairman. Thank you. Mr. Smith.

 STATEMENT OF HON. DAVID J. SMITH, PRESIDENT, GLOBAL HORIZONS 
                      INC., WASHINGTON, DC

    Mr. Smith. Thank you, Mr. Chairman. First, let me thank you 
and your colleagues for inviting me here. It is always a 
pleasure to come back to the Foreign Relations Committee, where 
I once served proudly, and also to see my former boss, Senator 
Lugar, here.
    If I may, Mr. Chairman, I would like to, as Ambassador 
Woolsey did, use my written statement as notes and submit it 
for the record in its entirety.
    I would like to cover five key points today in support of 
President Bush's goal to deploy missile defenses for America, 
for our Armed Forces overseas, for our allies, and our friends. 
First I would like to say a word about the threat. I had the 
opportunity to be a consultant and reviewer to the Rumsfeld 
Commission report which came out in 1998, and I think it made 
some good points.
    Since then, there has been a steady stream of ballistic 
missile developments, and I keep a running tally of them. As 
you can see, it is quite long. I have got two pages, and I 
think it was made available to you, but I would ask, Mr. 
Chairman, to include this in the record with my statement as 
well.
    It is very clear that the ballistic missile trend line in 
the world is toward more missiles, more missiles in more 
countries, and with greater range and accuracy, and more 
specialized warheads.
    Now, I do not mean to imply for a moment that in every 
country that has a ballistic missile out there, there is 
somehow an inexorable march here toward bigger and better 
missiles. It is not true. Some of them will peak, plateau, with 
SCUD-level technology and high explosive warheads. But some 
states potentially hostile to the United States clearly are 
advancing, and it is the trend line that we have to meet.
    Now, the chronology I have made available to you I think 
gives you a little bit of a snapshot, but it is not a perfect 
picture, for a couple of reasons. One, one of the points the 
Rumsfeld Commission made was that cover and deception are 
covering up an awful lot of clandestine programs. Things that 
20 years ago we might have seen in various countries we are 
just not seeing any more, until we see a full-up flight test, 
and that full-up flight test might barely proceed operational 
deployment.
    The second reason that I think it is a slightly inadequate 
picture has been detailed by the editor of Jane's Strategic 
Weapons Systems, Duncan Lennox. Mr. Lennox described a pattern 
of collaboration where we are not just talking about transfers 
from, say, Russia or China to these countries, or even 
transfers among these countries, but actually collaboration 
among countries working on things. Let me just give you one 
example.
    Back in the eighties, the North Koreans basically gave SCUD 
B and SCUD C variants to Syria and Iran to experiment on and 
eventually manufacture. That information was fed back to North 
Korea, and went into the No Dong program.
    Now, the No Dong program then went into the Taepo Dong-1 
program, which, of course is the missile that overflew Japan 
and the debris reached the shores of Alaska in 1998, right 
after the Rumsfeld Commission report.
    The first stage of the Taepo Dong missile benefited from No 
Dong. The second stage was a direct result of the collaborative 
efforts that North Korea had with these other countries on the 
SCUD C variants. Now, we are not quite sure where the third 
stage came from, but it was a solid fuel rocket motor. It may 
have benefited from Iranian and Pakistani experience with 
shorter range rockets and missiles in solid fuel. It also may 
have been based on a Russian SS-21.
    The point I am trying to make here is that the traditional 
sort of country-by-country intelligence estimates that we used 
to read simply do not give you a very good picture any more. 
They no longer conform to reality. The United States must 
respond to a global trend line, not to something that it sees 
in some individual country; and as Secretary Rumsfeld has 
stressed, we need to expect the unexpected.
    This also means it is kind of hard to determine the value 
of things like the North Korean missile testing moratorium. We 
are really not sure what is going on in North Korea. This is a 
country in which Americans have maybe spent a total of 100 man-
days over the past 50 years. We really do not know what is 
going on in North Korea.
    As late as last Friday they seemed to acknowledge some kind 
of a missile test moratorium. They also told the delegation led 
by Javier Solana and Goran Persson that they reserve the right 
to continue to trade and sell missile technologies, so we are 
really not sure what we have, and we are also not sure what 
they are getting in return.
    If you go back and look at this collaborative program that 
Duncan Lennox is talking about, we do not know what they are 
getting back from these other countries, but there is some 
speculation that the entire delay in the Taepo Dong-2 launch 
was due to the fact that they were making the improvements that 
they were basing on the information they were getting back from 
the test of the Ghauri-1 and Ghauri-2 from Pakistan and the 
Shahab-3 in Iran. The fact is the engineers from all three 
countries have been involved in all of the tests in all of 
those countries.
    There is an often-heard objection that of course there are 
a lot of other ways that a country or a transnational group can 
deliver some kind of a weapon on the United States. There are 
plenty of ways to hurt America. There are plenty of ways to 
hurt Americans. We saw that with the attacks on our embassies 
in Kenya and Tanzania. We saw that with the attack on the USS 
Cole. Of course there are. There are a host of measures that we 
ought to be taking, but the one thing that we need to be clear 
on here is that we need to be careful we are not confusing the 
weapons of terrorism with the weapons of geopolitical 
blackmail. We really need to be careful not to confuse the two. 
There could be all sorts of things happening, and we need to be 
working on thwarting another attack on the World Trade Center, 
or the Lincoln Tunnel, or the various things we have seen. 
Those are things that a responsible government should be 
working on.
    Do not confuse that with the ability of a country that 
wants a return address, wants a missile, not so much because it 
is just going to lob it at the United States just to see if it 
will go off, but to try and affect our calculation of our own 
interest in a crisis. That is why they want missiles. That is 
what makes a difference.
    There are also going to be other military threats. For 
instance, Dennis Gormley has just written a book on cruise 
missiles where he suggests we need to do something about cruise 
missile defense. Indeed we do. He says that should not derail 
us from looking at the more imminent threat of ballistic 
missiles. Of course we need to do that. The fact is that 
because there is a challenge out there that requires a response 
does not obviate the need to do what you need to do in some 
other area, which in this case is ballistic missile defense.
    Another oft-heard objection is that of course there are 
lots of ways that you can deal with the proliferation of 
missiles, missile technology, and weapons of mass destruction. 
Indeed, there are. I wrote an article in a publication called 
``Jane's Ballistic Missile Proliferation,'' last year, where I 
argued that none of these measures can stand alone.
    Indeed, you want all sorts of things that you want to be 
working on, and I went through a whole bunch of them. You want 
to be working on better regional diplomacy. You need better 
intelligence. You need better technology. You probably need 
various counterforce options. You need passive defense. You 
want to have some kind of consequence management. You need to 
maintain deterrence. Absolutely.
    I would also say that in response to some of the comments I 
got back on that chapter, I would add democratization and trade 
as something that you want to encourage, regime change is very 
important thing when you are trying to deal with proliferation.
    I also think that the former majority leader, Howard Baker, 
and Mr. Cutler have done us a service in reminding us of the 
importance of the Nunn-Lugar programs and other sorts of 
things. Indeed, we need to be worrying about securing and 
neutralizing the vast arsenal of Russian nuclear weapons and 
nuclear material. But make no mistake, missile defenses are the 
linchpin of any kind of a full spectrum response. They will 
compliment and magnify all of our counterproliferation efforts 
by sending a clear signal that we do intend to use our superior 
technology to foreclose this avenue.
    Missile defenses would insulate us from geopolitical 
blackmail aimed at altering our allies' and our friends' 
calculation of our interests.
    Finally, let us just recall that if it should come to war-
fighting, that the single greatest loss that we had in the gulf 
war was the SCUD attack on the Pennsylvania National Guard 
barracks. Now, others will argue that of course you have 
conventional forces. Indeed, you do.
    You also have nuclear forces, and I do not know, they may 
well deter in certain cases. There is some evidence that Saddam 
Hussein was, in fact, deterred by the threat of nuclear 
weapons, either by us or the Israelis, or maybe a combination 
of the two, but the fact is we do not have the kind of 
understanding with these countries that we had with the Soviet 
Union. We simply do not understand them. It may well work.
    The one thing I would not want to do is take away the 
flexibility, the options that an American President might have. 
For instance I think, if I understood the suggestion made by 
Secretary Perry correctly, that we would say that if we were 
threatened with a ballistic missile attack, we would attack the 
sites. That is a heck of a corner to work yourself into. I 
would not want to see any President worked into that corner, so 
in a moment of crisis, right as we are on the brink of war, 
where we may be able to walk this thing back, the policy of the 
United States is to attack. That seems to me to be the wrong 
way to go. I would rather use our technology to see if we have 
some kind of an insurance policy on this.
    Let me just say, as my third point, that I think what 
President Bush is doing is absolutely right. He is talking 
about the right kind of defense. It is a seamless web. It is 
global. It is layered. It is evolutionary. It is an ambitious 
goal indeed, but I think if you look at the research, 
development, testing, evaluation, and deployment plan it is a 
fairly cautious walk-before-you-go plan, and I think the 
announcement 2 weeks ago of a new range in Alaska, despite what 
Dr. Cornwall says, does give us different distances and 
different geometries. And, by the way, the launch site is not 
at Shemya, it is at Kodiak, where there is already a space 
launch facility. I would simply quote what President Bush said. 
``We will evaluate what works and what does not.''
    We know that some approaches will not work. We also know 
that we will be able to build on our successes. That has been 
our experience in every endeavor of technology, not just 
military technology but everything the United States has ever 
set out to do.
    Let me say a word about countermeasures. I do not have the 
physics credentials that Dr. Cornwall has, but this one keeps 
coming up again and again. I ask every time I have the 
opportunity, and I was down at Huntsville, at the Army's Space 
Missile Defense Command last week. I asked the same question, 
and I get the answer that yes, we are working the problem, yes, 
we are concerned about it, but it is not nearly as big as it is 
being made out to be.
    First of all, the fact that somebody at MIT can create a 
countermeasure on paper does not necessarily mean that they 
have the technology to be able to integrate that into a system. 
You have weight and volume cost to any kind of a countermeasure 
you want to put onto a missile, and then you have the problem 
of atmospheric reentry, and this is why you have a layered 
defense system. You are up against a lot of different American 
technologies that you have to defeat, not just one, but 
several.
    Finally, on the multilevel shroud, that one was addressed 
directly, and the point was made, the United States actually 
tried it a few times and it is really hard to do, try to fly 
something inside something else. American scientists understand 
the physics of it, but do not understand how it is going to be 
done.
    Now, if you are going to do all this, I am afraid, yes, the 
administration is right, we are going to bump up against the 
ABM Treaty very, very soon. I will not go into all the reasons 
for that, but if anyone wants to get into it during discussion, 
I would be glad to do that.
    Yes, I think things can change right now. It seems to me we 
had a big step forward in Genoa. I think there are three things 
all of a sudden now that are coming together that President 
Bush has had something to do with.
    First of all, I think the fact is that President Putin is 
also looking for a new security framework. Do not get me wrong, 
I do not suggest that all of a sudden Moscow sees the world the 
same way we do, but the fact is, if you look at what is 
happening here, President Putin does understand that to 
maintain Russia's position in the world you have got to move 
beyond cold war thinking, and behind their current force 
structure.
    The former commander of the Strategic Rocket Forces was 
removed from the position of Minister of Defense, and just a 
couple of weeks ago General Ivashov, the number one hardliner 
in the ministry, was dismissed. President Putin has his number 
one friend and political ally, Sergey Ivanov, over there trying 
to redo a force structure, and General Kvashnin, who clearly 
was the leader in trying to cut the Strategic Rocket Forces 
down to size, is now clearly leader of the military.
    As I said, I do not say this is necessarily that they see 
things the way we do, but they are looking for some way out of 
the conundrum of the cold war.
    Second, President Putin's vision of whatever he sees as a 
post cold war security framework clearly includes a reduction 
of strategic offensive forces. He has got to go down, and he 
has used the number about 1,500. He wants us to go down with 
him, obviously, or he has got a problem, and if the Americans 
really are going to pursue missile defense, he wants to be part 
of that deal.
    Now, what President Bush has succeeded in doing, it seems 
to me, is this, is that by offering unilateral strategic 
offensive force cuts and then saying he is willing to talk 
about them in the context of defenses, he has given President 
Putin an incentive to try and take this thing on in Moscow. It 
is going to be very difficult. He has got nationalists, he has 
got Communists breathing down his neck, but he knows he needs 
to move, and he can come out of this with some kind of a 
cooperative reduction in the strategic offensive forces and be 
part of the framework for the post cold war world.
    The third thing that I would offer you, in conclusion, that 
has happened here, is that evidently the Bush administration 
has been successful in projecting its seriousness about 
pursuing missile defense. As a former negotiator, I can tell 
you that nothing, absolutely nothing will happen without this 
kind of leverage. Consequently, I will conclude my statement to 
you by recalling the words of Deputy Secretary Paul Wolfowitz 
before the Armed Services Committee 2 weeks ago.
    Dr. Wolfowitz said, ``if we agree that a cooperative 
outcome is preferable, then it is important that the Congress 
demonstrate the same resolve as the President to proceed with 
the development of defenses to protect our people, our friends 
and allies, and our forces around the world, defenses that 
cannot, by the wildest stretch of the imagination, be 
considered a threat to Russia or its security.''
    Mr. Chairman, thank you very much.
    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Ambassador David J. Smith

    Mr. Chairman:
    As ever, it is a privilege to appear before the Committee on 
Foreign Relations that I once served with great pride. I thank you and 
your colleagues for inviting me to share my views in support of 
President Bush's goal to deploy missile defense for America, its forces 
abroad, allies and friends. My remarks this afternoon will address five 
key points:

          1. A long list of worldwide ballistic missile developments 
        since the 1998 Rumsfeld Commission report underscores the 
        Commission's finding that the threat is evolving rapidly. Of 
        particular concern is missile development collaboration among 
        countries such as North Korea, Pakistan and Iran.

          2. The emergent ballistic missile and weapons of mass 
        destruction threat calls for a full spectrum response of which 
        missile defenses are the linchpin.

          3. The Bush Administration's missile defense goal is 
        ambitious, but its research, development, testing, evaluation 
        and deployment plan is a cautious, walk-before-you-run 
        approach.

          4. An effective missile defense of the United States will 
        bump up against the limits of the 1972 ABM Treaty in months, 
        not years.

          5. The 1972 ABM Treaty was the legal embodiment of Cold War 
        stability--mutual assured destruction (MAD). It is time for a 
        new, post Cold War security framework that includes defenses. 
        Presidents Bush and Putin took a big step in that direction 
        last Sunday in Genoa.

                  THE GLOBAL BALLISTIC MISSILE THREAT

    During 1998 I had the opportunity to be a consultant to the 
bipartisan Commission to Assess the Ballistic Missile Threat to the 
United States chaired by Donald H. Rumsfeld. On July 15, 1998 the 
Rumsfeld Commission issued its watershed report. Its principal findings 
bear repeating in the context of this hearing:

  <bullet> ``Concerted efforts by a number of overtly or potentially 
        hostile nations to acquire ballistic missiles with biological 
        or nuclear payloads pose a growing threat . . . to inflict 
        major destruction on the U.S. within about five years of a 
        decision to acquire such a capability.''

  <bullet> ``During several of those years, the U.S. might not be aware 
        that such a decision had been made.''

  <bullet> ``The threat to the U.S. posed by these emerging 
        capabilities is broader, more mature and evolving more rapidly 
        than has been reported in estimates and reports by the 
        intelligence community.''

  <bullet> ``The Intelligence Community's ability to provide timely and 
        accurate estimates of ballistic missile threats to the U.S. is 
        eroding.''

  <bullet> ``Plausible scenarios [include] re-basing or transfer of 
        operational missiles, sea and air-launch options.''

  <bullet> ``The U.S. might well have little or no warning before 
        operational deployment.''

    Just about the time the Commission issued its report, Iran tested 
its 1,300 kilometer Shahab-3, a variant of the North Korean No Dong-1. 
And if any doubt lingered, the final jolt came from the roar of North 
Korea's Taepo Dong-1 missile as it overflew Japan on August 31, 1998.
    Since that time, there has been a steady stream of ballistic 
missile developments. I maintain a running list of these, the current 
version of which I am making available to the Committee. I would add 
that there have been recent reports that Libya is attempting to acquire 
long-range missiles from China or North Korea. If successful, Rome, an 
important allied capital, as well as our naval base at Naples, would 
soon be within Colonel Qaddafi's reach. This underscores the importance 
of President Bush's point that missile defense of our allies is a vital 
interest of the U.S.
    The world ballistic missile trend line is toward more missiles in 
more countries, with improved accuracies and ranges, and development of 
a number of specialized warheads. I do not suggest that every country 
with a ballistic missile has joined an inexorable march toward bigger 
and better ones--some will plateau at SCUD type technology and simple 
high explosive warheads. But countries potentially hostile to the U.S. 
are advancing. Plainly put, the ballistic missile cat is out of the 
bag, and the U.S. must prepare to meet the advancing point of the rest 
of world trend line.
    My chronology of ballistic missile events gives a good idea of the 
problem we face, but the picture is incomplete for two reasons. First, 
as the Rumsfeld Commission pointed out, effective cover and deception 
frequently deny us insight into clandestine programs in countries of 
concern. We may not know what is happening until we see a flight test 
that barely precedes operational deployment.
    Second, writes Jane's Strategic Weapons Systems Editor Duncan 
Lennox,

          There appears to be a clear proliferation trail and 
        collaboration between China, Russia, North Korea, India, 
        Pakistan, Iran, Iraq, Syria and Libya . . . The trail includes 
        the exporting of technologies by Chinese and Russian industry, 
        the sharing of data and test results between some of the 
        nations, and passing examples of modern designs back up the 
        trail for reverse engineering.

    Lennox explains that Syrian and Iranian work on SCUD B and SCUD C 
variants was fed back into the North Korean No Dong program. No Dong 
technology, in turn, was applied to the first stage of the Taepo Dong-1 
which was flight tested in August, 1998. Experience from the SCUD C 
variant collaborative effort was applied to the Taepo Dong-1 second 
stage. The solid fuel Taepo Dong-1 third stage may have benefited from 
Pakistani or Iranian experience with solid fuel motors for short-range 
missiles and rockets, although North Korea may have drawn upon the 
Russian SS-21 or Chinese sources.
    Meanwhile, beginning around 1989, North Korea, Iran and Pakistan 
agreed to collaborate on the basis of the No Dong-1 missile. Pakistan's 
April, 1998 Ghauri-1 and April, 1999 Ghauri-2 flight tests, and Iran's 
July, 1998 Shahab-3 flight test, represented advances over No Dong-1. 
``There have been representatives from all three countries at each of 
the test flights for full range trials,'' writes Lennox. We should not 
now be surprised to learn that this work was looped into the North 
Korean Taepo Dong-2 or the Iranian Shahab-4. Because of these 
collaborative patterns, traditional country-by-country intelligence 
estimates no longer correspond to reality. The U.S. must respond to 
global trend lines and, as Secretary Rumsfeld has stressed, expect the 
unexpected.
    Additionally, we should eschew self delusions about the value of 
commitments such as the North Korean missile test moratorium. Although 
North Korea acknowledged some kind of testing moratorium as recently as 
last Friday, Pyongyang also made clear to a recent European Union 
delegation that it reserves the right to sell missile technology 
abroad. We have no way to know what information it is receiving back 
from its partners, but the most reasonable assumption is that the 
collaborative cycle described by Lennox is still operative. In other 
words, the Taepo Dong-2, which most analysts believed was ready for 
flight in 1999, may have been steadily improved since then without 
flight testing. Indeed, Lennox suggests that implementing these 
improvements may account for the delay in flight testing the Taepo 
Dong-2. Now, North Korea may flight test at the drop of a hat and 
declare Taepo Dong-2 operational shortly thereafter, or it could 
continue to extract Western concessions while remaining one unannounced 
flight test from deployment.
    Mr. Chairman, because a ballistic missile threat to the United 
States is developing so rapidly, there are four reasons why missile 
defense for our country, our forces abroad, allies and friends is the 
right answer. First, ``to provide for the common defense'' is a 
fundamental constitutional purpose of the Federal Government. Second, 
the defense of Tokyo, Naples or the Suez Canal is a vital U.S. interest 
and the defense of Anchorage, Norfolk or Boston is a vital interest of 
our affies. Third, a clear commitment to evolutionary defenses will 
devalue ballistic missiles and thereby help counter proliferation.
    The fourth reason is geopolitical. Why are so many countries 
willing to devote scarce resources to acquiring ballistic missiles and 
weapons of mass destruction? President Bush had it exactly right in his 
May 1 speech to the National Defense University: ``to keep the United 
States and other responsible nations from helping allies and friends in 
strategic parts of the world.'' Anyone who sees American and allied 
power projection as stabilizing should also see ballistic missile 
defense as stabilizing.
    Of course, it is true that there are many other ways to hurt 
America and Americans, as the attacks on our embassies in Kenya and 
Tanzania and the bombing of the USS Cole clearly underscore. 
Unfortunately, whether directed by home grown kooks, Japanese mystics, 
Osama Bin Laden or some hostile state, there could be more bombs, vials 
of anthrax, malicious computer hackers, airplane hijackings, 
kidnappings and automatic weapons spraying busy city streets. These are 
all perils against which a responsible government should guard its 
people. But they are tools of terrorism, not of geopolitical strategy--
and we must not confuse the two.
    Mr. Chairman, my list of ballistic missile developments includes 
parades in India, Pakistan, Iran and China to underscore that these 
countries are using their ballistic missiles to send us an explicit 
geopolitical message, not skulking about in the shadows as a terrorist 
with a bomb. There are a host of measures we should be taking to thwart 
another attempt on the World Trade Center or the Lincoln Tunnel, but 
this is hardly a reason to perpetuate our vulnerability to ballistic 
missiles.
    There will also no doubt be other emerging military challenges we 
must face. For example, Dr. Dennis Gormley has recently published 
Dealing With the Threat of Cruise Missiles. Far from undermining 
President Bush's approach, writes Gormley, ``global defenses against 
the currently more prevalent ballistic missile should take first 
priority. But the Bush Administration would be wise to counter the 
escalating cruise missile threat by investing in technology development 
programs to improve cruise missile defenses.'' Again, that other 
threats exist and require a response does not obviate the need to 
proceed apace with ballistic missile defenses.

                 THE NEED FOR A FULL SPECTRUM RESPONSE

    Nor is the urgency of missile defense obviated by the oft repeated 
truism that we have other means at our disposal to counter the 
proliferation of ballistic missiles and weapons of mass destruction. In 
a chapter of Jane's Ballistic Missile Proliferation published last 
year, I argued that no single measure can stand alone. Rather, we 
should assemble a full spectrum response drawn from a variety of 
measures: a strengthened non proliferation regime, improved regional 
security diplomacy, better intelligence, a host of technology programs, 
interception and preemption (although I am skeptical of these options), 
more effective sanctions, retaliatory capabilities, missile defense, 
counterforce, passive defense and consequence management. In response 
to comments I received on my chapter, I would add democratization and 
trade as important means at our disposal in some cases.
    Moreover, former Senate Majority Leader Howard Baker and Lloyd 
Cutler do us a service in reminding us of the importance of securing 
and neutralizing Russia's vast holdings of nuclear weapons and nuclear 
material. This, too, should be added to a full spectrum response. And 
smart people will no doubt add a few other measures that are worth 
pursuing.
    But--make no mistake--missile defenses are the linchpin of a full 
spectrum response. Even if we could lock down all Russia's nuclear 
material tomorrow, ballistic missile threats would continue to emerge. 
And the very toughest cases are least likely to respond to more 
attentive diplomacy or even improved sanctions. Indeed, as Deputy 
Secretary of Defense Paul Wolfowitz suggested before the Senate Armed 
Services Committee two weeks ago, it is our lack of defenses that 
encourages these countries to proceed with ballistic missile programs. 
It is foolhardy to invite potential adversaries to arm with ballistic 
missiles, restricting our responses to threats of retaliation and 
cleanup. Missile defenses would complement and magnify all our other 
counter proliferation efforts by sending a clear signal that we intend 
to use our superior technology to foreclose this avenue.
    Missile defenses would insulate us from geopolitical blackmail 
aimed at altering our, and our allies' and friends', calculations of 
our interests. For example, in the days after the August 2, 1990 Iraqi 
invasion of Kuwait, President Bush asked Egypt's President Hosni 
Mubarak to allow the Eisenhower Carrier Battle Group to transit the 
Suez Canal. Mubarak was in a very delicate position, attempting to 
broker an Arab League solution to the crisis. Imagine if Cairo had been 
within range of Saddam Hussein's missiles!
    And let us be honest, a threat to Boston, Miami or Seattle would 
indeed affect our thinking about coming to the aid of an ally or 
friend. As Robert Kagan pointed out in a 2000 column, ``a dynamic of 
this kind already shapes American relations with North Korea . . . 
[whose] ability to strike Japan--and within a few years Alaska and 
Hawaii--simply makes bribery more attractive than confrontation.'' 
Chinese General Xiong Guang Kai understood this perfectly when he mused 
that the United States would not defend Taiwan because China would 
``rain nuclear bombs on Los Angeles.'' It is impossible to predict the 
outcome of any future situation--some U.S. interests will be seen as 
vital despite a missile threat--but missile defense would provide an 
American president the flexibility he or she needs to make the right 
decision in every case, and it would send a strong message that the 
U.S. intends to resist this kind of coercion.
    Finally, should it come to warfighting, let us not forget that our 
single greatest loss in the Gulf War resulted from a SCUD attack on a 
Pennsylvania National Guard barracks.

                BUSH'S MISSILE DEFENSE APPROACH IS RIGHT

    Global missile defense is imperative in the post Cold War 
geopolitical situation. Recognizing this, the Bush Administration has 
correctly restored three essential elements to our missile defense 
programs: globality, layering and evolution. The plan is not a rush to 
a one time solution, but a first step on an evolutionary path that 
leads to restoration of the traditional balance between offense and 
defense.
    The Administration's missile defense goal is ambitious, but its 
research, development, testing, evaluation and deployment plan is a 
cautious, walk-before-you-run plan. And, the announcement two weeks ago 
of a new missile defense test range in Alaska underscores a commitment 
to a long term program of realistic testing. As President Bush said on 
May 1:

          We will evaluate what works and what does not. We know that 
        some approaches will not work. We also know that we will be 
        able to build on our successes. When ready, and working with 
        Congress, we will deploy missile defenses to strengthen global 
        security and stability.

                   THE 1972 ABM TREATY BLOCKS THE WAY

    The 1972 ABM Treaty, amended in 1974, effectively enshrines mutual 
assured (MAD) destruction by prohibiting a territorial defense. The 
idea was that a very limited defense--of a missile base or a national 
capital--would help ensure survival of a retaliatory capability, while 
more extensive defenses might negate the other side's retaliatory 
capability. The Treaty's framers effectively used three fundamental 
facts to achieve their purpose: 1) the world is round; 2) the 
territories of the two parties were very large; and 3) radar signals 
travel in straight lines. By restricting ABM radars and fixed, ground 
based ABM interceptors to one 150 kilometer radius area, the Treaty 
limited the eyes and legs of the one permitted system. To date, no way 
around this has been found. But even if Yankee ingenuity figures a way 
to defend the territory of the 50 states with 100 interceptors in North 
Dakota, such a system would run counter to the Treaty's object and 
purpose set forth in Article I.
    Moreover, to preclude the parties from achieving territorial 
defense any other way, the Treaty prohibits development, testing and 
deployment of any ABM system that is not fixed, ground based--sea, air, 
space or mobile land based. And nothing else can be given ABM 
capability or tested in an ABM mode.
    The fact is that the 1972 ABM Treaty very effectively precludes a 
territorial defense. Proceeding with cost effective global, layered, 
evolutionary defenses means deploying the first available systems right 
away and embarking on a plan to develop, test and deploy the most 
promising technologies. Deputy Secretary Wolfowitz was absolutely 
correct to tell the Armed Services Committee that we will bump up 
against the ABM Treaty in a matter of months, not years.
    If the Administration chooses to deploy the Alaska ground based 
system developed by the Clinton Administration, the Treaty currently 
prohibits construction of an ABM radar or ABM launchers. Further, 
globality and layering require the exploration of missile defense 
systems in other basing modes--sea, air and space. Today, laboratory 
research and sub-component level testing are legal. But testing a non 
fixed, ground based ABM component, prototype, or an item capable of 
substituting for an ABM component, is prohibited by the ABM Treaty. In 
sum, President Bush is absolutely correct that we must move beyond the 
Treaty--and soon.

            TIME FOR A NEW, POST COLD WAR SECURITY FRAMEWORK

    The ABM Treaty was the legal embodiment of Cold War stability--MAD. 
Seen in this perspective, moving beyond it a decade after the Cold 
War's end seems altogether reasonable.
    ``Today,'' the President said on May 1, ``the sun comes up on a 
vastly different world.'' It was neither salesmanship nor naivete when 
he said, ``today's Russia is not our enemy.'' Rather, it was 
recognition that Leninism--the legitimizing essence of the Soviet 
state--was what impelled the USSR into conflict with the U.S. The Cold 
War was a protracted conflict between communism and democracy bound to 
erupt somehow, somewhere--Berlin, Korea, Cuba, Vietnam, Angola. Given 
nuclear missiles, strategic stability meant maintaining a standoff at 
the top of the escalation ladder to prevent any of these inevitable 
crises from ratcheting up into nuclear war.
    Absent the Leninist USSR--come what may in modern Russia--an 
essential beam in the foundation of the Cold War strategic framework 
has crumbled. Indeed, concludes a recent National Institute for Public 
Policy study, ``Cold War style arms control, a process focused on 
specific limitations designed to codify MAD, now contributes to U.S.-
Russian enmity.''
    President Putin appears to have realized this too, and substantial 
progress was made during his meeting with President Bush in Genoa last 
Sunday. ``We're exploring the opportunity to redefine the strategic 
framework for keeping the peace,'' said President Bush, ``not as 
existed in the past, but a strategic framework as we go out into the 
21st century.'' There will be plenty of bumps in the road the two 
presidents have agreed to travel, Washington will need to be careful to 
avoid the snares of yet another Cold War style arms control 
negotiation, and success is far from guaranteed. That said, it is worth 
a try because three important factors are coming together.
    First, tit-for-tat, bean counting, Cold War deterrence has become a 
recipe for an endless rivalry in which President Putin cannot hope to 
prevail. Consequently, he too is searching for a new security 
framework. Difficult as it may be, preserving Russia's status over the 
long run will require abandoning Cold War thinking and force 
structures. The Strategic Rocket Forces have been de-emphasized. Their 
former commander was replaced as Minister of Defense with Putin's 
closest political ally. And just a few weeks ago, General Leonid 
lvashov, the Defense Ministry's number one hardliner, was dismissed. 
Although we should not delude ourselves that Moscow now sees the world 
as we do, change is clearly afoot.
    Second, President Putin's vision of a new security framework no 
doubt includes radical reduction of Russian and American strategic 
forces to about 1,500 warheads, and--if the Americans are bound to 
proceed with missile defenses--some kind of a deal on that score. By 
rolling it all together, Putin can secure American offensive reductions 
and help shape the new security framework that includes defenses. By 
committing to U.S. unilateral strategic offensive reductions, then 
indicating willingness to discuss them together with defenses, 
President Bush has given Putin some incentive to make the political 
effort that will be required to jettison Cold War thinking in Moscow.
    Third, and vitally important, the Bush Administration has evidently 
been successful in projecting its seriousness about proceeding with 
missile defense. As a former negotiator, I can tell you that nothing--
nothing--will happen without this kind of leverage. Consequently, I 
will conclude my statement by recalling the words of Deputy Secretary 
Wolfowitz before the Armed Services Committee two weeks ago:

          If we agree that a cooperative outcome is preferable, then it 
        is important that Congress demonstrate the same resolve as the 
        President to proceed with development of defenses to protect 
        our people, our friends and allies, and our forces around the 
        world; defenses that cannot, by the wildest stretch of the 
        imagination, be considered a threat to Russia or its security.

    Thank you.

   Some Ballistic Missile Developments Since the Rumsfeld Commission 
                                 Report

                 COMPILED BY AMBASSADOR DAVID J. SMITH

July, 1998--Iran tested its 1,300 kilometer Shahab-3, a variant of the 
        North Korean Nodong-1.

August, 1998--North Korea launched its Taepo Dong-1 missile or space 
        launch vehicle, consisting of three stages, two with liquid 
        fuel and one with solid. U.S. intelligence agencies tracked 
        debris from the flight 6,700 kilometers, nearly to the coast of 
        Alaska.

January, 1999--India displayed its 2,500 kilometer range Agni-2 in the 
        Republic Day parade.

March, 1999--Pakistan showed its 1,300 kilometer range Ghauri-1, flight 
        tested in April, 1998, and its 600 kilometer range Shaheen-1 in 
        the National Day parade.

April, 1999--India flight tested its Agni-2, consisting of two solid 
        fuel stages. India's May, 1998 nuclear tests included a nuclear 
        warhead for Agni.

April, 1999--Pakistan flight tested its 2,000 kilometer range Ghauri-2, 
        a Nodong variant, and its Shaheen-1.

August, 1999--China conducted the second flight test of its 8,000 
        kilometer range Dong Feng-31 (DF-31).

September, 1999--Iran showcased its Shahab-3 for the second time at the 
        Sacred Defense Week parade.

October, 1999--China paraded its DF-31, improved 2,500 kilometer range 
        DF-21A, and 600 kilometer range DF-15 (M-9) in commemoration of 
        the 50th anniversary of the People's Republic of China.

October, 1999--China announced a successful simulated launch of its 
        developmental 12,000 kilometer DF-41.

October, 1999--Chosun Ilbo, South Korea's largest newspaper, reported 
        development of four North Korean 1,300 kilometer range Nodong-1 
        battalions.

October, 1999--North Korea, despite an apparent agreement to suspend 
        missile tests, asserted that ``the issue of missile launch is a 
        matter wholly pertaining to our sovereignty, and the DPRK will 
        launch a missile and a satellite anytime it feels necessary.''

November, 1999--Iran acquired 12 Nodong engines from North Korea.

March, 2000--Pakistan showed its 2,500 kilometer range Shaheen-2 in the 
        National Day parade.

July, 2000--The U.S. Intelligence Community reported that China 
        continues to aid Pakistan's long-range missile program.

July, 2000--Iran flight tested its 1,300 kilometer Shahab-3 for the 
        second time.

November, 2000--China conducted the third flight test of its 8,000 
        kilometer range DF-31.

December, 2000--China conducted the fourth flight test of its DF-31. 
        Some experts believe it is now deployed.

January 2001--India flight tested its Agni-2.

February, 2001--India will build the Agni-3 ``of higher range and 
        better capabilities than its predecessor,'' according to Dr. 
        Vasudev Aatre, scientific advisor to Defense Minister George 
        Femandes. The new weapon is expected to have a maximum range of 
        3,500 kilometers.

March, 2001--Pakistan again showed its 2,500 kilometer range Shaheen-2 
        in the National Day parade. Other systems displayed include the 
        600 kilometer range Shaheen-1, 1,300 kilometer range Ghauri-1 
        and the 2,000 kilometer range Ghauri-2.

March, 2001--India announced procurement of the 2,500 kilometer range 
        Agni-2.

April, 2001--India launched its Geosynchronous Satellite Launch Vehicle 
        (GSLV). Its Russian KVD-1M third stage underperformed, placing 
        the payload into slightly lower geosynchronous orbit.

May, 2001--North Korean leader Kim Jong II told an EU delegation that 
        North Korea would continue to refrain from missile testing 
        until 2003, but could not afford to forgo missile sales.

June, 2001--North Korean Foreign Minister Paek Nam Sun reportedly said, 
        ``it has yet to be decided whether we maintain the moratorium 
        on missile testing. That depends entirely on the policy of the 
        new U.S. administration, whether it is hostile or not.''

    The Chairman. Thank you very much.
    To Mr. Smith and Mr. Woolsey, why do we talk to Russia? Why 
even bother to enter into negotiations and discussions with 
Russia? So what? I mean, you guys made an awfully compelling 
argument that it is totally irrelevant.
    Ambassador Woolsey. My judgment, Mr. Chairman, is there is 
a difference between the legal obligation and political and 
foreign policy wisdom here.
    I do not believe, as I have said, that we are legally bound 
by this treaty because of the succession issue, and I think the 
President is perfectly within his rights to declare that he is 
not going to submit the new treaty, essentially, with Russia or 
the four states to the Senate for two-thirds approval, and to 
have it lapse.
    But Russia is a democracy, admittedly a troubled one, but 
still a democracy. It is a successor state to a country with 
whom and with the establishment of whom we have now 30-plus 
years of history of negotiation on strategic forces, offensive 
and defensive, and agreements. We have a very valuable 
commodity that we can provide to Russia that will help, I 
think, with Russian stability and with Russian willingness to 
work with us, namely, self-respect: Recognition of the 
importance of Russia, admittedly weak economically and to some 
extent weak politically, but nonetheless possessing a large 
number of nuclear weapons.
    And by recognizing it in a sense as another quasi 
superpower, in dealing with it that way, I think we have the 
best opportunity to bring the Russian Government along with us 
into a new age and a new era. Now, I believe we have more 
likelihood of succeeding in getting them to cooperate with us 
if we let them know pleasantly, quietly, privately, that we 
intend to proceed no matter what they do. As Mr. Lukin's 
statement that was in the paper this morning suggests, I think 
that will make them more willing to work with us, not less.
    I have some experience in this regard. When I was the CFE 
negotiator and Ambassador in 1989 to 1991, a few days after I 
took over the negotiations the Berlin Wall collapsed, and 
during the first 2 months I was in the job a Warsaw Pact 
government collapsed about every 10 days, and I had Warsaw Pact 
members with new governments, such as the Solidarity 
government, wanting to work with NATO in these negotiations. I 
had a very nervous and upset Soviet Union Government on the 
other side.
    My delegation did absolutely everything we could to raise 
Soviet esteem, to treat them as an equal, to treat them in such 
a way as not to gloat, not to talk about emerging victorious.
    The Chairman. So your point is that these foreign policy 
considerations matter.
    Ambassador Woolsey. Yes, absolutely.
    The Chairman. Do they matter with regard to what the 
Europeans think about this?
    Ambassador Woolsey. To some extent, but I believe the 
Europeans are all over the map on this. We have apparent 
support from some of the smaller countries, from Italy, from 
Spain, to some extent from Britain. I think the locus of the 
opposition really is in a rather traditional French tweaking of 
the United States, and I think that if we handle our foreign 
policy relations with Russia skillfully, I think it will make 
it difficult even for President Chirac to be as hostile toward 
missile defense as some of his foreign minister's earlier 
statements.
    The Chairman. And if we do not handle it well?
    Ambassador Woolsey. If we do not handle it well, then we 
risk stress with some of our allies, perhaps not all, but I 
would certainly not regard France as the leader, or symptomatic 
of all other allies' views on this.
    The Chairman. Do you get any sense Germany has any?
    Ambassador Woolsey. I believe the Germans have a bit more 
flexibility than the French on this. Neither one has been 
enthusiastic about American missile defense.
    The Chairman. Just a little truth in advertising. Come on, 
you are talking to Joe here.
    Ambassador Woolsey. There is a spectrum.
    The Chairman. Look, let me, Mr. Secretary--Secretary Perry, 
you indicate that there are a number of things we can and 
should be doing. As I understand the essence of your statement, 
it is that, notwithstanding the fact that we may be able to 
acquire this capability to hit a bullet with a bullet, even if 
we are less sure that it is likely to occur in the next 5 to 10 
tests, in terms of limited resources, there are other things 
you think we should be spending our money on before we spend 
tens of billions of dollars in this area, or am I misreading 
you?
    Dr. Perry. Senator Biden, my comment is not that we should 
not have a ballistic missile defense program. It is directed at 
how large the program and how extensive the program should be, 
and how many components, and how many layers there should be in 
this program, and as we start to consider expanding the program 
beyond the ground-based system that is now under development, 
we are going to come rapidly in conflict with those priority 
questions.
    And yes, I do think the priority of readiness of the force 
is in the priority of deploying--building and deploying the 
next generation of fighter aircraft in my judgment is the 
higher priority than some of the second and third systems that 
we are now considering in the ballistic missile defense area.
    The Chairman. If the first system, the land-based system 
was to cost a minimum of $60 billion to develop, deploy and 
maintain, I assume the layered system is going to cost us a lot 
more than that. Does anybody disagree with that?
    Ambassador Woolsey. Mr. Chairman, I think if emphasis were 
put on boost-phase intercept, particularly initially on 
surface-based boost-phase intercept, especially from the sea, 
even if one ultimately went to a combination of boost-phase and 
midcourse for some defenses and terminal for theater defenses, 
some of the expenses of the midcourse might well be able to be 
put off.
    I have noted that you for the last 2-plus years have 
talked, in at least interested terms, of some surface-phased 
boost-phase system, and I share that. It is interesting to me, 
some of the supporters also of space-based systems such as 
former Ambassador Hank Cooper of High Frontier, and also many 
people who agree with him, have a strong interest in surface-
based boost-phase.
    It strikes me that one possible way to triangulate on this 
problem is for people to begin to work together on things like 
an Aegis boost-phase intercept, even although there may be some 
agreeing to disagree about what would come down the road. And I 
think that also might help, at least initially, hold some of 
the cost down, because as I think you have pointed out, it is 
easier to hit something that is large, slow, and hot early in 
its trajectory than when it is small, cold, and fast, and you 
are trying to hit a bullet with a bullet up there in space.
    The Chairman. You characterize my position correctly, but 
that is not the administration's position. The administration's 
position is to move forward on all three fronts. The only point 
I am trying to get at here is the cost question.
    If the administration, not having decided on which system, 
other than having a layered system overall, is their stated 
objective, then what we are signing on to, if they mean what 
they say, is an expenditure well in excess of $60 billion. Then 
that gets me to the point raised by Secretary Perry and raised 
by Mr. Cutler that--for example, the Cutler report seems to me 
one of the most compelling reports I have ever read--you have a 
recommendation for a $30 billion expenditure over the next 10 
years to deal with loose nukes and threat reduction initiatives 
with Russia.
    The fighter we are talking about is going to cost over $200 
billion to develop and produce all of them. The new light tank, 
the whole panoply of requests that I have received from each of 
the chiefs, although I have not spoken to the Navy yet, but 
they are always the most expensive, exceeds well over $500 
billion for the next 10 years.
    I am wondering where we get all this money, and whether or 
not we are putting our dollars in the right basket. And it 
seems to me from your statement, Mr. Secretary, that you think 
the threat is less imminent from a rogue state firing an ICBM 
missile than it is from many other things that we face, and 
further, given the resources that we have, that you would 
rather see these resources spread out more than concentrated so 
fully on national missile defense, or am I misreading your 
statement?
    Dr. Perry. I do not doubt that a threat of a rogue state 
having a missile is something we should be concerned about, and 
that I would feel comfortable in having a defense against that. 
My point is twofold. It is that if we go to a full-scale 
layered defense it is going to be very, very expensive, and 
then we get into a real conflict with all the other things we 
want to do, other defense things, and the things we do such as 
Lloyd Cutler described in terms of minimizing the dangers of 
proliferation.
    So I think that is an important point to make, and it is a 
matter of perspective, not a matter of saying we want to do it 
or we do not want to do it. The issue here is primarily tied to 
the view which has emerged in the last number of months that we 
need not just a ground-based system, or a space-based system, 
or a sea-based system, but all three, and we need to have a 
layered defense. I understand why a layered defense increases 
the probability of defense. Nevertheless, it is very, very 
expensive, and we have to take that very much into account.
    The Chairman. Well, my time is up. I will come back in a 
second round and talk about deterrence with you all.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I just 
want to mention what a difficult problem this administration or 
any administration has in attempting a new idea, and this is a 
very big idea, because in the Congress we are inclined to want 
to defend the status quo. This is not the first administration 
that had a problem in suggesting that some bases be closed in 
the United States, and finding Members of Congress wanting to 
keep all of them open, every single one, almost like post 
offices, or agricultural research stations. We are having real 
problems even retiring B-1 bombers. This ignites a firestorm 
just as Secretary Rumsfeld begins to edge in to whatever may be 
the revision of the defense plan, the quadrennial defense 
review.
    So when we come to the issue of cost, we are in trouble 
even with our overall defense budget to begin with, but leaving 
that aside, it seems to me that the layered idea is important 
to discuss maybe in a different way. Secretary Perry, Mr. 
Cutler and Senator Baker have described so well the need for 
cooperative efforts in Russia to eliminate threats at their 
source. We have talked about a defense in which we try to get 
rid of weapons of mass destruction, and then stop the 
proliferation or shipment of material, and weapons at the 
borders. And third, even think of home defense, how do we 
prepare in the United States for what might occur from 
deliveries other than ICBM.
    These are concepts that are very important, and they are 
also very expensive. You know, to some extent the Nunn-Lugar 
program could have advanced more than $400 million a year but 
that is about what the Congress has been willing to allocate to 
it; Department of Energy programs that have faced similar 
situations. As a matter of fact, we do not have concurrence 
with the House of Representatives to destroy the first chemical 
weapons in Russia, although we have them bottled up in seven 
places, and many people feel this is a very serious problem.
    On the biological front, Russian leaders are still 
basically in denial about most of it, but we are deeply 
concerned, and a response will be very expensive whatever our 
strategy may be. So these threats are present and no one denies 
them, but the United States has not allocated, in my judgment, 
the resources needed to address the dangers.
    Now we have an additional danger of rogue states, and 
Secretary Perry has said correctly this is something we have to 
study and consider. He has indicated that more cautious or more 
tentative measures, or maybe that mischaracterizes it, less 
than full-layered missile defense system might be more 
preferential.
    But if you were the President of the United States trying 
to move this argument, I am inclined to agree with Mr. Smith, 
you had better do so with a lot of vigor, and really shake up 
the troops. An incremental approach is likely to get you 
nowhere with our allies, with the Russians, with the Chinese, 
with anybody else.
    Now, I agree with Mr. Smith that the President has begun to 
change the terms of reference on the subject. People will argue 
about the style and the rhetoric and so forth, but 
nevertheless, there are many Americans now who advocate boost-
phase missile defense on ships or aircraft stationed near rogue 
states. Discussions continue on the economical situation, but 
the debate is a lot further down the trail than say, 6 months 
ago, or a year ago, for example.
    Furthermore, on the ABM Treaty situation, people said 
boost-phase almost inevitably runs up against ABM and violates 
it 15 different ways. So if you are trying to work out a 
diplomatic solution, do not even start with the first rudiments 
of experimentation there.
    Let me just say, I am still learning the details or all of 
the elements of the administration's plan. I have listened 
carefully to testimony that has come before various committees 
in the last month in particular. The whole layered situation is 
very complex for me to understand, quite apart from the cost of 
it and how it might ever work. But it gives an honest idea of 
where we might head, and very clearly the ABM situation and our 
relations with Russia will have to change.
    Finally, I would just say just as a part of this monologue 
that I think we are going to have another discussion with 
Russia this coming year about NATO enlargement. Now, the two 
are different subjects, but nevertheless, President Putin 
already anticipates this. In his rhetorical flourish last week 
he said, either NATO is irrelevant, or Russia ought to be a 
member. This is an argument we are going to have to be 
thoughtful about, because as Director Woolsey has pointed out, 
in the best of all worlds a Europe whole and free includes 
Russia.
    What are the criteria for NATO? Democracy, human rights, 
being a free-market country. We are going to have to evaluate 
other countries that are potential members in the same way. 
This is a good time to visit with Russia about this, even as we 
are discussing the ABM Treaty and missile defense. The U.S.-
Russia relationship is tremendously important, and so I see a 
good opportunity with the cards being reshuffled here and 
things more or less in flux for agreement on a number of 
important issues.
    Let me ask each of you, if we proceed with a multi-layered 
missile defense system that includes a boost-phase intercept 
capability, what would the costs of the boost-phase be? Does 
anybody have any idea on the deployment costs or maintenance 
costs? We could build a system but keeping ships and planes on 
station will take a lot more money and time. So what do you 
believe is the cost, given the allocation and the tough 
decisions we all must make?
    Ambassador Woolsey. Let me try, Senator Lugar. Several of 
us had a briefing from General Kadish a short time ago about 
the program, and this sort of issue came up. I would say that 
several hundred million more dollars in this year's budget. I 
do not know whether it is 2 or 6, but I do not think a few 
hundred million more would probably substantially advance the 
time by which boost-phase intercept, particularly sea-based, 
could be tested.
    Senator Lugar. What would happen with that money? How do 
you spend that?
    Ambassador Woolsey. Well, I would have to defer to General 
Kadish on that. Part of this has to do, I think, with testing 
different kill vehicles. For example, the kill vehicle that was 
on the old Brilliant Pebbles Program is so small and light that 
if it works, it has the advantage of one being able to have 
more fuel on a missile of a given size, and therefore be able 
to go faster, which is something that you want in boost-phase 
intercept.
    And I would think that within whatever level of funding the 
Congress approves for missile defense, a rather vigorous effort 
on that is worth doing. Because if this works--and for an 
affordable amount of money within a very few years one could 
come up with a boost-phase intercept capability on an Aegis 
ship--over time one would perhaps end up with more Aegis 
destroyers, but in the first instance one might well end up 
with just one off the coast of North Korea on a rotation of 
some sort. That is sort of the first and most immediate 
problem.
    The interesting thing about doing this, at least initially, 
from the sea, is that except for Iran, most of the countries 
where one would want to focus on boost-phase intercept, North 
Korea, Iraq--from the eastern Mediterranean, or possibly from a 
site in eastern Turkey--Syria, Libya all lend themselves to 
boost-phase intercept from the sea.
    Iran is the big problem. Nobody wants to operate an Aegis 
destroyer in the Caspian Sea. But for other states we might be 
able not to need to assume we are going to have simultaneous 
crises with North Korea and Iraq and Libya and so forth. It 
seems to me that even a limited capability on Aegis destroyers 
or cruisers at sea--if you can get the boost-phase intercept to 
work affordably and relatively early--would be something that 
might well be able, because of its strategic utility and 
potentially relatively low cost, to draw support from a wider 
range of people in the executive branch and the public sector 
and the Congress than is the case if one goes immediately with 
all parts of the layered defense.
    You are talking to a lawyer and history major here, so my 
scientific judgments are worth whatever they are worth, but I 
have been of the view for a number of years that boost-phase is 
likely to be in many ways considerably more straightforward 
than midcourse intercept, because of the problem of decoys.
    The Chairman. Senator Chafee.
    Senator Chafee. I appreciate hearing from the witness. I 
have no questions. I also would apologize to the next panel 
because I have to go.
    The Chairman. I want to go back to the issue of deterrence 
here. Secretary Perry, you negotiated a framework with North 
Korea regarding fissile material, and you have, I think, done a 
heck of a job in terms of your discussions, in your previous 
incarnation and after you left the Secretary's job, with North 
Korea.
    Give me your sense of the prospects--and I know you are not 
now doing the negotiations--of being able to negotiate a 
verifiable agreement with North Korea not to develope a long-
range missile and not to transfer that technology.
    Dr. Perry. My view on this is predicated on the broader 
view that North Korea's regime believes that it has a disaster 
on hand in its economy, and the only way out of that disaster 
is to stop being a hermit nation and deal in a constructive way 
with South Korea and with the rest of the world. We gave them 
an opportunity to do that by presenting two alternatives to 
them. The first alternative was to join the rest of the world, 
in which case they had a chance of economic cooperation with 
us, but in order to do that they had to give up their missile 
program.
    At the time I left Pyongyang after that meeting I told my 
colleague I did not think they were going to accept that, 
because it seemed to me the military there was really quite set 
against it. Since then, I have come to believe that they are 
going to accept it. I believe, indeed, that Kim Jong-il has 
decided two things. He has decided to form normal relations 
with South Korea and other countries, and he has decided to try 
to move toward a Chinese-style market economy.
    Whether he can do those two things is another matter, but I 
believe that is what he has decided, and therefore he is moving 
toward an agreement with us. We were, I think, quite close to 
an agreement at the end of last year, but I must say that there 
were two elements not yet nailed down, two very important 
elements. One of them was the No Dong missiles already 
deployed, what would happen to them, and the other was the 
agreement on a verification protocol.
    Those are two very important points, but except for that, 
all of the other issues which we wanted we had agreement on, so 
on that basis and the basis of the broader assessment I have 
given you, I would say there is a good probability of getting 
an agreement with North Korea which will stop their testing, 
deployment, and export of medium and long-range missiles.
    The Chairman. What consequence would that have if we had a 
verifiable agreement with them? How, in your view, if you were 
still Secretary of Defense, would that affect your calculus in 
terms of national missile defense, if at all?
    Dr. Perry. It would not affect my view of what to do today 
or this year, because I cannot count on that happening, and 
even if we made such an agreement, I cannot count on them 
staying with it forever, and so I would want to have an 
insurance program, a backup program in any event.
    It would certainly affect my view on the timing of what I 
did and my view on deployment of systems. I would still want to 
keep a robust development program underway.
    The Chairman. Mr. Smith, is it your contention that North 
Korea, Iran, and Iraq are not susceptible to our existing 
nuclear deterrent?
    Mr. Smith. Absolutely not, and I do not like the word 
never. They may well be susceptible to traditional deterrence 
at a particular moment and a particular situation. The fact is, 
we just do not have the kind of understanding that was 
developed over 40 years back and forth between the United 
States and the Soviet Union. We also have a much more dynamic 
situation. As I said in my statement, I think there was some 
evidence that, for instance, Iraq may have been deterred by the 
threat of nuclear weapons.
    The point I am trying to make to you, Mr. Chairman, is that 
we really do not know the kinds of things that deter, and just 
blithely to take our cold war deterrence mentality and say, 
well it will always work in every case, as if each one is a 
lesser-included case, is just not the way to go, and we do not 
know a lot about all the cultures, the values, the things we 
are dealing with with these countries.
    The Chairman. I do not think anybody is saying that. I 
think the debate is, because very few people are saying we 
should not do what Dr. Perry has suggested, which was that we 
should continue a significant effort in terms of research and 
development on a national missile defense, limited or 
otherwise, whether or not, either as a consequence of foreign 
relations, that is, as a consequence of action that will be 
spawned by other countries if they think we will unilaterally 
withdraw from a treaty that both of you think is not in effect 
anyway, or if we unilaterally withdraw from a treaty, there may 
be more negative consequences of that for very little payoff in 
return. I do not know anybody who is suggesting, there probably 
are some, in the Senate or this committee we cease and desist, 
foreswear, that we have a national missile defense.
    It comes down to the way in which we go about it, and there 
are some of us, I speak for myself, who are concerned about 
whether or not our actions are decided in a vacuum. If we just 
decide unilaterally to move forward and renounce whatever 
agreement may or may not be in existence with regard to 
national missile defense, that what we are going to do is spawn 
an arms race, not so much with Russia because of their present 
financial circumstance and their ability to maintain their 
existing systems, but in Asia, that, like your old agency 
suggests, whatever China was likely to do, they will do a hell 
of a lot more of it. In fact, we should move forward with a 
national missile defense that gives them some surety that it is 
not aimed at them and will not deny them their ability to have 
their own deterrence.
    Mr. Smith. Mr. Chairman, if I just may respond, first of 
all I am sorry if I left some kind of misconception. I did not 
say that I do not believe the ABM Treaty is in force. I believe 
it is.
    The Chairman. I was referring to Mr. Woolsey.
    Mr. Smith. With regard to the deterrence, the point I am 
trying to make here is that you want to have a lot of different 
options. You do not want to be in a situation where you have 
actually to use those nuclear weapons, and it might come to 
that, and it is not going to be that easy. If you say that is 
your policy, you had better do it when certain things happen 
that you have said would provoke that. If you say our policy is 
deterrence, let us just say it is Iran or Iraq, or whatever it 
is, and whatever you said would provoke that happens, you had 
better do it, or you have just lost everything.
    I do not want a President of the United States in that 
situation. One, I do not think it is the right thing to do. You 
are hurting a lot of people there who have nothing to do with 
that regime. Two, it may be very difficult for us to do because 
of our friends, our allies in the area, our forces in the area. 
It is not quite as easy as you think.
    Now, with regard to China, if I may, China has a 
substantial missile and nuclear modernization program underway. 
It has been underway since the late eighties. They have a 
missile modernization program in every single class of missile 
going on right now. You look at their literature. This clearly 
predates our missile defense.
    They would very much like to use us as the excuse for doing 
this, but the fact is, this is what the PLA wants to do. But 
Beijing is not monolithic on this thing right now. There is an 
awful lot of people who want to concentrate on democratization 
and economic development, and we ought to be encouraging them 
to do that rather than doing deals of some kind of a neomutual 
assured destruction.
    Ambassador Woolsey. Mr. Chairman, the one attractive aspect 
of ship-based boost-phase intercept is that whereas----
    The Chairman. I understand that. In the interest of time, I 
understand that. That is one of the reasons I like it.
    What I am trying to get at is this issue of whether or not 
either of you, or any of you, think there is a concern here 
about sparking an arms race that will, in fact, put us in more 
jeopardy rather than less jeopardy at the end of the day.
    Yes, Mr. Secretary.
    Dr. Perry. Mr. Chairman, I would say that my main reason I 
am happy that the President is talking with President Putin and 
that they are moving forward is not because I thought--and I 
care very much whether the Russians are unhappy. It is not 
because I thought they were going to move into an arms race. It 
is conceivable, but that is not high on my list of concerns, 
but I think there is three very good reasons why we need the 
cooperation of the Russians that affect our security. One of 
them is because we want their cooperation in inhibiting 
proliferation. That is very important, and we are not going to 
get it if we are not dealing with them.
    Second, we want to help them secure Russian missiles, as we 
have done under the Nunn-Lugar program. It would be foolish for 
them not to accept that help, but they might do it if the 
relations became strained.
    Finally, we want to encourage them and work with them to 
reduce the likelihood of an accidental or unauthorized launch 
from Russia.
    Now, those, all three of those things require close 
cooperation with the Russians, and it requires our dealing with 
them. It has nothing to do with building of strategic arms, or 
getting into an arms race, but they very much affect our 
security.
    The Chairman. I share your concern about Russia. My 
question was about China, and whether or not--and I am not 
concerned about an arms race with Russia, any more than you are 
for a whole range of reasons that I will not take the time to 
explain, and you would fully understand all of them, but my 
concern relates to what you----
    Dr. Perry. Let me be very specific about China, then. China 
I think Mr. Smith is quite right in saying that their missile 
modernization program has been underway for sometime, and 
probably will continue for sometime. The question is what 
quantity of ICBM's they will build, and I tend to share the 
view of the intelligence community that in response to a major 
BMD program they would probably up that quantity, maybe not by 
a factor of 10, but by some large number.
    The Chairman. The issue--and that was the point I was about 
to make--to me is not whether or not they modernize, but to the 
extent to which they deploy what they modernize, what the 
numbers of that deployment is, and what reaction that causes in 
India; and what in turn that does in Pakistan, and what that 
does in turn, as a consequence of that, in Japan. I think we 
blithely sort of skate over that in focusing on Russia, and I 
am going to yield to my colleague.
    One of the things that I am concerned about with regard to 
Europe is not directly whether Europe is happy or not happy 
with us, but at the same time we are trying to get agreement 
with Europe on expansion of NATO, at the same time we are 
trying to get agreement with Europe on trade issues that you 
deal with in the Agriculture Committee, at the same time we are 
trying to get agreement with Europe on a whole range of issues 
that are very much in our interest. It seems to me we make it 
incredibly more difficult when we fly in the face of what they, 
the majority at least at this point, believe is in their 
interest, whether or not it is.
    I often tell my daughter, if you bring home a report card 
that is not very good on Friday, do not remind me that I 
promised you on Monday you could have the car on Saturday. It 
is not a good time to remind me of that. I know that sounds 
trite, but it is the way human relations function. It is the 
way relations between countries function.
    Very few times in my 29 years of experience, as long as 
some of you around here, with a notable exceptions, the very 
few times when we have a serious disagreement with a country on 
a bilateral basis, a serious disagreement, are we able to get a 
whole lot of other things done with that country at that time. 
And there is a lot on our plate here, and that is the reason 
why I have a concern as it relates to Europe.
    Look, I do not think anyone in Europe now, or even when the 
argument used to take place, in the seventies, Jim, doubts our 
might and our capability. The only time we ever had a problem 
with Europe is when they begin to doubt our wisdom, when they 
doubt our judgment. That is when we have trouble getting them 
to follow us, when they doubt our judgment, and that is what I 
think is being put in play now.
    But I am going to yield. I have one very brief round, but I 
will yield to my colleague.
    Senator Lugar. Well, let me just pick up, Mr. Chairman, on 
the European theme. It occurs to me that the President has had 
some success with our European friends by at least his dialog 
with President Putin, which a good number of Europeans seem to 
be markedly relieved that we are having this dialog.
    It is a question which many Europeans have doubted, this 
missile defense business, because they feared a confrontation, 
and they are closer to Russia, and to the extent their anxiety 
has lifted somewhat, they have moved off into other topics like 
global warming, or the biological convention, or other areas, 
or trade. These are all very difficult problems for the 
Europeans.
    I do not separate missile defense from the rest of it, but 
I would say we have a number of issues there, and the most 
overwhelming one, which we all hope to be delivered from, is 
sort of a worldwide recession, which the Europeans are going 
down faster than our economy.
    Now, we may be recovering, and hopefully help scoop them 
out of the difficulty, but that will become more apparent as we 
proceed in the months ahead.
    I just want to thank each one of the panelists. This is a 
delight, to have each of you and to share your wisdom and have 
a chance to ask you questions and hear your responses to the 
chairman, and I think this has been a very, very instructive 
and helpful panel.
    I thank you, Mr. Chairman.
    Dr. Perry. Senator Lugar, can I make one comment on the 
question you asked earlier. You asked a question about the cost 
of the system.
    Senator Lugar. Yes.
    Dr. Perry. As the general testified this morning, the 
architecture is not yet determined, and so it is impossible to 
come up with a definitive cost, but he has also said the 
administration has testified on other occasions they are going 
for a layered system, and if I interpret that to mean a fully 
layered system, that means a system that would operate in the 
boost-phase and the midcourse and terminal, I think is what is 
ordinarily understood by that, so let me comment on that 
system, or that concept of a system.
    The ground-based part of that system, which is the 
midcourse, we already have a fairly confident estimates from 
the CBO, among others, which suggested a $60-billion cost. That 
is for the production, deployment, and, I understand, 15 years 
of operations, so if you take that $60 billion as a reasonable 
figure for the ground-based, we then have to account for the 
boost-phase system and the terminal system.
    The boost-phase system, I take my colleague Jim Woolsey's 
enthusiasm for sea-based boost-phase, but he makes an important 
exception. He says, unfortunately, it will not take care of 
Iran. I think a boost-phase system that covers all threats of 
concern must be in space. Indeed, Mr. Woolsey has issued a 
paper, which is the definitive paper, I think, on that subject.
    A space-based system is going to be much more expensive, as 
Dr. Cornwall has already commented. In addition, there is a 
consideration of the terminal system. Now, a terminal system 
almost by definition has a relatively small footprint. That is, 
one needs a terminal system at each urban area that you are 
trying to defend, and therefore there are going to be a lot of 
them, and therefore that is going to be very expensive. We are 
talking about many tens of billions of dollars for a boost-
phase system, many tens of billions of dollars for a terminal 
system. In short, a fully layered system is gong to cost two or 
three times as much as the ground-based system that is being 
considered.
    So you are not talking about tens of billions of dollars 
for the overall system, you are talking about a system well in 
excess of $100 billion, maybe well in excess of $200 billion.
    I do not offer this as a considered cost estimate, because 
we do not have the system defined yet, but we can work our way 
up from the ground-based system and say a fully layered system 
is going to be very much more expensive than that.
    Senator Lugar. Would that be over the same 10 or 15-year 
period?
    Dr. Perry. Yes. I have tried to use the deployment and 
maybe 15 years of operation.
    Senator Lugar. So $10 to $12 billion a year, on average.
    Mr. Smith. Mr. Chairman, may I say a word about the cost, 
if I may, sir? It seems to me we are going about this in an 
additive way, and I would just like to say, first of all we do 
not know what the architecture is going to be. Second, if 
layering means several different systems, then I think there 
are several ways of doing layering, but the ground-based system 
that this administration inherited is probably the most 
expensive way you can go, and that is exactly why they are 
pulling back from it.
    The Clinton administration's plan was to deploy 100 
interceptors in Alaska and an X-band radar in Shemya. If you 
have noticed, at least the noises I am hearing coming out of 
the Pentagon, they are talking maybe a down payment of five or 
six interceptors because they want to get something deployed. I 
think the radar at Shemya is very, very much still an iffy 
proposition. So, I do not think it is $60 billion plus whatever 
else you want to do.
    If you go about developing a sea-based system, you inherit 
all of the Aegis technology, you inherit the entire fleet that 
we have already decided to build here, and you go about it a 
completely different way. If you go about it in a more 
efficient way--for instance, the way we did the Polaris 
program. You slice off little bits at a time and you do it--I 
think our third submarine was the first time we built a full-up 
ballistic missile submarine as a Polaris. We experimented with 
other kinds of submarines, and it seems to me that is what the 
Aegis program does for you, so I would not take $60 billion and 
start adding from there.
    Senator Lugar. You are down to sort of single-digit 
billions a year, then?
    Mr. Smith. As General Kadish said this morning, it is 
certainly going to cost money.
    The Chairman. I will bet you my life on that, and I guess 
in a sense we are betting our lives on this.
    My friend, it is kind of fascinating that we are only being 
additive when it comes to missile defense systems, but if I 
said, you know, we really need a new medical health care system 
in the United States, I would find some of the same people 
becoming additive very rapidly. They carry around their 
calculators.
    But, Senator Kerry.
    Senator Kerry. Mr. Chairman, I apologize for not being 
here, but I did watch some of it in my office and I appreciate 
enormously the expertise and the commitment of everybody at 
this table, and I particularly thank Secretary Perry for his 
initiative, and Mr. Cutler for your participation on the 
efforts with Russia to secure these weapons.
    I would like to pursue some questions, but I do not want to 
delay things, it has been a long afternoon, but I appreciate 
the participation very much. Thank you.
    The Chairman. Gentlemen, again I thank you very much. I 
have some questions I would like to submit in writing so we do 
not keep you, so we can get to the third panel.
    I appreciate very much each of your testimony, and like all 
things it is going to get down to priorities, how much money we 
are willing to spend on our needs in terms of the threats, and 
I appreciate your time and your effort.
    Thank you very much.
    Our next panel will be Hon. John B. Rhinelander, senior 
counsel, Shaw Pittman, Washington, DC, and actually Mr. 
Schneider \1\ for scheduling reasons had to just submit his 
statement, and Professor Robert Turner, associate director, 
Center for National Security Law, University of Virginia Law 
School, Charlottesville, Virginia.
---------------------------------------------------------------------------
    \1\ Due to scheduling reasons Mr. Schneider was unable to stay and 
participate with the third panel. His prepared statement appears on 
page 164.
---------------------------------------------------------------------------
    Gentlemen, thank you very much for your time, effort, and 
not the least of which, your patience in sticking around for so 
long. Why don't we begin with you, Mr. Rhinelander, and proceed 
as you would like.

  STATEMENT OF HON. JOHN B. RHINELANDER, SENIOR COUNSEL, SHAW 
                    PITTMAN, WASHINGTON, DC

    Mr. Rhinelander. Mr. Chairman, I have a statement that I 
would like to submit for the record. I would like to start off 
by making six quick observations on what you have heard so far 
today, and then focus my comments on the legal questions, which 
I think is really why you wanted me here.
    Somebody today made a statement that the whole missile 
defense effort started with President Carter. That is just 
wrong. It began under Truman after World War II, it got up 
steam under Eisenhower, and it has been going ever since. I 
spent my 2 years in the army in the 1950's with the Nike 
programs. We had Nike sites at 145 sites across the country 
with both high explosive as well as nuclear weapons for 15 
years. The U.S. finally de-activated them because they were not 
effective. The U.S. had the Safeguard system up and running for 
4 months. Secretary Rumsfeld, when he was first on the job, 
shut it down in 1976.
    The U.S. has been pursuing homeland defense for almost 50 
years. By my count this is the fifth, sixth, or seventh effort 
to try to defend ourselves against the nuclear threat. It is 
not just a Johnny-come-lately matter.
    A lot of talk, of course, is about the ABM Treaty. It is 
not sacrosanct, it never was, but I do not think we should 
abandon it before we have something better. I have not heard 
anything yet to date suggesting we have anything better now. 
The technology is not ready.
    Phil Coyle has not testified before this committee, but he 
has testified before the Armed Services Committee. His best 
estimate is we are at least 10 years away before we know 
whether any of these systems will be effective. He has also 
testified and written op ed pieces and otherwise that the 
treaty is not the problem. The problem is the budget and the 
technology itself.
    In fact, he and I are working on a joint article if we can 
ever get together. He is on his way, moving to California, and 
I am up in Massachusetts, or at least I hope to be. The treaty 
is not the problem we are dealing with. The problem is that 
technology is not up to the task right now.
    One comment on the last panel you heard, which I thought 
was most interesting. Bill Perry brings real wisdom to the 
scene, priorities, and his comments were particularly relevant. 
I would also like to point out that your former colleague, Sam 
Nunn, as far as I am concerned, has it right when he says the 
rogue state ICBM threat is probably the least likely of the 
threats.
    It does not mean we should not do anything in ballistic 
missile defense, but rogue states are the least likely of the 
threats. The worst, most difficult problem we have to deal 
with, as Bill Perry and Lloyd Cutler were both talking about, 
is the Russian situation. It is their strategic weapons, their 
lack of early warning, and the immense amount of fissile 
material which is in the country. This, I have always said, is 
the first, second, and third concern we should be dealing with. 
I do not know how you deal with it unless you deal with it 
cooperatively, and that is cooperatively across the board.
    It is not going to be easy, even under the best of 
circumstances. If we are putting our fingers in Russian eyes 
and pulling out of the ABM Treaty that they believe is 
fundamentally important, I do not know how we are going to deal 
with what I think is the most important issue of all.
    Now, let me turn to my statement. I have five points in my 
statement. I am going to really skip quickly over the first 
three of them. One on the ABM treaty, and outlining what it 
does. I do have a provision in there pointing out that article 
V, banning the development, testing, and deployment of mobile 
systems does not block research. It does not block laboratory 
work. Its ban begins only when you get to the field-testing 
stage. There is leeway under the present treaty, 
notwithstanding some of the comments which have been made.
    One of my great fears, which is emphasized in the 
statement, is that we may withdraw from the ABM Treaty. We have 
the right to withdraw--President Bush could give 6 months' 
notice and the United States can withdraw. If we do that, START 
II will not come into effect. Russia will withdraw from START 
I, and then I think the NPT is really threatened. The first 
recommendation I make at the end of my statement is that you 
ought to get the best report you can get, an assessment as to 
what the likely consequences are going to be if we do withdraw.
    On the Russian side, I do not think we know what their 
reaction will be. There is not going to be an arms race in 
terms of a buildup, but they may well keep MIRV's on the SS-
18's as long as they can. They may MIRV the Topol. But I 
believe we need to know what other countries are likely to do, 
because the NPT regime and the ABM Treaty are the two most 
important ones. If the ABM Treaty goes down, the NPT regime 
may, in fact, go down, too. It will not be overnight. It will 
be slow.
    The Chairman. Isn't that one of the objectives of this 
administration?
    Mr. Rhinelander. No, just the opposite. I do not think they 
have thought it through. They talk in terms of their the strong 
nonproliferation interest, but the fact is, you cannot call one 
treaty we do not like a relic and then say, but we want to 
preserve the other one. You know, these are linked together. 
The NPT has obligations on the nuclear weapons states. If we 
begin to abandon treaties, I think it is going to make it much 
more difficult to keep others in line, as I think we should.
    Now, let me turn to the ABM Treaty and what this 
administration is proposing. I am not quite sure what they are 
proposing, because many of the details are not out yet, but let 
me turn and address three different facets of it in my 
statement.
    The first is this Alaska test facility. I had great trouble 
wrestling with this when I was at home in Massachusetts, 
because I was not quite sure what was involved.
    The first comment I would make, though, is that there is no 
concern under the ABM Treaty with where the targets are 
launched from. They are presently launched from Vandenberg. 
They could be launched from Kodiak. They could be launched from 
an airplane. They could be launched from a submarine at sea. 
That is of no concern under the ABM Treaty whatsoever.
    What the treaty is concerned about is where the ABM 
components, the test components, are located. They are now 
located at Kwajalein. I do not know what we have at White 
Sands, although that is a second test range under the treaty, 
and specifically under article IV of the treaty. Under the 1978 
agreed statement the United States can simply notify Russia 
that we intend to establish a third test range. It does not 
have to come back to the Senate as an amendment to the treaty.
    Now, Russia can challenge it, if it is not consistent with 
article I of the treaty, but the United States can go forward.
    It looks to me like the center of a new test range, if we 
do test from Alaska, will be the launchers at Kodiak. Those 
would be the launchers that would be used. As I understand it, 
there would be two launchers there. My problem in looking at 
this is that I did not know where the ABM radar was that would 
be used in relation to those launchers. You do not launch these 
things without tracking the threat on the way in and then 
tracking the missile on the way out. The Shemya radar cannot do 
it.
    I originally thought it would have the scope maybe 240-
degree arc to do it, but the Shemya radar is only pointed 
toward Russia. It has a narrow beam, so it cannot do it. As I 
understand it, the thinking in the Pentagon is that the 
launchers in Kodiak would be married up to a radar which is 
presently down in Kwajalein, and they would be used jointly 
against targets which would be fired from Vandenberg.
    You raised the question this morning, and maybe this 
afternoon, what would you gain from it, and that is a question 
which I am not technically qualified to judge. Based on talking 
to other people, not much, probably. Phil Coyle thinks there is 
an advantage of looking and firing at target missiles coming 
from different directions. You could launch a target missile 
from Kodiak and shoot it down from Kwajalein. Putting the 
intercept launchers up in Kodiak does not seem to add much to 
the equation, but it could be done under the treaty.
    Fort Greely, where we plan to put five launchers, really 
has nothing to do with a legitimate test range. Shemya, by the 
way, has a very interesting past. I do not need to get into it 
in detail now, but originally it was to be an ABM radar. We 
constructed it on Shemya after we could only have Grand Forks 
in defense of our silos. We relabeled the Shemya radar as there 
to track Soviet test flights, so it has got a peculiar history 
of its own.
    But we are never going to fire any test missiles we have at 
Fort Greely for safety reasons.
    The Chairman. Remember when Senator Lugar said we have 
trouble shutting down any bases, so why do you suggest this is 
a rationale for not shutting the base down?
    Mr. Rhinelander. In fact, the Russians could and already 
have objected and said this is not legitimate. On the other 
hand, as I indicated in my statement, if they are looking for a 
way out, or a way of accommodation with the administration, 
they could probably hold their nose and swallow, and accept 
Greely and Kodiak and Shemya, if that is all we were going to 
do.
    If that were done, it would probably be less threatening to 
China than anything the Clinton administration was taking 
about. Rather than 100 missiles up in Alaska, we would have 
five at Greely and two at Kodiak.
    But Russia's reaction is going to be the key to that, 
because Greely cannot, in my judgment, be legally justified as 
part of a test range. A test range is to flight test missiles, 
and we are not going to test them from there.
    Now, looking at other things they plan to do over the near 
term, while it is very hard to determine, it looks like at 
least one of their programs is to use an Aegis destroyer to 
track a test ICBM from Vandenberg on its way toward Kwajalein. 
It seems to me that is gratuitous. It is the kind of thing 
which we were concerned about at the time we negotiated the ABM 
Treaty. There is a long history of this, and we finally got 
their agreement not to turn on the ABM systems and SAM systems, 
or theater ballistic missiles, at the same time. It seems to me 
that would be what would be involved in this test.
    From the perspective of developing an effective national 
missile defense program, it seems to me that is totally 
unnecessary. The Aegis system itself is not yet proven against 
the TMD threat. This is one test that I think is certainly not 
necessary. One of my recommendations is some kind of cost-
benefit analysis be done, and this one does not rank very 
highly, at least as far as I can see it right now.
    Now, turning to research, development and testing, I would 
stress the point that there is no limit whatsoever on the 
number of tests we can conduct on systems in a fixed land-based 
mode. We can keep firing target missiles from Vandenberg, as we 
have been doing recently, down to Kwajalein, and there are no 
limits. Much of what we need to test can and should be done in 
a fixed land-based mode. Phil Coyle and others have made that 
point already, so that is not a concern.
    Where the concern arises for people who are looking to get 
out of the treaty is article V, which prohibits the 
development, testing, and deployment of the mobile-type 
systems, but again, based on Phil Coyle's analysis, we are 
years and years away from when that is likely to come up.
    Now, that, obviously, is based on what has been made public 
to date. Jim Woolsey a moment ago was saying that he was 
briefed by General Kadish on a new sea-based scheme of putting 
Brilliant Pebbles--small interceptors--on the Aegis ships. I 
simply do not know. I have not heard of that. I do not know 
where that stands, but based on the information I have, we are 
still many years away from where the article V prohibition of 
development and testing would impact on the programs we have 
going.
    In terms of deployment, we have nothing to deploy right 
now. I would commend the Bush administration. As I understand 
what they are saying right now--they are not putting it this 
way, but they are basically saying--you know, Clinton was 
talking about deploying a system in Alaska, then the second 
phase was going to be in North Dakota. The Bush administration 
is talking about that, because they recognize that the systems 
are not ready for deployment.
    The fact that the ABM Treaty permits only a single 
deployment area, which is in North Dakota, is really largely 
irrelevant currently, because we do not know what we want to 
do. I do not believe that the ABM Treaty should be viewed as a 
major blockage now in terms of what we want to do if we are 
soundly pursuing programs to buildup step by step and test out 
whether or not we can effectively develop and then build a 
system.
    Turning to my conclusions, I have three. The first I 
mentioned earlier. I think the committee ought to request a 
detailed report from the executive on the consequences of the 
U.S. withdrawal from the ABM Treaty. What are other states 
likely to do? What is Russia likely to do? What is China likely 
to do?
    The 1999 IAEA annual report listed 71 states with nuclear 
activities. Some of those could go nuclear very quickly. I 
think you need, as best as we can, an assessment, and it may be 
classified, of what are the likely consequences of doing this 
step. No state has withdrawn from an arms control agreement 
since World War II.
    The first treaty that had the clause we are talking about 
now, the withdrawal clause, was the 1963 Limited Test Ban 
Treaty, and it has been in every treaty since that time. North 
Korea is the only country that gave notice of withdrawal. They 
did that in 1993, and they suspended the notice the day before 
it became effective. We need to know, better than we do right 
now, is Humpty Dumpty likely to fall, as I say in my statement, 
or not?
    I do not know, but I am fearful that once we pull the plug 
on the ABM Treaty, if we do pull the plug, the whole legal 
regime which has been built up over 40 or 50 years is going to 
fall apart, to our detriment.
    Second, I think you need a cost-benefit analysis in terms 
of the various programs which the executive is going to propose 
for funding. When will the proposed activities come up, bump up 
against, or whatever is the current phrase in vogue now, 
against the treaty, and what's the importance of that activity. 
Some of these activities, it seems to me, are gratuitous in 
terms of more aimed at the treaty than they are in developing 
the technology. Finally, what kind of agreement or 
understanding would we need with the Russians to let that go 
on.
    I am personally convinced, having talked with the Russians 
for a number of years, that if we are serious in terms of 
reasonable changes to the ABM Treaty, they will sit down and 
talk to us about it, then they will probably be accommodating. 
At the moment, I think they have two questions in their minds. 
First, are we even going to sit down and talk to them about 
changes, or are we jut going to blow by them?
    Second, if we do, are we simply going to say, strike 
everything between the preamble and the signature line, and 
then we will keep the ABM Treaty in force. Of course that is 
not a treaty. I think there is a huge question mark in Moscow, 
but we may know more over the next week.
    I would close by saying that the announcement we had on, I 
guess it was Sunday out of Genoa, of the consultations, is not 
the first time this has happened in this field. I remind you 
back when Nixon was President that we had an understanding in 
May 1971. We then spent many months arguing what we had agreed 
upon in terms of priorities and scope of that general 
understanding.
    Many of the things that have come up subsequently have not 
led to any agreements at all. I think it is encouraging, 
personally, that the U.S. and Russia are now going to sit down 
and talk about offense and defense together but nobody should 
underestimate how difficult it is going to be, and how 
different the positions are on both sides, at least at the 
moment.
    Thank you.
    [The prepared statement of Mr. Rhinelander follows:]

             Prepared Statement of Hon. John B. Rhinelander

    Mr. Chairman, Members of the Committee:
    You have asked our panel to address the legal and technical issues 
associated with missile defense. While my military service was in the 
missile defense field in the 1950s, I will focus on the legal issues.
    By way of background, I was a law clerk to Justice John Marshall 
Harlan. My federal service included deputy legal adviser at the 
Department of State, and legal adviser to the SALT I delegation that 
negotiated the ABM Treaty and the five-year Interim Agreement on 
Strategic Offensive Arms. I left federal service at the end of the Ford 
Administration. I have written and taught in the field of nuclear arms 
control since. I am currently Senior Counsel at Shaw Pittman and Vice 
Chairman of the Lawyers Alliance for World Security (LAWS).
    I would like to begin by welcoming the announcement by Presidents 
Bush and Putin over the weekend of consultations linking deep cuts in 
strategic nuclear arsenals with missile defense systems. One note of 
caution, however, is in order. History teaches us that the announcement 
to consult over these issues does not mean that agreement will be easy. 
There are sure to be difficult negotiations, particularly with respect 
to priority and linkage of offensive reductions and missile defenses. 
The most difficult will be whether the ABM Treaty will be amended, as I 
would strongly recommend, or abandoned. The U.S. is likely to couple 
offensive reductions with replacement of the ABM Treaty by a non-
legally binding agreement. The Russians are likely to insist on limited 
amendments to the ABM Treaty and its continuation in force as a 
prerequisite for reductions that include a ban on MIRV'd ICBMs. 
Notwithstanding the different approaches, this weekend's announcement 
represents important progress.

                       ABM TREATY, START AND NPT

A. The ABM Treaty
    In 1972, the ABM Treaty halted the defensive ABM competition and 
was a predicate for the limitations placed on and then the reductions 
in strategic offensive weapons through SALT I (1972), SALT II (1979), 
START I (1991), START II (1993) and the outline for START III (1997). 
The ABM Treaty has and continues to provide predictability in the 
strategic environment. While the political relationship between the 
U.S. and Russia has changed substantially, the nuclear postures of the 
two countries have remained largely unchanged with thousands of nuclear 
weapons remaining on alert. Under these circumstances, it is still 
preferable to continue the ABM Treaty in force (amended as necessary), 
maintain the predictability required to enable Russian political and 
military leaders to avoid worst-case assumptions, and to work with the 
U.S. in an expanded cooperative threat reduction program.
    The ABM Treaty is a very short document of less than ten pages. My 
initial drafting effort in 1971, working with the SALT I delegates, 
took about two months. The Treaty was signed by President Nixon less 
than a year after a U.S. draft was first tabled in July 1971.
    In brief, the ABM Treaty as amended in 1974:

          limits the U.S. and Russia \1\ to one deployment site each, 
        the Russian one being around Moscow and the U.S. in North 
        Dakota;
---------------------------------------------------------------------------
    \1\ After the demise of the Soviet Union in December 1991, former 
President Bush determined that Russia took its place in all 
international treaties. There are two schools of thought as to whether 
the necessary legal steps have been taken for Belarus, Ukraine and 
Kazakhstan to be current parties, but there is no legitimate argument 
in opposition to Russia's status as an ABM Treaty Party. For example, 
there are now twelve parties in addition to the U.S. to the formerly 
bilateral INF Treaty.

          permits unlimited flight testing of fixed land-based ABM 
        systems and components at identified ABM test ranges, but 
        prohibits the advanced development and flight testing of all 
        mobile type ABMs (sea-based, air-based, space-based and mobile 
---------------------------------------------------------------------------
        land-based);

          prohibits giving ABM ``capability'' to non-ABM systems and 
        ``testing them in an ABM mode;'' and

          provides for verification by national technical means (NTM), 
        establishes the Standing Consultative Commission (SCC) to 
        promote implementation, and provides for both amendments and 
        for withdrawal on six months' notice.

    Because of the likely importance of the testing issue, a few words 
on the scope of Article V, which bans the development, testing and 
deployment of mobile-type ABM components, are in order. First, nothing 
in the ABM Treaty prevents research of or laboratory work on anything. 
Second, the Article V prohibitions on development ``start at that point 
of the development process where field testing is initiated on either a 
prototype or breadboard model. . . . [T]he prohibition on `development' 
applies to activities involved after a component moves from the 
laboratory development and testing stage to the field testing stage, 
wherever performed.'' \2\
---------------------------------------------------------------------------
    \2\ The Military Implication of the ABM Treaty (92d Cong., 2d 
Sess., 1972, p. 377).
---------------------------------------------------------------------------
    The Treaty has now been in effect for twenty-nine years. There is 
an extensive history, largely classified, on the unilateral as well as 
agreed positions taken by the parties on many of the issues relevant 
today. This Committee may want to be briefed on this extensive record. 
The Treaty itself was amended in 1974 and 1997. The latter--the 
Demarcation Agreement--has been approved by Russia but not the U.S.

B. START
    The START I and START II treaties were both bilateral when signed 
by former President Bush. START I began the process of reducing 
arsenals of strategic offensive arms. It entered into force, in amended 
form with five parties, after diplomatic heroics of Secretary Baker and 
the Clinton Administration that persuaded Ukraine, Belarus and 
Kazakhstan to return all nuclear warheads to Russia and to join the NPT 
as non-nuclear weapon states.
    START II is not yet in effect. The Senate gave its consent to that 
treaty as signed, but Russia approved START II as amended by a 1997 
Protocol, and the Senate has not yet received or given its consent to 
the Protocol. START II reflects the achievement of the long-sought U.S. 
goal of de-MIRVing Soviet (now Russian) ICBMs. Thousands of Russian 
ICBM warheads continue to provide a thirty-minute threat at any moment 
in time to the existence of the U.S. There is no effective defense 
against ICBMs and no self-destruct device on any deployed ICBM or SLBM.

C. The Nuclear Non-Proliferation Treaty (NPT)
    The NPT was signed in 1968 under President Johnson, ratified in 
1969 under President Nixon, and entered into force in March 1970. The 
NPT and ABM Treaty are the twin pillars of the complex, post-World War 
II arms control regimes that encompass nuclear, chemical, biological, 
conventional arms, and their delivery systems. Nevertheless, Mac Bundy 
admonished ``never for one moment to forget how different'' nuclear 
weapons are.
    There are now 187 parties to the NPT, five of which are nuclear 
weapon states--the U.S., Russia, the UK, France and China. In addition 
to those five NWSs, there are three nuclear-weapon-capable states not 
parties to the NPT--Israel, India and Pakistan. The 1999 IAEA Annual 
Report lists 71 states with ``significant nuclear activities.''
    The two fundamental objectives in the NPT from the perspective of 
non-nuclear weapon states (NNWSs) are: (1) that other NNWSs not become 
NWSs, and (2) that the NWSs pursue their Article VI obligation to 
pursue in good faith ``effective measures'' relating to the cessation 
of the nuclear arms race directed toward the eventual elimination of 
nuclear weapons.
    SALT I, SALT II, START I and START II, as well as the outline for 
START III adopted in 1997, reflect steps consistent with the Article VI 
obligation. The process has been slow and progress has been made. It is 
now stalled and may go into reverse unless the consultations announced 
this weekend produce positive results.
    In this context, it is critically important not only to continue 
the strategic nuclear arms reduction process, but also to remove from 
high-alert status those weapons that remain. And, just as importantly, 
Congress should substantially increase the funding available to the 
Nunn-Lugar programs and urge the Executive to work with Russia across 
the board to remove the direct and proliferation dangers from its 
nuclear weapons and materials. These objectives cannot be achieved if 
the U.S. unilaterally renounces the ABM Treaty.

                            COLD WAR RELICS

    Members of the current Bush Administration have referred to the ABM 
Treaty as a Cold War relic. The same criticism, wrongly in my judgment, 
could be directed at the collective efforts of eight former Republican 
and Democratic Presidents, from Eisenhower through former President 
Bush. This would include:

          The Limited Test Ban Treaty of 1963

          The Latin American Nuclear Weapon Free Zone Treaty of 1967

          The Outer Space Treaty of 1967

          The NPT of 1968

          The revitalization of the Geneva Protocol of 1925 and the 
        unilateral renunciation of biological weapons and toxins, both 
        in 1970

          The Biological Weapons Convention of 1972

          SALT I of 1972

          SALT II of 1979

          The INF Treaty of 1987

          START I of 1991

          START II of 1993

          The Chemical Weapons Convention of 1993

    This list excludes the CTBT of 1996, which NPT parties have 
identified as the next critical step. The Senate, of course, did not 
give its consent to this Treaty in 1999, but it remains before the 
Senate.
    President Bush has the right, under the U.S. Constitution, to 
withdraw the U.S. from the ABM Treaty upon a six-months notice as 
provided in its Article XV. If he does so, START II will not enter into 
effect because of a condition set by the Duma, and Russia has announced 
it will withdraw from START I.

                    HUMPTY DUMPTY IN THE NUCLEAR AGE

    The NPT was signed four years before the ABM Treaty. Some might say 
it is even more of a relic of the Cold War. A number of states that 
were nuclear capable--including South Korea, Taiwan, Argentina, Brazil 
and South Africa--renounced the pursuit of nuclear weapons, but three 
did not. Israel, India and Pakistan are not parties to the NPT. They 
possess nuclear weapons and the means to deliver them at short ranges 
in two highly unstable regions of the world.
    No state has yet withdrawn from the NPT. In 1993 North Korea 
suspended its three-months notice the day before it was to take effect, 
but there are many states--starting with Japan, Taiwan, South Korea and 
Indonesia--that could become nuclear weapons states, some very quickly. 
They, and others, are in addition to the familiar rogue states of North 
Korea, Iran, Iraq, and Libya.
    The U.S., rightly, has been concerned with compliance by the other 
states with their legal obligations under the network of post-World War 
II arms control treaties. This legal concern would vanish if ``states 
of concern'' and others were to follow the threatened U.S. lead to 
withdraw before violating. Unfortunately, neither the ABM Treaty, nor 
START II nor the NPT could be negotiable in the future under 
foreseeable political conditions. Thus, the withdrawal of the U.S. from 
the ABM Treaty could lead to the collapse of the larger treaty regime.
    This could become the story of Humpty Dumpty in the nuclear age. 
First the ABM Treaty disappears, then START, then the NPT, and finally 
the rest of the legal edifice.
    Since the pieces could not be put back together again, the security 
of the United States and the rest of the world would be sharply 
diminished. Indeed, with the specter of dozens of nuclear weapon states 
there would be the threat that many future conflicts, no matter how 
small, might go nuclear.

                  MISSILE DEFENSE UNDER THE ABM TREATY

    The details of the Bush Administration's NMD/TMD proposals are 
still foggy. Some voices insist that U.S. programs will not be confined 
to the present or even an amended ABM Treaty, and that DOD should be 
freed of all treaty constraints. That course would be neither wise nor 
necessary.

                      THE ALASKA ``TEST FACILITY''

    The ABM Treaty is not concerned with the sites from which target 
missiles are fired. The fact that target missiles may be fired from 
Alaska, Kwajalein or Vandenberg is not Treaty significant. As noted in 
Common Understanding B, the ABM Treaty is concerned with ``the area 
within which ABM components are located for test purposes.''
    One element of the Administration's BMD program is to establish a 
third ABM test range focused on Alaska, which would be in addition to 
those at White Sands and Kwajalein. A third test range is legally 
permissible under Article IV of the Treaty if the total number of ABM 
launchers at all U.S. test ranges does not exceed 15 and if the 
additional test range is consistent with the rest of the Treaty, 
particularly Article I. It would only require, pursuant to paragraph 5 
of the 1978 Agreed Statement, notice through the SCC of the location of 
the new range.
    The two ABM launcher silos to be constructed at Kodiak Island for 
actual interceptor test launches would apparently be used in 
conjunction with the X-band radar on Kwajalein and target missiles 
launched from Vandenberg. This new test range coupling Kodiak and 
Kwajalein should not present any significant legal issues, standing 
alone.
    A greater problem lies with the Bush Administration's proposal to 
combine this test facility with an emergency BMD capability in Alaska. 
The five interceptor launchers to be deployed at Fort Greely and the 
updates to the Shemya radar appear to have no test range functions. The 
five launchers would never be used for interceptor test flights because 
of range safety issues, and the Shemya Island radar has a fairly narrow 
fan (not the 2400 coverage of some radars) and is oriented northwest 
toward Russia. The Shemya radar provides no coverage whatsoever for a 
Kodiak-Kwajalein test range. Therefore, Fort Greely and the Shemya 
radar appear to be a new deployment site, requiring amendments to 
Articles I and III of the ABM Treaty.
    Nevertheless, Russia could decide to acquiesce to including Fort 
Greely and Shemya Island as part of a new Alaska-Kwajalein ABM test 
range, provided reassurances and confidence-building measures are 
given. China, too, could decide that this ``test facility'' would not 
threaten its minimum deterrent, or at least would do so to much less of 
a degree than the Clinton scheme for Alaska.

                   RESEARCH, DEVELOPMENT AND TESTING

    There are no limits on the testing of fixed land-based ABM systems 
or components from agreed ABM test ranges. Phillip Coyle, in his July 
19th testimony before the Senate Armed Services, has suggested that the 
U.S. will not know whether it can develop an effective ABM/NMD system 
with only limited capability for ten years or more, and that testing of 
components in a fixed land-based mode should suffice during that 
period.
    Nevertheless, the Bush Administration is promoting at least two 
types of test programs that raise Treaty questions. The first is to 
turn on a SAM/TMID Aegis radar and track an incoming target ICBM during 
a test, perhaps as early as February 2002. This appears inconsistent 
with the ``testing in an ABM mode'' prohibition in Article VI, with 
Unilateral Statement B made by the U.S. delegation during SALT I, and 
with the 1978 Agreed Statement. All of these statements stress the 
persistent and longstanding U.S. concerns to keep separate any test 
involving ABMs from SAMs/TMDs. The proposed U.S. test involving an 
Aegis radar appears to be part of a deliberate effort to violate the 
Treaty without measurably advancing U.S. security. Aegis is not yet 
proven out in a TMD mode.
    The second program involves advanced development and then testing 
of not yet specified sea-based, air-based and space-based ABM 
components (e.g., air-based and sea-based boost-phase interceptors). 
Article V prohibits these activities, but several observations are in 
order.
    Based on Phillip Coyle's analysis, the U.S. is years away from an 
effective sea-based boost-phase capability, which needs both an 
entirely new, high acceleration interceptor and a more capable ship-
based radar. Therefore, any near-term sea-based testing efforts appear 
to be scarecrow variants, with little expectation of early 
effectiveness. Like SAM/TMD testing in an ABM mode, they appear to be 
efforts to achieve early violations of the Treaty without advancing 
effective security.
    When and if the time comes, the U.S. could propose amendments to 
Article V permitting the advanced development and flight testing (but 
not deployment) of sea-based and air-based ABM components. A limited 
amendment such as this should more than suffice for a realistic five to 
ten year RDT&E program.
    An amendment could also provide for deployment of space-based 
sensors such as SBIRS-Low, but not kill vehicles. This would, 
necessarily, raise the question of netting ABM and TMD capabilities and 
raise substantial policy and Treaty issues.
    Any amendments to the Treaty should be coupled with confidence-
building measures--such as exchanges of data, notifications of tests, 
onsite inspections, etc. This would supplement the NTM verification 
basis of the current Treaty.

                    DEPLOYMENT OF EFFECTIVE DEFENSE

    There are no present prospects for effective ABM/NMD within a 
decade, based on Phillip Coyle's analysis, with years of development 
and testing required before a reasonable judgement can be made as to 
feasibility. Further, current upper-tier TMD systems have not yet 
proven out in realistic tests and the time frame for effective TMD is 
also uncertain.
    Nevertheless, if and when the U.S. is ready to proceed to 
deployment of an effective BMD--in excess of or different from that now 
permitted in North Dakota and the possible launchers at Fort Greely 
which might be part of a possible ``test facility''--there would be 
time enough to negotiate changes to the ABM Treaty.

                               THE FUTURE

    The rhetoric of the Bush Administration seems to ignore the 
legislative power and role of Congress under Article I of the 
Constitution to raise, support and maintain U.S. military forces. The 
President can, of course, propose legislation, but Congress must decide 
and act, and its conditions become part of any law.
    My recommendations related to the ABM Treaty are three-fold:
    First, this Committee should request a detailed report on the 
probable arms control and security consequences of U.S. withdrawal from 
the ABM Treaty, including actions by Russia, China and the NNWS parties 
to the NPT which have ``significant nuclear activities''.
    Second, this Committee should demand cost-benefit analyses from the 
Executive and from outside experts such as Phillip Coyle on: (a) when 
proposed NMD/TMD activities might violate the ABM Treaty, (b) the 
importance of the activity in developing an effective NMD, and (c) the 
type of agreement or understanding with Russia that would eliminate the 
problem.
    Third, Congress should reject the radical and technologically 
unproven BMD proposals of the Bush Administration and agree to fund, 
over the next several years, only those program elements consistent 
with the ABM Treaty, as currently in effect or as amended, as it did 
under Senator Nunn's leadership in 1987-88. Congress should not fund 
programs and activities that would violate the Treaty.
    In conclusion, Congress should work with the Executive to fund 
reasonable and cost-effective BMD programs, starting with TMDs which 
are more likely to be successful than NMD. Congress should closely 
monitor technical developments and on-going technical assessments as 
well as exchanges and negotiations with allies, Russia, China and 
others, and take them into account in the annual appropriation 
decisions for BMD programs.

    The Chairman. Doctor Turner.

 STATEMENT OF DR. ROBERT F. TURNER, ASSOCIATE DIRECTOR, CENTER 
  FOR NATIONAL SECURITY LAW, UNIVERSITY OF VIRGINIA SCHOOL OF 
                    LAW, CHARLOTTESVILLE, VA

    Dr. Turner. Thank you, Mr. Chairman. It is a great pleasure 
to appear before this committee once again. I have a prepared 
statement which, with the committee's leave, I would propose to 
submit for the record and briefly summarize. I should emphasize 
my views are, of course, my own, and should not be attributed 
to any organization or institution with which I am affiliated.
    As I understand it, my mission is to discuss the legal 
implications of the 1972 ABM Treaty for the proposed U.S. 
national ballistic missile defense program. This involves some 
rather complex issues of both international and constitutional 
law which are addressed in much greater length in my 1999 book, 
The ABM Treaty and the Senate. I will leave two copies for the 
committee.
    My prepared statement begins with a discussion of the 
importance of respect for the rule of law as a key element of 
U.S. foreign policy. It quotes Thomas Jefferson's advice to 
James Madison that, ``It has great effect upon the opinion of 
our people and the world to have the moral right on our side.'' 
This is particularly important at our present juncture in 
history, as even a false impression that we believe that our 
military and economic power put us above the law will have 
political consequences that could encourage even our allies to 
unite against us. That is a quarrel we cannot win.
    So I believe that as we deal with this problem, we must act 
in a manner that avoids even a reasonable perception that we 
are violating our treaty or other international legal 
obligations.
    As is so often the case, we are faced with both a legal and 
a political problem. It is thus important, not only that we do 
the right thing, but that we be perceived as doing the right 
thing. Further, we must explain our behavior in such a way that 
people of goodwill can understand that our motives are pure and 
our conduct honorable, and in the present case I believe the 
political problem is more difficult than the legal one.
    We must also pay special attention to what is often called 
the Russian problem, and I note in my prepared statement this 
issue has not been handled very well in the past. A democratic 
Russia should be a natural ally of the United States, and the 
people of Russia have suffered too greatly under Communist rule 
for us not to wish them well in their quest for a better life. 
This does not mean that we have to give in to all of their 
demands, but we should treat them with honor and with the 
respect due to the largest country in the world, possessing a 
rich and impressive cultural heritage.
    With those caveats, let me turn to the key legal issues as 
I perceive them. To begin with, the International Law of State 
Succession is both complex and unsettled. However, the better 
view with respect to nondispositive or personal treaties, like 
the 1972 ABM Treaty, is that such agreements would not continue 
in force upon the demise of one of the parties, in this case, 
the Soviet Union, unless the United States and one or more of 
the emerging former Soviet republics agreed to keep it in 
force.
    The process by which States agree to continue an agreement 
in force is governed largely by their internal domestic law, in 
our case by the U.S. Constitution; and on this point there is 
so much confusion that a little digression is essential.
    When the President was granted the new Nation's Executive 
power by article II, section 1 of the Constitution, a key 
component of that power was the general control of American 
foreign relations. As Thomas Jefferson put it in April of 1790, 
``The transaction of business with foreign nations is executive 
altogether. It belongs, then, to the head of that Department, 
except as to such portions of it as are specially submitted to 
the Senate. Exceptions are to be construed strictly.''
    Jefferson's view was endorsed by Washington, Madison, and 
Chief Justice John Jay. Indeed, the previous year, Madison had 
used the same argument, pointing to the Executive power clause, 
in arguing that the Senate's negative over diplomatic 
appointments--in this case the appointment of the Secretary of 
Foreign Affairs--being an exception out of the President's 
general grant of Executive power, did not extend to give the 
Senate a voice on such issues as the dismissal of the Secretary 
of Foreign Affairs. That view was embraced not only by a 
majority of the House, but also by the U.S. Senate during its 
first session.
    Similarly, in 1793, Alexander Hamilton relied upon the 
Executive power clause in defending Washington's neutrality 
proclamation, saying in the process, ``It deserves to be 
remarked that as the participation of the Senate in the making 
of treaties'' is an exception out of the general grant of 
Executive power to the President it is to be ``construed 
strictly, and ought to be extended no further than is essential 
to [its] execution.''
    While intended to be narrowly construed, the checks or 
negatives given to the Senate and to Congress in this area were 
nevertheless important. The President may not make a treaty 
without the approval of two-thirds of the Senate, and it is 
firmly established in U.S. practice that when an existing 
treaty is altered in any substantive manner, it must be 
resubmitted to the Senate before it can be continued in force 
by the President. I do not understand this point to be in 
dispute.
    To mention but one early example from my book, following 
the War of 1812, a joint commission was established by the 
United States and Great Britain to determine the U.S.-Canadian 
boundary, as established by the 1783 Treaty of Peace that ended 
the Revolutionary War. But the commissioners were simply unable 
to identify the ``long lake'' referred to in the earlier 
treaty--this was a wilderness area--and so they decided to do 
their best to survey a clear line that would provide an 
equitable boundary for the two countries.
    In the process, they probably did not alter the territory 
of either country by more than a tiny fraction of 1 percent, 
but when Secretary of State Henry Clay learned of this effort, 
he rejected it, noting that, this was not the line described in 
the treaty, and thus it could not be implemented without 
submitting a new treaty to the Senate for its consent.
    It is in my view beyond question that any effort to 
continue the 1972 ABM Treaty with Russia--or with the four 
signatories of the 1997 Memorandum of Understanding--would 
unavoidably involve several substantive changes in the original 
terms, changes which as a matter of clear constitutional law 
would require its resubmission to the Senate for approval 
before it could enter into force.
    To mention just two examples, to keep the 1972 treaty in 
force with just Russia would exclude from coverage 
approximately 5.5 million square kilometers of territory that 
were constrained by the original treaty, an area about 50 times 
larger than the territory of Virginia. It is enough territory, 
theoretically, to deploy more than a million ABM sites that 
would have been illegal under the original treaty.
    Had the Soviets in 1972 insisted on excluding 50 or 100 
square kilometers from the treaty, I am very confident neither 
the President nor the Senate would have approved it.
    The decision to multilateralize the treaty through the MOU 
is still more substantive a change. It would change the U.S. 
vote in the Standing Consultative Commission from 50 percent to 
20 percent, giving a veto to four other countries instead of 
one over the implementation of the treaty. There is no 
precedent in American history for multilateralizing a bilateral 
treaty without the consent of the Senate.
    Thus, Mr. Chairman, I believe the 1972 ABM Treaty has not 
been continued in force as a treaty between the United States 
and either Russia or the MOU signatories. The American 
President lacked the constitutional authority to do that, and I 
believe this was understood by all of the other parties.
    However, this does not resolve our problem. The five 
signatories to the September 1997 MOU clearly understood the 
need for ratification of a new treaty, and indeed in article IX 
they provided that the MOU would not enter into force until 
ratified by the signatory states ``in accordance with the 
constitutional procedures of those states.''
    Presumably because of the clearly expressed opposition of 
the Senate to the ABM Treaty, President Clinton did not submit 
the MOU to the Senate. It has not been approved by the Senate 
or ratified by the President. It is thus not binding as 
conventional international law.
    However, there is a good-faith requirement under customary 
international law, reflected also in Article XVIII of the 
Vienna Convention on the Law of Treaties, which prohibits a 
state from defeating ``the object and purpose'' of a treaty it 
has signed until it gives notice to the other signatories it 
does not intend to proceed to ratification. In my opinion, this 
is the primary legal constraint on the development of a U.S. 
national ballistic missile defense system at this time.
    The United States has always interpreted this good-faith 
obligation not to defeat the object or purpose not as a duty to 
comply with every provision of the treaty, but merely to avoid 
any irreversible steps contrary to the treaty.
    As you know, both the Russians and the United States, 
beginning with the first Bush administration in 1992, and 
reaffirmed by the Clinton administration, took the view that 
the ABM Treaty remains in force. These diplomatic statements 
did not have the effect of actually transforming the 1972 
treaty into an agreement between the United States and Russia, 
because to have done so would have exceeded the President's 
constitutional authority.
    Under Article 46 of the Vienna Convention on the Law of 
Treaties, the United States cannot be held to any agreement 
reached ``in manifest violation of a fundamental provision of 
its internal law regarding competence to make treaties.'' 
Certainly, the Russians are aware of our constitutional 
provisions, and the fact that they provided in the MOU that it 
had to be ratified before it went into effect is further 
evidence that everyone knew how this process works.
    The behavior of both the United States and Russia strongly 
suggests that neither side was trying to deny the Senate its 
proper constitutional role. They elected to implement their 
desire to keep the treaty in force by signing a new treaty, the 
1997 MOU, which had to be ratified in accordance with 
constitutional processes. But until that is done, their 
expressed desire to keep the treaty in force has not been 
legally realized, as a treaty. We still have the same basic 
obligation because of the provision reflected in Article XVIII.
    So I think the better view is that the pronouncements of 
Presidents Bush, Clinton, and Yeltsin--and their diplomatic 
representatives--could not, and did not, have the effect of 
continuing the treaty in force. I think these statements did 
create an obligation--the same kind of good-faith obligation 
inherent in all diplomatic intercourse, very much the same as 
Article XVIII's duty not to defeat the object or purpose of a 
treaty until notice is given of an intention not to proceed to 
ratification. Thus, until the United States announces a 
decision not to pursue ratification of the MOU, I think we are 
legally bound not to defeat the object or purpose of the 1972 
treaty.
    Thus, from a purely legal standpoint, I would argue that 
President Bush or Secretary of State Powell could give formal 
notice to the other MOU signatories tomorrow morning and free 
the United States of all legal constraints related to the 1972 
ABM Treaty that might limit development and deployment of an 
effective national ballistic missile system; but let me 
emphasize the word legal in that statement.
    I submit this is not merely a legal issue. In part because 
of the statements of our own leaders, most of our citizens and 
much of the world believe that the ABM Treaty remains in force. 
Even if my legal analysis is correct, and by giving notice that 
we would not proceed to ratification of the MOU, we would be 
technically free of the obligations of the 1972 treaty, were we 
to do that, we would pay a high price, both among our own 
people and among people of goodwill around the world. It is not 
a price that we should willingly pay if there is an 
alternative, and there is.
    Mr. Chairman, to avoid even the perception that the United 
States is violating its treaty commitments and considers itself 
above the law, all the President would have to do is to include 
in his notification to the MOU signatories a 6-month delay and 
an explanation of the extraordinary events which have led us to 
conclude we must build a national ballistic missile defense 
system.
    Article XV of the ABM Treaty, as has been mentioned, 
expressly permits either side to withdraw on 6-months notice, 
and here I quote, ``if it decides that extraordinary events 
related to the subject matter of this treat have jeopardized 
its supreme interest.'' The test is subjective, but I do not 
believe that anyone could read the Rumsfeld Commission report 
and not agree that the United States faces extraordinary new 
threats to its security that were not anticipated when the 1972 
treaty was concluded.
    I do not even think it is necessary for us to take a 
position on whether the 1972 treaty remains in force or has 
lapsed. The President (or his Secretary of State) in his 
communications could simply use language like, ``therefore, 
consistent with the terms of Article XV of the ABM Treaty, upon 
the expiration of a period of 6 months from this notice, unless 
a new agreement is reached regarding this matter, the United 
States will consider itself free to act as it deems 
necessary,'' and so forth.
    As a matter of international law, I do not believe such a 
delay is essential. As a political matter, I would strongly 
advise the President to include such a delay in any such 
announcement.
    Permit me to close, Mr. Chairman, with one final point. I 
am not sure there will be any difference on this, but I want to 
emphasize the decision to give diplomatic notice to the MOU 
signatories that the United States will not proceed to 
ratification of the MOU is entirely executive in character, and 
thus is vested exclusively in the President. Neither the 
Congress nor the Senate have any role in this process. 
Summarily, the decision to give notice under Article XV of the 
ABM Treaty is exclusively executive. In my view, this is 
absolutely clear.
    Obviously, the President cannot build an ABM system without 
the approval of both Houses of Congress, because Congress 
controls the purse, raises military forces, and thus you have 
very much a full role in that process; but the interpretation, 
execution, and carrying out of treaties at the international 
level is an executive function.
    Mr. Chairman, that concludes my remarks. I would be happy 
to answer questions.
    [The prepared statement of Dr. Turner follows:]

            Prepared Statement of Dr. Robert F. Turner, SJD

    Mr. Chairman, it is an honor to appear once again before this 
distinguished committee. My mission this morning, I gather, is to 
discuss the legal status of the 1972 Anti-Ballistic Missile Treaty and 
its implications for the proposed national ballistic missile defense 
program. Before doing so, however, I would like to make a few brief 
comments about some contextual issues and to emphasize that my views 
are personal and should not be ascribed to my employer or any other 
organization with which I am now or have in the past been affiliated.

UPHOLDING THE RULE OF LAW AND MAINTAINING THE MORAL HIGH GROUND IN THE 
                           POST COLD-WAR ERA

    Some would have us believe that International Law is not really 
``law.'' Others approach the policymaking process with the assumption 
that we must elect between ``obeying the law'' or pursuing our national 
self-interest. I submit that both views are misguided and that 
upholding the Rule of Law--including our treaty commitments--is very 
much in our long-term national interest.
    This is not the time to debate whether International Law is really 
``law'' or merely a series of political or moral undertakings we are 
free to ignore when they become burdensome. For those who are 
interested, I have dealt with that issue elsewhere.\1\ For present 
purposes, I would note only that the United States, like every country 
in the world, acknowledges that treaties create binding legal 
obligations, and our government has never questioned that principle in 
more than 225 years.
---------------------------------------------------------------------------
    \1\ See, e.g., Robert F. Turner, U.S. and U.N.: The Ties That Bind, 
Wall Street Journal, Dec. 1, 1997, at A23.
---------------------------------------------------------------------------
    The answer to the alleged dilemma about whether we should honor our 
treaty commitments or pursue our self-interest was answered eloquently 
by our first Secretary of Foreign Affairs under the Constitution, 
Thomas Jefferson, who--just ten days after taking the oath of office in 
1790--in a letter to Lafayette, wrote: ``I think . . . that nations are 
to be governed with regard to their own interests, but I am convinced 
that it is their interest, in the long run, to be . . . faithful to 
their engagements, even in the worst of circumstances, and honorable 
and generous always.'' \2\
---------------------------------------------------------------------------
    \2\ Jefferson to Lafayette, April 2, 1790, in 16 Papers of Thomas 
Jefferson 293 (Julian P. Boyd, ed. 1961).
---------------------------------------------------------------------------
    Three years later, when President Washington asked the Secretary of 
State for his opinion on whether the United States had a right to 
renounce treaties with France following the French Revolution, 
Jefferson responded:

          Compacts then between nation and nation, are obligatory on 
        them by the same moral law which obliges individuals to observe 
        their compacts. There are circumstances however which sometimes 
        excuse the non-performance of contracts between man and man: so 
        are there also between nation and nation. When performance, for 
        instance, becomes impossible, non-performance is not immoral. 
        So if performance becomes self-destructive to the party, the 
        law of self-preservation overrules the laws of obligations to 
        others. For the reality of these principles I appeal to the 
        true fountains of evidence, the head and heart of every 
        rational and honest man. It is there Nature has written her 
        Moral laws, and where every man may read them for himself. He 
        will never read there the permission to annul his obligations 
        for a time, or for ever, whenever they become ``dangerous, 
        useless, or disagreeable.'' Certainly not when merely useless 
        or disagreeable. . . . And tho he may [renounce contracts] 
        under certain degrees of danger, yet the danger must be 
        imminent, and the degree great. Of these, it is true that 
        nations are to be judges for themselves; since no one nation 
        has a right to sit in judgment over another, but the tribunal 
        of our conscience remains, and that also of the opinion of the 
        world. These will review the sentence we pass in our own case, 
        and as we respect these, we must see that in judging ourselves 
        we have honestly done the part of impartial and rigorous 
        judges.\3\
---------------------------------------------------------------------------
    \3\ Opinion on the Treaties With France, 25 id. at 609-10.

    Weeks after turning the helm of government over to James Madison, 
former President Jefferson advised his protege that ``it has a great 
effect on the opinion of our people and the world to have the moral 
right on our side. . . .'' \4\ I have long felt that this sentiment 
should be carved in large letters at an appropriate location in the 
Department of State where policymakers would be reminded of it 
regularly as they arrived for work.\5\
---------------------------------------------------------------------------
    \4\ Jefferson to Madison, April 19, 1809, in 12 Writings of Thomas 
Jefferson 274 (1904).
    \5\ This is not intended as a criticism of the Department of State 
or its policymakers. I am a great fan of the State Department. But this 
principle is so critically important that even good and honorable men 
and women could benefit from the reminder.
---------------------------------------------------------------------------
    Mr. Chairman, for the second time in our history the United States 
today finds itself unchallenged as the most powerful country in the 
world. Immediately following World War II--a conflict during which all 
of the other powers of the globe were knocked to their knees if not 
flat on their backs--the United States had a monopoly on atomic weapons 
and had suffered far less, particularly on the home front, than any of 
its potential rivals. Many countries throughout history, if given that 
opportunity, would have sought to exploit such a situation for their 
own selfish advantage. To our credit, we viewed our predominance of 
power as a solemn trust and devoted our energies to trying to build a 
United Nations to maintain world peace as we helped to rebuild the 
economies of Europe with the Marshall Plan. To the surprise of many, we 
even worked to rebuild our former enemies, Germany and Japan, in the 
process assisting them to become two of the world's most respected 
democracies and America's close allies.
    Once again, the end of the Cold War finds us as the unchallenged 
heavyweight champion. But this time there is no ``Red Menace'' to 
threaten the world--to instill in us a sense of leadership 
responsibility and to encourage other nations to unite behind our 
leadership. Today, there is clearly a temptation in some quarters for 
the United States to take advantage of our sole ``superpower'' status 
and use it to promote our short-term self-interest. We won the Cold 
War, it is suggested, so why shouldn't we compel the world to do things 
``our way'' now that we are the biggest gorilla on the block? Why be 
constrained by treaties that no one can enforce against us?
    I respectfully submit that few things we could do would in the long 
run be more damaging to our ``self-interest'' and our national security 
than such an approach. When the Cold War ended, I was teaching the 
basic introductory U.S. Foreign Policy course for University of 
Virginia undergraduates. In discussing our foreign policy options, I 
made an observation that I think bears repeating: We are the only 
remaining military superpower, and for the foreseeable future we need 
not fear that any country will be able to challenge us militarily. But 
we are not stronger than every country, and if we abuse this special 
trust that has once again been placed in our care, the predictable 
result will be that the rest of the world will find it in their 
interest to unite against us. In the long run, I submit, we will not 
win that fight. We are thus in a position where the right thing to do--
the morally correct course of action--happens to coincide well with the 
approach that on more pragmatic grounds will best serve our interest. 
If we are to build a new world based upon democracy, human dignity, and 
respect for the Rule of Law, we must in our own behavior remain true to 
our commitments and honorable in our international intercourse 
irrespective of power relationships.
    So I would strongly urge that, as we examine our options with 
respect to national missile defense, we keep in mind the importance of 
upholding the Rule of Law and we strive hard to avoid even the 
perception that we are doing otherwise. I don't expect this caveat to 
shock anyone here today, but I felt it was important enough that it 
warranted a brief digression.

                        THE ``RUSSIAN PROBLEM''

    Mr. Chairman, I would like also to touch briefly upon what is being 
called the ``Russian problem.'' The ABM Treaty issue is particularly 
sensitive, as it has become central to our relationship with Russia, 
the largest country in the world, the second most powerful nuclear-
armed military power, and a country that many of us believed would 
emerge from the Cold War rubble to become a thriving democracy and a 
natural friend and ally for the United States.
    Today, the Russians are hurt and angry about our behavior in a 
number of areas; and, trying to see things from their perspective, I am 
not certain their displeasure is in every instance unjustified. Indeed, 
I fear that our mishandling of the ABM issue has contributed to 
undermining that potential relationship. There is still a lot of ``old 
thinking'' in Russia, a lot of uncertainty and anxiety, and some of our 
behavior has, in my view, been horribly shortsighted and 
counterproductive.
    One of the interesting observations we can draw from history is 
that Winston Churchill and Richard Nixon got along better with Stalin 
and his Soviet successors than did the more Liberal Franklin Roosevelt 
or Jimmy Carter, because the Communists understood the straight-talking 
anti-communists and felt they could work with them. FDR tried to deal 
with ``Uncle Joe'' as if there were no differences and the two regimes 
were natural ``buddies,'' and he liked to pat Stalin on the back as he 
would any American politician with whom he was trying to settle 
differences.
    Stalin, on the other hand, matured in a culture in which, when your 
enemy put his hand behind your back, there was often a dagger concealed 
in the hand. He had great difficulty in understanding Roosevelt and 
concluded that the American president was either trying to trick him or 
was a fool--and to a good Leninist, fools were to be used and 
exploited. President Carter--whose sincerity, intelligence, and 
fundamental human decency can not in my view seriously be questioned--
made similar mistakes and seems to have left office bitter over the 
``betrayal'' when his new Soviet friends behaved like good Leninists in 
Afghanistan.
    Ronald Reagan shocked most of my colleagues in the academic world 
by his remarkable success in dealing with Moscow. One of our Center's 
first projects was the design and publication of a law school casebook 
on National Security Law, which was begun in 1981 and published in 
1990. We called upon our old friend John Rhinelander--a man of great 
intellect and talent, who had served as the legal officer during the 
Moscow negotiations that produced the ABM Treaty and later served with 
us on the ABA Standing Committee on Law and National Security--to write 
one of the chapters on arms control. John's first draft argued that the 
hard-line approach of the Reagan Administration towards negotiating 
with Moscow was designed to guarantee that there would be no further 
progress in arms control, and he predicted that would be the result. 
But as President Reagan's tough negotiators--truly exceptional 
individuals, like Ambassadors Max Kampelman, Jim Woolsey, and Ron 
Lehman--did their job, they brought back one excellent agreement after 
another. Fortunately, our casebook was delayed long enough that John 
had an opportunity to modify his originally pessimistic draft.
    Like Churchill and Nixon, Reagan was candid and straightforward in 
his dealings with Moscow. He didn't pretend that there were ``no 
differences'' between Soviet Communism and the United States, but he 
did believe that both countries could benefit from cooperation in 
several important areas. He talked about building a national missile 
defense system and suggested that the Soviets might cooperate in such 
an effort for the benefit of both countries. That particular suggestion 
shocked many of Reagan's own senior advisers as much as it did Moscow, 
but it set the stage for some new thinking as the Soviet empire 
suddenly collapsed. Boris Yeltsin decided the ABM Treaty was not all 
that critical after all and that it would be in Russia's interest to 
have a special relationship with the United States in developing a 
ballistic missile defense technology that might benefit the entire 
world. When President Yeltsin came to the United Nations at the end of 
January 1992, he announced: ``I think the time has come to consider 
creating a global system of protection of the world community. It could 
be based on a reorientation of the U.S. Strategic Defense Initiative to 
make use of high technologies developed in Russia's defense complex.'' 
\6\ Based upon press accounts, it is my sense that the United States 
embarrassed Yeltsin by ignoring his proposal. And in the years ahead, 
we--and by ``we'' I am referring to both the (first) Bush and Clinton 
administrations--portrayed the ABM Treaty as the ``cornerstone'' of 
strategic stability. So the Russians went along, and when American 
conservatives began talking about perceived new ballistic missile 
threats, the Russians held to the Treaty that seemed so important to 
the American presidents.\7\
---------------------------------------------------------------------------
    \6\ Excerpts from Speeches by Leaders of Permanent Members of U.N. 
Council, N.Y. Times, Feb. 1, 1992, at A5.
    \7\ This is obviously an oversimplification. Some senior Russians 
were anxious to please the American president and saw Russia's future 
as being best served by a special relationship with Washington. There 
were ``old thinkers'' whose views of the United States had changed 
little since the end of Communist Party rule in Moscow, and still more 
who blended hopes for such a special relationship with a fair measure 
of suspicion and paranoia about American intentions.
---------------------------------------------------------------------------
    I've been out of government for many years, but from the press 
accounts it appears to me that we badly mishandled the ABM issue with 
Moscow. For example, in late January 1999, Secretary of State Albright 
reportedly assured Russian leaders in Moscow that ``the United States 
will not violate the 1972 Anti-Ballistic Missile Treaty.'' \8\ Consider 
this AFP account of the Albright-Ivanov press conference that followed 
the American Secretary of State's visit:
---------------------------------------------------------------------------
    \8\ U.S. Russia Set Aside Their Dispute On Missile Defenses, Balt. 
Sun, Jan. 27, 1999, at 15A.

          The Russian minister told a joint press conference here that 
        Moscow had secured US assurances that the White House did not 
        plan to unilaterally tear up the ABM accord. . . . ``We have 
        assurances from the [U.S.] president and the vice-president 
        that the American side will respect the ABM treaty,'' [Ivanov] 
        said. ``Any possible plans must be agreed to. . . .'' \9\
---------------------------------------------------------------------------
    \9\ U.S., Russia Deeply Divided Over ABM Treaty, Missile Defense 
Plan, Agence France Presse, Jan. 26, 1999, quoted in Robert F. Turner, 
The ABM Treaty and the Senate 42 (1999).

    Perhaps the Russian Minister was overstating the American 
assurances--such efforts to win through the manipulation of public 
opinion what could not be achieved at the bargaining table are not 
unprecedented in diplomacy and were a pillar of Soviet political 
warfare--but, in this instance, my strong suspicion is that Foreign 
Minister Ivanov was accurately reporting the assurances he had 
received.
    However, barely a week passed before National Security Adviser 
Sandy Berger sent a letter to Senator Carl Levin, promptly released to 
the press, that assured the Senate the United States would not ``give 
Russia or any other nation a veto over our NMD requirements.'' \10\ 
These two assurances were obviously incompatible; and, with even a 
slight measure of paranoia, it was easy for Russian leaders to conclude 
they were being ``conned''--or at least lied to--by the American 
government that pretended it wanted to be their friend. Such 
disrespectful treatment towards a proud country that was already 
feeling humiliation over its loss of world influence was in my view an 
inexcusable blunder.
---------------------------------------------------------------------------
    \10\ Quoted in Turner, supra note 9 at 43.
---------------------------------------------------------------------------
    The Russians are a highly intelligent people. They may not like it, 
but if properly explained they will certainly understand the message of 
the Rumsfeld Commission. There are new ballistic-missile threats to the 
United States, and it is logical and reasonable for us to take them 
seriously and to want to protect our people.
    Let's get one point straight. The clear object and purpose of the 
1972 ABM Treaty was to prevent either side from developing or deploying 
a national ballistic-missile defense system. Article I of the Treaty 
provides in part that ``Each Party undertakes not to deploy ABM systems 
for a defense of the territory of its country. . . .''
    It makes no sense to say we are going to make some minor 
``adjustments'' to the Treaty that will allow us to do the one thing 
the Treaty was clearly intended to prevent. And all of this rhetoric 
set off alarm signals in Moscow. The Russians quite understandably felt 
we were lying to them and trying to trick them--and that, in turn, 
raised serious concerns about our overall strategic intentions. The 
ham-handed way in which we fumbled ABM diplomacy sent the further 
signal that we must have thought Russian leaders were either fools, who 
were incapable even of reading our own newspapers, or that their 
country was of such trivial significance on the global scene to us that 
we need not care what they thought. It was very sad to watch from the 
sidelines.
    I believe Russia is a very important country. Few developments 
around the globe would bring me greater joy that to see the Russian 
people succeed in building a strong democratic government, respectful 
of the rights of its people and with a market economy capable of 
lifting them from the sad quandary in which they have found themselves.
    We cannot, and we should not, do it for them. Unless Russia can get 
control over corruption, crime, and its numerous other problems, 
sending them even half of our GNP would not solve their problems. But 
there are many things that we can help them do-including educational 
initiatives to teach them about the Rule of Law. We can also appreciate 
that Russia is a proud country with a great history and that their 
post-Cold War loss of power is understandably a blow to that pride. 
They deserve our good will, our respect, our prayers, and--in settings 
where it can make a difference--our help.
    Like the United States, Russia is a sovereign state, entitled to 
set its own goals and chart its own course to the future so long as it 
does not infringe upon the rights of other states. We must respect 
their sovereignty and understand that their efforts to transform into a 
modern democracy will involve some false steps and a few stumbles under 
the best of circumstances.
    There are signs that Moscow may be wondering if its future will be 
better served by alignment with the People's Republic of China rather 
than the United States and its allies in the community of democracies. 
I believe that would be a step backwards and a serious mistake--a 
tragedy for the people of Russia, who have already suffered so greatly 
from more than seven decades of totalitarian rule--but it is not our 
decision to make. So long as Russia upholds its obligations under the 
Charter and other principles of International Law, we have no 
legitimate complaint. But it would indeed be tragic if our bungled 
diplomatic efforts played a role in any Russian decision to turn its 
back on democracy and human rights--to allow its paranoia to compromise 
its promise.
    So, Mr. Chairman, I urge that, whatever decisions the United States 
makes about ballistic-missile defense, we work carefully to explain our 
decision to the government--and, indirectly, to the people--of Russia 
and that we deal honorably and candidly with them in the process. The 
Russians are quite justifiable a proud people, and the hardships of the 
post-Cold War era have not been easy for them to accept. If we want to 
be their friend--as we very much should--we need to understand this and 
to treat them honorably and avoid even the appearance that we intend to 
ignore them, bully them, or evade our legal responsibilities.
    It is, of course, conceivable that I overestimate the Russian 
people. But if we can get away from the appearance we seem almost to 
have been cultivating that we don't respect Russia and think we can 
``manage'' them with half-truths and misdirection, I believe they can 
be persuaded that what we are talking about doing is not only no threat 
to them, but rather has the potential to do them good. And if they 
continue their move towards democracy, I see no reason not to include 
them in some way the enterprise.

Moral and Legal Implications of the ``MAD'' Policy
    Before turning to the legal issues, Mr. Chairman, a comment may 
also be in order about the moral and legal shortcomings of the strategy 
upon which the ABM Treaty was premised. Mutually Assured Destruction 
(quite appropriately acronymized as the ``MAD'' doctrine) may have 
served some useful purpose at the height of the Cold War, but at its 
core it is an immoral and, indeed, an illegal strategy. Targeting 
doctrines designed to impose maximum casualties on civilian 
noncombatants are today a violation of jus in bello.
    The ABM Treaty was premised upon the realization that the Soviet 
Union and the United States were bitter enemies, each possessing the 
military potential to inflict a nuclear holocaust on the other's 
population. Both countries believed that the other would be deterred 
only by the realization that a nuclear attack on the other would 
certainly result in the destruction of its own cities. If one side 
could develop an effective ballistic-missile defense shield, it might 
be tempted to launch a preemptive attack--in the belief that it could 
prevent missiles launched in a counterattack from reaching its own 
cities. To counter that risk, the other country might be tempted to 
deploy additional thousands of offensive ballistic-missile launchers 
capable of overwhelming even a sophisticated ABM shield. And since the 
technology of the era called for the explosion of nuclear devices above 
a nation's own territory to destroy an incoming reentry vehicle, 
agreeing to ban ballistic-missile defenses in order to curb the 
offensive missile arms race made a great deal of sense in 1972.
    If MAD made sense when the Soviet Union was our mortal enemy, it 
makes absolutely no sense to me today. We tell the Russians that we 
want to welcome them into the community of democracies and to be their 
friend, but then we seem to whisper: ``But if you make one false move, 
We've got a 12-gauge shotgun under the table pointed at your belly.'' 
That's not the way civilized friends behave.
    We don't behave that way towards the British or the French, and if 
we want Russia to be our friend we ought not behave that way towards 
the Russians. Nor should Moscow demand a right to hold our population 
hostage, especially in a world where other, less civilized, forces can 
reach the trigger. The United States and Russia should deal with each 
other honestly, openly, and respectfully--as friends. It is 
inconceivable to me that the Russians will not see the incongruity of 
trying to build a relationship of friendship and trust on the 
cornerstone of MAD and the ABM Treaty. Both are relics of an era we 
should all wish to place behind us.
    As the Rumsfeld Commission has unanimously documented, we are in a 
very different world today than we were when the ABM Treaty was 
perceived as a rational component of our security policy. In 1972 we 
lived in a bipolar world in which our only threat was the USSR and even 
a minor miscalculation might have produced a nuclear cataclysm. To be 
sure, France and the United Kingdom had nuclear weapons--but they were 
democracies and we felt no threat from their arsenals. China's program 
was still in its infancy and was focused primarily upon a perceived 
Soviet threat.
    Today, as Russia seeks to become a full member of the community of 
democracies, our primary concern about Russian nuclear weapons is that 
they will be stolen or otherwise transferred into the hands of radical 
regimes around the world. The strongest correlation in the war-peace 
continuum is that democracies do not attack democracies,\11\ and if 
Russia is serious about making this transformation, it should have 
nothing to fear from the fact that the United States is militarily 
powerful. Nor should we fear Russian military strength--any more than 
we tremble when the British acquire a new defensive weapons system. We 
ought to want to see a strong, stable, and vibrant Russia--a global 
ally with whom we can cooperate under the UN Charter to deter or defeat 
aggression by radical regimes who are unwilling to accept the 
prohibition against the aggressive use of lethal force embodied in 
Article 2:4 of the Charter. Today, the most critical dichotomy is not 
East-West, North-South, or Rich-Poor, but rather the vast majority of 
states that accept the Charter's prohibition on the threat or use of 
lethal force as an instrument of national policy, versus a small number 
of non-democratic, radical regimes who still perceive they can gain by 
the aggressive use of lethal force.
---------------------------------------------------------------------------
    \11\ See, e.g., Bruce Russett, Grasping the Democratic Peace 
(1993).
---------------------------------------------------------------------------
    The threats documented in the Rumsfeld Report potentially endanger 
not only the lives of millions of Americans, but of millions of 
Russians as well. And for either country to demand that, as evidence of 
its ``good faith,'' the other leave its people exposed to these rising 
new threats, ought to be unacceptable. Friends don't demand as a price 
for their friendship that others place the lives of their family at 
risk.
    The United States and Russia know more about ABM technology than do 
any other countries. This ought to be an area where we can cooperate--a 
special relationship designed to promote both these interests of our 
two great countries, and also the welfare of numerous other, smaller, 
states who might fall victim to the threat or use of ballistic 
missiles. As I understand the administration's proposal, they are not 
seeking to build a system that could protect us from the vast Russian 
nuclear arsenal in any event. The real threat today--for Washington and 
Moscow--comes from elsewhere. Rather than demanding that the Russians 
leave their population vulnerable to Rogue State tyrants, we ought to 
want to see the Russians be able to protect themselves.
    I am not a scientist, and I candidly admit that I do not know 
whether the technology we are pursuing in the ballistic-missile defense 
area will work. I know we can already shoot down missiles with missiles 
(I personally never doubted that could be managed), but whether Iran, 
Iraq, North Korea, or even China will be able to devise effective 
countermeasures to such a system, I simply do not know. I will of 
necessity leave that issue to others.
    Given the obvious threat, my personal view is that we would be 
foolish not to try to develop such a system--at least to the extent of 
being able to protect ourselves from being blackmailed by any two-bit 
tyrant or terrorist organization who could put together a WMD-armed 
missile or two. History is full of accounts of people doing things that 
other ``experts'' swore could not be done, including making heavy, 
metal airplanes fly through the sky and sending human beings to the 
moon and back. Anyone who consistently bets against the technological 
ingenuity of the American people is going to go home from Las Vegas in 
a bus.

               THE CURRENT LEGAL STATUS OF THE ABM TREATY

    Mr. Chairman, a great deal has been written in recent years about 
the current status of the 1972 ABM Treaty, and I believe much, if not 
most, of it has missed the mark. To begin with, the international law 
of state succession governing such a treaty is highly unsettled. Even 
if one can make sense of that aspect of the problem, comprehending the 
full extent of the problem requires an understanding of aspects of U.S. 
constitutional law that may be even less well understood--even within 
the academic community.
    Let me try to briefly summarize the situation as I perceive it. For 
additional background, I will provide the Committee with some copies of 
my 1999 book, The ABM Treaty and the Senate, which some of you may have 
already seen.

The International Law of State Succession
    The ABM Treaty is what we call a ``non-dispositive'' or 
``personal'' treaty--as distinguished from a ``dispositive'' or 
``real'' treaty, which imposes permanent burdens upon the territory and 
creates rights in other states that do survive in a setting of state 
succession. Non-dispositive agreements like the ABM Treaty do not 
automatically survive in settings of state succession, and neither a 
former party to a treaty with a defunct state, nor a successor State to 
the territory of the defunct state, can compel the other to continue 
such an agreement in force without its consent.\12\ The predominant 
state practice is for both sides to discuss whether they wish to 
continue each such agreement, and if both agree, the treaty continues 
in force.
---------------------------------------------------------------------------
    \12\ See, e.g., D. P. O'Connell, The Law of State Succession 58 
(1956); and J. L. Brierly, The Law of Nations 153 (6th ed. 1963).
---------------------------------------------------------------------------
    How such consent is manifested is largely an issue of municipal 
constitutional law. It is clear that Presidents Yeltsin and Bush both 
expressed a desire to continue the ABM Treaty in force, and this was 
repeatedly reaffirmed by the Clinton administration. However, in this 
situation, that was insufficient as a matter of clear constitutional 
law; and because of that, their statements did not, in my view, legally 
bind the United States to a continuation of the Treaty under 
International Law.\13\ On the other hand, it may well have created a 
good-faith moral obligation not to defeat the object or purpose of the 
Treaty until clear notice had been given to the other side of a 
decision not to take the necessary constitutional steps to keep the 
Treaty terms in force.
---------------------------------------------------------------------------
    \13\ As a general principle, a nation may not rely upon a provision 
of its internal law regarding competence to make treaties to argue that 
a treaty its agent has ratified is not binding. However, there is a 
clear exception to this rule when ``that violation was manifest and 
concerned a rule of its internal law of fundamental importance.'' See 
Vienna Convention on the Law of Treaties, Art. 46. For a discussion of 
this issue, see Turner, The ABM Treaty and the Senate 102-04.
---------------------------------------------------------------------------

The Relevant Principles of U.S. Constitutional Law
    In the United States, our Constitution vests the power to make 
treaties in the President, subject to the condition precedent that two-
thirds of those Senators present give their consent to 
ratification.\14\ Once the Senate has voiced its consent, its role in 
the treaty process is essentially over. The interpretation of treaties 
is entrusted to the President unless cases or controversies involving 
the rights of individuals are at issue, in which case the judiciary 
interprets the treaty for purposes of domestic U.S. law.
---------------------------------------------------------------------------
    \14\ [The President] shall have Power, by and with the Advice and 
Consent of the Senate, to make Treaties, provided two thirds of the 
Senators present concur. . . .'' U.S. Const., Art. II, sec. 2.
---------------------------------------------------------------------------
    Once again, the proper constitutional rule was set forth by 
Secretary of State Jefferson, who made the following notation following 
a 1793 meeting with French minister to Washington, Citizen Genet.

          He asked if they [Congress] were not the sovereign. I told 
        him no, they were sovereign in making laws only, the executive 
        was sovereign in executing them, and the judiciary in 
        construing them where they related to that department. ``But,'' 
        said he, ``at least, Congress are bound to see that the 
        treaties are observed.'' I told him no, there were very few 
        cases indeed arising out of treaties, which they could take 
        notice of; that the President is to see that treaties are 
        observed. ``If he decides against the treaty, to whom is a 
        nation to appeal?'' I told him the Constitution had made the 
        President the last appeal.\15\
---------------------------------------------------------------------------
    \15\ Quoted in 4 John Bassett Moore, Digest of International Law 
680-81 (1906).

    This was, in fact, the prevailing view even in the legislative 
branch from the start of our country. The men who wrote and ratified 
our Constitution were admirers of Montesquieu's doctrine of separation 
of powers, but they departed from the theories of Locke, Montesquieu, 
Blackstone, and others, by blending certain powers for the purpose of 
establishing important ``checks'' on government power. Thus, the 
President was joined in the legislative process through his 
``negative'' or ``veto'' over bills passed by Congress, the President's 
power to appoint officers and to make treaties were conditioned upon 
the approval of the Senate, and each house of Congress was given a 
negative over a decision to ``declare War.'' \16\
---------------------------------------------------------------------------
    \16\ The meaning of the term ``declare War'' is discussed in Robert 
F. Turner, War and the Forgotten Executive Power Clause of the 
Constitution, 34 Va. J. Int'l L. 906-10 (1994).
---------------------------------------------------------------------------
    The general management of the nation's external intercourse was 
vested in the president by the first Article of Section II of the 
Constitution, vesting the nation's ``executive Power'' in the 
president. As Jefferson explained in April 1790:

          The Constitution . . . has declared that ``the Executive 
        power shall be vested in the President,'' submitting only 
        special articles of it to a negative by the Senate . . . The 
        transaction of business with foreign nations is Executive 
        altogether. It belongs then to the head of that department, 
        except as to such portions of it as are specially submitted to 
        the Senate. Exceptions are to be construed strictly.\17\
---------------------------------------------------------------------------
    \17\ Jefferson to Washington, 16 Papers of Thomas Jefferson 378-79.

    Three years later, Jefferson's chief political rival of the period, 
---------------------------------------------------------------------------
Alexander Hamilton, wrote:

          The general doctrine then of our constitution is, that the 
        Executive Power of the Nation is vested in the President; 
        subject only to the exceptions and qulifications [sic] which 
        are expressed in the instrument. . . .

          It deserves to be remarked, that as the participation of the 
        senate in the making of treaties and the power of the 
        Legislature to declare war are exceptions out of the general 
        ``Executive Power'' vested in the President, they are to be 
        construed strictly--and ought to be extended no further than is 
        essential to their execution.\18\
---------------------------------------------------------------------------
    \18\ Pacificus 1, 15 Papers of Alexander Hamilton 39, 42 (Harold C. 
Syrett, ed. 1969) (emphasis in original).

    This is also the rationale used by Representative James Madison, 
often called the ``Father of the Constitution,'' in persuading Congress 
that, because of the president's general grant of the nation's 
``executive Power,'' the Senate's power to consent to diplomatic 
appointments did not extend further to encompass such subsequent 
decisions as the removal of a confirmed individual from office.\19\ 
During his brief service in Congress prior to becoming Chief Justice of 
the United States, John Marshall--also relying on the ``executive 
Power'' clause--argued so persuasively that the business of executing 
and interpreting treaties was exclusively executive in character that 
his Republican antagonist in the debate, the very able Albert Gallatin, 
refused to engage further and declared Marshall's reasoning 
``unanswerable.'' \20\
---------------------------------------------------------------------------
    \19\ See Turner, The ABM Treaty and the Senate 114.
    \20\ Id. at 121.
---------------------------------------------------------------------------
    As I am confident my very able friend John Rhinelander will tell 
you, there is ample precedent for American presidents unilaterally (in 
the sense of acting for the United States without the formal 
involvement of the Senate) agreeing to continue a treaty in force in 
situations of state succession. Section 310 (3) of the Restatement 
(Third) of Foreign Relations Law notes: ``When part of a state becomes 
a new state, the new state does not succeed to the international 
agreements to which the predecessor state was party, unless, expressly 
or by implication, it accepts such agreements and the other party or 
parties thereto agree or acquiesce [emphasis added].'' \21\ In comment 
h to this section, the Restatement explains that the Senate has 
``apparently acquiesced'' in the practice of the Executive branch 
continuing some treaties with a successor state in succession settings 
without resubmitting them to the Senate.
---------------------------------------------------------------------------
    \21\ 1 Restatement (Third) on Foreign Relations Law Sec.  210.
---------------------------------------------------------------------------
    This is an accurate statement. While one might argue that the 
agreement between the United States and the successor state 
theoretically constitutes the making of a new treaty containing the 
same terms previously approved by the Senate with the initial treaty 
party, as a practical matter the Senate has apparently often taken the 
view that it need not be bothered with resubmission of terms it has 
already approved. But this ``acquiescence'' is a political 
accommodation and not a modification of the Senate's constitutional 
right to consider all treaties negotiated with foreign states.
    More importantly, the precedent of Senate acquiescence to the 
continuation of treaties in state succession settings does not apply if 
there is a single substantive change in the terms of the agreement. It 
is well established, from the earliest days of our history, that any 
effort by the Executive branch to change the terms of a treaty 
constitutes the making of a new treaty and requires the consent of two-
thirds of the Senate before it may be ratified. I shall not elaborate 
on this point here, as I do not sense that anyone of authority within 
the Executive branch questions the point; but I have addressed it in 
greater detail elsewhere for anyone who is interested.\22\
---------------------------------------------------------------------------
    \22\ See Turner, The ABM Treaty and the Senate 160-67.
---------------------------------------------------------------------------
    I shall not discuss at length the substantive changes to the ABM 
Treaty that clearly require resubmission to, and the consent of, the 
U.S. Senate before the terms of the 1972 Treaty can be continued as 
conventional international law with Russia or the four former Soviet 
Republics who have signed the 1997 MOU.\23\ First of all, I have 
discussed this issue at length elsewhere; \24\ but the point seems to 
have been recognized by the MOU signatories themselves, who expressly 
provided in Article IX that continuation of the terms of the 1972 
Treaty would be contingent upon the formal ratification of each of the 
parties as a new treaty in accordance with its constitutional 
processes.\25\
---------------------------------------------------------------------------
    \23\ For background on the September 26, 1997, Memorandum of 
Understanding signed by the foreign ministers of Belanis, Kazakhstan, 
the Russian Federation, Ukraine, and Secretary of State Madeleine 
Albright, see Turner, The ABM Treaty and the Senate 26-27. The entire 
MOU is reprinted as an appendix to this volume.
    \24\ Id. at 169-72.
    \25\ Article IX provides that: ``This Memorandum shall be subject 
to ratification or approval by the signatory States, in accordance with 
the constitutional procedures of those States.'' See Turner, The ABM 
Treaty and the Senate 27.
---------------------------------------------------------------------------
    So where does that leave us? Let me try to summarize the situation 
as I see it:

          1. The 1972 U.S.-Soviet ABM Treaty did not automatically 
        continue in force between the United States and any other 
        country or group of countries upon the demise of the Soviet 
        Union. The law of state succession is unsettled, but the clear 
        majority view in such cases is a presumption that bilateral 
        nondispositive treaties expire when one party ceases to exist 
        in the absence of agreement to the contrary.

          2. As sovereign states, the United States and any of the new 
        republics that emerged from the former Soviet Union had the 
        right under international law to agree to observe the terms of 
        any previous treaty ratified by the United States and the 
        Soviet Union. Both the (first) Bush and Clinton administrations 
        clearly expressed a desire to keep the ABM Treaty in force, and 
        a solemn international treaty (the MOU) was signed in New York 
        in September 1967, to continue the terms of the 1972 Treaty--
        with some necessary (and substantive \26\) modifications--in 
        force between the United States and four of the former Soviet 
        republics. That treaty has been signed; but, by its own terms, 
        it can only go into effect upon ratification pursuant to the 
        constitutional procedures of each signatory state.
---------------------------------------------------------------------------
    \26\ There is no precedent in U.S. practice for converting any 
bilateral treaty into a multilateral treaty without the formal consent 
of the Senate, and the decision to expand the Standing Consultative 
Commission (SCC) from two to five, with each party having a veto over 
decisions, is obviously a major change.

          3. From the sidelines, it appears clear to me that the MOU is 
        not in the foreseeable future going to be submitted to the 
        Senate for its consent to ratification. Were it submitted, I 
        think the likelihood of the MOU receiving the necessary two-
        thirds Senate approval is infinitesimal. Just over two years 
        ago the Senate voted 97-3 for the National Missile Defense Act, 
        which as enacted into law provides: ``It is the policy of the 
        United States to deploy as soon as is technologically possible 
        an effective National Missile Defense system capable of 
        defending the territory of the United States against limited 
        ballistic missile attack . . .'' \27\ This is obviously a 
        decisive rejection of the fundamental premise of the ABM 
        Treaty.
---------------------------------------------------------------------------
    \27\ This is discussed in Turner, The ABM Treaty and the Senate 45-
48.

          4. This leaves unsettled the precise legal status of the 1972 
        Treaty. It cannot be continued as a legally-binding treaty, as 
        intended by the MOU, without the consent of the Senate, and 
        that provision of American constitutional law is sufficiently 
        clear to all that the statements of the Bush and Clinton 
        administrations could not overcome it. The better view, I 
        believe, is that the good-faith statements of U.S. and Russian 
        leaders created a moral obligation to abide by the terms of the 
        1972 Treaty until those terms could be incorporated into a new 
        treaty (like the MOU) or clear notice has been given to all 
        involved that one side or the other did not intend to ratify 
        the MOU or another new treaty continuing the old terms. Since 
        the President clearly needed the consent of two-thirds of the 
        Senate to establish a treaty with Russia (and/or any other 
        former Soviet Republics) on this issue given the substantive 
        changes inherent in the situation, he manifestly lacked the 
        constitutional authority to continue the ABM Treaty in force as 
---------------------------------------------------------------------------
        conventional law.

          5. However, the Russians clearly seem to believe the 1972 
        Treaty remains in force, the (first) Bush and Clinton 
        administrations seemed to agree, and most of the rest of the 
        world seems pretty much content with that interpretation. While 
        I think that the better view is probably that the 1972 ABM 
        Treaty is not in force today as an international convention, it 
        is clear that able and honorable people--and I suspect a large 
        majority of them--would disagree.

          6. The good news, in my view, is that it is not necessary to 
        resolve this issue. Because when Secretary of State Albright 
        signed the MOU in September 1997, as a matter of International 
        Law she incurred on behalf of the United States a legal 
        obligation not to defeat the object or purpose of the MOU 
        (which embodied the terms of the ABM Treaty) until we give 
        clear notice to the other signatories that we do not intend to 
        proceed with ratification.\28\
---------------------------------------------------------------------------
    \28\ Article 18 of the Vienna Convention on the Law of Treaties 
provides:

        A State is obliged to refrain from acts which would 
---------------------------------------------------------------------------
      defeat the object and purpose of a treaty when:

        (a) it has signed the treaty or has exchanged instruments 
      constituting the treaty subject to ratification, acceptance 
      or approval, until it shall have made its intention clear 
      not to become a party to the treaty; or
        (b) it has expressed its consent to be bound by the 
      treaty, pending the entry into force of the treaty and 
      provided that such entry into force is not unduly delayed.

          7. The United States has historically and consistently taken 
        the view that this duty of ``good faith'' towards other 
        signatories while a treaty is pending ratification prohibits 
        engaging in scientific research and testing that would be 
        barred by the treaty were it in force. Thus, as I understand 
        the facts, we are prohibited from taking necessary steps in the 
        proposed national missile defense system irrespective of the 
        technical legal status of the 1972 ABM Treaty.

                          WHERE TO FROM HERE?

    Mr. Chairman, at this point I would like to return briefly to my 
opening digression emphasizing the importance of behaving honorably and 
avoiding not only violations of our treaty obligations, but also 
reasonable perceptions that we are violating treaty obligations. If my 
legal analysis is correct, the United States can free itself of any 
constraints embodied in the 1972 ABM Treaty by simply giving notice to 
the other MOU signatories that we do not intend to proceed with 
ratification. But if we do that, after nearly a decade during which 
three U.S. administrations consistently expressed the view that the 
Treaty is still in force, not even our closest allies will think well 
of us. We will be perceived around the globe as a nation no longer 
committed to the Rule of Law, and perhaps a nation that because of its 
immense power believes it is ``above the law'' and can impose its will 
on the rest of the world. I can think of few ``signals'' we might send 
that would be better calculated to isolate us from the rest of the 
world, greatly undermining the Rule of Law in the process. The reality 
is that even if my assessment of the legal situation is correct, such 
behavior would be perceived as a declaration of war against the rest of 
mankind. And if America is no longer willing to obey its legal 
obligations, what right have we to complain if the Iraqs, Irans, 
Libyas, and North Koreas of the world follow our lead?
    Fortunately, I believe there is an easy solution. It will not 
appeal to those on the Committee who continue to view the MAD Doctrine 
and the Cold War ABM Treaty designed to intentionally expose our 
citizens to deliberate attack with Weapons of Mass Destruction as the 
``cornerstone of strategic stability,'' but it should appeal to those 
who recognize a need to protect our citizens but at the same time are 
committed to the Rule of Law and are anxious to avoid unnecessary 
political costs in Moscow and around the globe.
    The 1972 ABM Treaty expressly provides the simple solution to our 
problem. As the report of the Rumsfeld Commission makes absolutely 
clear, since the ABM Treaty was ratified there have been dramatic 
changes in the world, including the emergence of several radical states 
that are actively engaged in efforts to develop or acquire Weapons of 
Mass Destruction and ballistic missile systems to deliver them. In the 
near future, several countries--and, conceivably, some radical non-
state actors as well--may have the ability to deliver such weapons 
against American territory, endangering the lives of vast portions of 
our population.
    None of this was anticipated when the ABM Treaty was concluded 
nearly three decades ago, but the parties were wise enough to 
anticipate that unforeseen circumstances might someday make it 
dangerous for them to remain bound by the Treaty. So they wrote in 
Article XV:

          Each Party shall, in exercising its national sovereignty, 
        have the right to withdraw from this Treaty if it decides that 
        extraordinary events related to the subject matter of this 
        Treaty have jeopardized its supreme interests. It shall give 
        notice of its decision to the other Party six months prior to 
        withdrawal from the Treaty. Such notice shall include a 
        statement of the extraordinary events the notifying Party 
        regards as having jeopardized its supreme interests.

    The determination that permits withdrawal is entirely subjective in 
nature. If the United States notifies any successors in interest to the 
Soviet Union that we have decided that extraordinary events have 
jeopardized our supreme interests, we may legally withdraw from the 
Treaty six months later. But, as Secretary of State Jefferson noted, we 
should be honorable and fair in making such a judgment. However, in 
this instance, there can be no reasonable doubt that our withdrawal 
would be honorable and in good faith. To avoid any question about that, 
we might enclose a copy of the Rumsfeld Report with our notification of 
withdrawal. Six months later, we would be legally free from all 
obligations of the 1972 ABM Treaty or the 1997 MOU.
    I would add that this decision also is entirely Executive in 
nature, and thus I would emphasize that it is entrusted entirely to the 
discretion of the President of the United States. Just as James Madison 
and his House and Senate colleagues agreed in 1789 that the 
``exception'' to the President's Executive power of appointment vested 
in the Senate did not give the Senate a ``negative'' over a 
presidential decision to remove a diplomatic officer appointed with 
Senate approbation, the Senate's veto over the ratification of treaties 
negotiated by the president does not extend to controlling Executive 
decisions about the interpretation, enforcement, or withdrawal 
provisions of a treaty. This is important, and if there is any 
misunderstanding about it I will be happy to brief the point in greater 
detail.
    Mr. Chairman, were it my decision to make--and I confess that I am 
glad that it is not, as I enjoy the relative tranquility of being a 
schoolteacher--I would take an approach along the following lines in 
similar letters to each of the MOU signatory states, with notification 
as well to the Secretary General of the United Nations and to 
diplomatic missions around the world. I would also have the President 
go on television shortly after--and I emphasize the word after--formal 
notification is given to explain the decision to our citizens and 
people around the world in clear terms.

                                                      DRAFT
Dear Mr. Foreign Minister:

    In case you did not see it when it was released in 1998, I am 
enclosing a copy of the [Rumsfeld Report] for your personal 
consideration.
    As I am sure you are very much aware, the President and much of the 
Congress and the American people, are very concerned about the 
development of these potential new threats to our security--threats 
that did not exist and were not anticipated when the United States 
ratified the ABM Treaty in 1972.
    As I am confident you also know, in 1999 the United States enacted 
domestic legislation, The National Missile Defense Act, establishing a 
policy of developing a limited ballistic missile defense system to 
protect our citizens from these new emerging threats. The 97-to-3 
majority by which this statue was approved in the Senate strongly 
suggests that, even if the President were inclined to submit the 
Memorandum of Understanding signed by our countries on September 27, 
1997, to the Senate for its advice and consent, the two-thirds approval 
required by our Constitution would not be forthcoming. Given these 
realities, it is incumbent upon me to provide you with formal 
notification that the United States does not intend to proceed with the 
ratification of the 1997 MOU.
    As you may also know, there is some dispute within this country 
about whether the 1972 ABM Treaty-independently of the MOU that was 
designed to continue it in force, which created its own obligation not 
to defeat the object or purpose of the earlier accord--continues to 
bind any country as conventional international law. After listening to 
both sides of the debate, I have concluded that it would be a mistake 
for the United States to act contrary to the terms of the 1972 Treaty 
without first satisfying the requirements of Article XV of that accord. 
That will avoid any reasonable perception that our actions are 
inconsistent with our international treaty commitments, which even if 
inaccurate could do harm to the important principle pacta sunt 
survanda.
    Therefore, consistent with the terms of Article XV of the 1972 ABM 
Treaty, upon the expiration of a period of six months from this notice, 
unless a new agreement is reached regulating this matter, the United 
States will consider itself free to act as it deems necessary, 
consistent with its other obligations of international law, to protect 
its people and territory from limited ballistic-missile attack.
    The President has asked me to emphasize that our decision to take 
this action is motivated entirely by developments unrelated to any 
party to the MOU, and the limited missile defense system we are 
exploring is not intended to defeat a sustained missile attack from 
Russia. Candidly, we believe that the emerging threat to our own 
security may constitute a potential threat to the people of your 
country as well, and we remain willing to discuss a variety of related 
issues in the coming weeks and months--including a possible new 
agreement placing some limits on future ballistic missile defense 
systems, or cooperating (perhaps including the sharing of certain 
technologies) for the purpose of protecting other countries around the 
globe from these emerging new threats. Our goal is peace.
    Because of its importance, I have asked Ambassador [__________] to 
deliver this letter to you personally. I would also welcome an 
opportunity to meet with you or your representative at some point in 
the near future to discuss this matter in greater detail.
    With continued assurances of my deepest respect and warmest good 
wishes, I remain
            Sincerely yours,  __________________________
                                                      DRAFT

    Such a notification would allow the United States to proceed with 
the development of a ballistic-missile defense system designed to meet 
our perceived needs and using the best available technology, 
unconstrained by the 1972 Treaty. It would hold open the possibility 
that a new accord might be negotiated that would allow us to build a 
defensive shield against limited ballistic-missile attack, without in 
the process jeopardizing any Russian need to feel they could overwhelm 
such a system with far less than their existing inventories of 
offensive missiles--hopefully paving the way for agreement on the 
additional reduction of offensive systems. But it would also serve 
notice that any nation that wishes to constrain the United States in 
this area must come to the table willing to bargain seriously and in 
good faith, for if agreement is not reached within six months the 
constraints imposed under the 1972 Treaty will no longer be in force. 
That won't preclude U.S.-Russian or multilateral negotiations from 
continuing for several more years, but it will provide our negotiators 
with an extra incentive to promote reasonable behavior by other parties 
in the negotiations.
    Mr. Chairman, this concludes my formal presentation. Once again, it 
has been an honor to appear before you. I will be pleased to answer 
questions at the appropriate time this morning and to respond promptly 
to any questions you or your colleagues might wish to submit for the 
record.

    The Chairman. Thank you very much.
    In a sense, you both reach one conclusion, that what we do 
relative to how we characterize the treaty and how we proceed 
has potential impact on other agreements and the opinion of the 
world about our willingness to keep agreements. And Mr. 
Rhinelander, according to press reports, and we only have press 
reports at this time, Russia has suggested that the ABM Treaty 
could be altered without upsetting existing international arms 
control regimes. Do you think that could be done in such a 
manner as to allow the United States to be able to deploy the 
limited national defense we have heard spoken about today?
    Mr. Rhinelander. I think clearly it could be. If we are 
going to deploy one with a purported national reach, we have to 
amend article I, which prohibits a nation-wide defense, and 
then you would have to amend article III, which at the present 
time limits us just to the one deployment area in North Dakota. 
I think Russia would accept a limited kind of deployment in 
Alaska, but they would go further.
    I think they would probably accept some testing on some of 
the mobile systems, development and testing, not deployment. 
But based on my understanding of where the technology is, it is 
a good 5 to 10 years before you get to any kind of deployment 
decision. I think it could be done, basically, consistent with 
the general framework of the treaty as drafted.
    We would not have quite as many protective barriers, at 
least if you amend article V, but after all, we wrote the 
treaty knowing it was going to be amended, knowing the 
technology was going to change over time. I think that could be 
done. Further, my reading and my discussions with the Europeans 
is they are not saying do not touch the treaty. They want the 
United States and Russia to remain in a treaty relationship 
over this.
    So I think if the United States is prepared to negotiate 
reasonably necessary provisions to accommodate what the U.S. 
wants to do over the next 10 years or so, I think it is well 
feasible.
    The Chairman. Now, in light of the fact that this 
administration has gone on record as being opposed to the 
Comprehensive Nuclear Test Ban Treaty, the Kyoto Convention, 
the Biological Weapons Convention draft Protocol, and by the 
way, the refusal to participate in the discussions at the U.N. 
about legal transfers of small arms, I do not know whether it 
is true or not, but there are press reports that Mr. Bolton 
brought along members of the NRA with him for that discussion. 
I do not know whether that is true or not; and if there were to 
be no agreement and a unilateral withdrawal from a treaty that 
you think is at least in existence now, and many others--and I 
know you do not, Professor--legally think it is in force but 
what risk do you assign to other states concluding that we are 
not going to adhere to international agreements, that we have 
decided to sort of go it alone? I know this is a subjective 
question, and requires a subjective answer.
    Mr. Rhinelander. I think there is a real risk of other 
states deciding they are not going to be under legal 
obligations as they have previously agreed to do.
    Now, in some cases, for example, if Iran is in fact 
developing a nuclear program right now--they are a party to the 
NPT--and if they end up with a nuclear weapons program, they 
would be in violation of the NPT. But I believe there is a 
depth of assurance in a very helpful way to have legal 
obligations on other countries.
    It is not foolproof, as we know. In Ronald Reagan's words, 
you trust but verify, but I think there is a real risk of the 
international regime, as it has been built up over the past 40 
years, disintegrating.
    The Chairman. What is the major consequence?
    Mr. Rhinelander. Some people would say nothing, because 
they do not believe treaties have any real effect in the real 
world. I do not think that is the case. I think there is an 
international norm against nonproliferation. It is not 
foolproof. We have eight nuclear weapon-capable states right 
now. We have a number of others which could go nuclear, some 
within months if they really made a decision to do that, but I 
think having the NPT in existence gives us an enormous amount 
of leverage against others not to go there.
    The same thing is true of the Chemical Weapons Convention. 
The same is true of the Biological Weapons Convention. That is 
an interesting one. I was in at the State Department when 
President Nixon made the decision to renounce biological 
weapons and toxins, and to pursue a Biological Weapons 
Convention, knowing that we could not get verification 
provisions in that treaty. The decision was made at that time, 
with the concurrence of the Pentagon, that it was still in our 
interests to go forward.
    Now it is not foolproof, as we well know. We now know what 
the Russians were doing at this point in time. There are 
efforts now to get out of the protocol, but I think there are 
perhaps unquantifiable and difficult to measure benefits from 
having these legal regimes. Some of them are obvious.
    Some of them--in terms of transparency, some of them in 
terms of onsite inspections, which we finally got under the INF 
Treaty--are enormously helpful. If we move toward a world in 
which everybody, every state, is free to do as they will, I 
think we are much less secure. It is much less predictable as 
to where others are likely to go.
    The Chairman. Is that not really what the fundamental 
debate here is about? You know the people in this 
administration. I know their track record. They are fine 
people, but the fundamental disagreement that exists with the, 
maybe I unfairly characterize the movement, conservatives in 
serious positions in this administration, is they have argued 
from the outset that all of these treaties and multilateral 
agreements, create a false sense of security, that we would be 
better off without them, that it inhibits us and no one else.
    It reminds me of the gun control bumper sticker, which says 
you know, ``outlaw guns, but outlaws will still have guns,'' or 
whatever the phrase is. I mean, there is this very serious, 
fundamental disagreement.
    Without going into it, because it is classified, I asked a 
high-ranking administration official whether what I had heard 
at the administration that some in the administration were 
proposing we pull out of the international monitoring regime 
that is underway to determine whether or not nuclear tests are 
taking place, to prove that the Comprehensive Nuclear Test Ban 
Treaty is dead, was true. It seems to me on its face to be 
against our interest to do that, even for what little value 
they may think it has, and that is why I said to you at the 
outset, isn't the NPT really one of the targets of this as 
well?
    Mr. Rhinelander. No, I do not think it is a target, because 
it is discriminatory on its face. We are one of the five 
countries with a preferred position as a nuclear weapons state 
and therefore, from the kind of analysis you were using, it is 
favorable. Other states have obligations on them, as nonnuclear 
states, we do not.
    The Chairman. It amazes me, in the quest for purity on this 
issue of multilateral treaties and treaty compliance, how far 
some folks are prepared to go. I mean, it is clearly, on its 
face, in our interests to continue the monitoring system that 
is in place now, but there are, I can assure you, efforts 
within the administration to jettison that system.
    Mr. Rhinelander. I think there are two streams coming 
together on this, both of which I disagree with. One is that 
whenever you have a treaty of any importance the other side is 
likely to cheat, and therefore we not only get no benefit from 
it, it is a negative because we will abide by it. That is a 
position you have heard advocated over the past 30 years.
    The second one, which is a newer one, is basically that it 
is either as a matter of policy wrong, or it almost approaches 
the unconstitutional, to have legal obligations on us.
    Putting it in legal terms, it is rubbish, but there is this 
stream of thought coming along that having legal obligations on 
us is clearly against our interests, if it is constitutional, 
which some of them will say it is not.
    Dr. Turner. Mr. Chairman, I certainly cannot speak for the 
administration. Indeed, John Bolton and I had a big debate a 
few years ago about whether international law was really law. I 
made a very strong case that it was, but you talk about, they 
will not sign this, or will not sign that, or will not go 
forward with ratification, and others will therefore say they 
can break their agreements. There is obviously a difference 
here.
    The Chairman. That is not what I am saying. It is not that 
they will not sign, that they will withdraw from what they have 
signed.
    Dr. Turner. But under international law, and there is a 
long history of this, we are perfectly free, and it is not a 
wrongful act, or an unfriendly act not to ratify a treaty you 
have signed. This is well understood, and goes back to Noah 
Webster and Henry Clay. That is not the same thing as breaking 
an agreement.
    The Chairman. My point was the one I thought you were 
making, and I am glad you are clarifying it for me. I thought 
you were making the point that, not withstanding the fact that 
it is clearly within the President's power and authority not to 
sign, clearly within the President's power and authority to 
suggest that there is no successor country to the ABM Treaty, 
and therefore there is none, notwithstanding all of those 
things, it nonetheless might work against our interest to take 
certain actions, and that is all I am talking about. It is a 
political matter.
    Dr. Turner. But as a legal matter, there is not a parallel 
between North Korea violating its treaty obligations or Iran or 
somebody else and us deciding not to incur new ratifications.
    The Chairman. I was not suggesting that at all. That is not 
my point.
    Dr. Turner. The same way, when the Senate rejects a treaty 
that is not a wrongful act.
    The Chairman. Absolutely. I am not suggesting that at all. 
The only point I was suggesting is that our unwillingness to 
move forward on international agreements that apparently 
scores, if not over 100, other nations think is a worthwhile 
undertaking. Does that, as a political fact, undermine our 
credibility as a leader in nonproliferation, as a leader in 
trying to set international norms? That is all.
    I am not suggesting anything beyond that, and I agree with 
your assessment, the President of the United States has the 
right to withdraw. And by the way, whether or not you are right 
or wrong about whether the ABM Treaty is legally dead already, 
rather than debating this dead issue, I think we can just note 
that President Bush and President Putin are in talks about 
amending a thing that you claim is dead, about altering the 
thing that is dead, and so again it is not a legal point, it is 
a political point.
    Both the Russians and the United States must think there is 
some benefit and/or liability to them to act in a way that 
appears to the rest of the world to be precipitous. That is the 
only point.
    Dr. Turner. Just for clarification, as a legal matter I am 
not saying we are not bound in any way by the ABM Treaty. I 
think we are bound, but it is pursuant to the article XVIII 
provision, and the MOU. In other words, the MOU created new 
obligations, and until we renounce that, we do have legal 
obligations.
    The Chairman. I understand what you are saying, and I 
appreciate it. It is a distinction on which we differ. I can 
appreciate that.
    Mr. Rhinelander. Just a point, I think the administration 
is going to address. I think the ABM Treaty is in effect. There 
are 250 agreements between the United States and Russia, and to 
say that former President Bush, former Secretary of State Jim 
Baker, and Brent Scowcroft and others did not know what they 
were doing is a conclusion the present occupants of the White 
House are not going to reach.
    There is going to be one messy issue they are going to have 
to deal with, and that is whether there are now two, the United 
States and Russia, or five parties to the ABM Treaty, because 
when Condi Rice goes off to Moscow and talks about amendments 
to the treaty, does she exclude the other three? Russia 
believes there are now five current parties to the treaty. I 
think the issue is ambiguous.
    There is no question in my mind that former President Bush 
and former President Clinton had the power, acting alone, 
without coming back to the Senate, to say that there are now 
five parties to the ABM Treaty. There are at least two right 
now, but there has to be some kind of resolution between the 
United States and Russia, and then those other three, at some 
point in time.
    Incidentally, just in terms of former bilateral treaties, 
there are now 13 parties to the INF Treaty, which, as you 
remember, came up here as the first one after the Sofaer 
dispute. You remember that well, because there were some 
disputes on that.
    The Chairman. We now have what is called the Biden 
provision.
    Mr. Rhinelander. There is no question in my mind the ABM 
Treaty is in effect, but there are political issues which will 
have to be faced in dealing with Ukraine, Belarus and 
Kazakhstan. Ukraine is going to be politically sensitive on 
this, if we tell them they are not now a party to a treaty 
where they thought they were.
    The Chairman. Well, I for one--I am not revealing anything, 
any position everyone does not already know--hope we end up 
with that problem, that we get that far. Because my concern is 
that we may very well take an action that does spark an arms 
race, does not leave us any more secure, is based upon, from 
our perspective, a faulty premise that deterrence does not 
work, and that there is a technological capability that exists 
in the near term to give the President options that he does not 
now have in a moment of crisis.
    I think these are all flawed premises upon which the 
argument for missile defense is based. But having said that, I 
cannot express my appreciation to you any more. You have been 
patient. You have waited a long time. Your testimony was worth 
the wait. I appreciate your time and your effort, and the 
committee is grateful, and with your permission we would like 
to be able to leave the record open for 24 hours to be able to 
have questions submitted to ruin your August vacation for you 
to respond to.
    As I said, this is the first in what will be a series of 
hearings on threat assessment. This was not just about the ABM 
Treaty, because when we make these decisions, to state the 
obvious--I know you two learned gentlemen fully understand 
this--everything is a matter of priorities, and we have to make 
some very difficult decisions about the allocation of resources 
over the next 10 years in terms of the threats that we face.
    So we will be going into some considerable detail on what 
those threats are, and the cost to meet those threats. 
Hopefully this committee can serve the function that Senator 
Helms, who preceded me, sought, and how it clearly did function 
during the Fulbright years, as a repository of at least some 
well-thought-out positions for our colleagues to be able to 
mull over when they make these difficult decisions.
    So again, I thank you all very, very much for taking the 
time and making the effort, and I look forward--and you may not 
look forward to it--to maybe being able to call on you again.
    I thank you all. The hearing is adjourned.
    [Whereupon, at 5:35 p.m., the committee adjourned.]

    [Editors Note: Hon. William Schneider, Jr., was present for the 
hearing but time constraints forced him to leave before being called to 
testify. His prepared statement follows.]

          Prepared Statement of Hon. William Schneider, Jr.\1\
---------------------------------------------------------------------------

    \1\ William Schneider, Jr., is an Adjunct Fellow of the Hudson 
Institute (Washington, DC). He formerly served as Under Secretary of 
State for Security Assistance, Science and Technology, and is currently 
the Chairman of the Defense Science Board, U.S. Department of Defense. 
None of the views expressed in this testimony necessarily reflect the 
views of the U.S. Government.
---------------------------------------------------------------------------

 IMPLICATIONS OF INTERNATIONAL BALLISTIC MISSILE DEVELOPMENTS FOR THE 
                               ABM TREATY

    Mr. Chairman and Members of the Committee:
    It is a privilege to once again have an opportunity to appear 
before this Committee to address a timely issue of public policy. My 
remarks will summarize several major points on the subject of the 
implications of international ballistic missile developments for the 
ABM Treaty. As the characterization of the issue offered here is an 
illustrative rather an exhaustive treatment of the subject, I will be 
pleased to amplify or clarify any of the points made here following my 
remarks.

Introduction
    Modern ballistic missile technology has been available for more 
than seventy years, and its military applications have been well 
understood for more than half a century. Modifications of ballistic 
missiles developed for military applications--primarily software and 
payload changes--have been widely propagated through civil sector 
science and technology channels since the 1950s for civil space 
applications.
    What is new is our appreciation of the cumulative significance of 
the proliferation of scientific and technical knowledge about the 
design, development, test, manufacture, operation, and support of 
ballistic missiles. The waning of Soviet military power and authority 
in the late 1980s, and the collapse of the Soviet state 1991 set in 
motion a chain of developments that have materially altered the 
assumptions upon which the ABM Treaty of 1972 depends.
    The rise of regional powers has fundamentally altered the demand 
for the long-range delivery of military payloads. Deterring the 
intervention of extra-regional players in regional disputes, especially 
the United States, has given rise to an interest in weapons of mass 
destruction as well. While the number of states seeking nuclear weapons 
has changed little in recent years, there has been a significant 
increase in the number of states hostile to the United States seeking 
to acquire nuclear weapons. Moreover, there has been a sharp increase 
in the number of states seeking biological weapons since the end of the 
Cold War.
    The ABM Treaty was developed to regulate the strategic nuclear 
competition between the U.S. and the former Soviet Union (FSU) in a 
bipolar policy environment of intense reciprocal animosity. At the time 
(1972), the barriers to entry--technological, industrial, and fiscal--
in the development of long-range missiles were high. Moreover, the 
shared non-proliferation interests the major nuclear states imparted a 
powerful disincentive to the transfer of ballistic missile technology 
to other nations.
    None of these conditions obtain today. The collapse of the FSU has 
brought an end to the bipolar world of the Cold War. The successor 
state to the FSU--Russia--enjoys benign not hostile relations with the 
United States. The post-Cold War liberalization of commerce in advanced 
technology has resulted in the proliferation of the core enabling 
technologies associated with the development of the military 
applications of ballistic missiles. Indeed, nations counted among the 
poorest, and most technologically backward on earth have developed or 
operate long-range ballistic missiles. These nations who do not share 
any strategic interests, have nevertheless developed a mutually 
supporting relationship to share the fruits of missile and WMD 
proliferation. Both China and Russia have permitted the transfer of the 
technologies of ballistic missiles and weapons of mass destruction to 
nations that did not previously possess them.
    I will summarize further some of the most pertinent recent 
developments in international ballistic missile proliferation, and 
address the significance of these developments for the ability of the 
U.S. to meet its 21st century security needs.

International ballistic missile developments
    The proliferation of ballistic missiles is now a fact of the 21st 
century international security environment. Containing the 
proliferation of ballistic missiles is now out of reach using the 
diplomatic instruments of the Cold War, new instruments must be found. 
Ballistic missiles--including a production and support base--can be 
found in the arsenals of many of the states with the most profoundly 
hostile relationship with the United States including North Korea, 
Iraq, Iran, Syria, and Libya.

Ballistic missile technology
    The maturity of the technology preferred by proliferators--liquid 
fuel rocket propulsion--is widely understood. The chemistry, physics, 
and industrial engineering of ballistic missile technology are widely 
understood. The breakdown of Cold War-era inhibitions on the transfer 
of ballistic missile technology since the 1980s by China and Russia has 
accelerated the pace of proliferation activities. The deregulation of 
commerce in advanced technology since the collapse of decline of Soviet 
military power became evident in the latter years of the 1980s has 
further facilitated the access of proliferators to advanced scientific 
and industrial technology.\2\
---------------------------------------------------------------------------
    \2\ In the case of dual-use technology (especially significant for 
ballistic missile development), the reduction in the scope of export 
control activity has been dramatic. In the mid-1980s, the U.S. 
Department of Commerce issued nearly 150,000 validated dual-use export 
licenses per annum. Several waves of deregulation have reduced the 
annual total to approximately 10,000.
---------------------------------------------------------------------------

Development, testing, and manufacturing infrastructure
    The development of ballistic missile testing and manufacturing 
infrastructures sets the stage for a second wave of proliferation. To 
maintain this infrastructure, there inevitably will be pressure for the 
development of export markets. North Korea and Pakistan have been quite 
explicit defending their need to export missile-related technology.

Limited dependence on export-controlled technology
    An irony of the deregulation of advanced technology commerce since 
the end of the Cold War is that very few ballistic missile components 
or technologies are dependent on export controlled technology. 
Moreover, the ease with which technical data can be transferred using 
networked computers (Internet) renders the visibility of traditional 
supplier networks much attenuated from our Cold War era experience. 
This means that legitimate commerce will be able to support many of the 
current ballistic missile programs operated by states with an 
adversarial relationship with the U.S.

Shared access to proliferation-sensitive technology
    The implications of shared access to proliferation-sensitive 
technologies are an under-studied policy problem. The fungible 
character of proliferation-sensitive technologies makes it possible for 
nations with no strategic interests to collaborate to maximize their 
collective access to advanced capabilities. The fact that several 
nations in diverse areas of the world share a nearly common technology 
base for ballistic missiles has magnified the scale of the 
proliferation problem and the speed with which it has emerged, and has 
assured its durability as a security problem for the United States.

Limitations posed by the ARM Treaty to addressing U.S. Government 
        nonproliferation objectives
    The multilateral diplomatic instruments and national export control 
policies of the Cold War that sought to contain the proliferation of 
ballistic missiles and underlying enabling technologies are no longer 
efficacious in the post-Cold War environment. The U.S. Government 
requires new and more effective instruments to deal with the 
circumstances likely to characterize the first quarter or more of the 
21st century.
    The U.S. Government can not rely solely on the mechanism of 
reciprocal retaliation to sustain deterrence. The emergence of 
asymmetric interests in the post-Cold War period between the United 
States and regional powers make the manipulation of threats of the use 
of WMD and long-range missiles appealing to some nations. To diminish 
the potential that WMD and ballistic missiles will become more 
important factors in international affairs in the 21st century, we need 
to move beyond deterrence.
    The U.S. needs instruments that will conthbute to an ability of the 
President to dissuade a potential adversary from investing in long-
range missiles. Such investments must be devalued. Several instruments 
can be developed or reinforced that will jointly contribute to the 
efficacy of non-proliferation policy in the future. These instruments 
include highly effective intelligence, sharply focused diplomacy, 
alliance actions, the development of credible kinetic and virtual 
capabilities to hold adversary ballistic missiles at risk, and in 
extremis, the ability to intercept such missiles in flight. It is the 
latter point that is primarily at issue here.
    The proliferation of ballistic missile technology has reached a 
point where it is no longer feasible or appropriate to optimize the 
design a ballistic missile defense system against a specific threat. 
The spread of the ballistic missile manufacturing infrastructure to 
several nations with a high propensity to proliferate long-range makes 
an optimization effort futile. Instead, a general system of ballistic 
missile defense needs to be developed that will be able to intercept 
ballistic missiles in all stages of flight.\3\ Not only will such a 
system increase the effectiveness of the system (by multiple layers of 
defense), but will also provide an appropriate hedge against a range of 
different deployment schemes or countermeasures. Alternative deployment 
measures or countermeasures might be devised to exploit the limitations 
of a design that was optimized against a specific threat.
---------------------------------------------------------------------------
    \3\ These stages include the boost, ascent, mid-course, and 
terminal phases of ballistic missile flight.
---------------------------------------------------------------------------
    Most significantly for U.S. non-proliferation objectives, by 
devaluing the investment by adversary states, it will force such states 
into alternative means of posing a challenge to U.S. interests. These 
means are likely to focus on asymmetric means such as land-attack 
cruise missiles, information operations, and terrorism. In some cases, 
such as land-attack cruise missiles, a considerable effort will be 
required to defeat such alternative means. In other cases such as 
terrorism we already have a formidable program in place.\4\
---------------------------------------------------------------------------
    \4\ In Fiscal Year 2001 for example, the U.S. Government expended 
more than three times as much combating international terrorism as it 
spent on the U.S. National Missile Defense program.
---------------------------------------------------------------------------
    The ABM Treaty poses direct and near-term limitations on a research 
and development effort to test and deploy effective ballistic missile 
defenses able to intercept hostile missiles at all stages of missile 
flight. Moreover, the ability to extend effective missile defense 
support to allies and friends abroad as well as U.S. forward-deployed 
forces is limited by the Treaty. The limitations are so extensive that 
the amendment of the Treaty has no practical value. Specifically, the 
Treaty impinges on the ability of the U.S. to use ballistic missile 
defense as part of an effective non-proliferation instrument in four 
ways:

          1. Article I of the Treaty specifically seeks to prevent the 
        deployment of defenses that would protect all U.S. citizens 
        from ballistic missile attack. The concept underlying Article I 
        when the Treaty was negotiated (and subsequently amended) was 
        to protect U.S. land-based strategic missiles sites.

          2. Article V condemns a U.S. missile defense effort to 
        ineffectiveness against 21st century threats, and makes any 
        system developed that is compliant with Article V not cost 
        effective. Article V prohibits the development, testing, and 
        deployment of systems that are sea-based, air-based, spaced-
        based, or mobile land-based. Such a set of prohibitions would 
        prevent the development of any of the most promising 
        technologies.

          3. Article VI prevents us from giving ABM capabilities to 
        non-ABM systems or components of those systems (e.g. radars). 
        It is desirable that systems deployed for protecting U.S. 
        forward-based forces such as sea-based missile defense systems 
        have a capability to intercept ``strategic'' missiles (e.g. 
        those capable of being delivered to a range in excess of 5,500 
        km.) if such a capability is cost-effective. Article VI 
        prevents us from developing such a capability.

          4. Article IX prevents us from sharing long-range ballistic 
        missile defense technology with allied or friendly nations even 
        when it is in our interest to do so.

    The constraints of the ABM Treaty materially encumber the United 
States from being able to employ ballistic missile defense as an 
instrument in implementing national policy to promote the non-
proliferation of WMD and long-range missiles. While these constraints 
had little impact on the proliferation issue during the Cold War, the 
circumstances in the 21st century are considerably different.
    The consequences of not being able to dissuade current or future 
adversaries from investing in long-range missiles can materially 
diminish what are otherwise very bright prospects for extending the 
peace that has emerged from the 20th century well into the 21st.
                                 ______
                                 

Responses of Hon. John R. Bolton to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

    Question. Whom has the President designated to conduct 
consultations with Russia on modification of the ABM Treaty? What will 
the Department of State's role be in conducting or backstopping the 
consultations?

    Answer. President Bush has directed Secretary Powell and Secretary 
Rumsfeld to conduct discussions at the ministerial level with their 
counterparts. These discussions will begin this month and next. State 
and Defense Department Under Secretaries will conduct preparatory 
discussions as well.

    Question. By what means will this Committee be kept informed 
regarding the consultations?

    Answer. The Congress is our partner in moving to a new strategic 
framework. The Department of State will be providing periodic updates 
through briefings and consultations to Committee members as our 
discussions progress.

    Question. How long do you think it should take to negotiate a new 
understanding with the Russians on the ABM Treaty, or an amendment to 
the Treaty? Is it realistic to expect to achieve this in ``months, not 
years?''

    Answer. The Administration is optimistic that we can reach 
agreement on a new strategic framework with Russia before we reach the 
point where our missile defense program would conflict with the Treaty. 
We will pursue intensive consultations with Russia but cannot do so 
indefinitely.

    Question. Dean Robert Gallucci of Georgetown University, who 
negotiated the Agreed Framework with North Korea, testified before this 
committee last May on the issue of verification of a long-range 
ballistic missile agreement and said, ``For testing, you do not need 
very much [verification], for export we need a little more, arguably 
for deployment we need a little more, and for production we need the 
most.'' Dean Gallucci continued, ``Whatever verification we were able 
to negotiate, then we should compare what that gives us . . . to not 
having the agreement at all, and not compare it to some abstract notion 
of perfect verification.'' What verification standard would you apply 
to an agreement limiting North Korea's testing, deployment, export, and 
production of ballistic missiles? What conclusions has the Assistant 
Secretary of State for Verification and Compliance reached regarding 
verification concerns and the possibility of satisfying those concerns?

    Answer. The President has said that verification is an essential 
element of any missile agreement with North Korea. Accordingly, we have 
set high, realistic standards for verification of any missile 
agreement. Even though we believe that negotiating an agreement 
containing such standards will be difficult, we believe it is important 
to pursue it.
    The Assistant Secretary of State for Verification and Compliance 
has evaluated the difficulties involved in verifying a missile 
agreement with North Korea. He has concluded that a high verification 
standard can be maintained through inclusion of rigorous verification 
measures as an integral part of a comprehensive missile agreement which 
limits both exports and production activities. Such verification 
measures will provide assurance that the restraints and prohibitions 
contained in the agreement are being observed.

    Question. Has the Administration made a decision about attending a 
meeting of the Standing Consultative Commission in 2001? When is a 
decision expected?

    Answer. Pursuant to the Memorandum of Understanding Regarding the 
Establishment of a Standing Consultative Commission, of December 21, 
1972, no less than two sessions of the Commission must be held each 
year. This Administration will fulfill all of its ABM Treaty 
obligations. We are not yet in a position to make a decision on timing, 
but these sessions will have to occur before the end of calendar year 
2001.

                                 ______
                                 

   Response of Hon. John R. Bolton to an Additional Question for the 
                 Record Submitted by Senator Mike Enzi

    Question. The non-allied countries most vocal about U.S. plans for 
a national missile defense are Russia and China. These two countries, 
however, are modernizing their strategic forces and supply weapons of 
mass destruction technologies to rogue nations.
    Can you explain these two countries' behavior?

    Answer. The United States has the best technology in the world and 
the wealth to exploit it for military advantage. Russia and China are 
clearly interested in keeping the technological gap between their 
forces and ours as narrow as possible.
    The Administration at present is engaged in high-level talks with 
Russia that we hope will allay its concerns. The foundation of our 
discussions with Russia is development of a new strategic framework, 
which includes substantial reductions in offensive nuclear forces, 
cooperation on missile defense, enhanced non-proliferation and 
counterproliferation efforts, and measures to promote confidence and 
transparency.
    Like the United States, Russia contributes to efforts to control 
the proliferation of WMD and missile-related technologies by 
participating in the Missile Technology Control Regime and other 
bilateral and multilateral agreements, treaties, and conventions. We 
believe implementation of these non-proliferation regimes by Russia is 
crucial. We continue to monitor Russian actions closely, especially 
with regard to cooperation with Iran and other rogue states.
    China was in the process of modernizing its aging strategic forces 
before President Bush's missile defense initiative. We have established 
a dialogue with the PRC on out strategic framework, emphasizing in 
particular that our missile defense program is not aimed at negating 
their small strategic nuclear force. We intend to continue our 
discussions with China on our strategic framework to promote our broad 
non-proliferation, arms control, and confidence and transparency 
objectives.
    In November 2000, China agreed not to assist any country in any way 
in the development of nuclear-capable ballistic missiles and to put in 
place comprehensive missile-related export controls. We expect China to 
live up to these commitments, are closely monitoring PRC implementation 
of these commitments and will take appropriate action, to include 
implementation of our sanctions laws, should we see backsliding.


</pre></body></html>
